U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                         The Department of Justice’s
                           Terrorism Task Forces


                                      June 2005




                               Report Number I-2005-007
                              EXECUTIVE DIGEST


       The September 11, 2001, terrorist attacks prompted the Department of
Justice (Department) to redefine its mission, objectives, and priorities to focus
its top priority on counterterrorism. As a result, the Attorney General
elevated counterterrorism to the Department’s first strategic goal and shifted
the Department’s resources to eliminating terrorist networks, preventing
terrorist operations, and prosecuting perpetrators of terrorist acts. The
Department also directed the formation or expansion of terrorism task forces
and councils (with members from many federal, state, and local agencies and
private industry) that coordinate and integrate intelligence and law
enforcement functions to achieve the Department’s counterterrorism goal.

       In this review, the Office of the Inspector General (OIG) assessed the
role and operations of these terrorism task forces and councils. We examined
whether the task forces and councils were achieving their purposes; whether
gaps, duplication, and overlap existed in counterterrorism coverage; and how
the performance of the task forces and councils is measured. We collected
information through interviews of senior Department officials, task force and
council managers and members, and state and local law enforcement
officials; a survey of task force managers and members; document reviews;
and direct observation of task force and council activities.

       Specifically, we reviewed the following task forces and councils:

      Deputy Attorney General’s National Security Coordination Council
(NSCC): The NSCC, composed of senior Department officials with
responsibility for national security matters, defines, coordinates, and
enhances the Department’s counterterrorism strategy and resolves national
security issues.

       U.S. Attorneys’ Anti-Terrorism Advisory Councils (ATACs): The purpose
of ATACs is to 1) facilitate the exchange of information at the federal, state,
and local levels and between the public and private sectors; 2) conduct
counterterrorism training; and 3) coordinate terrorism prosecutorial and
investigative strategies within the Department. The Attorney General directed
that each of the 93 U.S. Attorneys operate an ATAC. The Counterterrorism
Section (CTS) of the Department’s Criminal Division provides assistance to
ATAC Coordinators in the development, coordination, and prosecution of
terrorism cases. The Executive Office for U.S. Attorneys (EOUSA) provides
administrative support to the ATACs.




U.S. Department of Justice                                                 i
Office of the Inspector General
Evaluation and Inspections Division
       Federal Bureau of Investigation’s (FBI’s) Joint Terrorism Task Forces
(JTTFs): The JTTFs are operational units that conduct field investigations of
actual or potential terrorism threats. Unlike the other entities reviewed in
this report, the JTTFs existed before September 11, 2001. The FBI has
established 103 JTTFs nationwide.

       FBI’s National Joint Terrorism Task Force (NJTTF): The NJTTF
provides administrative, logistical, and training support to the JTTFs. The
NJTTF also coordinates special information and intelligence gathering
initiatives assigned by FBI headquarters and synthesizes terrorism
intelligence for use by the JTTFs, member agencies, and other agencies in the
intelligence community.

       FBI’s Foreign Terrorist Tracking Task Force (FTTTF): The FTTTF
provides data to the JTTFs, NJTTF, and other government agencies that
1) prevents terrorists and their supporters from entering the United States,
2) locates those who are already present, and 3) facilitates the terrorism
investigative process.

RESULTS IN BRIEF

PROGRESS MADE

The Task Forces and Councils Contribute to the Department’s
Counterterrorism Efforts.

       We found that the Department’s terrorism task forces and advisory
councils generally function as intended, without significant duplication of
effort, and they contribute to the Department’s goal to prevent terrorism and
promote national security. The task forces and advisory councils provide
distinct yet complementary forums for sharing terrorism-related information
and intelligence and investigating terrorist threats. The task forces and
councils also have strengthened the Department’s infrastructure devoted to
counterterrorism and have developed a national network of representatives
from federal, state, and local agencies, and private industry to work on
terrorism prevention efforts.

       In addition, the task forces have taken steps to ensure that a broader
group of law enforcement officials have the security clearances needed to
receive and share information about terrorism issues and that information is
disseminated through meetings or electronic forums. The various federal,
state, and local agency members are important “force multipliers” in the
Department’s counterterrorism efforts. They have facilitated the development



U.S. Department of Justice                                               ii
Office of the Inspector General
Evaluation and Inspections Division
of human assets to collect terrorism-related intelligence, and have assisted in
investigations of leads against terrorist groups.

      Although the task forces and councils have aided the Department’s
counterterrorism efforts, we believe that improvements to the operations of
the task forces and councils can be made.

IMPROVEMENTS NEEDED FOR FURTHER PROGRESS

The NSCC’S Role is Unclear for Long-Term Counterterrorism Planning,
Centralizing and Coordinating Counterterrorism Policy and Operations,
and Monitoring Policy Implementation by the Components.

      Current and former Deputy Attorneys General and NSCC members told
us that the NSCC serves as a forum for Department agency heads to share
counterterrorism information and advance the Department’s position on
national security issues. However, the NSCC does not fully perform its long-
term planning, policy, and monitoring functions, as established in Attorney
General guidance. The NSCC members provided us with two examples of
past or present policy coordination, but could not provide any examples of the
NSCC’s role in centralizing counterterrorism policy and operations,
conducting long-term counterterrorism planning, or monitoring the
implementation of counterterrorism policy in the Department.

The FBI, CTS, and EOUSA Have No National Training Plans for the Task
Forces and Councils, Notification of Available Training Is Ad Hoc, and
Non-FBI Task Force Members Believe That FBI Members Get Preferential
Treatment for Training.

       The majority of task force and council members we interviewed or
surveyed had no prior experience with counterterrorism before joining the
task force or advisory council. Identifying terrorists and terrorist threats,
conducting a terrorism investigation, developing sources, or planning for
terrorist incidents were all new subjects for most of them. More than half
(51 percent) of the survey respondents reported that they required training in
counterterrorism to better perform their task force and council
responsibilities.

      Although many training courses are available to task force and advisory
council members, FBI, CTS, and EOUSA officials stated that they had not
developed national training plans for members. Without national training
plans, counterterrorism training for task force and council members has been
determined locally and has varied widely. There are no training standards for
task force members that define minimum mandatory training. The lack of


U.S. Department of Justice                                               iii
Office of the Inspector General
Evaluation and Inspections Division
standards may affect the members’ receipt of training. Although the FBI has
trained many task force members in counterterrorism, our survey results
showed that 29 percent of all JTTF, NJTTF, and FTTTF members had not
received any counterterrorism training since becoming members. Many of the
non-FBI task force members we interviewed and surveyed stated that they
received no notification of training and were unaware of what training was
available. To make training information and courses more available to task
force members, the FBI has now included training on its intranet website,
which is accessible to all members. However, some non-FBI task force
members believed that FBI agents were offered more opportunities for
counterterrorism training or believed that training was available only to FBI
members.

      The ATAC Coordinators we interviewed stated that they want guidance
on the type of training that should be offered to ATAC members and on how
to identify trainers. ATAC Coordinators stated that the provision of training,
particularly training on terrorism prevention and planning, to law
enforcement personnel and community members is a new responsibility for
them. Therefore, the ATAC Coordinators need guidance and assistance from
national leaders.

The FBI Has No Structured, Systemwide Orientation Program for New
Task Force Members and Has Not Defined the Roles and Responsibilities
of its Task Force Members in Writing.

       Approximately 40 percent of both FBI and non-FBI JTTF, NJTTF, and
FTTTF survey respondents did not receive an orientation to the task force.
When an orientation was provided, the type of orientation varied widely and
the content was inconsistent. Given the rapid pace with which the NJTTF,
FTTTF, and many of the JTTFs started up after September 11, 2001, the lack
of a formal orientation was understandable. However, three years later, a
formal standardized orientation still does not exist for new JTTF and NJTTF
task force members. In September 2004, the FTTTF developed an orientation
for its members.

       We also found that the FBI does not have signed Memorandums of
Understanding (MOUs) that define the roles, responsibilities, information
sharing protocols, and length of commitment with all of the agencies
participating on the JTTFs, FTTTF, and NJTTF. The FBI did not have MOUs
with all of the agencies assigned to the pre-September 11 JTTFs, and those
MOUs that existed were not updated to reflect the post-September 11 JTTF
mission. Since November 2003, the FTTTF has had draft MOUs pending with
the Department of Homeland Security (DHS) and intelligence community
participants.


U.S. Department of Justice                                               iv
Office of the Inspector General
Evaluation and Inspections Division
The JTTFs and ATACs Have Not Coordinated Their Efforts to Fully
Interact and Share Information With Law Enforcement Agencies and
First Responders in Remote Areas.

       Although the FBI and ATACs have ongoing efforts to interact and share
information with law enforcement agencies and first responders in remote
areas, some ATACs and JTTFs have not used all their resources to reach
remote agencies that do not have representatives on the task forces and
councils. The state and local law enforcement agencies with members on a
JTTF or ATAC were satisfied with the amount and type of terrorism
information shared. In contrast, those law enforcement agencies that were
outside of the metropolitan areas and that did not have task force or council
members were not as satisfied. Most remote law enforcement agencies often
do not have the resources or the distance is too far to commit representatives
to a JTTF and ATAC, but they still need information on terrorism from the
federal government as well as terrorism-related training. The JTTFs and
ATACs do not have coordinated strategies with each other to address the gaps
in information sharing and training. Because terrorism and the terrorism
threat may be found throughout the country, remote areas cannot be
overlooked.

The FBI Has Not Fully Developed Outcome-Oriented Performance
Measures for All Task Forces or for the Individual Members. CTS and
EOUSA Have No Performance Measures for the ATAC Program.

       The FBI has not developed performance measures for the NJTTF and
FTTTF. Although the FBI has measures for the JTTFs as part of the field
offices, many of the measures are output oriented rather than outcome
oriented for the counterterrorism program. CTS and EOUSA have not
developed performance measures for the ATAC program. Consequently, the
FBI, CTS, and EOUSA do not have sufficient criteria to help assess their
strategies, operations, and resources for the task forces and councils.

       We found no established or implemented performance measures for
individual task force members, and only one ATAC Coordinator we
interviewed had been directly given a set of performance measures. EOUSA
distributed suggested performance measures for ATAC Coordinators to the
USAOs; however, ATAC Coordinators we interviewed and surveyed told us
that they did not have performance measures. Without performance
measures, individuals do not have guidance for prioritizing and directing their
work and measuring their own progress in meeting the mission of the task
force or council. Our survey results showed that 75 percent of FTTTF, JTTF,



U.S. Department of Justice                                               v
Office of the Inspector General
Evaluation and Inspections Division
and NJTTF respondents did not receive performance measures; and 78
percent of the ATAC Coordinators did not receive performance measures.

Oversight and Management of the ATAC Program Has Been Fragmented
and Coordinators Do Not Have Adequate Guidance on Their Roles or on
Structuring and Managing ATACs.

       The roles of EOUSA and CTS in the ATAC program are not fully
understood by the ATAC Coordinators, who are uncertain which component
is in charge of the ATAC program. CTS, EOUSA, and the USAOs have
responsibilities for parts of the ATAC program, but no one organization within
the Department has responsibility for fully managing the program.
Consequently, we found that neither CTS nor EOUSA adequately monitors
and assesses the ATACs’ operations. Further, to determine additional
funding requirements and needs, EOUSA did not strategically analyze and
assess how each ATAC had spent its $100,000 allocation to purchase
communications equipment and provide training for state and local law
enforcement agencies, including first responders.

       In addition, CTS and EOUSA have not developed enough written
guidance that clearly delineates the roles and responsibilities of the ATAC
Coordinators. According to ATAC Coordinators that we interviewed, they do
not receive sufficient guidance from the Department, CTS, or EOUSA on
ATAC operations and structure. ATAC Coordinators told us they do not have
a guide to use in identifying members and training opportunities, sponsoring
terrorism exercises, preventing terrorism, or developing mechanisms to aid in
the dissemination of information. As a result, operations of ATACs and their
compliance with Department directives varied across judicial districts.

The FBI Has Not Provided the FTTTF Stable Leadership or Adequate
Resources and Has Assigned the FTTTF Responsibilities Outside Its
Mission; As a Result, the FTTTF’s Database and Risk Assessment Work is
Behind Schedule.

       The FTTTF’s leadership, organizational structure, and physical
location changed repeatedly as the Department and the FBI were
determining the FTTTF’s most appropriate organizational alignment.
Some FTTTF members we interviewed stated that with each change in
director and management oversight, the priorities changed, the
supervision became more fragmented, and the mission more unclear.
The FTTTF also is not staffed fully with adequate personnel from the
FBI and other agencies. Further, the FTTTF was assigned additional
responsibilities not directly related to its mission, such as setting up
the Terrorist Screening Center, a separate organization from the FTTTF,


U.S. Department of Justice                                                 vi
Office of the Inspector General
Evaluation and Inspections Division
and screening foreign nationals seeking pilot certification (this
responsibility was successfully transferred to the Department of
Homeland Security in October 2004).

       As a result of instability in leadership and organizational structure,
numerous relocations, inadequate staffing, and additional responsibilities,
the FTTTF’s acquisition of government databases and development of risk
assessment software is behind schedule and impairs the effectiveness and
efficiency of analyses the task force is required to perform. To fulfill its
mission, the FTTTF requires electronic access to large sets of data, including
databases from many federal agencies, open source and private industry
data, and access to the most sensitive materials from law enforcement and
intelligence sources. The FTTTF’s initial goal was to obtain state-of-the-art
information technology with sophisticated analytical tools to mine these
databases for suspicious patterns and conduct risk assessments to identify
high-risk individuals. However, the FTTTF still has not acquired the number
and type of databases it needs and is almost a year behind in completing its
risk assessment prototype.

Although the FBI Has Reallocated Considerable Resources to
Counterterrorism, the JTTFs Have Certain Staffing Shortages and
Turnover in Leadership, and Some JTTFs Experience Problems With
Space and Information Technology Connectivity.

       We found that the JTTFs had inadequate administrative and analytical
support, had high turnover in task force leadership, and exceeded their
authorized staffing levels. Since September 11, 2001, the FBI has expanded
the number of JTTFs across the country (for a total of 103), and the FBI
Director mandated that every terrorism lead must be addressed. The FBI
reallocated special agent and support staff to the counterterrorism program;
however, addressing every lead results in a demanding workload that is
surpassing these resources available to the task forces. At all sites we visited,
we found that the JTTFs were exceeding their authorized staffing levels for
FBI agents by 75 to 125 percent by borrowing personnel from other FBI
programs (such as drugs or white-collar crime) within the field or resident
agency office. However, the number of support staff has not increased
proportionately to the workload expansion.

       The FBI rotates managers in the field to provide opportunities for
gaining varied experience. However, this frequent rotation affected the
structure and stability of the JTTFs, terrorism investigations, and an
important pilot information sharing project. Many JTTF members we
interviewed stated that the lack of continuity in leadership created



U.S. Department of Justice                                                  vii
Office of the Inspector General
Evaluation and Inspections Division
inconsistencies in the JTTFs’ management, work prioritization, and
operations.

       We found that some JTTF members were working in cramped
conditions that hampered communication, slowed work processes, and
limited the JTTFs’ ability to add additional members. Twenty-eight percent of
the JTTF survey respondents rated the quality of their space as “poor” or
“very poor.” The lack of adequate work space has caused some JTTFs to limit
the number of their member agencies. The FBI stated that it has fulfilled the
basic requested requirements of JTTFs and field offices and acquired
additional office space in offsite locations. However, the acquisition of some
offsite locations has been delayed.

       We also found that the JTTFs do not have adequate connectivity to
information technology systems to support the members’ needs. NJTTF and
JTTF members described the FBI’s computer systems and connectivity as
“outdated” and “unreliable.” Further, most offices are ill-equipped to allow
members access to the Internet and non-FBI JTTF members direct access
their parent agencies’ databases and systems, which limits the amount of
data searches that the JTTF members can complete onsite to assist
investigations. Instead, non-FBI task force members must return to their
parent agencies to perform data queries, which is time consuming and
inefficient.

Despite the Critical Link Between Drug Trafficking and Terrorism, the
Drug Enforcement Administration (DEA) Has Minimal Membership on
the Task Forces.

       Although Congress, the DEA, and the Department’s leadership
recognize the link between drug trafficking and terrorism (often called narco-
terrorism), in comparison with other Department law enforcement
components, the DEA has the lowest level of membership on the JTTFs. As of
January 2005, the DEA has assigned only one full-time member to the JTTFs.
Further, the DEA did not assign a permanent representative to the NJTTF
until April 2004, approximately two years after the NJTTF’s inception.
According to the NJTTF and JTTF members we interviewed, the DEA has
been “noticeably absent” from the Department’s terrorism task force efforts.
The DEA has a network of national and international sources, but the JTTF
members’ access to and use of these sources is limited because the DEA is
not an active JTTF member. The DEA has identified points of contact,
instead of full-time members, in its field offices to serve as liaisons to the
JTTFs. Additionally, the DEA field offices and the headquarters Special
Coordination Unit share counterterrorism information directly with the



U.S. Department of Justice                                             viii
Office of the Inspector General
Evaluation and Inspections Division
JTTFs. However, the points of contacts are unclear about their role in
relation to the JTTF.

DHS’s Bureau of Immigration and Customs Enforcement (ICE) Has Not
Provided its JTTF Members Needed Direction, Has Not Cross-Trained
Supervisors in Their New Areas of Responsibility, and Has Not Provided
Enough Staff to Perform Task Force Work.

        Many JTTF task force members from ICE told us that they received
little direction from ICE or that the direction they did receive was
contradictory. They also stated that the supervisors in the ICE field offices
did not have functional knowledge to provide guidance to task force members.
JTTF members stated that former immigration agents on the JTTFs were
supervised by former customs staff that has not been cross-trained in
immigration matters. The majority of JTTF members described the FBI
supervision on the task force as positive, but they said that task force
members also need guidance and supervision from their parent agencies on
specific agency-related matters.

       Most JTTF and FTTTF members and supervisors also stated that
additional ICE agents, particularly former immigration agents, are needed on
both task forces since most international terrorism cases have some link to
immigration. Even the ICE agents who were formerly customs agents
emphasized the need for additional agents with immigration experience on
the JTTFs and FTTTF. The NJTTF Director, at the request of the DHS ICE,
conducted a staffing needs assessment by asking the JTTF field supervisors
to determine how many ICE agents were needed on each of their task forces.
The results of this assessment showed that in November 2003 there were 159
full-time and 22 part-time ICE agents on 86 JTTFs. The JTTFs had requested
an additional 138 full-time ICE agents. As of October 26, 2004, ICE had 269
full-time members and 42 part-time members on JTTFs. However, it is not
clear if this increase is a result of the NJTTF needs assessment submitted to
DHS in November 2003, or as a result of the increase in the overall number of
JTTFs. A former senior ICE representative on the FTTTF stated he personally
contacted a high-ranking manager at DHS and asked for additional personnel
for the FTTTF, but he did not receive a response.




U.S. Department of Justice                                               ix
Office of the Inspector General
Evaluation and Inspections Division
OIG CONCLUSIONS AND RECOMMENDATIONS

       We concluded that the task forces and councils have enhanced
information sharing, partnerships, and investigative capabilities for the
Department’s counterterrorism efforts. The task forces and councils have
separate functions that generally are not duplicative, and they have
strengthened the Department’s counterterrorism infrastructure and
relationships with other federal, state, local, and private agencies. Although
we recognize that the task forces and councils were established or expanded
quickly after the terrorist attacks of September 11, 2001, the Department has
not ensured their organizational development or that all their functions have
been accomplished. We believe some improvements to their operations could
be made. For example, we concluded that the Department 1) does not use
the NSCC for centralizing counterterrorism planning, policy, and operations,
and monitoring policy implementation across the Department; 2) has not
ensured that the JTTFs and ATACs have a coordinated strategy for sharing
information with law enforcement agencies and first responders in remote
areas; 3) has not clearly defined what organization has oversight authority for
the ATAC program; 4) has not ensured the FTTTF’s timely acquisition of
databases and development of its risk assessment tool for terrorist tracking;
and 5) has not ensured sufficient task force membership from certain internal
and external organizations to facilitate counterterrorism efforts.

       From an organizational development perspective, we concluded that the
Department 1) has not ensured sufficient minimum training in
counterterrorism, which is a new subject to many task force and council
members; 2) has not ensured stability and continuity in task force leadership;
3) has not addressed continuing problems with computer connectivity that
interfere with task force work; and 4) has not fully developed adequate
performance measures to determine the outcomes of the task forces and
councils and the contributions of individual members.

     Our report contains 28 recommendations to help the Department
improve the operations of the counterterrorism task forces and councils:

       •    The Department should determine whether the NSCC is the most
            appropriate forum for performing long-term counterterrorism
            planning, centralizing and coordinating counterterrorism policy
            and operations, and monitoring policy implementation.

       •    The FBI should develop a national training plan for each task force,
            and CTS and EOUSA should develop a national training plan for
            ATACs.



U.S. Department of Justice                                                 x
Office of the Inspector General
Evaluation and Inspections Division
       •    The FBI should develop a formal standardized orientation program
            for all new JTTF and NJTTF members and provide it within 30 days
            of the new member’s start date.

       •    The FBI should finalize MOUs with all agencies participating on the
            Department’s terrorism task forces.

       •    The FBI, CTS, EOUSA, and USAOs should work jointly to develop a
            coordinated strategy to consistently reach out to remote areas. The
            USAOs also should work with state homeland security task forces
            to coordinate activities related to information sharing and training.

       •    The FBI, CTS, and EOUSA should develop overall performance
            measures for their respective task forces and members and
            councils.

       •    The Department should clarify what organization has oversight for
            the ATAC program, and CTS and EOUSA should provide guidance
            to their staff and the ATAC Coordinators on their roles and on
            structuring and managing ATACs.

       •     The FBI should ensure long-term, stable leadership, organizational
            structure, and housing for the FTTTF, determine the appropriate
            level of resources for the FTTTF to accomplish its mission, and
            address obstacles encountered by the FTTTF in acquiring
            databases from other agencies.

       •    The FBI should determine staffing requirements and allocations,
            ensure stability in JTTF leadership, and plan for activating new,
            and upgrading existing, JTTFs with adequate space and
            equipment.

       •    The DEA should increase its membership on the JTTFs and work
            with the FBI to assess the optimum locations for new DEA
            members, and issue written guidance that defines the roles and
            responsibilities of the DEA’s JTTF members and points of contact.

       •    The Deputy Attorney General should work jointly with DHS officials
            to ensure sufficient DHS membership on the Department’s task
            forces.




U.S. Department of Justice                                                xi
Office of the Inspector General
Evaluation and Inspections Division
                                   TABLE OF CONTENTS



INTRODUCTION............................................................................. 1

       Purpose ........................................................................................ 1

       Scope and Methodology ................................................................ 1

       Report Organization and Content.................................................. 5


BACKGROUND .............................................................................. 6

       UNDERSTANDING THE TASK FORCES AND COUNCILS............... 7

               National Security Coordination Council ............................... 7

               Anti-Terrorism Advisory Councils ...................................... 11

               Joint Terrorism Task Forces .............................................. 15

               National Joint Terrorism Task Force.................................. 21

               Foreign Terrorist Tracking Task Force ............................... 25


RESULTS OF THE REVIEW ................................................................ 29

       PROGRESS MADE

               Task Forces and Councils Have Distinct Functions That
               are Generally Not Duplicative ............................................ 29

               Task Forces and Councils Have Improved the Sharing
               of Information ................................................................... 32

               Task Forces and Councils Have Improved and Expanded
               Partnerships in the Field and Headquarters....................... 50




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
              The JTTFs are Implementing the FBI’s New
              Counterterrorism Investigative Strategy and the FBI
              has Improved Access to Automated and Investigative
              Information ....................................................................... 56

       NEEDED IMPROVEMENTS

       Department-Level Issues:

              The NSCC’s Role is Unclear for Long-term
              Counterterrorism Planning, and Centralizing and
              Coordinating in the Department ........................................ 59

                      Recommendation ..................................................... 63

              No National Training Plans Exist for the Task Forces
              and Councils ..................................................................... 65

              Lack of Minimum Training Standards May Affect Task
              Force Members Receipt of Training .................................... 68

              Training Needs Assessments Were Either Outdated
              or Never Completed ........................................................... 70

              Some Members Receive No Notification of Training ............ 72

              Non-FBI Task Force Members Perceive Inequities
              in Training Offered to FBI Members Versus
              Non-FBI Members ............................................................. 73

                      Recommendations.................................................... 75

              The FBI Has Not Developed a Structured, Systemwide
              Orientation Program for New Task Force Members............. 76

              The FBI Has Not Provided Written Guidance That
              Defines the Roles and Responsibilities of Task Force
              Members ........................................................................... 81

                      Recommendations.................................................... 82




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
              The JTTFs and ATACs Have Not Coordinated Their
              Efforts to Fully Reach Out to and Share Information
              with Remote Areas ............................................................ 84

                      Recommendation ..................................................... 93

              The FBI, CTS, and EOUSA Have Not Fully Developed
              Performance Measures for the Task Forces and
              Councils or Individual Task Force Members ...................... 94

                      Recommendations.................................................. 101

       ATAC-Specific Issues

              The Roles of CTS, EOUSA, and USAOs in the ATAC
              Program are Unclear, No One Entity has Full
              Responsibility for Program Management, and
              Oversight is Fragmented.................................................. 104

              EOUSA Does Not Strategically Analyze the ATACs’
              Budget to Evaluate the Need for Additional Funding ........ 106

              The Department, CTS, and EOUSA Have Not
              Provided Enough Guidance to ATAC Coordinators
              and Compliance With the Attorney General’s Mandate
              to Maintain an ATAC Varies Across Judicial Districts ...... 108

                      Recommendations.................................................. 114

       FTTTF-Specific Issues

              The FBI Has Not Provided Stable Leadership,
              Organizational Structure, or Adequate Resources to the
              FTTTF. The FBI Has Assigned Responsibilities to the
              FTTTF Outside of Its Defined Mission .............................. 115

              The FTTTF Is Behind Schedule in Its Acquisition of
              Databases and Development and Implementation of its
              Risk Assessment Tool ...................................................... 124

              The FTTTF Has Not Adequately Marketed Its Services
              and Many JTTF and NJTTF Members Did Not Use Its
              Services to Aid Their Investigations ................................ 127



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                        Recommendations.................................................. 128

        JTTF-Specific Issues

                The JTTFs Experience Certain Staffing Shortages and
                Turnover In Leadership ................................................... 130

                Some JTTFs Have Experienced Problems with Space and
                Information Technology Connectivity ............................... 138

                        Recommendations.................................................. 142

        External Factors

                DEA Has Minimal Membership on the JTTFs................... 144

                        Recommendations.................................................. 147

                ICE Has Not Provided Task Force Members Needed
                Direction, Has Not Cross-trained Supervisors or Agents
                in Their New Areas of Responsibility, and Has Not
                Provided a Sufficient Number of Members To
                Perform Task Force Work ................................................ 148

                ICE Assigns Non-JTTF Tasks to its Members on
                The JTTF......................................................................... 155

                        Recommendation ................................................... 158

                Functions Performed by the States’ Homeland Security
                Task Forces Are Viewed as Duplicative to Those
                of the ATACs ................................................................... 159

                        Recommendation ................................................... 160

CONCLUSION .................................................................................... 161

APPENDIX       I:         Summary of Issues and Recommendations .......... 163
APPENDIX       II:        Terrorism Task Forces and Councils .................... 170
APPENDIX       III:       Electronic Systems Used by the Task Forces........ 174
APPENDIX       IV:        Survey Instrument and Results ........................... 176
APPENDIX       V:         NSCC Memorandum ............................................ 237
APPENDIX       VI:        ATAC Memorandums........................................... 239
APPENDIX       VII:       FTTTF Memorandums ......................................... 249


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX     VIII:     ODAG Response .................................................. 255
APPENDIX     IX:       OIG Analysis of the ODAG’s Response ................. 257
APPENDIX     X:        CRM Response .................................................... 259
APPENDIX     XI:       OIG Analysis of the CRM’s Response.................... 267
APPENDIX     XII:      EOUSA Response ................................................ 272
APPENDIX     XIII:     OIG Analysis of EOUSA’s Response ..................... 283
APPENDIX     XIV:      FBI Response ...................................................... 294
APPENDIX     XV:       OIG Analysis of the FBI’s Response...................... 305
APPENDIX     XVI:      DEA Response ..................................................... 315
APPENDIX     XVII:     OIG Analysis of the DEA’s Response .................... 318
APPENDIX     XVIII:    DHS Response..................................................... 321
APPENDIX     XIX:      OIG Analysis of the DHS’s Response .................... 328




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                              LIST OF ACRONYMS



       ACS           Automated Case Support System
       ADIC          Assistant Director in Charge
       ASAC          Assistant Special Agent in Charge
       ATAC          Anti-Terrorism Advisory Council
       ATF           Bureau of Alcohol, Tobacco, Firearms, and Explosives
       ATTF          Anti-Terrorism Task Force
       AUSA          Assistant United States Attorney
       BOP           Federal Bureau of Prisons
       CBP           Customs and Border Protection,
                     U.S. Department of Homeland Security
       CIA           Central Intelligence Agency
       CIFA          Counterintelligence Field Activity,
                     Department of Defense
       CRM           Criminal Division, U.S. Department of Justice
       CTS           Counterterrorism Section, Criminal Division,
                     U.S. Department of Justice
       DEA           Drug Enforcement Administration
       DHS           U.S. Department of Homeland Security
       DOD           U.S. Department of Defense
       EARS          Evaluation and Review Staff, EOUSA
       EOUSA         Executive Office for United States Attorneys
       FBI           Federal Bureau of Investigation
       FISA          Foreign Intelligence Surveillance Act
       FTTTF         Foreign Terrorist Tracking Task Force
       FY            Fiscal Year
       GAO           U.S. Government Accountability Office
       ICE           Immigration and Customs Enforcement,
                     U.S. Department of Homeland Security
       IDW           Investigative Data Warehouse
       INS           Immigration and Naturalization Service
       JMD           Justice Management Division
       JTTF          Joint Terrorism Task Force
       LECC          Law Enforcement Coordinating Committee
       LEO           Law Enforcement Online
       LESC          Law Enforcement Support Center
       MOU           Memorandum of Understanding
       NCTC          National Counterterrorism Center
       NJTTF         National Joint Terrorism Task Force
       NLETS         National Law Enforcement Telecommunication System
       NSCC          National Security Coordination Council


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
       NYPD          New York City Police Department

       ODAG          Office of the Deputy Attorney General,
                     U.S. Department of Justice
       OIG           Office of the Inspector General, Department of Justice
       OIPR          Office of Intelligence Policy and Review
       RAO           Resident Agency Office
       RTTF          Regional Terrorism Task Force
       SAC           Special Agent in Charge
       SEVIS         Student and Exchange Visitor Information System
       SCIF          Sensitive Compartmented Information Facility
       SSA           Supervisory Special Agent
       TFOS          Terrorist Financing Operations Section
       TSA           Transportation Security Administration,
                     U.S. Department of Homeland Security
       TSC           Terrorist Screening Center
       TTIC          Terrorist Threat Integration Center
       TURK          Time Utilization and Recordkeeping System
       US-VISIT      United States Visitor and Immigrant Status Indicator
                     Technology
       USAO          United States Attorney’s Office
       USMS          U.S. Marshals Service
       VGTOF         Violent Gang and Terrorist Organization File
       WMD           Weapons of Mass Destruction




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                        INTRODUCTION


Purpose

      The Office of the Inspector General (OIG) assessed the role of the
Department of Justice’s (Department) terrorism task forces and councils in
achieving the Department’s strategic goal of preventing terrorism and
promoting the nation’s security. 1

Scope and Methodology

     The review focused on the following Department task forces and
councils: 2

       •    The Deputy Attorney General’s National Security Coordination
            Council (NSCC);

       •    The United States Attorneys’ Offices’ (USAOs) 93 Anti-
            Terrorism Advisory Councils (ATACs) (formerly named the
            Anti-Terrorism Task Forces); and

       •    The Federal Bureau of Investigation’s (FBI)

            o    Joint Terrorism Task Forces (JTTFs),

            o    National Joint Terrorism Task Force (NJTTF), and

            o    Foreign Terrorist Tracking Task Force (FTTTF).

      We examined how the task forces and councils address the
Department’s strategic goal to prevent terrorism, whether their functions and
operations are duplicative or overlap, the adequacy of the guidance and




       1   Strategic Plan, Fiscal Years 2003-2008, U.S. Department of Justice, p. 2.4.

       2 During our review, several other task forces and organizations with a terrorism
focus were formed, such as the Terrorist Screening Center, the Terrorist Threat Integration
Center, the Justice Intelligence Coordinating Council, the Treasury Department’s Office of
Terrorism and Financial Intelligence, and the Department of Homeland Security Anti-
Terrorism Task Force. An analysis of the similarities and differences between these new
groups and the task forces and councils discussed in this report was beyond the scope of our
evaluation. Another OIG review assessed the operations of the Terrorist Screening Center.

U.S. Department of Justice                                                               1
Office of the Inspector General
Evaluation and Inspections Division
oversight provided to the task forces and councils, and how the performance
of the task forces and councils is measured.

      Our fieldwork, conducted from June 2003 through January 2005,
included interviews, document reviews, field site visits, a web-based survey,
and observation through attendance at two training conferences and four
meetings.

       Interviews: We conducted 278 interviews with senior Department and
other government officials, task force managers and members, and
individuals who were involved with, or affected by, the terrorism task forces’
or advisory councils’ operations. We interviewed 57 senior officials in the
following Department components.

                   Table 1: Senior Department Officials Interviewed

      Department Component                             Officials Interviewed
 Office of the Deputy Attorney General   • United States Deputy Attorney General (current
                                           and former)
                                         • Principal Associate Deputy Attorney General
                                         • Senior Counsel for National Security Affairs
                                         • Chief of Staff (former)
 Criminal Division, Counterterrorism     • Section Chief
 Section                                 • National ATAC Coordinator
                                         • Regional ATAC Coordinators (4)
 Drug Enforcement Administration         • Administrator
                                         • Chief of Operations
 Executive Office for U.S. Attorneys     • Counsel to the Director’s Staff (former point of
                                           contact for ATACs)
                                         • Supervising Counsel to Director’s Staff (current
                                           point of contact for ATACs)




U.S. Department of Justice                                                            2
Office of the Inspector General
Evaluation and Inspections Division
      Department Component                          Officials Interviewed
 Federal Bureau of Investigation      • Director, FBI
                                      • Counterterrorism Division
                                         o Executive Assistant Director (current and
                                             former)
                                         o Deputy Assistant Director, Operational
                                             Support
                                         o Unit Chief, National Joint Terrorism Task
                                             Force
                                         o Director, Foreign Terrorist Tracking Task
                                             Force
                                         o Training Coordinators (2)
                                      • Assistant Director, Inspections Division
                                      • Training Division –
                                         o Assistant Director Training Academy
                                         o Dean of Academic Studies Training Academy
                                             (current and former)
                                      • Field Offices –
                                         o Special Agent in Charge (7)
                                         o Assistant Special Agent in Charge (9)
 Federal Bureau of Prisons            • Director, Bureau of Prisons
 Office of Intelligence Policy and
                                      • Chief Counsel of Intelligence Policy
 Review
 United States Attorneys’ Offices     • United States Attorneys (9)
                                      • Deputy United States Attorney
 United States Marshals Service       • Director


       In addition to the Department’s senior officials identified above, we
interviewed 186 ATAC, JTTF, NJTTF, and FTTTF supervisors, members, and
coordinators. These 186 individuals represented federal, state, and local
government; law enforcement; the intelligence community; private industry;
and the military. We also interviewed 12 police executives (commissioners,
chiefs, deputy chiefs, and sheriffs) who had direct contact with the task forces
and councils, and 20 state and local law enforcement and first responders
who were not represented on the task forces. We also interviewed the
Assistant Secretary and the Chief of Operations for the Department of
Homeland Security’s Immigration and Customs Enforcement (DHS ICE).

       Document Reviews: We reviewed Presidential Directives and Executive
Orders, and Attorney General and Deputy Attorney General memorandums,
directives, and guidance issued concerning the task forces and councils. We
also reviewed documents provided by the FBI, Executive Office for U.S.
Attorneys (EOUSA), USAOs, Counterterrorism Section (CTS) within the
Criminal Division, and the Office of the Deputy Attorney General concerning
the management of the task force and advisory council operations.
Additionally, we reviewed Government Accountability Office (GAO) reports,


U.S. Department of Justice                                                     3
Office of the Inspector General
Evaluation and Inspections Division
congressional testimony, DHS Office of the Inspector General reports, and
other related reports that impacted on, or were related to, the operation of the
task forces and advisory councils.

       Field Site Visits: We completed 13 site visits to USAOs and the FBI’s
field offices and resident agency offices (RAOs). 3 We visited:

          •    Sites from all four areas of the country (east, west, north, and
               south);

          •    A range of large and small field offices and judicial districts;
               and

          •    Sites with a JTTF and an ATAC, sites with a JTTF but no
               ATAC in close proximity, sites with an ATAC but no JTTF in
               close proximity, and sites with neither a JTTF or ATAC in
               close proximity. 4

       Survey: To obtain information from a greater number of task force and
council members, we prepared a web-based survey. We pretested it with
members from a selected ATAC and JTTF as well as with previously
interviewed FTTTF and NJTTF members. We made changes to the survey
based upon the pretest results. In January 2004, we distributed survey
passwords and instructions to a total of 1,810 ATAC, JTTF, FTTTF, and
NJTTF members. Two hundred of the e-mail invitations were returned as
undeliverable, reducing the total sample size to 1,610. 5 Respondents were
given three weeks to complete the survey. We received 704 completed
surveys, an overall response rate of 44 percent. Appendix IV contains a copy
of the survey instrument and results.




        3 RAOs are FBI satellite offices established to provide services throughout the

jurisdiction of the field office.

        4 The sites visited were: New York City, New York; San Francisco, California

(including Oakland); Anchorage, Alaska; Spokane, Washington; Coeur d’ Alene, Idaho (FBI
office only); Salt Lake City, Utah; St. Louis, Missouri; Boston, Massachusetts; Portland,
Maine; Oklahoma City, Woodward (FBI office only), and Enid, Oklahoma; and San Juan,
Puerto Rico.

          5   The NJTTF, EOUSA, and USAOs provided the e-mail addresses that we used in our
survey.



U.S. Department of Justice                                                                4
Office of the Inspector General
Evaluation and Inspections Division
       In selecting our survey sample, we used a simple random sampling
methodology for the ATACs (10 percent of the ATAC population). 6 To ensure
representation from Department members, we first selected all the non-FBI
Department members on the JTTFs and then randomly selected the
remaining members to equal a 10 percent sample. Because the FBI has a
large number of employees on the JTTFs, we included them in the simple
random selection. The NJTTF and FTTTF have small populations; therefore,
we surveyed all participants of those task forces whom we had not
interviewed.

       Observations: In September 2003, we attended the JTTF National
Conference, which focused on topics such as terrorism investigations,
information dissemination, asset recruitment, and law enforcement
coordination. In March 2004, we attended the ATAC Coordinators and Crisis
Management Coordinators Conference, which covered topics such as
implementation of the Attorney General National Security Guidelines, FBI
databases and resources, community outreach to Muslims, and Foreign
Intelligence Surveillance Act (FISA) prosecution issues.

      We also attended two JTTF meetings (one Executive Board and one full
membership), one NJTTF meeting, and one ATAC meeting to observe the
interactions of the participants and the types of information shared.

Report Organization and Content

       This report provides a summary of our findings and recommendations
concerning the Department’s terrorism task forces and councils. The
information is presented in three major sections: 1) background on the task
forces’ and councils’ history, mission, functions, and structure; 2) the task
forces’ and councils’ accomplishments; and 3) issues we concluded can be
improved. The appendices provide additional information and details on
information sharing systems, the OIG’s survey results, and Department
memorandums relating to the task forces and councils.




       6 Simple random sampling allows individuals to be randomly chosen from the
sampling frame such that everyone has an equal chance of being selected for participation in
the survey.

U.S. Department of Justice                                                           5
Office of the Inspector General
Evaluation and Inspections Division
                                  BACKGROUND


        The September 11, 2001, terrorist attacks prompted the Department to
redefine its mission, objectives, and priorities to focus on counterterrorism.
Attorney General Ashcroft elevated counterterrorism to the Department’s first
strategic goal and stated that the Department will devote “all the resources
necessary to disrupt, weaken, and eliminate terrorist networks, prevent or
thwart terrorist operations, and to bring to justice the perpetrators of terrorist
acts.” 7

      As part of these changes, Attorney General Ashcroft directed the
formation or expansion of terrorism task forces and councils that coordinate
and integrate intelligence and law enforcement efforts related to
counterterrorism issues. These task forces included the Deputy Attorney
General’s NSCC, the U.S. Attorneys’ ATACs; and the FBI’s JTTFs, NJTTF, and
FTTTF. The following synopses describes the councils’ and task forces’
mission, history, functions and operations, membership and management,
and budget. Appendix II consolidates this information in a table.




       7 FY 2001 Performance Report/FY 2002 Revised Final Performance Plan/FY 2003
Performance Plan, U.S. Department of Justice, p.1.

U.S. Department of Justice                                                      6
Office of the Inspector General
Evaluation and Inspections Division
UNDERSTANDING THE TASK FORCES AND COUNCILS

The National Security Coordination Council (NSCC)

       Mission: To ensure a more
seamless coordination of all Department                       Facts in Brief
functions relating to national security,
                                               History: Established by the Attorney
particularly its efforts to combat             General on March 5, 2002.
terrorism.
                                               Functions: Assists the Department’s
      History: The Attorney General            leadership in defining, coordinating, and
                                               enhancing the Department’s
announced the creation of the NSCC on
                                               counterterrorism strategy. Reviews and
March 5, 2002, to provide a more               allocates the Department’s counterterrorism
coordinated effort to combat terrorism         budget. Frames national security issues for
and address other national security            the Attorney General’s resolution.
challenges, both within the Department
                                               Size: 1 headquarters-based council for
and in the Department’s interaction with
                                               Department of Justice executives.
other law enforcement and intelligence
agencies.                                      Membership: 10 permanent members,
                                               including the Deputy Attorney General, the
      Functions and Operations: By             Attorney General’s Chief of Staff, Assistant
                                               Attorneys General for the Criminal Division
Attorney General Memorandum, the
                                               and Office of Justice Programs, the Counsel
NSCC was formed to:                            of the Office of Intelligence Policy and
                                               Review, and the heads of the Department’s
       •   Centralize and coordinate           components (Bureau of Alcohol, Tobacco,
           policy, resource allocation,        Firearms, and Explosives, Bureau of
                                               Prisons, FBI, Drug Enforcement
           operations, and long-term           Administration, and the U.S. Marshals
           planning of Department              Service).
           components regarding
           counterterrorism,                   Management Structure: Under the
           counterespionage, and other         direction of the Deputy Attorney General,
                                               with support provided by his staff.
           major national security issues;
                                               Budget: FY 2003, $2 million (total). No
       •   Monitor the implementation of       separate line item after FY 2003.
           Department policy to ensure
           that components are taking          How to Join: Restricted to Department
                                               leadership; guests are invited periodically to
           necessary and appropriate           attend.
           actions to prevent and disrupt
           the occurrence of terrorist
           attacks in the United States;

       •   Provide an institutionalized Department forum for crises
           management;



U.S. Department of Justice                                                      7
Office of the Inspector General
Evaluation and Inspections Division
       •   Promote coordination and information-sharing within
           the Department, between the Department and other
           federal agencies and interagency bodies, and between
           the Department and state and local law enforcement
           authorities, to prevent, prepare for, and respond to
           terrorist attacks within the United States;

       •   Frame national security issues for resolution by the
           Deputy Attorney General or the Attorney General; and

       •   Ensure that positions advanced by the Deputy Attorney
           General on behalf of the Department at interagency
           meetings of the National Security Council, the
           Homeland Security Council, and other interagency
           forums reflect input from Department national security
           components. 8

Attorney General Ashcroft further stated that the NSCC would
help the Department “develop, direct, and execute its
counterterrorism strategy to eliminate terrorist threats before
they develop into terrorist acts.” 9

      Examples of work performed and projects undertaken by
the NSCC relating to the coordination of national security issues
include the following:

       •   A sub-group of the NSCC coordinated an interagency planning
           process for post-conflict reconstruction activities prior to Operation
           Iraqi Freedom. This sub-group continues to coordinate the
           implementation of plans for the reconstruction of the justice, police,
           and corrections sectors of Iraq. A similar process exists under the
           NSCC for coordinating reconstruction activities in Afghanistan.

       •   An NSCC working group, chaired by a member of the Deputy
           Attorney General’s staff, coordinated the Department’s contributions
           to and review of the publication of the DHS Interim National
           Response Plan, the National Incident Management System, and the


       8 Establishment of the National Security Coordination Council, Memorandum for Heads
of Department Components, U.S. Department of Justice, Attorney General John Ashcroft,
March 2002.

       9  News Conference, National Security Coordination Council, Attorney General John
Ashcroft, March 5, 2002.

U.S. Department of Justice                                                         8
Office of the Inspector General
Evaluation and Inspections Division
           National Response Plan, which are mandated by Homeland Security
           Presidential Directive-5.

       •   The NSCC coordinated a memorandum from the Attorney General
           regarding the response to a terrorist threat that delegated the
           authority for components to provide support to FBI offices around
           the country.

       Membership and Management: The Deputy Attorney General is the
NSCC chairperson, and the NSCC’s permanent members include the following
officials with responsibility for national security matters:

       •   Chief of Staff to the Attorney General

       •   Director, FBI (with appropriate participation by the FBI
           Executive Assistant Director for Counterterrorism/
           Counterintelligence)

       •   Assistant Attorney General, Criminal Division (with
           appropriate participation by the Counterterrorism Section, the
           Office of International Affairs, and other Division components)

       •   Assistant Attorney General, Office of Justice Programs

       •   Counsel, Office of Intelligence Policy and Review (OIPR)

       •   Administrator, Drug Enforcement Administration (DEA)

       •   Director, Bureau of Alcohol, Tobacco, Firearms and Explosives
           (ATF)

       •   Director, Bureau of Prisons (BOP)

       •   Director, U.S. Marshals Service (USMS)

      Other senior Department officials, as well as senior officials from the
CIA and other government agencies are invited to attend NSCC meetings
when appropriate.

      The NSCC receives staff support from attorneys and administrative
personnel in the Office of the Deputy Attorney General. The NSCC
incorporated the functions and personnel of the former Executive Office of
National Security.


U.S. Department of Justice                                                   9
Office of the Inspector General
Evaluation and Inspections Division
       Budget: In FY 2003, the NSCC was allocated $2 million. No separate
line-item existed for the NSCC in FY 2004 or FY 2005.




U.S. Department of Justice                                          10
Office of the Inspector General
Evaluation and Inspections Division
The Anti-Terrorism Advisory Councils (ATACs)
(formerly Anti-Terrorism Task Forces)

      Mission: To coordinate the                                 Facts in Brief
dissemination of terrorism
information and the development of             History: Created by the Attorney General on
investigative and prosecutive                  September 17, 2001, and renamed Anti-
strategies throughout the United               Terrorism Advisory Councils on September 25,
                                               2003.
States.
                                               Functions: Facilitate the exchange of
       History: Immediately after              information between its members and conduct
September 11, 2001, the Attorney               counterterrorism training. Coordinate terrorism
General directed all U.S. Attorneys            prosecutorial and investigative strategies among
                                               the CTS, the FBI’s JTTFs, and USAOs.
to establish an Anti-Terrorism Task
Force (ATTF) and appoint an                    Size: 93 task forces, one in each judicial district
experienced Assistant United States            (the judicial districts for Guam and Northern
Attorney (AUSA) as the ATTF                    Mariana Islands combined ATACs).
Coordinator in each district. In a
                                               Membership: Approximately 11,000 members,
September 17, 2001, memorandum,                comprising federal, state, and local law
the Attorney General instructed                enforcement; first responders; public health
each ATTF to coordinate the                    managers; utility companies; and private
implementation of an operational               industry security.
plan for preventing terrorism, serve
                                               Management Structure: Each U.S. Attorney
as the conduit of information about            appoints a senior Assistant U.S. Attorney to
suspected terrorists between federal           coordinate the ATAC’s operations. Intelligence
and local agencies, and coordinate             Research Specialists assist the Coordinator.
the district’s response to a terrorist         EOUSA and CTS provide administrative support
incident. The memorandum also                  and operational oversight.
required each ATTF Coordinator to              Budget: FY 2002 – $9.3 million ($100,000 for
work with the designated Regional              each task force) for use until expended, but not
Coordinator in CTS to ensure                   later than September 2004. Three ATACs
consistent application of terrorism            received extensions until December 2004 and
prosecution strategies and to                  three others until March 2005.
provide guidance to the task                   FY 2004 – No further allocation for ATACs.
forces. 10
                                               How to Join: Requests made through the local
     The ATTF Coordinators                     USAO. Security clearance not required.
convened their first meetings on
September 18, 2001. The Deputy




       10 Anti-terrorism Plan Memorandum for all U.S. Attorneys, U.S. Department of Justice,
Attorney General John Ashcroft, September 17, 2001.

U.S. Department of Justice                                                            11
Office of the Inspector General
Evaluation and Inspections Division
Attorney General also issued further guidance to the ATTF Coordinators on
membership, mission, and the relationship with the FBI and the JTTFs. 11

      In September 2003, the Attorney General renamed the task forces the
Anti-Terrorism Advisory Councils (ATACs) to better describe their activities. 12
The new name helped to clarify their mission and differentiate them from
other terrorism-related task forces.

        Functions and Operations: The ATACs are responsible for coordinating
the exchange of terrorism-related information, as well as providing or
facilitating counterterrorism training, for all appropriate parties in a judicial
district. The ATACs hold meetings, organize training sessions for members,
and have purchased communication equipment for state and local law
enforcement. The ATAC Coordinators also work jointly with the FBI and the
JTTFs in terrorism investigations and prosecutions.

       Membership and Management: There are approximately 11,000
members in the 93 ATACs across the country. Members include federal,
state, and local law enforcement officers; first responders; private industry
security personnel; and individuals from any other relevant organization that
has a need for terrorism-related threat information. While JTTF membership
is limited to law enforcement personnel with security clearances, the ATAC is
open to a broader range of participants and does not require security
clearances for its members.

       ATACs are coordinated by an experienced AUSA. Each USAO was given
funds to hire an Intelligence Research Specialist, who provides support to the
ATAC Coordinator and is often used to support the district’s JTTF. According
to the Attorney General’s memorandum, each U.S. Attorney has the
autonomy to operate the ATAC to fit the district’s needs.

      CTS appointed Regional ATAC Coordinators (located at the Criminal
Division in Washington, D.C.) who provide assistance to ATAC Coordinators
in the development, coordination, and prosecution of terrorism cases.

     CTS has established a National ATAC Coordinator position, filled
annually on a rotating basis by a field ATAC Coordinator, to provide



      11 Guidance for Anti-terrorism Task Forces Memorandum, U.S. Department of Justice,

Deputy Attorney General Larry Thompson, October 8, 2001.

       12 Responsibilities of Anti-terrorism Advisory Councils (ATACs) Memorandum for all U.S.
Attorneys, U.S. Department of Justice, Attorney General John Ashcroft, September 24, 2003.

U.S. Department of Justice                                                           12
Office of the Inspector General
Evaluation and Inspections Division
additional support to ATACs and to provide headquarters with a field
perspective.

      EOUSA provides administrative support to the ATACs. One staff
person in EOUSA is responsible for providing support to ATACs.

       Budget: The ATAC program received $9.3 million in FY 2002 to
purchase communication equipment and organize anti-terrorism training for
state and local law enforcement agencies. Each USAO received a onetime
allocation of $100,000 to expend originally by December 2003 (extended to
September 2004, and then to December 2004 for three ATACs and to March
2005 for three other ATACs). Since FY 2002, the ATACs have not received
any additional appropriations. EOUSA and CTS do not separately identify the
funds used for ATAC duties.




U.S. Department of Justice                                             13
Office of the Inspector General
Evaluation and Inspections Division
            Figure 1: Anti-Terrorism Advisory Council Locations




U.S. Department of Justice                                        14
Office of the Inspector General
Evaluation and Inspections Division
The Joint Terrorism Task Forces (JTTFs)

      Mission: To detect and investigate terrorists and terrorist groups and
prevent them from carrying out terrorist acts directed against the United
States.

       History: In 1979, the New York                          Facts in Brief
City Police Department (NYPD) and
                                               History: Started in 1979 as a concept to
the FBI’s New York City field office           address bank robberies. The first JTTF was
formed a task force to jointly                 implemented in 1980 in the FBI’s New York
investigate bank robberies that were           City field office. The FBI subsequently applied
affecting New York City’s financial            the task force concept to its counterterrorism
                                               program in other field offices.
community. The FBI and the NYPD
each committed 11 members to start             Functions: Operational unit that conducts
the task force. The FBI recognized             field investigations of actual or potential
the value of the task force concept in         terrorism threats.
its investigative processes and
                                               Size: 35 task forces before September 11,
subsequently applied the concept to
                                               2001, 103 task forces as of March 2005.
the counterterrorism program.
                                               Membership: 912 members before
       The FBI established the first           September 11, 2001. As of January 2005,
JTTF in May 1980 in the New York               5,085 federal, state, and local members from
                                               law enforcement, intelligence, the military,
City field office. The New York City
                                               and other agencies.
JTTF grew to include additional NYPD
members and members from other                 Management Structure: Housed in the FBI’s
federal, state, and local law                  field and satellite offices, the members are
enforcement agencies. Each of the              assigned taskings and managed by an FBI
                                               Supervisory Special Agent.
member agencies signed a
Memorandum of Understanding                    Budget: FY 2004, $286 million (total), FY
(MOU) that identified the task force’s         2005, $375 million (total).
objectives as responding to and
investigating terrorist incidents or           How to Join: Requested through or invited by
                                               local FBI field office. Parent agency and the
terrorist-related criminal activities
                                               FBI sign an MOU. Members must obtain a
and investigating domestic and                 Top Secret security clearance.
foreign terrorist groups. 13

     The FBI expanded the terrorism task force concept to other field offices
and by 1996 there were JTTFs in 11 of the FBI’s 56 field offices.




       13 An MOU is an agreement between two or more agencies that defines the roles,
responsibilities, and length of commitment for each of the affected parties.



U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
       Over the next several years, the number of terrorist incidents,
suspected terrorist incidents, and terrorist preventions increased. 14 The FBI
subsequently activated JTTFs in additional field offices, bringing the total to
35 JTTFs in FY 2000. After September 11, 2001, the FBI expanded its JTTF
coverage to the remaining 21 field offices and began to create JTTF annexes
in its resident agency offices (RAOs). A JTTF annex operates identical to a
JTTF in a FBI field office. At the end of FY 2002, the FBI had 66 total JTTFs
(56 field office JTTFs and 10 JTTF annexes). Since FY 2002, 37 additional
JTTF annexes were established, bringing the total number of JTTFs to 103.

       Functions and Operations: The JTTFs are squads within the FBI’s field
offices, and select RAOs, that focus primarily on addressing terrorism threats
and preventing terrorist incidents. The JTTFs are the “operational” units
within the Department’s counterterrorism initiative because they respond to
terrorism leads and conduct terrorism investigations. The JTTFs also pool
the resources and expertise of multiple agencies to collect and share
counterterrorism intelligence. The JTTFs share classified and unclassified
information with their federal, state, and local partners and hold meetings for
their members and agency liaisons.

       Examples of some prominent cases the JTTFs participated in include:

       •   1997 – Conviction of Ramzi Yousef and Eyad Mahmoud Ismal
           for conspiracy in the 1993 World Trade Center bombing.

       •   1997 – Prevention of several domestic terrorism acts by
           members of the True Knights of the Ku Klux Klan.

       •   2001 – Investigation of a Hizbollah cell through the arrests and
           convictions of 20 individuals in North Carolina. A related
           investigation by the Detroit JTTF has yielded 14 convictions.




         14 The FBI defines a terrorist incident as a “violent act or an act dangerous to human

life, in violation of the criminal laws of the United States, or of any state, to intimidate or
coerce government, the civilian population, or any segment thereof, in furtherance of political
or social objectives. Suspected terrorist incident is a potential act of terrorism for which
responsibility cannot be attributed to a known or suspected group. Terrorism prevention is a
documented instance in which a violent act by a known or suspected terrorist group or
individual with the means and a proven propensity for violence is successfully interdicted
through investigative activity.” See: Terrorism in the United States 1999, FBI,
Counterterrorism Threat Assessment and Warning Unit, Counterterrorism Division, p. ii.



U.S. Department of Justice                                                            16
Office of the Inspector General
Evaluation and Inspections Division
       •     2001 - Dismantling of the Holy Land Foundation for Relief and
             Development, an organization that allegedly has links to
             Hamas.

       •     2003 – The Palestine Islamic Jihad, or PIJ, activities and
             capabilities in the U.S. were severely undercut by the arrests of
             the U.S. PIJ leader, Sami al-Arian, and three of his top
             lieutenants. There has been no indication of a new U.S. PIJ
             leadership since the arrest of al-Arian.

       •     2004 – In Virginia, Mohammed Ali al-Timini, the spiritual leader
             of the Virginia Jihad training group disrupted last year, was
             indicted for his involvement in the recruitment of U.S. citizens
             for extremist training and jihad preparation. On April 22, 2005,
             a Virginia jury convicted al-Timini on all ten counts of
             indictment.

       •     2004 – In New York, Yassin Muhiddin Aref was arrested on
             money laundering charges connected to a possible terrorist plot
             to kill a Pakistani diplomat.

       •     2004 –In Detroit, Mahmoud Youssef Kourani was indicted and
             convicted in the Eastern District of Michigan on one count of
             Conspiracy to provide material support to Hizballah.

        Additionally, the FBI uses the JTTFs to coordinate security measures
for all national special events, such as the 2004 Democratic and Republican
National Conventions, the 2004 Summer Olympics, the 2003 National
Collegiate Athletic Association’s Division I Basketball and Hockey
Tournaments, and the 2002 Winter Olympics.

    Membership and Management: The FBI reported the following
numbers for JTTF membership in June 2004.

                              Table 2: JTTF Membership

                  Members                     Pre-9/11             FY 2004
       FBI                                         614 (67%)           1,844 (43%)
       Other Federal Agencies                      155 (17%)           1,197 (28%)
       State and Local                             143 (16%)           1,204 (29%)
       Total                                     912 (100%)          4,245 (100%)
       Sources: The FBI’s Counterterrorism Program Since September 2001, issued
                June 2004.



U.S. Department of Justice                                                           17
Office of the Inspector General
Evaluation and Inspections Division
The JTTFs’ membership increased from its pre-September 11, 2001, number
of 912 task force members to 5,085 members in January 2005. Members
serve on the JTTFs either full time or part time and report to an FBI
Supervisory Special Agent (SSA). The JTTFs’ operations in the field offices are
managed directly by an FBI SSA who reports to an Assistant Special Agent in
Charge (ASAC) at the division office. For JTTFs in RAOs, the SSA reports to
the Special Agent in Charge (SAC) or Assistant Director in Charge (ADIC) of
the respective field office.

       The JTTFs are primarily divided into two major sections: international
terrorism and domestic terrorism. FBI offices with larger JTTFs further divide
their functions and create squads that focus on specific topics.

       JTTF members must obtain a Top Secret security clearance. Agency
liaisons to the JTTF serve as “points of contact” and do not require security
clearances. The JTTFs also develop partnerships among law enforcement; the
intelligence community; the military; and federal, state, and local
government. The JTTF members can include, but are not limited to:

       •   Federal partners:
           o Central Intelligence Agency
           o U.S. Department of Commerce
           o U.S. Department of Defense: Naval Criminal Investigative
              Service, Air Force Office of Special Investigations, Defense
              Criminal Investigative Service
           o U.S. Department of Energy
           o U.S. Department of Homeland Security: U.S. Immigration
              and Customs Enforcement, U.S. Customs and Border
              Protection, U.S. Transportation Security Administration, U.S.
              Coast Guard, U.S. Secret Service
           o U.S. Department of Justice: U.S. Marshals Service; Bureau
              of Alcohol, Tobacco, Firearms and Explosives; Federal
              Bureau of Prisons
           o U.S. Department of Treasury: Treasury Inspector General
              for Tax Administration
           o Environmental Protection Agency
           o U.S. Nuclear Regulatory Commission
           o U.S. Capitol Police
           o U.S. Park Police

       •   State partners:
           o State police
           o State highway patrols


U.S. Department of Justice                                              18
Office of the Inspector General
Evaluation and Inspections Division
           o   Departments of public safety
           o   Transit administrations
           o   National Guard
           o   State bureaus of investigation
           o   State attorneys’ offices
           o   State universities and colleges
           o   State departments of justice

       •   Local and private industry partners:
           o Police departments (city, county)
           o Sheriff departments
           o University police departments
           o Transportation authorities (railroad, port, airport, and other
              law enforcement entities that support transportation)
           o Utility companies

      Budget: In FY 2003, the FBI received $216 million to fund the JTTFs’
operations, and in FY 2004 the amount received increased to $285 million.
The FY 2005 JTTF budget is $375.2 million.




U.S. Department of Justice                                               19
Office of the Inspector General
Evaluation and Inspections Division
                Figure 2: Joint Terrorism Task Force Locations




U.S. Department of Justice                                       20
Office of the Inspector General
Evaluation and Inspections Division
The National Joint Terrorism Task Force (NJTTF)

      Mission: To support the JTTFs and to enhance communication,
coordination, and cooperation among federal, state, and local government
agencies by providing a point of fusion for terrorism intelligence.

       History: The rapid post-                                    Facts in Brief
September 11, 2001, growth in the
                                                   History: Established by the FBI Director in
number of JTTFs increased the need
                                                   July 2002.
for coordination between the JTTFs
and the FBI’s headquarters. In July                Functions: Provides administrative, logistical,
2002, the FBI formed the NJTTF to                  and training support to the JTTFs.
coordinate the flow of information on              Coordinates special information and
                                                   intelligence gathering initiatives assigned from
threats and leads between the FBI
                                                   FBI headquarters. Assesses and combines
headquarters and the JTTFs and to                  intelligence into analytical products.
function as the “hub” of support for
the JTTFs throughout the United                    Size: 1 headquarters-based task force.
States. 15
                                                   Membership: 62 members from 40 agencies,
                                                   including federal, state, and local agency
       Functions and Operations: The               representatives from law enforcement,
NJTTF operates a multi-agency task                 defense, diplomatic services, public safety,
force with staff from the intelligence,            and homeland security.
law enforcement, defense, diplomatic,
public safety, and homeland security               Management Structure: An FBI Unit Chief
                                                   and DHS Deputy Unit Chief jointly manage its
communities. The NJTTF provides                    operations. Managed by the FBI’s
administrative, logistical, policy,                Counterterrorism Division under the Deputy
financial, and training support and                Assistant Director for Operations.
guidance to the JTTFs. It works with
other FBI headquarters units to                    Budget: FY 2004, $5.1 million (total), $2.8
                                                   million (non-personnel).
identify tools that promote
information sharing between state                  How to Join: Requested through or invited by
and local law enforcement and the                  the FBI. Parent agency and the FBI sign an
JTTFs.                                             MOU. Members must obtain and maintain a
                                                   Top Secret security clearance.
       According to the FBI the NJTTF
serves as the “point of fusion” for
terrorism intelligence for the JTTFs, member agencies, and others in the
intelligence community. Using its access to databases provided by its
members, the NJTTF conducts assessments of terrorism intelligence and
combines them into analytical products. It also verifies terrorism information
through the NJTTF members’ interaction and interpretation.



       15   Joint Terrorism Task Force Report to Congress, FBI, October 2003, p. 7.

U.S. Department of Justice                                                             21
Office of the Inspector General
Evaluation and Inspections Division
      During crisis situations, the NJTTF’s members support the FBI’s
Strategic Intelligence Operations Center and provide information that
addresses the crisis or terrorist act.

      The NJTTF coordinates terrorism projects that require JTTF intelligence
gathering and consolidates the information received from the JTTFs into
reports that are disseminated to the specific units in the Counterterrorism
Division, JTTFs, FBI Legal Attaches (LEGATs) and other government agencies.

      Membership and Management: The NJTTF has 62 members (15 FBI
and 47 representatives from other government agencies). The participating
agencies are listed on the following page. 16 All members must obtain a Top
Secret security clearance. The NJTTF accepts members from state and local
law enforcement agencies on a temporary basis through its Fellowship and
Scholarship Programs. The NJTTF Fellowship Program accepts members
from state and local law enforcement agencies for 6-month assignments. The
NJTTF Scholarship Program targets the field office JTTF supervisors who are
assigned to the NJTTF for two weeks. These programs allow the NJTTF to
improve its liaisons with state and local law enforcement agencies and the
JTTFs.




       16  The Central Intelligence Agency (CIA) has been a member of the NJTTF since
inception, but its position on the task force was vacant in March 2005.

U.S. Department of Justice                                                         22
Office of the Inspector General
Evaluation and Inspections Division
                       Agencies Participating on the NJTTF

•   U.S. Department of Agriculture             o  U.S. Federal Protective Service
•   U.S. Capitol Police                        o  U.S. Immigration and Customs
•   U.S. Department of Energy                     Enforcement
•   U.S. Department of Defense                 o U.S. Transportation Security
    o Defense HUMINT Services                     Administration
    o Defense Intelligence Agency              o Federal Air Marshals
    o Defense Criminal Investigative           o U.S. Secret Service
       Service                             •   U.S. Department of the Interior
    o U.S. Air Force Office of Special     •   U.S. Department of Justice
       Investigations                          o Bureau of Alcohol, Tobacco,
    o U.S. Army Criminal Investigative            Firearms and Explosives
       Division                                o Drug Enforcement
    o U.S. Army Military Intelligence             Administration
    o Naval Criminal Investigative             o Federal Bureau of Investigation
       Service                                 o Federal Bureau of Prisons
    o U.S. Special Operations                  o U.S. Marshals Service
       Command (SOCOM)                     •   U.S. Department of State
    o Joint Forces Command                 •   U.S. Department of Transportation
       (NORTHCOM)                          •   U.S. Department of Treasury
    o Defense Threat Reduction                 o Internal Revenue Service
       Agency                                  o Treasury Inspector General for
•   U.S. Department of Health and                 Tax Administration
    Human Services                         •   U.S. Environmental Protection
    o U.S. Department of Health and            Agency
       Human Services, headquarters        •   National Railroad Police
       component                           •   New York City Police Department
    o U.S. Food and Drug                   •   U.S. Nuclear Regulatory
       Administration                          Commission
•   U.S. Department of Homeland            •   U.S. Office of Personnel
    Security                                   Management
    o U.S. Customs and Border              •   U.S. Postal Inspection Service
       Protection                          •   Washington, DC Metropolitan Police
    o U.S. Coast Guard                         Department
    o U.S. Department of Homeland
       Security, headquarters
       component


Budget: The NJTTF’s budget increased by approximately 97 percent from $2.6
million in FY 2003 to $5.1 million in FY 2004.




U.S. Department of Justice                                              23
Office of the Inspector General
Evaluation and Inspections Division
                              Figure 3: NJTTF Organization Chart


                                             Unit Chief
                                              NJTTF

                                                                    Deputy Unit Chief
                                                                         (DHS)



Intelligence           Operations               Tripwire                 Outreach,                  JTTF
Component              Component               Component                Liaison, and              Program
                                                                       Administration            Management




  - Coordinate            - Staff NJTTF            - Tripwire              - Coordinate              - Oversee
  with IC                 duty desk at             advisories              with OLEC                 administration,
  - Identify              CT Watch                 - Coordinate            and other FBI             budget, policy
  Intelligence            - Direct OGA             bulk data               units                     and logistics
  Gaps                    Liaison to CTD           projects with           - Space,                  for all JTTFs
  - Intelligence-         operational              FTTTF and               clearance, and            - JTTF
  based review            units                    CTD                     access issues             Standard
  of threats              - Enhance                - Correctional          - NJTTF                   Operating
  - NJTTF Daily           information              Intelligence            training issues           Procedure
  Briefs                  sharing                  Initiative              - Identify                (SOP) project
  - Maintain              - OGA special            - Maritime              resources                 - MOU Project
  Websites                taskings                 Liaison                 available to              - On-site
  - Production of         - OGA records            Program                 support Pre-              reviews
  National TWIN           checks                   - Support CTD           crisis/threat             - JTTF liaison
                          - Manage                 OPS as                  periods                   issues
                          leads                    required                - Fellowship              - Maintain
                                                                           Program                   program
                                                                           - National                records and
                                                                           Conferences               statistics
                                                                           - Briefing
                                                                           Production




 Notes: IC = Intelligence Community, CTD = Counterterrorism Division, OGA = Other Government Agencies, TWIN =
 Threat Warnings and Indicator Notice, OLEC = Office of Law Enforcement Coordination; Operation Tripwire is a
 program whereby JTTFs collect intelligence and pursue leads to build an intelligence database and the FBI then
 analyzes the data collected to identify patterns.




 U.S. Department of Justice                                                                           24
 Office of the Inspector General
 Evaluation and Inspections Division
The Foreign Terrorist Tracking Task Force (FTTTF)

       Mission: To provide information that helps keep foreign terrorists and
their supporters out of the United States or leads to their exclusion, removal,
surveillance, or prosecution.
                                                            Facts in Brief
       History: On October 29, 2001,
Homeland Security Presidential               History: Homeland Security Presidential
Directive-2 required the Attorney            Directive-2, issued on October 29, 2001,
General to create the FTTTF by               required the Department to create the FTTTF.
                                             The Department started the FTTTF on
November 1, 2001, with assistance            October 31, 2001.
from the Secretary of State, the
Director of Central Intelligence, and        Functions: Uses technology, algorithms, and
other officers of the government, as         data sets to provide data to help prevent
appropriate. The FTTTF was originally        terrorists and their supporters from entering
                                             the United States and locate those that are
created as an independent component          already present. Also supports the FBI’s
within the Department of Justice,            JTTFs, NJTTF, and the headquarter-level
reporting to the Attorney General            counterterrorism units by providing data to be
through the Deputy Attorney General.         used in terrorism investigations.
In August 2002, the FTTTF was placed
                                             Size: 1 headquarters-based task force.
within the FBI and is currently located
within the FBI’s Counterterrorism            Membership: 138 members, the majority of
Division with reporting responsibilities     whom are FBI personnel, information
to the Deputy Attorney General and to        technology contractors, or intelligence
the FBI Director.                            contractors.

                                             Management Structure: Initially reported to
       Functions and Operations:             the Attorney General through the Deputy
Homeland Security Presidential               Attorney General, but shifted to the FBI in
Directive-2 requires the FTTTF to            August 2002. Led by an FBI senior manager,
ensure that, to the maximum extent           who reports to the Counterterrorism
                                             Division’s Deputy Assistant Director for
permitted by law, federal agencies           Operations.
coordinate programs to: 1) deny entry
into the United States of aliens             Budget: FY 2004, $61.6 million, FY 2005,
associated with, suspected of being          $52.3 million.
engaged in, or supporting terrorist
                                             How to Join: Requested through or invited by
activity; and 2) locate, detain,             the FBI. Members must obtain a Top Secret
prosecute, or deport any such aliens         clearance with Sensitive Compartmented
already present in the United States.        Information (SCI) access.
The FTTTF has identified three core
functions to carry out this directive:

       •   Tracking – to locate and track suspected terrorists and their
           supporters within the United States by providing authorized
           personnel with information about their previous travels or


U.S. Department of Justice                                                    25
Office of the Inspector General
Evaluation and Inspections Division
            current location in the United States. This service is intended
            to enhance ongoing investigations for the JTTFs, NJTTF, and
            other government agencies by providing information that
            supports prosecutions and removals of foreign terrorists and
            their supporters.

       •    Detection - to identify previously unknown terrorists and their
            supporters within the United States, or those outside the United
            States using public, proprietary, and other government data
            through non-obvious relationship algorithms.

       •    Risk Assessment - to develop an automated risk analysis
            software tool that will identify high-risk individuals when
            applied to government, public, and proprietary data and
            databases the FTTTF acquires.

Examples of the work performed by the FTTTF include the following:

       •    Identified a social security number found to be used by over
            100 foreign individuals of Asian and Middle Eastern descent
            living in the Norfolk, Virginia area.

       •    Increased the amount of new information for certain cases by
            an average of 21 percent by checking names through the
            FTTTF’s compilation of databases.

       •    Provided the FBI’s Counterterrorism Division a previously
            unknown social security number and a Brooklyn address for a
            subject of an investigation linked to Al-Qaeda terrorists wanting
            to use the subject’s textile business to import explosives.

       •    Advised FBI Headquarters and the New York Field Office
            regarding a suspected terrorist trainer’s presence in the United
            States. Also identified aliases, social security numbers,
            addresses, phone numbers, and travel information for some of
            the nearly 50 foreign-based students of this trainer.
            Subsequently, the trainer and all of the students were added to
            the TIPOFF list. 17


       17  The TIPOFF system contains more than 100,000 names of potential terrorists that
form the basis for both the National Counterterrorism Center (NCTC) [formerly known as the
Terrorist Threat Integration Center (TTIC)] and Terrorist Screening Center (TSC) databases.
Although TIPOFF was originally operated by the U.S. Department of State, responsibility for
maintaining it has been transferred to NCTC.

U.S. Department of Justice                                                         26
Office of the Inspector General
Evaluation and Inspections Division
      Membership and Management: Homeland Security Presidential
Directive-2 directs that the FTTTF be staffed by expert personnel from the FBI,
the Department of State, the Immigration and Naturalization Service (INS) (now
the U.S. Immigration and Customs Enforcement (ICE) within DHS), the
Customs Service (now the U.S. Customs and Border Protection (CBP) within
DHS), the U.S. Secret Service, the intelligence community, military support
components, and other federal agencies, as appropriate, to accomplish the
FTTTF’s mission.

     As of November 2004, the FTTTF staffing complement consisted of 138
employees and contractors from the following agencies:

       •   FBI
       •   U.S. Department of Justice (Chief Counsel)
       •   U.S. Department of Defense (DOD) – Counterintelligence Field
           Activity (CIFA)
       •   DHS/ICE
       •   Office of Personnel Management
       •   Contractors – with analysts funded by the Central Intelligence
           Agency (CIA), and analysts and information technology staff
           funded by CIFA.

      Budget: The FY 2004 budget was $61.6 million, and the FY 2005 budget
is $52.3 million.




U.S. Department of Justice                                              27
Office of the Inspector General
Evaluation and Inspections Division
                           Figure 4: FTTTF Organization Chart




                                      FTTTF Director
                                          (FBI)




        Security Officer                                Special Assistant




                                      Deputy Director
                                        (CIFA/DOD)




          Tracking and                                  Risk Assessment
         Detection Unit                                       Unit




       Threat Processing
        and Assessment                                    Operations
             Unit                                        Support Unit




U.S. Department of Justice                                                  28
Office of the Inspector General
Evaluation and Inspections Division
                           RESULTS OF THE REVIEW


PROGRESS MADE

       The task forces and councils have distinct functions that are
       generally not duplicative.

       Although there was some concern that the task forces and councils may
be duplicating efforts, we found that their functions are largely distinctive and
complementary, and generally not duplicative. There is some overlap in
information sharing with a few individuals who are members of and attend
meetings of both an ATAC and a JTTF. However, the overlap is minimal. The
following provides a brief description of the distinction between the various
task forces and councils:

       NSCC

       The NSCC, coordinated by the Office of the Deputy Attorney General, is
the Department’s executive level forum for the Deputy Attorney General and
agency heads (FBI, DEA, USMS, OIPR, BOP, and others) to meet at least
monthly and discuss issues related to counterterrorism and national security.
The agency heads told us that the NSCC provides them with terrorism
information that they would not receive ordinarily, and allows them to identify
intelligence gathering capabilities that exist across agencies that could assist
them in achieving their agencies’ missions.

       JTTF

       The JTTFs, headed by the FBI, are the operational and investigative arm
of the Department’s counterterrorism initiative. Consisting largely of federal,
state, and local law enforcement agents in shared office space hosted by the
FBI, the 103 JTTFs in FBI field offices and RAOs respond to reports of threats
and conduct terrorism investigations on a daily basis in their respective
jurisdictions. The JTTFs also host monthly executive meetings with local law
enforcement officials and heads of partner agencies who have members on the
JTTFs to share information on relevant terrorism topics.

       ATAC

      The ATACs are based out of the U.S. Attorneys’ Offices in each of the
judicial districts. Their primary mission is to share information and provide or
coordinate terrorism-related training for their members, which can include


U.S. Department of Justice                                               29
Office of the Inspector General
Evaluation and Inspections Division
some JTTF members. The ATAC meetings also serve as a focal point to discuss
local or regional vulnerabilities, and to identify resources and plan exercises
and training to reduce those vulnerabilities. The ATAC Coordinators and
Regional ATAC Coordinators work closely with the JTTFs by coordinating
prosecutorial and investigative strategies across JTTFs to achieve nationwide
consistency in investigating and prosecuting terrorism cases.

       NJTTF

       The NJTTF, headed by the FBI and located in Northern Virginia, provides
administrative and strategic support to the 103 nationwide JTTFs. It also
provides coordination on special information and intelligence gathering
initiatives assigned from FBI Headquarters to the field JTTFs. The NJTTF does
not conduct investigations but rather acts as a liaison and conduit of
information on threats from FBI headquarters to the JTTFs and to the 40
member agencies participating on the NJTTF.

       FTTTF

       The FTTTF, headed by the FBI, also supports the JTTFs and other law
enforcement agencies. Located in Northern Virginia, the FTTTF uses its data
searching and data mining capabilities to respond to requests from the FBI,
CIA, or other agencies to electronically locate and track known or suspected
terrorists and generate leads that are then funneled through the NJTTF for
JTTF follow-up. The information provided by the FTTTF enhances on-going
terrorism investigations or contributes to the initiation of a new investigation.
The FTTTF also is developing a risk assessment tool to proactively evaluate
foreign individuals, who want to enter or remain in the United States, to
determine the level of national security risk or criminal risk.

JTTF and ATAC Duplication Issues

        Regarding duplication, a few of the JTTF and ATAC members we
interviewed stated that information sharing by the JTTFs and ATACs was
duplicative. This concern was raised primarily among those who were
members of and attended meetings of both a JTTF and an ATAC. However,
those who attend each other’s meetings are only a small percentage of the JTTF
and ATAC membership. To the majority of JTTF and ATAC members, this
information is not duplicative, especially to the ATAC members. The ATACs
include a much broader membership who are not law enforcement officials and
are thus not a part of the JTTF information sharing network. They include
first responders, (fire, emergency medical services, state, local or federal public
health officials, hospital staff, pharmaceutical companies, representatives from
governor’s offices, district attorneys, public utility representatives (gas, water,


U.S. Department of Justice                                                30
Office of the Inspector General
Evaluation and Inspections Division
electric, pipelines, telecommunications), railroad police, Coast Guard, park
rangers, tribal law enforcement, and the more remote police and sheriff’s offices
that do not have the resources to commit a full-time officer to the JTTF or who
do not have a JTTF in their jurisdiction. We asked ATAC and JTTF members if
there was information they received that they no longer wanted to receive. The
majority responded that they would rather continue to receive all information
regardless of duplication, rather than receive too little information or none at
all.

      In January 2004, language appeared in the Omnibus Appropriations Act
for 2004 recommending that the U.S. Attorneys should continue to participate
in the JTTFs rather than maintain a separate set of U.S. Attorney task forces.

       The OIG disagrees with this recommendation and believes that the U.S.
Attorneys through the ATACs provide a distinct and vital role separate from the
JTTFs. This role includes the development of an expanded information sharing
network that reaches beyond law enforcement, the provision of training to this
expanded network, opportunities for planning and conducting responder
exercises, and coordination of investigative and prosecutive strategies for
terrorism cases. All the U.S. Attorneys we interviewed believed so strongly in
the mission and effectiveness of the ATACs, they stated they would still find a
way to continue the functions even if they were ordered to disband the ATACs
and merge with the JTTFs. The U.S. Attorneys believed that the benefits of the
new partnerships forged as a result of the ATACs were invaluable to both the
USAOs and to the ATAC members.

       The role of the JTTFs is primarily investigation oriented. Although the
FBI field offices engage in information sharing, they meet primarily with law
enforcement officials, and the information sharing is more narrowly focused
than the information disseminated by the ATACs. The OIG believes that to
assume the expanded role of the ATACs would divert scarce resources away
from what the JTTFs are set up to do, investigating terrorism threats. When
we asked the FBI field office managers their views on merging the ATACs and
JTTFs, the response was mixed. Some believed that they could not assume
this expanded role of information sharing and training for larger groups outside
of those law enforcement officials that they meet with now, either because they
do not have the time, staff, or resources, or they viewed this role as outside the
mission of the JTTFs. Other managers stated that they would take on this role
if required but only with additional staff, funding, and resources.




U.S. Department of Justice                                               31
Office of the Inspector General
Evaluation and Inspections Division
       The establishment of the task forces and councils has
       facilitated sharing of information and expanding of
       partnerships with federal, state, and local law enforcement
       and other government agencies, and private industry.

The Task Forces and Councils Have Improved the Sharing of Information

      We concluded that the terrorism task forces and advisory councils have
created a foundation for improving information sharing among law
enforcement, the intelligence community, and private industry by broadening
the pool of individuals with security clearances and providing forums for
information exchange about terrorism matters.

       A March 2003 report
                                              Information Sharing Has Improved
issued by the Police
Executive Research Forum          One of the main problems identified before
suggested that local police       September 11, 2001, was the lack of information
                                  sharing among federal agencies and state and local law
believed problems existed in      enforcement agencies. However, through our
information sharing between       interviews and survey we found that information
state and local law               sharing has improved as a result of the task forces and
                                  councils:
enforcement and the FBI.    18

In our interviews, we found         • 77 percent of JTTF respondents rated “information
this perception has                   sharing at meetings” as Good to Excellent.
                                    • 77 percent of ATAC respondents rated
changed, especially in                “information sharing at meetings” as Good to
metropolitan areas. For               Excellent.
example, the                        • 88 percent of NJTTF respondents rated
commissioners, chiefs of              “information sharing at meetings” as Good to
                                      Excellent.
police, or their designees for      • All NSCC members told us that the NSCC
the cities of Chicago, Illinois;      meetings provide them with terrorism information
Los Angeles, California;              not available to them prior to September 11, 2001.
                                    • The majority of state, local, and federal law
Oklahoma City, Oklahoma;              enforcement officials we interviewed told us that
St. Louis, Missouri; and              they were more satisfied with the exchange of
Washington, D.C. told us              terrorism information since September 11, 2001.
that information sharing
with the FBI in their metropolitan areas has improved since September 11,
2001, and that the FBI has worked hard to develop relationships with local law
enforcement. One local police official stated that information sharing is “far,
far better than it used to be,” that sharing of terrorism information is better
coordinated, and that his department does not currently face obstacles in
obtaining terrorism information needed from the FBI. Law enforcement


       18 Protecting Your Community from Terrorism, Volume1: Local-Federal Partnerships, The
Police Executive Research Forum, March 2003, pp-8-9. The Department’s Office of Community
Oriented Policing Services provided support for this study.

U.S. Department of Justice                                                        32
Office of the Inspector General
Evaluation and Inspections Division
officials in these metropolitan areas stated that they believed that the FBI
provides them with the information they needed specific to the threats for their
immediate areas. 19

Task Forces Have Expanded the Cadre of People With Security Clearances

       We found that the task forces have taken steps to ensure that a broader
group of law enforcement officers have the security clearances needed to
receive and share information about terrorism issues to a larger group within
the law enforcement community. Much of the terrorism information is
classified and can only be shared with those holding appropriate security
clearances. The level of security clearances required by task force, council, and
type of member are:

       •    Top Secret clearance required – NSCC, NJTTF, FTTTF, and JTTF
            participants working in an FBI office who are assigned leads,
            cases, and other terrorism investigative matters. 20

       •    No clearance required – ATAC and JTTF liaisons who serve as
            an agency’s point of contact and do not work in an FBI office. 21

      While not required to have a security clearance to access ATAC
information, 20 percent of the ATAC survey respondents had a Secret clearance
and 58 percent had clearances of Top Secret or Top Secret with Secure
Compartmented Information (SCI) Access. These clearances give ATAC
members access to a wider range of information if they have a “need to know.”


        19 One local official we interviewed was not as positive about the sharing of information

by the FBI. A Sheriff in Virginia complained about the lack of information from the FBI
pertaining to his county. He stated that the information he received was no different than what
he saw in the media. However, although this Sheriff assigned one of his deputies as a liaison
to the local JTTF, neither the Sheriff nor the liaison possess, or had applied for, Secret or Top
Secret clearance. When asked why not, the Sheriff stated that he believed having to apply for
and obtain a security clearance to receive information from the FBI was an insult to a veteran
law enforcement official.

       20 “A Secret classification is used for information if its unauthorized disclosure could

cause serious damage to national security. Top Secret classification is used for information if
its unauthorized disclosure could cause exceptionally grave damage to the national security.”
Executive Order 12958, March 28, 2003.

       21 The FBI classifies “full-time” JTTF members as those who work in FBI office space on
terrorism investigations, under the supervision of an FBI SSA. The FBI does accept some
“part-time” JTTF members if an agency can not commit a representative on a full-time basis. A
JTTF liaison is a point of contact for an agency to the JTTF to share information and may
attend JTTF meetings, but does not participate on a part-time or full-time basis on the JTTF.

U.S. Department of Justice                                                            33
Office of the Inspector General
Evaluation and Inspections Division
We found that some ATAC Coordinators can share classified information with
those members that have appropriate clearances.

      The FBI conducts background investigations to obtain Top Secret
security clearances for state and local law enforcement task force members to
allow them to work in FBI office space and conduct terrorism investigations. It
also obtains Secret security clearances for higher ranking state and local law
enforcement personnel (e.g., chiefs or sheriffs) to facilitate greater information
sharing between agencies. The following table shows the number of clearances
processed by the FBI between September 11, 2001, and September 2004.

                Table 3: Security Clearances Processed by the FBI for
                  State and Local Officials and Task Force Members
                       September 11, 2001 to September 2004

                              Clearance                                                       Discontinued or
                                                   Clearances            Undergoing
     Applicants               Requests                                                        Administratively
                                                    Granted1               Review
                              Received                                                            Closed2
State and Local
Law Enforcement                        3,553         3,082 (87%)             344 (9.6%)                 127 (3.5%)
Executives
Task Force
                                       1,957         1,757 (90%)              200 (10%)                             0
Members

Total                                  5,510         4,839 (88%)             544 (9.8%)                 127 (2.3%)
Source: FBI, Report to the National Commission on Terrorist Attacks upon the United States: The FBI’s Counterterrorism
        Program Since September 2001, April 14, 2004, p. 42 and data provided by the FBI to the OIG.
Note 1: The “clearances granted” for law enforcement executives include 2,858 at the Secret level and 224 at the Top
        Secret level. The “clearances granted” for task force members include 1,710 at the Top Secret level and 47 at
        the Top Secret level with SCI access.
Note 2: The clearance process is discontinued or administratively closed when applicants withdraw their applications,
        additional information from applicants is requested but is not provided, or applications are
        incomplete.


      The total number of state and local law enforcement members cleared
and assigned on the JTTFs changes continually as members join or are
reassigned by their parent agencies. Therefore, we requested a “snapshot” of
JTTF members by clearance levels and agency, shown in the following table.




U.S. Department of Justice                                                                               34
Office of the Inspector General
Evaluation and Inspections Division
               Table 4: Clearance Levels of JTTF Members - State and
                    Local Government and Private Industry
                                  April 2004

                                                                 Number of Full-Time
                          Type of Clearance
                                                                     Members
              Top Secret or Top Secret with SCI                               566 (80%)

              Interim Top Secret or Interim Secret                              37   (5%)

              Undergoing Review                                               108 (15%)

              Total                                                           711 (100%)
              Source: NJTTF and the FBI’s Personnel Security Unit
              Note:   In April 2004, the FBI also had 397 part-time JTTF members.


      The FBI has shortened the length of time taken to process security
clearance applications. In February 2003, the FBI’s Security Division created
the Initial Clearance and Access Unit - 2 (ICAU2) to process and adjudicate
background investigations for non-FBI JTTF members, law enforcement
executives, and elected officials who require access to classified information.
The ICAU2 receives a clearance application from an FBI field office, assigns it
to an adjudicator who reviews the application in accordance with the
government-wide adjudicative standards and recommends whether to grant a
security clearance. Provided that no derogatory information emerges during
the background investigation, the ICAU2 estimated that it should take no more
than or 180 to 270 days for non-FBI JTTF members to receive a Top Secret
clearance and 30 to 45 days to receive a Secret clearance. If derogatory
information arises in the clearance process, the ICAU2 works to resolve the
matter, which can add time to the process. A GAO review found that between
September 11, 2001, and March 2004, the FBI decreased the processing times
for Top Secret clearances from an average of 244 to 36 days, and for Secret
clearances from an average of 90 to 40 days. 22 The GAO attributed the
decrease in processing times to the guidance the FBI provided to its field offices
and state and local law enforcement on the security clearance process and its
modifications to the security clearance unit. 23




       22  The FBI gave highest priority to processing Top Secret clearances, which could have
affected the dramatic decrease in processing time.

       23Security Clearances, FBI Has Enhanced Its Process for State and Local Law
Enforcement Officials, Government Accountability Office, GAO-04-596, April 2004.

U.S. Department of Justice                                                                  35
Office of the Inspector General
Evaluation and Inspections Division
Task Forces and Advisory Councils Provide Broad Audiences With
Opportunities for Exchanging Information About Terrorism

      Each task force and council attracts a variety of members that have a
need for terrorism-related information and shares this information with
members through meetings or electronic forums. To increase ATAC
membership, CTS and EOUSA advised the USAOs’ ATAC Coordinators to be as
inclusive as possible when determining ATAC membership and to include any
relevant organization that has a need for terrorism-related threat information. 24
Leaders of the NJTTF, JTTFs, FTTTF, and NSCC also share information with
broad audiences by including chief executive officers from private agencies or
non-law enforcement members in their information exchanges. At times,
guests with expertise or interest in the information being discussed are invited
by the ATACs, FTTTF, JTTFs, NJTTF, and NSCC to participate in a meeting.

       Meetings: Our interviews and survey of task force and council leaders
and members showed that the primary purposes of the meetings are to share
information and intelligence, provide updates on cases with a terrorism nexus,
discuss threat assessments, and obtain member agency updates. The majority
of ATAC, FTTTF, JTTF, and NJTTF members we surveyed characterized the
task force and council meetings as “useful” in preparing them to plan for and
respond to terrorism. Our survey showed that of those who were able to
evaluate the task force or advisory council meetings, 90 percent of ATAC
respondents, 75 percent of FTTTF respondents, 86 percent of JTTF
respondents, and 100 percent of NJTTF respondents rated meetings as “useful”
or “very useful.”

       Most of the task forces and councils hold regular meetings, although the
frequency varies based on the mission and functions performed. NJTTF
meetings are held daily, sometimes twice a day, depending on the threat and
task force activity. Meetings include discussions of current threats, updates on
special projects, and the sharing of information and intelligence. The FTTTF
does not have a need for daily meetings; instead, the Director convenes all
members at least once a month to discuss administrative issues and current
projects. Also, since December 2003, the FTTTF meets monthly with liaisons
from DHS components, international intelligence and law enforcement
agencies, the National Counterterrorism Center (NCTC), and the El Paso
Intelligence Center. 25 The NSCC meets at least once a month, and sometimes
twice a month, to share information across Department components. The


          24   ATAC/CMC Conference Issues Raised, U.S. Department of Justice, CTS, April 2004,
page 8.

          25   NCTC was formerly called the Terrorist Threat Integration Center (TTIC).

U.S. Department of Justice                                                                36
Office of the Inspector General
Evaluation and Inspections Division
Deputy Attorney General sets the agenda based upon input received from the
NSCC members, interagency councils, the DHS, and the President’s National
Security Council.

     At the field level, the ATACs and JTTFs do not have standard meeting
schedules, but rather adjust meeting frequency and type to respond to
members’ needs, threats, cases, or special projects. We found most ATACs
meet monthly to quarterly, and the topic and type of the meeting vary widely.
Each USAO attempts to fit the ATAC meeting to the needs of its membership.
ATAC members repeatedly stressed the need to have focused, useful meetings;
one member stated:

              I do not think pro-forma, regular meetings enhance
              information flow or otherwise meaningfully contribute
              to improving anti-terrorism abilities. Those benefits
              come from maintaining and developing working
              relationships with law enforcement through working
              cases, through providing meaningful training, and
              through jointly participating in outreach activities in
              the community. Agents and officers know when a
              meeting is called for the sake of having a meeting, and
              do not seem to appreciate it.

Often, ATAC meetings include an                Other Mechanisms for Information Sharing
anti-terrorism training session.
Approximately two-thirds of the                Information Sharing With Parent Agencies: Task
                                               force members, who work daily in FBI office space,
ATACs have subcommittees that                  also share information with their parent agencies
have specific focuses appropriate for          in reports or e-mails, or by telephone. For
that jurisdiction (e.g., Maritime              example, one NJTTF member told us that he calls
                                               his supervisor to share relevant information from
Issues Subcommittee in districts               meetings and the daily FBI Director’s Briefing
with ports).                                   Book.

       Most JTTFs meet as an entire     Information Sharing Between Task Force Members:
                                        To maximize the sharing of information and
group, or as squads, on a regular       knowledge, the FTTTF, JTTFs, and NJTTF use an
basis to discuss case updates and       open office space design and co-locate members.
administrative issues and to share      The directors of these task forces stated that the
                                        open office design is as vital to information sharing
information and intelligence. Also,     as the members themselves because it allows for
the JTTFs individually host             enhanced communication and immediate input on
Executive Board meetings for            information or intelligence.
agency heads and other top-level
managers from participating organizations, including leaders from federal,
state, and local law enforcement, to share information about upcoming events
and to discuss administrative matters related to the task force’s operations.
The JTTF Executive Board meeting we observed during one of our site visits


U.S. Department of Justice                                                              37
Office of the Inspector General
Evaluation and Inspections Division
 was well attended by federal, state, and local participating organizations on the
 JTTF, declassified information for the jurisdiction was shared, and the U.S.
 Attorney made a presentation. The frequency of Executive Board meetings
 varies across JTTFs, but they occur at least every quarter.

      The following table outlines information we collected through interviews
 and surveys about task force and council meetings.

                     Table 5: Meetings Held and the Members’ Ratings
                            of the Quality of Information Shared


                                    Anti-Terrorism Advisory Council
                        Meeting                                                                Impact of the
                                        Quality of Information
Meeting Type(s)        Frequency                                             Audiences          Meeting on
                                        Shared in the Meetings
                                                                                                 Members
Full Meeting          Weekly – 0.4%     Percentage of                 Chaired by the AUSA/     90% of
                                        respondents rating the        ATAC Coordinator.        respondents
Type(s) of            Every two         following as “excellent” or                            rated the
Information           weeks – 3.5%      “good” -                      Members - ATAC and       meetings as
Shared – Majority                                                     JTTF members from        “very useful” or
is specific to        Monthly –         Information/intelligence      local area or region,    “useful” in
region or locale.     31.2%             sharing – 80%                 including law            preparing them
Some national or                                                      enforcement, first       to plan for or
international.        Quarterly –       Member agency updates –       responders, private      respond to
                      43.8%             73%                           industry, intelligence   terrorism.
Level(s) – Most                                                       community, military,
unclassified, law     Other – 17.3%     Discussion of threat          and other federal        Only 7.8%
enforcement                             assessments – 72%             agencies. Guests         rated the
sensitive by                                                          periodically attend.     meeting as “not
exception.                              Case updates – 61%                                     useful at all.”

Some ATACs
have dual
meetings that
begin with a
regular agenda
for all members,
those in law
enforcement then
stay on to receive
any law
enforcement
sensitive
information.




 U.S. Department of Justice                                                                       38
 Office of the Inspector General
 Evaluation and Inspections Division
                                   Anti-Terrorism Advisory Council
                       Meeting                                                                  Impact of the
                                       Quality of Information
Meeting Type(s)       Frequency                                            Audiences             Meeting on
                                       Shared in the Meetings
                                                                                                  Members
Subcommittee         Weekly – 2.3%     Percentage of                 Chair(s) appointed by      61.7% of
Meeting                                respondents rating the        the ATAC Coordinator.      respondents
                     Every two         following as “excellent” or                              rated the
Type(s) of           weeks – 1.9%      “good” –                      Members – ATAC             meetings as
Information                                                          members with expertise     “very useful” or
Shared – Topic       Monthly –         Information/intelligence      or interest in subject.    “useful” in
specific to region   11.9%             sharing – 82%                                            preparing them
or locale.                                                                                      to plan for or
                     Quarterly –       Member agency updates –                                  respond to
Level(s) – Law       11.1%             73%                                                      terrorism.
enforcement
sensitive or         Other – 24.5%     Threat assessments                                       Only 7.4%
unclassified                           discussed – 70%                                          rated the
                     Don’t have                                                                 meetings as
                     subcommittees     Case updates – 70%                                       “not useful at
                     – 33.2%                                                                    all.”

                             Foreign Terrorist Tracking Task Force
                       Meeting                                                                  Impact of the
                                       Quality of Information
Meeting Type(s)       Frequency                                            Audiences             Meeting on
                                       Shared in the Meetings
                                                                                                  Members
Full Meeting         Staff meetings    Percentage of                 Members –                  75% of
                     occur on at       respondents rating the        Headquarters-level law     respondents
Type(s) of           least a           following as “excellent” or   enforcement,               rated the
Information          monthly           “good” -                      intelligence community,    meetings as
Shared – Specific    basis.†                                         military, and other        “useful” in
to FTTTF units or                      Information/intelligence      federal agencies.          preparing them
agencies;                              sharing – 69%                 Support staff and agents   to plan for or
administrative                                                       detailed to FTTTF from     respond to
matters                                Member agency updates –       FBI field offices or       terrorism.
discussed.                             67%                           functions.
                                                                                                16% rated the
Level(s) - Secret,                     Threat assessments                                       meetings as
Top Secret, or                         discussed – 50%                                          “not useful at
unclassified                                                                                    all.”
                     †This data came   Case updates - 56%
                     from interviews
                     with FTTTF
                     members.




 U.S. Department of Justice                                                                        39
 Office of the Inspector General
 Evaluation and Inspections Division
                                     Joint Terrorism Task Forces

                        Meeting                                                                   Impact of the
                                       Quality of Information
Meeting Type(s)        Frequency                                           Audiences               Meeting on
                                       Shared in the Meetings
                      (how often)                                                                   Members
Full Meeting         Daily – 4.2%     Percentage of                 Chaired by the ASAC or       85.9% of the
                                      respondents rating the        JTTF Supervisor with         respondents
Type(s) of           Weekly –         following as “excellent” or   jurisdiction over JTTF       rated the
Information          22.8%            “good” -                      squads.                      meetings as
Shared – Specific                                                                                “very useful” or
to field office’s    Every two        Information/intelligence      Members – Federal, state,    “useful” in
authority,           weeks – 12.7%    sharing - 79%                 and local law                preparing them
national and                                                        enforcement personnel,       to plan for or
international        Monthly –        Member agency updates -       FBI agents, JTTF liaisons    respond to
matters              22.0%            76%                           from local area or region,   terrorism.
impacting office,                                                   including law
and                  Quarterly –      Threat assessments            enforcement, first           Only 8.8% of the
administrative       19.3%            discussed - 81%               responders, private          respondents
issues.                                                             industry, intelligence       rated the
                     Other – 12.0%    Case updates – 75%            community, military, and     meeting as “not
Level(s) – Secret,                                                  other federal agencies.      useful at all.”
law enforcement                                                     Guests are periodically
sensitive, or                                                       invited.
unclassified
Squad Meetings       Daily – 3.9%     Information/intelligence      Chaired by the JTTF’s        84.1% of the
                                      sharing – 83%                 Supervisory Special          respondents
Type(s) of           Weekly –                                       Agent(s). The SAC and        rated the
Information          14.3%            Member agency updates -       ASAC may attend.             meetings as
Shared – Specific                     75%                                                        “very useful” or
to field office’s    Every two                                      Members - JTTF               “useful” in
authority, local     weeks – 8.9%     Threat assessments            members from local area      preparing them
cases or leads,                       discussed – 79%               or region assigned to the    to plan for or
national and         Monthly –                                      particular squad (e.g.,      respond to
international        19.7%            Case updates – 78%            international terrorism,     terrorism.
matters                                                             domestic terrorism,
impacting office,    Quarterly –                                    others).                     Only 9.3% of
and                  7.7%                                                                        respondents
administrative                                                                                   rated the
issues.              Other – 10.4%                                                               meetings as “not
                                                                                                 useful at all.”
Level(s) – Secret,   Don’t have
law enforcement      squads –
sensitive, or        32.3%
unclassified




   U.S. Department of Justice                                                                          40
   Office of the Inspector General
   Evaluation and Inspections Division
                               National Joint Terrorism Task Force
                       Meeting                                                                         Impact of the
                                        Quality of Information
Meeting Type(s)       Frequency                                                Audiences                Meeting on
                                        Shared in the Meetings
                     (how often)                                                                         Members
NJTTF Meeting        Daily            Percentage of respondents         Chaired by the NJTTF         100% of the
                                      rating the following meeting      Unit Chief or Deputy         respondents
Type(s) of                            activities as “excellent” or      Chief.                       rated the
Information                           “good” -                                                       meetings as
Shared -                                                                Members –                    “very useful” or
Intelligence                          Information/intelligence          Headquarters-level law       “useful” in
briefings, case                       sharing – 86%                     enforcement, military,       preparing them
updates, threats                                                        intelligence community,      to plan for or
                                      Member agency updates –           and other federal            respond to
Level(s) – Top                        69%                               agencies, rotating state     terrorism.
Secret, Secret,                                                         and local members.
law enforcement                       Threat assessments                                             No NJTTF
sensitive, or                         discussed – 85%                                                respondents
unclassified                                                                                         rated the
                                      Case updates – 75%                                             meetings as “not
                                                                                                     useful at all.”

                             National Security Coordination Council
                       Meeting                                                                        Impact of the
                                        Quality of Information
Meeting Type(s)       Frequency                                                Audiences                Meeting on
                                        Shared in the Meetings
                                                                                                          Members
Full Meeting         Every two        NSCC members were not             Chaired by the Deputy        All those
                     weeks to         asked specifically about          Attorney General.            members
Type(s) of           once a           quality of information                                         interviewed,
information          month.           shared.                           Members – All DOJ            stated the
shared –                                                                agency heads, to             meetings were
Threats, budget                                                         include ATF, BOP,            very useful in
information                                                             DEA, FBI, USMS; as           helping them
related to                                                              well as the heads of         plan and
national                                                                CTS and OIPR; CIA,           coordinate
security,                                                               DHS, and other               national security
national security                                                       government agencies          and
initiatives,                                                            are invited to share         counterterrorism
requests for                                                            information and              initiatives, as
information,                                                            coordinate on specific       well as share
general briefings.                                                      issues.                      information.

Level(s) – Top
Secret, Secret
 Source: Counterterrorism Task Force Survey, Office of the Inspector General, January 2004, and interviews.
 Notes: The “Meeting Type(s)” column presents responses to, “In the last year, how often did the entire task
         force/advisory council meet?” and “In the last year, how often did the entire task force’s squad or advisory
         council’s subcommittees meet?” The data is from survey respondents, but the table also includes data
         obtained through interviews and observations of meetings. The “Quality of Information Shared in the
         Meetings” column presents data that excludes those respondents answering don’t know or not applicable. The
         response choices to the survey question were excellent, good, average, poor, very poor, don’t know, and not
         applicable. The “Impact of the Meeting on Members” column presents data that excludes those respondents
         answering not able to evaluate. The response choices were very useful, useful, not at all useful, not able to
         evaluate, and no opinion. The data related to “meeting frequency” for the NJTTF came from interviews with
         NJTTF members.




 U.S. Department of Justice                                                                                  41
 Office of the Inspector General
 Evaluation and Inspections Division
       We also found that task force and council leaders and most members
participate in additional anti-terrorism meetings chaired by federal, state, or
local officials. They attend these meetings as a form of outreach, to share
information with other audiences, and to build relationships. The information
gained through these meetings is then shared with the task forces and
councils. The following table shows the types of meetings attended.

                            Table 6: Other Meetings Attended

      Some Task Force or Advisory
                                                   May attend…
          Council Members…
                                         JTTF meetings, local terrorism task
                                         force meetings, and where
    ATAC
                                         applicable, state homeland security
                                         task force meetings
                                         ATAC meetings, local terrorism
                                         task force meetings, and where
    JTTF
                                         applicable, state homeland security
                                         task force meetings
                                         FBI’s daily Secure Video
    NJTTF                                Teleconferencing System meetings,
                                         NCTC meetings
                                         NCTC meetings, DHS, and/or CIA
    FTTTF
                                         Counterterrorism Center meetings


       Electronic Systems: Task force and council members routinely use
electronic data systems for quick, often real-time, exchange of information and
intelligence related to terrorism issues. JTTF members stated that they use the
following systems to receive and share information outside of the FBI: Law
Enforcement Online (LEO), National Law Enforcement Telecommunications
System (NLETS), and Regional Information Sharing System (RISS). The FBI
has expanded its use of LEO by requiring all JTTF members to have LEO
accounts, and by establishing Special Interest Groups for the NJTTF and
JTTFs that law enforcement personnel can use to exchange terrorism
information. The LEO system is interconnected with RISS and NLETS.
Appendix III outlines the content of these systems.

      The NJTTF is developing other systems to increase its ability to share
information. For example, the Guardian system was deployed in all JTTFs in
August 2004. Guardian is a terrorism reporting management system used by
the JTTFs to automate all terrorism complaints, document terrorist activity,
and report suspicious activity and pre-operational surveillance incidents.
When local and state law enforcement agencies call their local JTTF and report


U.S. Department of Justice                                                42
Office of the Inspector General
Evaluation and Inspections Division
suspicious activity, the JTTF enters the information directly into Guardian.
JTTF members from other government agencies also can access Guardian and
share information with their agencies.

       The ATACs have invested in communications equipment to increase
information sharing between state and local law enforcement, first responders,
and the USAOs. When formed, each ATAC received an allocation of $100,000
for improving the communication ability of state and local law enforcement or
for training ATAC members. By December 2004, the ATACs had spent
approximately $4.9 million (52 percent) of the $9.3 million they received for
communication items. For example, the ATAC in West Virginia purchased
computers for each sheriff and police department throughout the state. Many
of these rural law enforcement agencies did not previously have computers or
access to e-mail. Additionally, the Middle District of Alabama purchased
computers and internet access, as well as radios that linked with an existing
dispatch center, for those law enforcement agencies that did not have this
equipment. The Connecticut ATAC purchased six transmitters to improve a
communication system used by local agencies.

       CTS has increased information sharing in the field through the
development and expansion of a CTS website available to ATAC Coordinators
and USAO Intelligence Research Specialists. The CTS website includes the
following:

       •   CTS Daily Report – Each ATAC Coordinator is required to report
           to a CTS Regional ATAC Coordinator any information related to
           terrorism that may be occurring in the district, whether a case,
           prosecution, event, or threat. CTS compiles this information
           and produces a CTS Daily Report, which is posted on the
           website so that ATACs nationwide can see what is going on in
           other jurisdictions. CTS also provides this report to the
           Attorney General and the FBI.

       •   Counterterrorism Resource Library – This library assists
           prosecutors working on terrorism-related matters by providing
           materials related to the investigation and prosecution of
           terrorism cases. It includes Department guidance, past
           indictments, sample pleadings, model jury instructions, and
           related materials. According to the User’s Guide, the resource
           library serves as a tool to enable prosecutors to share materials
           and draw on the experiences of others in terrorism-related
           cases.




U.S. Department of Justice                                                     43
Office of the Inspector General
Evaluation and Inspections Division
       •   CTS Process Tracking Database – This database was created for
           use in the event of a national crisis to facilitate the tracking,
           issuance, and deconfliction of the criminal investigative process
           across multiple districts. AUSAs working on terrorism
           prosecutions can enter information used in subpoenas, court
           orders, and other investigative processes into this searchable
           database, which can reduce duplication and unintended
           conflicts in nationwide investigations.

       •   Case Notification Forms – AUSAs can complete the case
           notification forms online and forward them electronically to CTS
           to advise of the opening of an international or domestic
           terrorism investigation or prosecution. These electronic forms
           promote additional information sharing and assist CTS in
           coordinating terrorism matters across the nation. Additionally,
           CTS can link intelligence information from investigative
           agencies to matters opened by terrorism prosecutors.




U.S. Department of Justice                                                     44
Office of the Inspector General
Evaluation and Inspections Division
New York City’s Perception on Information Sharing

       During a March 2003 public hearing, Raymond Kelly, the Commissioner
of the New York City Police Department (NYPD), noted that information sharing
with the FBI had improved. He stated:

              I have been in law enforcement a long time, both on
              the federal and local level. And clearly there were
              some issues in the past with the flow of information. I
              can tell you that has changed significantly in the
              aftermath of September 11…There is a palpable
              difference in [the FBI and CIA’s] approach to doing
              business. They want to get that information out. They
              are getting it out. 26

      One year later, during a March 2004 House Appropriations Committee
hearing, Representative John Sweeney raised some concerns about information
sharing between the FBI and state and local law enforcement. In this hearing,
Congressman Sweeney directed the following comments to FBI Director
Mueller:

              …There is a general perception beginning to develop
              out there that we’re slipping back into some old
              patterns.     And, in particular, the sharing of
              information between state and local officials has been
              raised as a concern, and specifically raised as a
              concern by my friends in…New York City…Given the
              priority New York City is and the target that it is, that
              it possibly could be happening all over the country,
              and I think it’s a worry that we all have. Specifically,
              the complaint is once people receive top secret
              clearances, cooperation with the bureau has not been
              what the anticipation was there.

       To assess concerns that the information sharing between the FBI and the
state and local law enforcement may have diminished since the months
immediately after the September 11 terrorist attacks, we returned to New York
City in April 2004 and conducted additional interviews on this topic. Senior
officials from the NYPD told us that the relationship between the FBI and NYPD


       26 FBI’s Counterterrorism Program Since September 2001, Report to the National

Commission on Terrorist Attacks Upon the United States, FBI, p. 38. See: Testimony of
Commissioner Raymond Kelly before the National Commission on Terrorist Attacks Upon the
United States, March 31, 2003.

U.S. Department of Justice                                                        45
Office of the Inspector General
Evaluation and Inspections Division
was good and had improved since September 11, 2001. One official said that
information sharing with the FBI had become “bigger and better.” According to
these officials, the NYPD has a chief, captain, lieutenants, and detectives
participating in every JTTF squad who partner with the JTTF special agents.
They informed us that NYPD supervises its own officers on the JTTF, but the
FBI and NYPD work together on the JTTF squads and are co-located.

       NYPD officials stated that to some extent, information sharing and
reporting between officers and their sergeants depends on the personalities
involved and their relationships. NYPD officials said that in most cases if a
NYPD detective on the JTTF obtains information or intelligence, the NYPD
detective tells his FBI supervisor and NYPD Sergeant and each will share the
information up though their chain of command. The JTTF members also share
information either directly with the NYPD intelligence unit or with staff from
the NYPD’s Deputy Commissioner for Counterterrorism. If the need arises, the
Police Commissioner also directly contacts the FBI Assistant Director in Charge
(ADIC) of the New York City field office. 27

       NYPD officials also acknowledged that due to their expanded presence on
the New York City JTTF, they now have access to CIA and NSA information that
they did not have prior to September 11, 2001. Officials stated that they also
are pushing for full integration of the JTTF by requesting that an NYPD official
be placed as a “Deputy” to the SAC to act as the number two person or co-
manager in charge of the JTTF. This, they believe, would further promote
“real-time” information sharing. When asked if the NYPD supports placing FBI
agents in its intelligence unit, the NYPD officials stated that they are interested
in more aggressive interaction at the working level, not integration of the FBI in
NYPD’s intelligence office.

      NYPD officials did complain that their NYPD officers on the JTTF can
access only certain parts of the FBI’s Automated Case Support (ACS) system. 28
Specifically, NYPD believes it should have access to three automated screens in
the system that included information on management of caseloads and
assignments, management of leads, and confidential informants. NYPD


         27 A Special Agent in Charge oversees each FBI field office, except for the largest field

offices (Washington, DC, Los Angeles, and New York City) which are headed by an Assistant
Director in Charge.

       28 ACS is the system used by the FBI to maintain current and historical records on its

cases. It consists of three components: Investigative Case Management, Universal Index, and
the Electronic Case File. The Investigative Case Management component and the Lead Bucket
Screen are used by the FBI to manage the case loads and work assignments of its agents.
Information on confidential informants maintained in ACS cross references to another FBI data
system that contains data on confidential informants.

U.S. Department of Justice                                                                   46
Office of the Inspector General
Evaluation and Inspections Division
officials stated that they are not always pleased with the information the FBI
allows them to see and are not convinced they “see everything.” When asked
how the lack of access to this information impacts their work, the NYPD
officials said they could not state for certain that the lack of information
impacts them, but they believe that they have a right to know and the FBI has
an obligation to inform them.

       NYPD officials also expressed concern about the security levels of some
FBI meetings. For example, there is a case being worked by a group of
detectives from the NYPD intelligence unit who are not on the JTTF, but the
detectives are not permitted to attend an FBI meeting about the case because
they do not have SCI clearance. NYPD officials believed the security threshold
of the meeting should be lowered (from SCI to Top Secret) to enable these
detectives to participate.

      One NYPD official summarized his concern about the need for
information:

              We need information because we are at the top of the
              target. As NYPD has increased its involvement, the
              greater the commitment made. Capabilities, interests,
              and needs have increased as our involvement has
              increased. We have 1,000 employees daily devoted to
              counterterrorism. We don’t know how the lack of
              information has impacted us because we don’t know
              what is out there.       We have a right to know
              immediately about cases that tangentially are related
              to New York...The more we know about plots, plans,
              and events can influence what we do to protect our
              system. The more we know, the better our protective
              processes... We don’t have unlimited resources, so the
              more informed we are, the better decisions we can
              make on deploying people. The more details we know
              about a plot, this can influence what we do to protect
              that target. Generic information only helps you make
              generic deployment decisions.

The FBI’s Perspective

      We interviewed the FBI’s Acting SAC in New York City for her perspective
on the state of information sharing with the NYPD. She told us that nothing
had changed in the FBI’s relationship with NYPD since our first visit in July
2003, and that the FBI’s door is wide open. The 14 JTTF squads in New York
City are matched almost one for one with FBI agents and NYPD officers; that is,


U.S. Department of Justice                                               47
Office of the Inspector General
Evaluation and Inspections Division
for every FBI agent on the 14 squads, there is an NYPD detective. There is an
NYPD sergeant assigned to every JTTF squad to supervise the detective(s).
Additionally, the NYPD has officers assigned to the New York City FBI’s three
surveillance squads.
      The Acting SAC also noted that information sharing with NYPD occurs
through the following additional methods:
       •   NYPD JTTF members attend the FBI’s daily threat briefings for the
           (FBI’s) ADIC. The NYPD JTTF members then brief the NYPD
           Commissioner and his Deputy Commissioner for Counterterrorism.

       •   NYPD JTTF members attend the FBI’s weekly “threat” meetings.

       •   NYPD JTTF lieutenants “surf” through the FBI’s ACS system daily.

       •   NYPD lieutenants read all CIA and NSA intelligence “traffic” daily in
           the FBI SCIF. 29

       •   New York City FBI has threat briefings or meetings on specific cases
           (called a Principal’s Briefing) that the NYPD Commissioner or Deputy
           Commissioner for Counterterrorism may attend.

       •   The FBI has a computer terminal with access to NYPD’s Orion
           database. All terrorism-related calls that come into NYPD’s
           intelligence unit are entered into NYPD’s Orion database. The NYPD
           detectives follow through on each call and their actions are entered
           into the Orion database. The FBI maintains an Orion terminal to
           show the NYPD that all calls have been addressed.

      The Acting SAC told us that this level of information sharing means that
anything an FBI agent on the JTTF has, the NYPD has. NYPD officers are co-
case agents on almost every investigation the JTTF runs, and there is rarely a
deployment overseas when NYPD does not accompany the FBI. She also
informed us that the NYPD has made additional requests for an NYPD
lieutenant for every three squads and to add a senior manager to the FBI New
York City field office who would serve as a Deputy to the FBI’s SAC to facilitate
information exchange.




      29 A sensitive compartmented information facility (SCIF) is an accredited area, room,

   group of rooms, buildings, or installation where SCI access information may be stored,
   used, discussed, and/or processed.

U.S. Department of Justice                                                             48
Office of the Inspector General
Evaluation and Inspections Division
      Regarding ACS system access, the Acting SAC stated that NYPD has full
access to the screens in the ACS system that the FBI’s other JTTF members
have: counterterrorism investigations, drug cases, and organized crime cases.
They do not have full access to police/public corruption cases, white collar
cases, or foreign counterintelligence cases. All JTTF members, including the
FBI members, are blocked from access to these screens, but there are
procedures to obtain this information through the FBI for those with an
established “need to know.”

       The Acting SAC stated that NYPD complains that information sharing is
not a two-way street, but she expressed concern that the New York City FBI
does not receive any of NYPD’s intelligence. The FBI has made requests to
NYPD’s Office of Intelligence for NYPD to disseminate information to the New
York City field office so the FBI can review NYPD’s intelligence. Additionally,
the New York City FBI has offered to place FBI agents in the NYPD intelligence
unit but NYPD has declined. The Acting SAC stated that if the FBI is not able
to review NYPD’s intelligence, links to terrorism may go undetected. She also
stated that the FBI needs the intelligence from NYPD’s sources but is not
receiving it. She said that the FBI “does not intentionally hold back
information from the NYPD.”




U.S. Department of Justice                                                49
Office of the Inspector General
Evaluation and Inspections Division
Task Forces and Councils Have Improved and Expanded Partnerships in
the Field and Headquarters

The Task Forces and Councils Have Improved Partnerships

       We found that, contrary to the conditions that existed before
September 11, 2001, the federal (non-FBI), state, and local agency
                                                 representatives assigned to the
      “Partnership” is a Major Theme in the      JTTFs, FTTTF, and NJTTF are
            Department’s Strategic Plan          given similar responsibilities and
    “We are committed to continuing and          duties as FBI members on the task
    strengthening collaborative efforts with     forces and actively contribute to
    other federal agencies, states and           the task forces’ missions. When
    localities, tribal governments, community    describing pre-September 11,
    groups, foreign countries, and others.
    Since critical crime and justice issues
                                                 2001, partnerships in an April
    transcend traditional jurisdictional and     2004 National Commission on
    functional        boundaries,      effective Terrorist Attacks Upon the United
    partnerships are a key ingredient to         States Staff Statement, Executive
    achieving results. This is especially true   Director Philip Zelikow, stated that
    with information-sharing among law
    enforcement and intelligence communities
                                                 “state and local entities believed
    to prevent acts of terrorism against the     that they would gain little from
    United States.”                              having representatives on the
                                                 JTTF. Detailees were there as
    Source: U.S. Department of Justice FY 2003-
    2008 Strategic Plan
                                                 liaisons rather than a full working
                                                 member.” 30

      Our interviews and survey results indicate that the situation has
changed since September 11, 2001. Agency representatives regularly lead
cases, receive taskings in their areas of expertise, and participate in the initial
stages of the investigative process. The following table provides our survey
results.




        30 Staff Statement No. 9, Law Enforcement, Counterterrorism, and Intelligence Collection

in the United States Prior to 9/11, National Commission on Terrorist Attacks Upon the United
States, April 13, 2004, page 10.

U.S. Department of Justice                                                                50
Office of the Inspector General
Evaluation and Inspections Division
           Table 7: Non-FBI Task Force Representatives’ Perceptions of the
                   Work Performed and Assignments Received

           Survey Question: Considering your taskings for this task force,
                       please rate the following statements:

                            FTTTF respondents               JTTF respondents              NJTTF respondents
                            answering “strongly            answering “strongly            answering “strongly
                             agree” or “agree”              agree” or “agree”              agree” or “agree”
I receive taskings in
my area of                                        86%                           78%                                 79%
expertise.
I am assigned as the
lead investigator                                  N/A                          62%                                 N/A
when appropriate.
I am included in the
initial stages of                                 83%                           71%                                 77%
tasking.
I make worthwhile
contributions to the                              88%                           86%                                 86%
task force’s mission.
       Source: Office of the Inspector General, Counterterrorism Survey, January 2004.
       Note:   The data above excludes responses received from FBI staff assigned to the task forces and
               those respondents who provided answers of not applicable or unknown. The percentages
               shown above represent those respondents who selected strongly agree or agree from a scale
               that included strongly agree, agree, neutral, disagree, strongly disagree, not applicable, or
               unknown. N/A = Not applicable.


      Within the Department, the task forces and councils also have improved
partnerships between the FBI and the USAOs in the following ways:

       •   FBI JTTF supervisors also are members of the ATACs and brief the
           ATAC members on the latest terrorism-related information and
           incidents nationwide or internationally that may have relevance or
           significance to that district.

       •   Some ATAC Coordinators have assigned their Intelligence Research
           Specialists to work at the JTTF to facilitate the exchange of
           intelligence and case information. This arrangement has benefited
           both the JTTF and the ATAC Coordinator, because the Intelligence
           Research Specialist offers analytical assistance to the JTTF and
           shares information directly with the ATAC.

       •   ATAC Coordinators and other AUSAs work with the JTTFs from the
           initial point of surveillance and investigation through prosecution and
           sentencing to ensure that appropriate legal requirements and
           strategies are followed.



U.S. Department of Justice                                                                                     51
Office of the Inspector General
Evaluation and Inspections Division
      The ATACs also have developed a closer partnership between the USAOs
and CTS. The six Regional Coordinators assigned to CTS work with the ATAC
Coordinators within a region to identify national trends or legal issues and
develop investigative and prosecutive strategies to address those issues.
Deputy Attorney General Comey told us that the U.S. Attorneys historically
prided their independence, but now there is greater coordination and
information sharing between the USAOs and the Criminal Division.

      To further promote this information sharing, Deputy Attorney General
Comey issued a memorandum in January 2005 setting forth guidance on how
the USAOs and CTS should coordinate on international and domestic terrorism
matters. 31 This memorandum provides interim guidance on information
sharing between USAOs and CTS for terrorism-related topics and notification
requirements that include CTS contact information.

       To further develop and coordinate investigative and prosecutive
strategies in terrorism matters, CTS, with assistance from EOUSA, has
provided training sessions to the ATACs and other AUSAs who prosecute these
cases. Training has included such topics as Prosecuting Terrorism Hoaxes,
and Fundamental Principles Governing Extraterritorial Prosecutions –
Jurisdiction, Venue and Procedural Rights. Additionally, CTS has issued
memoranda to the ATAC Coordinators providing guidance and advice on the
applicability of charges stemming from situations such as using Ricin as a
terrorist weapon, and hostage taking and bombing incidents involving schools
or educational facilities.

      Regional training sessions, conferences, and several live teleconferences
broadcast by satellite also have been provided by EOUSA’s Office of Legal
Education with coordination and assistance from the FBI. Topics have
included:

       •    Handling of Classified Information,
       •    Information Sharing,




       31 The guidance “will be implemented on a temporary basis for one year; at the
conclusion of which the Attorney General’s Advisory Committee and the Assistant Attorney
General for the Criminal Division will confer with the Deputy Attorney General and the
Attorney General to determine whether these provisions, or any modifications, should be
adopted on a permanent basis.” Memorandum for All United States Attorneys Anti-Terrorism
Advisory Council Coordinators, U.S. Department of Justice, Deputy Attorney General James B.
Comey, January 13, 2005.

U.S. Department of Justice                                                          52
Office of the Inspector General
Evaluation and Inspections Division
       •   Overview of Anti-                             Partnerships at Work
           Terrorism Efforts,
                                      While servicing a rear lavatory at approximately 11:30 p.m.,
       •   Community Threat           on October 16, 2003, a Southwest Airlines maintenance
           Assessments,               technician in New Orleans discovered a plastic storage bag
                                      containing bleach, molding clay, box cutters, matches, and
       •   Attorney General           an anonymous note. At the same time, identical materials
           Guidelines in              were found on a Southwest aircraft in Houston.
           Domestic Terrorism
                                      The Federal Air Marshal notified the FBI’s Counterterrorism
           Investigations,            Watch Unit (CT Watch) of these incidences, and at 6:00
       •   Anthrax                    a.m. on October 17, the NJTTF was informed of this matter.
           Investigations,            Because of its partnerships and co-location of its members,
                                      the NJTTF simultaneously notified the agencies needed to
       •   Financial                  investigate these incidents and directed each agency to
           Investigations,            search its databases and notify the NJTTF of any potential
       •   Methods of Operations      leads or suspects. The NJTTF also held a meeting with all
                                      FBI SACs about the threat incidents and sought the field’s
           by Al Qaeda; and           assistance in identifying potential leads. An NJTTF
       •   FBI intelligence           member from the Transportation Security Administration
           briefings.                 (TSA) searched the TSA’s databases and found that on
                                      September 15, 2003, Nathaniel T. Heatwole had sent an e-
                                      mail to its Contact Center claiming that he had committed
       CTS and EOUSA also             these acts, and he characterized his deed as an “act of civil
have worked jointly to plan and       disobedience with the aim of improving public safety.”

provide annual training               Through the coordinated efforts of the NJTTF, Baltimore
conferences for the ATAC              JTTF, CTS, TSA, and the Federal Air Marshals, Mr.
Coordinators with sessions that       Heatwole was apprehended by 2:00 p.m. that afternoon.
                                      Without the partnerships, a key FBI official estimated that
focused on terrorism-related          it would have taken at least five days to solve this case.
legal issues and guidance for
prosecutors.                          Mr. Heatwole was originally charged with a felony violation
                                      of Title 49 United States Code, Section 46505(b)(1),
                                      “carrying or attempting to carry a concealed dangerous
The Task Forces and Councils          weapon on an aircraft that is accessible to the individual in
Have Expanded Partnerships            flight,” which carries a maximum sentence of ten years.
                                      Instead, Mr. Heatwole pled guilty to a misdemeanor charge
                                      of entering an airport area in violation of security
       We also found that the         requirements. On June 24, 2004, the U.S. District Court
post-September 11, 2001,              sentenced Mr. Heatwole to two years of supervised
                                      probation and a $1,000 fine.
terrorism task forces and
councils have expanded
partnerships by including a wider range of participants. The task forces and
councils now include members from law enforcement, the intelligence
community, private business, and federal, state, and local governments.

      The JTTFs combine FBI personnel with hundreds of investigators from
various federal, state, and local agencies, who are considered important “force




U.S. Department of Justice                                                                53
Office of the Inspector General
Evaluation and Inspections Division
multipliers.” 32 JTTFs increased 194 percent, from 35 task forces pre-
September 11, 2001, to 103 task forces in March 2005. The number of JTTF
members has grown 458 percent, from 912 members pre-September 11, 2001,
to 5,085 members in January 2005.

      The ATACs also have increased their membership. While the number of
ATACs is fixed at one per USAO district (Guam and Northern Mariana Islands
operate one joint ATAC), membership on ATACs increased by 83 percent from
6,000 members in FY 2002 to approximately 11,000 members in FY 2005.

       The NJTTF expanded its number of member agencies from 30 in July
2002 to 40 in January 2005, and its number of members from 55 to 62. It also
increased its partnerships with state and local law enforcement agencies by
permanently accepting representatives from the District of Columbia’s and New
York City’s police departments and by participating in the FBI’s Police
Executives Fellowship Program. 33 The program enables police officers from
state and local law enforcement agencies nationwide to work at the NJTTF (and
other FBI divisions) on a 6-month rotational basis to gain first-hand knowledge
of how the FBI operates and to access FBI information. The two fellowship
program representatives assigned to the NJTTF during our fieldwork told us
that the program allowed their agencies to work together and provided valuable
contacts for future coordination. The fellowship program representatives also
worked on specific initiatives designed to improve state and local agencies’
abilities to detect and deter terrorism, such as:

       •    Developing the Terrorism Quick Reference Card used by state and
            local law enforcement officers to spot the warning signs of potential
            terrorist threats, and

       •    Increasing state and local law enforcement’s use of the LEO system.

      In July 2004, the NJTTF moved its operations to the Terrorist Threat
Integration Center (TTIC), now known as the National Counterterrorism Center
(NCTC). The NJTTF now has direct access to the centralized intelligence
generated by NCTC. The NJTTF Unit Chief stated that the move to NCTC
increased the NJTTF’s workspace capacity from 40 to 82 members.


       32 Statement of John S. Pistole, Executive Assistant Director, Counterterrorism and
Counterintelligence, FBI, before the National Commission on Terrorist Attacks Upon the United
States, April 14, 2004.

       33 The Department funds the Police Executives Fellowship Program, which is managed

by the FBI’s Office of Legal Education. As of June 2004, four local police departments had
assigned representatives to the NJTTF: San Jose, California; Kansas City, Missouri; the City of
Alexandria and Fairfax County, Virginia.

U.S. Department of Justice                                                              54
Office of the Inspector General
Evaluation and Inspections Division
       The FTTTF has a critical partnership with the DOD CIFA/Joint
Counterintelligence Assessment Group that has assisted the FTTTF in its
efforts. At the inception of FTTTF, DOD/CIFA provided financial resources,
hardware, software, systems and procurement expertise, and office space to the
task force. DOD/CIFA has a complementary mission to the FTTTF, as well as
the technical expertise that assisted the FTTTF in development of a database
warehouse and analytical tools. Additionally, the FTTTF has attempted to
increase the number of its participating agencies, especially DHS components
because of the importance of immigration and customs data to tracking and
locating foreign terrorists. The DHS informed the FTTTF Director that they
would look into adding more members, but indicated that a severe shortage of
resources has limited its ability to do so as of January 2005. To attract more
participants, the FTTTF Director holds monthly liaison meetings with a broad
range of agencies, including DHS components, as well as international law
enforcement and intelligence agencies.




U.S. Department of Justice                                             55
Office of the Inspector General
Evaluation and Inspections Division
       The   JTTFs     are   implementing     the    FBI’s  new
       counterterrorism investigative strategy that has provided
       them with increased capabilities to help the Department
       achieve its strategic goal of preventing terrorism and
       promoting the nation’s security.      The FBI also has
       improved its agents’ access to automated investigative
       information.

      During his February 24, 2004, congressional testimony, FBI Director
Robert Mueller reported, “The Joint Terrorism Task Forces have played a
central role in virtually every terrorism investigation, prevention, or interdiction
within the United States over the past year.” 34 The FBI reports that since
2001 it has disrupted and dismantled multiple terrorist operations.

Developing Intelligence

       Before September 11, 2001, the FBI classified its terrorism investigations
as either criminal (265 file code) or intelligence (199 file code). Sharing of
intelligence between the criminal and intelligence components of the FBI was
difficult even when the subject of the criminal and intelligence investigations
was the same person. 35 Since September 11, 2001, the FBI has changed its
counterterrorism investigative strategy from emphasizing criminal prosecutions
to developing intelligence. It consolidated the former 199 and 265 file codes
and initiated a new intelligence investigation (315) file code. With the 315s, the
FBI defines the primary purpose of its counterterrorism investigations as
“developing intelligence regarding the subject or the threat.” The work
performed by the JTTFs focuses upon identifying terrorists, terrorists groups,
and the efforts used by terrorists to support their operations such as financial,
recruitment, communication, and other support networks.

      JTTF task force members, participating agency executives, and FBI
headquarters managers stated that developing human assets (i.e., informants
and sources) is an integral part of developing intelligence. The JTTFs focus on
developing human assets and the FBI tracks the number of human assets
developed by field offices. Although the numbers fluctuate as assets are
opened and closed, the FBI reported that from August 30, 2001, through
September 30, 2003, its international terrorism human assets increased by


       34 Testimony of FBI Director Robert S. Mueller III, Hearing on Worldwide Threats, The
Senate Select Intelligence Committee, February 24, 2004.

         35 In July 2004, the OIG issued a report that examined the FBI’s handling of

intelligence information prior to September 11, 2001: The Handling of Intelligence Information
Prior to the September 11 Attacks, U.S. Department of Justice, Office of the Inspector General,
July 2, 2004.

U.S. Department of Justice                                                               56
Office of the Inspector General
Evaluation and Inspections Division
more than 60 percent and the domestic terrorism human assets increased by
more than 40 percent. 36

Addressing All Leads and Threats

       The Director of the FBI requires that no counterterrorism leads or threats
go unaddressed. 37 To meet this mandate, the JTTFs use task force members
and agents assigned to other squads in the FBI’s field offices to cover JTTF
taskings. Some JTTFs (such as the New York City and Los Angeles JTTFs)
assign specific squads to handle all incoming leads, perform preliminary
checks of the information provided, and then assign the leads to the
appropriate team. This helps to streamline the preliminary work performed by
the JTTFs and minimizes the intervention needed from non-JTTF agents. The
work performed by the members of the JTTF squad and other FBI agents
temporarily assigned to support the squad is combined and reported by field
offices in two categories: international terrorism and domestic terrorism.

       The JTTFs use the FBI’s Model Counterterrorism Investigative Strategy
as a “blueprint” for conducting these intelligence driven and intelligence
focused investigations. The JTTFs can use various techniques in international
terrorism investigations to gather information on national security threats
without opening a full or preliminary investigation. 38

Investigative Data Warehouse (IDW)

       Our interviews and survey results showed that the majority of non-FBI
task force members with clearances did not have direct or complete access to
the ACS system, even though such access was permitted by policy, which
caused delays in their investigations. However, subsequent to our site visits
the FBI developed an information technology system, known as IDW, to
enhance investigative information available to JTTF agents. From the IDW
demonstration we observed, it appears that the IDW has the capability to
resolve the ACS system access problems we encountered in the FBI field
offices.

      The IDW is a “centralized, web-enabled repository for relevant intelligence
and investigative data that allows users to query the information utilizing


       36Report to the National Commission on Terrorist Attacks: The FBI’s Counterterrorism
Program Since 2001, FBI, April 14, 2004, p. 64.

     37 Counterterrorism Division Program Management, Electronic Communication #66F-

HQ-A1308701, FBI, Director Robert Mueller, December 25, 2002.

       38   The FBI’s Model Counterterrorism Investigative Strategy, FBI, July 15, 2003.

U.S. Department of Justice                                                                 57
Office of the Inspector General
Evaluation and Inspections Division
advanced software tools.” 39 The IDW is not a case management system but
rather a “pointer system” that allows a user to enter different search terms and
conducts a “Google” search of a variety of FBI and non-FBI databases,
including: ACS Electronic Case File, ICE arrival and departure information on
non-immigrants (I-94) data, Financial Crimes and Enforcement Network data
from the Department of Treasury, No Fly List, FBI Terrorist Watch List, Violent
Gang and Terrorist Organization File (VGTOF), open source news (foreign and
domestic), U.S. Department of State VISA fraud data, lost or stolen passport
data, and other intelligence community information. Search results are
displayed in a web format, and users can click directly on “links” to the
highlighted documents as well as search within the results for a more focused
analysis. Additionally, IDW can conduct “batch queries” where sets of data
(such as names, phone numbers, or addresses) are run through all the
databases in IDW.

      As of April 2005, the IDW was populated with one billion records in a
variety of databases, and the FBI estimates that within six months IDW will
have access to one and a half billion records. There are approximately 7,000
IDW users in the FBI, including JTTF members. The FBI plans to have one-
third of all the field offices trained on IDW by the end of 2005. IDW allows FBI
and non-FBI JTTF members access to a variety of information that enables
them to conduct terrorism investigations in a more efficient manner because
IDW queries multiple databases simultaneously.




         39 In November 2003, the Counterterrorism Division, along with the Terrorist Financing

Operations Section (TFOS), in the FBI began a special project to augment the existing IDW
system with new capabilities for use by FBI and non-FBI agents on the JTTFs. The FBI Office
of Intelligence is the executive sponsor of the IDW. The IDW Special Projects Team was
originally initiated for the 2004 Threat Task Force.

U.S. Department of Justice                                                              58
Office of the Inspector General
Evaluation and Inspections Division
NEEDED IMPROVEMENTS

       Although the task forces and councils have facilitated the Department’s
counterterrorism efforts, we believe there are areas in which their performance
and effectiveness can be improved. We begin with issues that are Department
level or commonly found across task forces and councils, followed by issues
that are specific to an individual task force or council.

National Security Coordination Council

        Although the National Security Coordination Council (NSCC) is
        an important and beneficial forum for Department leaders, the
        NSCC’s role is unclear for long-term counterterrorism
        planning, centralizing and coordinating counterterrorism
        policy and operations, and monitoring policy implementation
        by the components.

                       NSCC Functions
                                                                       In March 2002, the
                                                               Attorney General established the
The Attorney General established the NSCC with the principal   NSCC and defined six functions
mission of ensuring “a more seamless coordination of all
functions of the Department relating to national security,     for it to implement. We found
particularly the Department’s efforts to combat terrorism      that the NSCC does not fully
directed against the United States,” and directed it to:
                                                               perform two of these Attorney
•   Centralize and coordinate policy, resource allocation,     General mandated functions:
    operations, and long-term planning of Department
    components regarding counterterrorism,                     1) centralizing and coordinating
    counterespionage, and other major national security        policy, operations, and long-term
    issues;
                                                               planning of DOJ components,
•   Monitor the implementation of Department policy to         and 2) monitoring
    ensure that components are taking necessary and
    appropriate actions to prevent and disrupt the             implementation of Department
    occurrence of terrorist attacks in the United States;      policy regarding
•   Provide an institutionalized Department forum for crises   counterterrorism issues. The
    management;                                                NSCC also has not delegated
•   Promote coordination and information-sharing within        these responsibilities to another
    the Department, between the Department and other           Department entity. We also
    federal agencies and interagency bodies, and between
    the Department and state and local law enforcement         found that no guidelines have
    authorities, to prevent, prepare for, and respond to       been developed defining
    terrorist attacks within the United States;
                                                               responsibilities of NSCC member
•   Frame national security issues for resolution by the       in carrying out the NSCC’s
    Deputy Attorney General or the Attorney General; and
                                                               functions. These functions may
•   Ensure that positions advanced by the Deputy Attorney      therefore be interpreted
    General on behalf of the Department at interagency
    meetings of the National Security Council, the Homeland    differently and some functions
    Security Council, and other interagency forums reflect     may not be carried out at all as
    input from Department national security components.
                                                               the NSCC’s leadership and
                                                               members change.

U.S. Department of Justice                                                                59
Office of the Inspector General
Evaluation and Inspections Division
      We also found during interviews that the members have differing views
on the functions of the NSCC which may affect its performance of some
mandated functions. When asked about two of the NSCC functions related to
the Department’s counterterrorism policy monitoring and long-term planning,
some NSCC members either could not explain how these occurred or did not
see their role on the NSCC as carrying out these functions. As examples of the
varied views on these functions, some of the members made the following
comments when asked: “How does the NSCC monitor the implementation of
the Department’s counterterrorism policies? What form of policy direction has
the NSCC given to shape the agency’s counterterrorism operations?”

              •   We don’t monitor them; we don’t hear feedback that
                  something has happened.          There is no policy
                  direction as it relates to my agency.

              •   I don’t know.     This comes out of the Deputy
                  Attorney General’s office.

              •   The NSCC does not compartmentalize               the
                  Department’s counterterrorism operations        into
                  policies.

              •   No one sits there and writes policy. Often times an
                  issue comes up which will eventually become
                  policy. Attorneys are there to share concerns on
                  existing law - congressional folks are there. We’re
                  framing policy in a general sense; we discuss
                  advantages and disadvantages of issues that come
                  up.

Additionally, some members provided the following responses when asked:
“What long-term planning has been carried out for the task forces through the
NSCC?”

              •   Not by the committee as a whole. We don’t push a
                  certain direction as a group.

              •   For most of the time, we were so reactive, it was
                  hard to do long-term planning.         Allocation of
                  resources was discussed which has long-term
                  implications, and a discussion of FISA.




U.S. Department of Justice                                               60
Office of the Inspector General
Evaluation and Inspections Division
              •   The NSCC has used the budget process to plan for
                  the DOJ’s counterterrorism initiative. Terrorism
                  task forces are part of the DOJ’s long-term plan;
                  however, the NSCC doesn’t have a set mission
                  statement.

              •   There’s a general construct in which they operate –
                  but we’re dealing with a shifting issue [terrorism].
                  Two years ago, there was a concentrated
                  hierarchical structure in Afghanistan. Now we’re
                  looking at the distributed mode (e.g., IMDs (or IADs)
                  and the link between bombs that strike targets and
                  those responsible.

       Some NSCC members, however, were able to provide us with
examples of past or present policy coordination. One example was that
the NSCC provided guidance to the Attorney General for defining the
roles of the ATACs in relation to the JTTFs. In addition Deputy Attorney
General Comey stated that the NSCC is planning to play a role in the
development of policy through the Justice Intelligence Coordination
Council, which will determine how law enforcement agencies share
intelligence information. 40

      On questions related to the remaining four functions, however, NSCC
members were able to articulate clearly how the NSCC carried these out. These
functions are:

              •   coordination and information sharing within or
                  between the Department and other federal state
                  and local bodies;

              •   centralizing and coordinating resource allocation;

              •   framing national security issues for resolution by
                  the Deputy Attorney General or Attorney General;
                  and

              •   ensuring that positions advanced by the Deputy
                  Attorney General at interagency meetings reflect


         40 Attorney General John Ashcroft created the Justice Intelligence Coordination

Council on February 25, 2004, as a senior-level coordinating mechanism for all intelligence
activities in the Department. The council was developed to improve integration of intelligence
and provide consistency in the sharing of intelligence across the Department.

U.S. Department of Justice                                                              61
Office of the Inspector General
Evaluation and Inspections Division
                  input from the Department national security
                  components.

Members described the positive role the NSCC played in carrying out these
functions by:

              •   keeping the DAG apprised of terrorism issues
                  important to each component;

              •   receiving briefings by outside agencies or other
                  non-member components on national security or
                  terrorism related issues;

              •   providing an information sharing forum for senior
                  DOJ officials who would not ordinarily meet w/one
                  another; and

              •   annually reviewing the DOJ’s budget submission
                  and resources related to the department’s terrorism
                  initiative.

      Based on these interviews, we concluded that the NSCC has not
emphasized its role in centralizing and coordinating terrorism policy and
operations, conducting long-term counterterrorism planning, or
monitoring the implementation of counterterrorism policy in the
Department.

      Although the NSCC members could not address all the NSCC’s
functions, we found that the NSCC does serve as an effective forum for
sharing counterterrorism information among its members. Comments
from the former and current Deputy Attorneys General emphasized the
NSCC’s coordination and information sharing functions:

       Former Deputy Attorney General Thompson

              NSCC was created as a formal coordination
              mechanism within the DOJ to reinforce that
              prevention and disruption of terrorism is the
              Department’s first priority; and to ensure that
              information sharing and open discussions continue in
              a formal setting. The NSCC allows the component
              heads to get together and talk from a policy and
              procedural standpoint.



U.S. Department of Justice                                                  62
Office of the Inspector General
Evaluation and Inspections Division
       Deputy Attorney General Comey

              [The NSCC’s purpose is] To bring together everyone in
              the Department that is touching on national
              intelligence and justice issues. To have people in the
              same room on a regular basis who don’t usually
              meet…

       In addition, all NSCC members informed us that the meetings are
beneficial. They said that the NSCC discusses terrorism matters and
threats, and reviews the Department’s annual budget for
counterterrorism resource allocations. The NSCC also receives project
status updates on various agency initiatives and national security issues
such as a DEA briefing on terrorist operations in South America, a CIA
briefing on foreign terrorist threats, or a BOP briefing on terrorism in the
prisons. Additionally, the NSCC has a broader mission beyond our focus
of the task forces: coordinating all Department functions relating to
national security issues. Toward that end, sub-groups of the NSCC have
undertaken coordination of several national security initiatives as
described previously in the Background section of this report.

CONCLUSION

      The NSCC has not fully performed the policy, operations, planning, and
monitoring functions mandated by the Attorney General. We believe that if the
NSCC performed all its functions, it could address larger or overarching issues
unresolved at the task force level (which we have discussed in this report) as
part of the Department’s counterterrorism efforts. These issues include:
information sharing with law enforcement agencies and first responders in
remote and rural areas; additional funding for the ATACs; FTTTF’s acquisition
of databases from agencies outside the Department; DEA’s participation on the
JTTFs; DHS’s participation on the JTTFs; and coordinating activities and
information sharing between the ATACs, JTTFs, DHS, and the states’ homeland
security task forces.

      Further, the NSCC has not developed guidelines to fully define for its
members their responsibilities in implementing the functions of the NSCC.
Therefore, as the NSCC’s leadership and members change, the functions may
be interpreted differently or not fully performed.

RECOMMENDATION

1. The Department should assess the counterterrorism functions outlined in
the Attorney General’s memorandum establishing the NSCC and determine if


U.S. Department of Justice                                                     63
Office of the Inspector General
Evaluation and Inspections Division
they are still appropriate for the NSCC. If they are, the Department should
ensure that written guidance describes the responsibilities of the NSCC and
that the NSCC carries out its assigned functions. If the functions are not
appropriate for the NSCC, they should be assigned to another Department
entity.




U.S. Department of Justice                                              64
Office of the Inspector General
Evaluation and Inspections Division
       The FBI has not developed a national training plan for the task
       forces, defined minimum training standards, or conducted a
       training needs assessment to determine the training needs of
       task force members. Similarly, neither EOUSA nor CTS has
       developed a training plan or conducted a training needs
       assessment for the ATAC Coordinators or members.
       Notification of available training is ad hoc, and non-FBI task
       force members believe that FBI members get preference for
       training notification and attendance.

       The majority of task force and council members we interviewed or
surveyed had no prior experience with either domestic or international
terrorism before joining the task force or advisory council. Identifying terrorists
and terrorist threats, conducting a terrorism investigation, developing sources,
or planning for terrorist incidents were all new subjects for a majority of those
members. More than half (51 percent) of the survey respondents reported that
they required training in counterterrorism. The prolific growth of the JTTFs
and ATACs, combined with task force and council members’ widespread lack of
experience and exposure to all facets of terrorism, has increased the need for
additional training with a well-defined training plan and minimum training
standards.

No National Training Plan Exists for Task Forces or Advisory Councils

       Although training courses are available to task force and council
members, neither FBI, CTS, nor EOUSA officials have developed national
training plans for task force and council members. 41 Without a national
training plan, counterterrorism training for task force and council members is
determined locally, varies widely, and results in training inequities. For
example, some FBI field offices required their task force members to complete
two FBI interactive multimedia instruction CD-ROMs entitled “Basic
International Terrorism” and “Basic Domestic Terrorism.” Other field offices
stated that they send their JTTF members to a basic counterterrorism course
at the FBI Academy in Quantico, Virginia. Others developed their own training
and brought in speakers on topics such as identifying terrorist groups and
their characteristics, cultural sensitivity, terrorism financing, and terrorism
investigative strategies. Yet, other field offices told us they sometimes hold



        41 Deputy Attorney General Larry D. Thompson issued a memorandum on

December 24, 2002, requiring all Department lawyers (including ATAC Coordinators) and FBI
special agents (including JTTF supervisors and JTTF members) working on foreign intelligence
or counterintelligence to complete Foreign Intelligence Surveillance Act/USA Patriot Act
training. The Department has not mandated any training for the FTTTF and NJTTF
participants.

U.S. Department of Justice                                                            65
Office of the Inspector General
Evaluation and Inspections Division
their agents back from training due to the high workload of the task force and
lack of resources.

      Some ATACs meet on a regular basis (either monthly, bi-monthly, or
quarterly) and try to present speakers who address terrorism-related topics at
each meeting, while others may not conduct meetings or training for almost a
year. Some ATAC survey respondents told us they had never received training
from the ATAC or needed more detailed training, and stated for example:

              • I have not received training due to no budget being
                provided. Recommend providing a budget for both
                basic and advanced training initiatives.

              • The limited training was provided in-house at
                quarterly meetings in the form of briefings. It all
                has value, but from my perspective as a member, I
                require more related information and training.

       FBI

       In the last three years, oversight for counterterrorism training in the FBI
has changed three times, with no one assigned responsibility to develop a
national training plan for the task forces. Immediately after
September 11, 2001, the Counterintelligence Division at FBI headquarters had
responsibility for counterterrorism training. In December 2002, the Training
Division located at the FBI Training Academy in Quantico was given the
responsibility of providing counterterrorism training to FBI employees as well
as to state and local law enforcement personnel. One staff member from the
Counterterrorism Division was loaned to the Training Division to assist with
this large undertaking. While the FBI Counterterrorism Division worked with
the FBI Academy Training Division to provide guidance and assistance on the
type of training to be offered, Academy officials stated that due to their limited
staff and resources (housing, space, and budget), they were not able to absorb
a comprehensive counterterrorism curriculum for task force members
nationwide into their existing program at the Academy.

      In October 2003, following a major restructuring of the Training Division,
responsibility for counterterrorism training was given to the Counterterrorism
Division at FBI headquarters. The Counterterrorism Division is now
responsible for developing, coordinating, and implementing all
counterterrorism training for FBI personnel, both in field offices and FBI
headquarters, and for JTTF members. Two SSAs initially were assigned to
develop a new Counterterrorism Training Unit, and in May 2004 written
approval was given to officially establish the unit. The Counterterrorism


U.S. Department of Justice                                                  66
Office of the Inspector General
Evaluation and Inspections Division
Training Unit was staffed with two SSAs, two Intelligence Analysts, and a
Secretary. As of November 2004, the two SSAs had transferred to other
divisions and been replaced by two new SSAs.

       Developments in FBI Counterterrorism Training: In January 2004, the FBI
implemented a new training curriculum designed specifically for JTTF
members entitled, “Counterterrorism: A Strategic and Tactical Approach.” The
FBI contracted with Booz Allen Hamilton to design this 4½ day course with
input from subject matter experts from the FBI’s Counterterrorism and
Training Divisions. The course covers approximately 20 topics, including “The
Threat Based Approach to Counterterrorism,” “Developing Sources,”
“Undercover Operations,” and “Working with Your Community.” The majority of
those who had attended this course rated it very favorably on the course
evaluation sheets, stating that it was valuable and informative; but they also
commented that the course is needed by task force members shortly after they
begin on the task force or within 90 days of their arrival to effectively perform
their duties as soon as possible.

        The “Counterterrorism: A Strategic and Tactical Approach” course covers
topics previously identified as needed by task force members. However, this
course is not mandatory for task force members and selection for participation
is left up to the task force supervisor’s discretion. The course has been
provided to 258 JTTF members and analysts from January through October
2004 with the goal of continuing to offer it until the majority of JTTF members
have attended. While this is a positive development, because the course is
offered monthly to only a small percentage of JTTF members from a few field
offices, at the current rate it will take 14 years to train all 5,085 JTTF
members.

      In addition to the “Counterterrorism: A Strategic and Tactical Approach”
course, the FBI also has a Counterterrorism Training section on the FBI’s
intranet. Task force members can access counterterrorism virtual training,
CD-ROMs, the FBI and CIA’s course catalogues, and other online information
resources on terrorism. The FBI also reported that it has other new terrorism
related training initiatives under way for new and existing employees:

       •   The expansion of time devoted to terrorism topics from 55 hours
           to 110 hours in the FBI New Agent Training course, and




U.S. Department of Justice                                                   67
Office of the Inspector General
Evaluation and Inspections Division
       •    The addition of in-service training courses such as
            “FISA/Patriot Act,” “Human Source Recruitment,” and language
            training. 42

Lack of Minimum Training Standards May Affect Some Task Force Members
Receipt of Training

       Although many task force members had received some counterterrorism
training, we found that a significant percentage had no basic introductory
training on terrorism for months, and sometimes years, since becoming
members of the task force Task force members are normally experienced
criminal investigators, but as stated previously, most have no experience in the
counterterrorism field. Our survey results showed that 29 percent of all task
force members (JTTF, NJTTF, and FTTTF) have not received any terrorism-
related training since becoming members. Some respondents complained
about this lack of training, stating for example:

              • Needs are known, training hasn’t been available.
                “Basic” training became available after 2+ years on
                the job.

              • I haven’t had any training regarding terrorism,
                counterterrorism or anything else regarding this
                task force.

              • There has been no training offered, other than how
                to deal with paperwork – of which there has been
                none.

              • I have never received any terrorism training. [I am]
                unsure of my role on the task force.

       The FBI had stated that by the end of 2003, basic counterterrorism
training would be provided to every JTTF member, and it has made progress in
its training efforts. 43 However, we found that in January 2004, 16 percent of
the JTTF survey respondents, 37 percent of the NJTTF survey respondents,
and 38 percent of the FTTTF survey respondents still had not completed any
terrorism training since becoming members. Of the 16 percent of JTTF


       42Report to the National Commission on Terrorist Attacks: The FBI’s Counterterrorism
Program Since 2001, FBI, April 14, 2004.

      43 Testimony Senate Select Committee on Intelligence, FBI Director Robert Mueller,

February 2003.

U.S. Department of Justice                                                             68
Office of the Inspector General
Evaluation and Inspections Division
members who reported no training, half had been members of the JTTF for
more than a year (the time on the task force without training was a median of
390 days for JTTF survey respondents). Two task force members had been on
the JTTF for over 800 days without any counterterrorism training.

       Thirty-seven percent of the NJTTF survey respondents reported that they
had received no training (the time on the task force without training was a
median of 375 days for NJTTF survey respondents), although some NJTTF
survey respondents had been on the task force as long as 600 days without
training. Thirty-eight percent of the FTTTF survey respondents had received no
training (the time on the task force without training was a median of 240 days
for FTTTF survey respondents), some for as long as 540 to 810 days. The
following figure shows the length of time task force survey respondents spent
on a task force without training.



                    Figure 5: Length of Time on Task Force Without
                                        Training
               100%
                90%
                                                                                          6 months or less
                80%
                70%                                                                       7 to 12 months
  Percentage




                60%
                                                                           50%
                50%           43%      43%                                                More than 12
                                                                                          months, less than
                40%                                    33% 33%                    33%     or equal to 2 years

                                                                                          More than 2 years
                30%
                                                  17%             17%               17%
                20%        7%              7%
                10%
                 0%
                               JTTF                  NJTTF                      FTTTF

               Source: OIG, Counterterrorism Task Force Survey, January 2004.


       We visited an FBI field office that had one of only three onsite training
offices nationwide. Yet even this office had no minimum training standards or
organized training plan for task force members.




U.S. Department of Justice                                                                          69
Office of the Inspector General
Evaluation and Inspections Division
       EOUSA and CTS

       One of the main functions of the ATACs is to provide counterterrorism
training to members. However, in our survey of ATAC members, 47 percent
reported that there was training they needed or should have received but did
not. Yet, EOUSA and CTS have not developed a national training plan,
minimum training standards, or a training needs assessment for ATAC
Coordinators and members.

        While CTS and EOUSA’s Office of Legal Education have provided training
sessions for the ATAC Coordinators, the focus has primarily been on the legal
and investigative aspects of terrorism-related cases to ensure a consistent and
unified prosecutorial approach to these cases. However, the ATACs need
training and guidance on the administrative aspects of managing the ATAC.
The ATAC Coordinators we interviewed stated that they want guidance on the
type of training that should be offered to ATAC members and on how to identify
trainers. The ATAC Coordinators also said that the provision of training,
particularly training on terrorism prevention and planning, to law enforcement
personnel and community members is a new responsibility for which they have
little or no experience. Therefore, the ATAC Coordinators need guidance and
assistance from CTS and EOUSA.

Training Needs Assessments Were Either Outdated or Never Completed

      The FBI Training Academy staff at Quantico told us that a JTTF training
needs assessment was conducted in the spring of 2002. However, despite our
repeated inquiries, they did not provide information on whether the results
from this assessment were analyzed or applied to develop any courses for JTTF
members. 44 No training needs assessment has been conducted since that time
even though the number of JTTFs has increased from 56 to 103, and the
number of JTTF members also has increased.

      In lieu of a training needs assessment, we surveyed task force and
council members to inquire how their training needs were determined at the
task force and council level. Sixty percent of all task force and advisory council
survey respondents indicated that their terrorism training needs were
“undetermined,” “self-determined,” “determined without their input,” or they
were “uncertain” of how their terrorism training needs were determined.




        44 We made repeated requests to the FBI’s Training Academy staff in Quantico,

Virginia, to determine what happened to the 2002 training needs assessment, but the Training
Academy has not responded.


U.S. Department of Justice                                                           70
Office of the Inspector General
Evaluation and Inspections Division
          Table 8: Task Force and Council Members’ Perceptions of
                    How Training Needs Were Determined.


               Method Used                   ATAC           FTTTF           JTTF      NJTTF

        Task force supervisor
        determined with my or my                  N/A             44%           29%     21%
        agency’s input.
        ATAC Coordinator
        determined with my or my                  27%             N/A           N/A     N/A
        agency’s input.
        Task force supervisor
        determined without my or                   1%             12%           11%     16%
        my agency’s input.
        ATAC Coordinator
        determined without my or                   9%             N/A           N/A     N/A
        my agency’s input.
        Self-determined                           13%             19%           14%      5%

        Not determined                            18%              0%           16%     32%

        Other method                              13%              6%           7%       0%

        Uncertain of method used                  16%             19%           20%     26%
              Source: OIG’s Counterterrorism Task Force Survey, January 2004.
              Notes: N/A = Not applicable


       Without a training needs assessment that is current and reflects the
members’ needs, task force and council managers or training staff cannot
gauge an individual’s or region’s training needs. While a majority of task force
and council members had no terrorism experience prior to joining the task
force, some do have terrorism experience and their training needs would
therefore be different. Additionally, the nature of the terrorist threat varies by
region and some regions such as the northwestern states may require more
emphasis on domestic terrorism topics, such as eco-terrorism or white
supremacist groups, than the northeastern states.

      More than half of the survey respondents stated that there is training
they need or should receive, as evidenced by the following figure.




U.S. Department of Justice                                                                    71
Office of the Inspector General
Evaluation and Inspections Division
                             Figure 6: Task Force and Council Members'
                                      Terrorism Training Needs


                    100%
                    90%
                    80%                                   74%

                    70%                                                                          Training
                                                                                                 Needed
      Percentages




                                 53%     54%                              51% 49%
                    60%
                           47%                 46%
                    50%
                                                                                                 Training Not
                    40%                                                                          Needed
                                                                26%
                    30%
                    20%
                    10%
                     0%
                           ATAC         JTTF            NJTTF            FTTTF



        Source: Analysis of OIG’s Counterterrorism Task Force Survey, January 2004
        Note:   Survey Question: “Is there counterterrorism training that you need or should receive that you have
                not taken?”


Some Members Receive No Notification of Training

      Many of the non-FBI task force members we interviewed and surveyed
stated that they received no notification of training, and they were unaware of
what training was available. The following were among the comments we
received from survey respondents indicating a lack of notification of training:

        JTTF

                       • [I] don’t know what is out there to submit a list of
                         what I think I need.

                       • Don’t know but I am sure there is training that is
                         offered and I don’t know about it.

        NJTTF

                       • I have not been aware of any training or training
                         opportunities.



U.S. Department of Justice                                                                                  72
Office of the Inspector General
Evaluation and Inspections Division
              • I assume there is training that could benefit me, but
                I am not aware of what it would be.

       FTTTF

              • It [training] would have been useful. I would still like
                to go to anything available, very little is available.
                We don’t receive any notices of it.

              • I still lack access and training to systems/resources
                that will allow me to perform my job much better.

              • I would like to see what the FBI is doing [regarding
                terrorism training]. No one has shared what the FBI
                has for training.

       ATAC

              • We have received very little training…. Agencies
                need to do a better job of informing members of
                training availability. Lack of training has impacted
                my work on the task force, both the JTTF and the
                ATAC.

      The FBI informed us that to facilitate counterterrorism training it has
included training information, training sources, and training courses on the
Counterterrorism Division website on the FBI intranet. The FBI stated that
each task force member has access to this website and is encouraged to take
advantage of these training packages.

Perceived Inequities in Training Offered to FBI Versus Non-FBI Task Force
Members

      Some non-FBI task force members believe that FBI agents are offered
more opportunities for counterterrorism training or believe that training is
available only to FBI members. Several non-FBI task force members also
informed us that they requested various training courses several times but had
not been approved to go by the FBI.

      An assessment of terrorism training equities between non-FBI and FBI
task force members was beyond the scope of this review. However, our survey
results show that only 11 percent of FBI agents reported that they had not
completed any counterterrorism training since joining a task force, but 26
percent of federal non-FBI agents and 21 percent of state and local agents


U.S. Department of Justice                                                 73
Office of the Inspector General
Evaluation and Inspections Division
reported that they had not completed any training. Additionally, a significantly
higher percentage of federal (non-FBI) and state and local survey respondents,
55 and 53 percent, respectively, did not review the FBI’s international terrorism
CD-Rom. Only 29 percent of FBI survey respondents did not review the
international terrorism CD-Rom.

       Survey respondents also commented on perceived inequities in training:

       JTTF

              • Upon entering the JTTF 7 years ago, I fulfilled the
                background tasks to be selected to attend formal
                training. As a non-federal CT [counterterrorism]
                task force member, we are routinely overlooked for
                training positions. All of my experience has been on
                the job or research conducted on my own.

       FTTTF

              • Occasional training is available but very few seats
                are available or the training is not available to all
                team members.

       We also found in our review of attendance rosters from two specific
training courses that targeted JTTF and NJTTF members that differences in
training participation existed in a few offices. 45 While the majority of the field
offices sent a mix of FBI and non-FBI JTTF members to one of the courses,
three field offices sent only FBI members to fill the six slots each was allotted.

CONCLUSION

       The lack of training notification and the perceived training inequities can
undermine the concept of full partnership on the task forces and councils and
impact work productivity. Without a national training plan that includes
minimum training standards and a needs assessment to identify and address
training deficiencies, actual and perceived training inequities and deficiencies
will continue.




       45 The courses were the September 2003 National Joint Terrorism Task Force Training

Conference and “Counterterrorism: A Strategic and Tactical Approach” course, which was
presented multiple times during the period of March through June 2004.

U.S. Department of Justice                                                          74
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATIONS

2. The FBI should develop a national training plan for each task force that
includes:

    •   Responsibility for developing and managing the training plan and
        program,
    •   Initial needs assessment,
    •   Frequency of future needs assessments,
    •   Development of minimum mandatory training standards and time
        frames for completion of training, to include completion of the
        introductory training session within 90 days of joining the task force.
    •   Required minimum annual training hours,
    •   Target audience – training equities for FBI and non-FBI task force
        members, and
    •   Responsibility for training notification to the field.

3. EOUSA’s Office of Legal Education, along with CTS, should develop a
national training plan for ATACs that includes:

    •   Initial needs assessment of ATAC Coordinators,
    •   How to manage and structure an ATAC (membership, frequency of
        meetings, methods and sources of communication, how to conduct an
        ATAC members’ needs assessment, identify trainers, and develop a local
        training plan),
    •   Frequency of future needs assessments for ATAC Coordinators and
        ATACs,
    •   Development of minimum mandatory training standards and time
        frames for completion of training for ATAC Coordinators,
    •   Required minimum annual training hours for ATAC Coordinators, and
    •   Responsibility for training notification to the ATAC Coordinators.

4. The ATAC Coordinators should conduct training needs assessments and
develop a training plan for ATAC members.




U.S. Department of Justice                                                  75
Office of the Inspector General
Evaluation and Inspections Division
       The FBI has not developed a structured, systemwide
       orientation program for new JTTF and NJTTF members.
       Additionally, the FBI has not provided written guidance that
       defines the roles and responsibilities of its task force
       members.

The FBI Has Not Developed a Structured, Systemwide Orientation
Program for New JTTF and NJTTF Members

      We found that a significant number of both FBI and non-FBI members of
the JTTFs and the NJTTF did not receive an orientation to the task force on
which they served and when an orientation was provided the type varied and
content was inconsistent. Given the rapid pace with which the NJTTF, FTTTF,
and many of the JTTFs started up after September 11, 2001, the lack of a
formal orientation was understandable. However, three years later, a more
formal, standardized, and functional orientation for all new task force members
to enable them to perform as efficiently as possible, as quickly as possible, still
does not exist for JTTFs or the NJTTF. The FTTTF informed us that it began a
formal orientation for all new members in September 2004; however the OIG
completed its fieldwork for this report before having the opportunity to review
the impact of the orientation.

       With 5,085 members, the JTTF program has the largest number of task
force members. Approximately 55 percent of these task force members are
from outside the FBI. They come from state, local, and other federal law
enforcement agencies and therefore may be unfamiliar with FBI and JTTF
policies and procedures. Orientation to JTTF and FBI procedures is needed to
assist non-FBI law enforcement officers in shifting their focus from conducting
criminal investigations to working intelligence cases. Because these career
officers were trained previously to conduct criminal investigations culminating
in an arrest as quickly as possible, they need orientation on working terrorism
cases with the emphasis and end-goal of intelligence gathering, surveillance,
and source development. Yet, we found through our survey that 38 percent of
JTTF members received no orientation at all and the following table outlines
our survey results.




U.S. Department of Justice                                                  76
Office of the Inspector General
Evaluation and Inspections Division
                     Table 9: Orientation Completion by Task Force

             Survey question: Upon joining the task force, were you given an
                 orientation to the task force and the FBI’s policies and
                                       procedures?

                                                          Response
                 Agency
                                         Yes               No            Don’t Know

           JTTF                              58%              38%                   4%

           NJTTF                             42%              42%                  16%
              Source: OIG Counterterrorism Survey, January 2004.


       The following table shows that overall, 59 percent of the FBI, 60 percent
of federal non-FBI, and 54 percent of state and local task force members that
responded to our survey received an orientation when they joined their
respective task forces. However, many described the orientation as
“elementary,” consisting of one or more of the following activities: a brief or
informal overview, a document review, an introduction to the staff and
workspace, learning from other task force members, or on-the-job training.

       Table 10: Orientation Completion by Law Enforcement Agency

             Survey question: Upon joining the task force, were you given an
                 orientation to the task force and the FBI’s policies and
                                       procedures?

                                                              Response
                     Agency
                                                                                Don’t
                                                 Yes               No
                                                                                Know
           FBI                                       59%              36%           5%

           Federal/Non-FBI                           60%              36%           5%

           State and Local                           54%              40%           5%
              Source: OIG’s Counterterrorism Task Force Survey, January 2004.
              Note:   Numbers are rounded and may not add to 100%.


      Similarly, there was no formalized orientation for NJTTF members.
Orientation to the NJTTF consisted of an introduction to the FBI’s
Counterterrorism Division, a one-day session in which a representative from
each unit within the Counterterrorism Division gave an overview of their office
functions. At the time of our field work, interviews, and survey, the content
and provider of FTTTF orientation briefings varied for each member.

U.S. Department of Justice                                                               77
Office of the Inspector General
Evaluation and Inspections Division
      We found that in the absence of any FBI headquarters-developed
orientation program and no policy or directive requiring any orientation,
orientation occurs sporadically and inconsistently for the FTTTF, JTTFs, and
NJTTF. The majority of task force managers we interviewed believed that FBI
headquarters should develop a standard orientation so that it is available
consistently across all task forces.

      While FBI task force members stated that the lack of an orientation
program did not affect their task force performance, the many non-FBI
members believed otherwise. The following comments received from non-FBI
JTTF members during interviews suggest that the lack of orientation had an
impact on their ability to perform their duties efficiently:

       JTTF

       From a 25-year veteran police officer:

              Everyone on the task force is a seasoned investigator.
              You have a preliminary foundation and bring tools
              with you when you arrive. … You refer back to your
              own experience and then you ask [questions]. Federal
              procedures are very different – there are very specific
              guidelines in the federal system. I was a fish out of
              water. I wanted to know… what is your process? ...if
              there had been an orientation, the learning curve
              would have been much shorter.              Even today, 10
              months later, there’s still a lot I don’t know.

       From an 18-year veteran police officer:

              If you have a question, you go to your supervisor. If
              he’s absent, you’re sunk. We have a lot of resources
              but haven’t got a clue how to use them. We need
              someone to let us know what all the resources are: we
              need an index or contact person from any
              organization, INS, CIA, Workman’s Comp... There
              should be training on 302s [interviews]; inserts [an
              insert is used to document non-testimonial information
              for an investigative file]; papers for statistical reports;
              use of the ACS program; Rapidstart; the difference
              between a criminal vs. intelligence investigation; a
              mini-academy – even 5 days just to learn the
              paperwork. They should have terrorism training in the


U.S. Department of Justice                                                  78
Office of the Inspector General
Evaluation and Inspections Division
              beginning also.    When you’re working intelligence
              cases – there’s so much involved. There should be a
              packet for each instance, [referring to National
              Security Letters and FISAs] with the FBI guidelines.

       From a veteran Department non-FBI agent:

              A lot of training we had was on-the-job. It was
              frustrating in the beginning – the language was
              different. Orientation would be helpful – it was as if
              we were thrown into the aquarium. Is there a right
              way to do 302’s? We all shared the same frustration.
              We pushed for a class – the SSA saw we were
              committing so many errors on the paperwork ... But
              as long as there were some seasoned FBI agents along
              with the new, [the FBI thought] it was ok. The SSA
              created a template of: 1) an FD 302; 2) an Electronic
              Communication (EC). But if you don’t know what to
              put in the EC, it doesn’t matter what’s on the
              template. The language the FBI uses doesn’t translate
              to our agency; and, 3) an Insert – [an insert is used to
              document       non-testimonial   information   for   an
              investigative file]. It was very haphazard – you were
              thrown into a squad, administratively it was a
              nightmare – everyone had questions, no one knew the
              right answer… the way files were set up and the
              numbering system. If they had provided an informal
              class, flyers, or samples… an overview would have
              been terrific.

The following are additional comments from task force survey
respondents when asked about the impact of having no orientation to the
task force:

       JTTF

              • It considerably hindered my ability to understand
                the JTTF organization, who to talk to about issues,
                have people know who I am, know how to use the
                systems such as ACS.

              • I did spend and continue to spend a major portion
                of my time researching appropriate procedures in
                order to send out communications.


U.S. Department of Justice                                                79
Office of the Inspector General
Evaluation and Inspections Division
              • Most of what we did over the first nine months on
                the task force was wrong.       We are still fixing
                paperwork from the first nine months to a year and
                we still aren’t always sure what is the right way to
                do things.

              • I was completely lost. Do not understand the I.T.
                [international terrorism] lingo, laws, etc.

              • Didn’t know what was expected, what we could and
                couldn’t do as far as information sharing.

              • Took me a while to understand role and mission –
                had to learn the system on my own by continually
                asking questions. It took me a longer time to get
                familiar with how things are done.

              • Orientation would have lessened the time necessary
                to become familiar with basic FBI specific report
                formats and computer systems.

              • Slowed me down some, and made it frustrating in
                trying to figure out what I should be doing.

              • Made life difficult. Hard to be a productive task
                force member without proper training.

              • I can’t do much until I get a handle on case opening
                procedures and access to the computer system.

       NJTTF

              • Not being able to assess what role I play within the
                FBI structure.

              • A lot of guess-work and halts to find out proper
                procedures.




U.S. Department of Justice                                             80
Office of the Inspector General
Evaluation and Inspections Division
       FTTTF

               • It slowed my effectiveness. It took longer than it
                 should have to figure out such things as passing
                 clearances, chain of command, who the members of
                 the FTTTF were.

               • …[D]ue to the lack of information, I wasn’t aware of
                 all the resources (provided through other units or
                 agency members) that were available to assist me in
                 my job. 46

The FBI Has Not Provided Written Guidance That Defines the Roles and
Responsibilities of Task Force Members

       The FBI still does not have written Memorandums of Understanding
(MOUs) with all of the agencies participating on the FTTTF, JTTFs, and NJTTF.
The NJTTF Unit Chief told us that post-September 11, 2001, “members were
assigned to the [JTTF and NJTTF] to immediately address the crisis and the
MOUs were supposed to follow.” The absence of MOUs was a problem that
existed on the JTTFs before September 11, 2001. We found that the FBI did
not have MOUs with all of the agencies assigned to the pre-September 11,
2001, JTTFs, and those that existed have not been updated to reflect the post-
September 11, 2001, JTTF mission. Since November 2003, the FTTTF has had
draft MOUs pending with the DHS (only related to DHS databases) and
intelligence community participants. 47 As of November 2004, FTTTF has MOUs
signed with CIFA, the Office of Personnel Management, and Transportation
Security Administration (TSA).

       The impact of the lack of written guidance concerning the task force
members’ roles and responsibilities differed. The non-FBI JTTF members and
most NJTTF members we interviewed said they understood their task force
roles and responsibilities in the absence of the MOUs. However, most of the


       46These comments were provided prior to the FTTTF initiating an orientation in
September 2004.

       47   As of February 2005, an MOU was signed between the FBI, the Department, and
DHS for two of DHS’s databases, United States Visitor and Immigrant Status Indicator
Technology (US-VISIT) and Student Exchange Visitor Information System (SEVIS). US-VISIT is
a program operated by the DHS where information on foreign visitors (including dates of
arrival, departure, nationality, and biometric identifiers) is collected and electronically available
to certain law enforcement entities. SEVIS, operated by ICE, is a web-based system for
maintaining information on foreign students and exchange visitors in the United States.

U.S. Department of Justice                                                                   81
Office of the Inspector General
Evaluation and Inspections Division
non-FBI FTTTF members that we interviewed and surveyed were unclear of
their roles and responsibilities and believed that an MOU for information
sharing between the FBI and member agencies was needed. An FTTTF survey
respondent stated that one of the FTTTF’s greatest challenges was “defining
roles and responsibilities.” Another survey respondent stated:

              Supervisors need to understand their roles as well but
              they can’t do this until organizations higher than them
              understand their roles. Once roles are established,
              respected, and performed, supervisors will be able to
              give guidance and support to the rest of us… I have
              encountered several members who are lacking an
              overall picture of the game plan and the players that
              are involved. A complex diagram has been provided
              but I think some details seem to still be trying to work
              themselves out.

      The lack of role definition did not rest solely with the FBI’s FTTTF, JTTF,
and NJTTF leaders; we also found that task force members received limited
guidance from their parent agency concerning their task force membership.
Many of the task force members described the impact of this lack of guidance
as being “lost by the parent agency.”

CONCLUSION

      The lack of a formal orientation program for the JTTF and NJTTF
members affected the efficiency and productivity of the task forces. Since a
majority of task force members are not from the FBI and have not worked in
counterterrorism previously, they struggle to understand their role and mission
and how to operate in their new environment. State, local, and other federal
law enforcement members would benefit from a timely, relevant, and
comprehensive orientation to the FBI’s policies and procedures and task force
mission, as well as defined roles and responsibilities of each task force
member.

RECOMMENDATIONS

5. The FBI should develop a formal, standardized orientation program for all
new task force members and provide it within 30 days of the new member’s
start date. Orientation should include:

       •   FBI policies and procedures,
       •   Access and use of the ACS system, IDW, and any other case
           management system,


U.S. Department of Justice                                                 82
Office of the Inspector General
Evaluation and Inspections Division
       •   Intelligence gathering versus criminal investigations,
       •   Definition of task force member roles and responsibilities,
       •   Roles of other Department terrorism task forces and other FBI units,
       •   Sources of information and contact information for other
           organizations frequently used by the terrorism task forces (e.g., DHS,
           Internal Revenue Service, Social Security Administration, U.S. Postal
           Service), and
       •   Information sharing protocols.

6. The FBI should finalize MOUs with all agencies participating on the
Department’s terrorism task forces.




U.S. Department of Justice                                                  83
Office of the Inspector General
Evaluation and Inspections Division
       The JTTFs and ATACs have not fully coordinated their efforts
       to reach out to and share information with law enforcement
       agencies, first responders, and other relevant organizations in
       remote areas.

       Although the FBI and a few ATACs have ongoing efforts to interact and
share information with law enforcement agencies and first responders in
remote areas within their jurisdictions, some ATACs and JTTFs have not
coordinated their activities to target remote agencies that do not have
representatives on the task forces and councils. 48 The state and local law
enforcement agencies that we interviewed with representatives on a JTTF or
ATAC were satisfied with the amount and type of terrorism information shared.
In contrast, those law enforcement agencies that were outside of the
metropolitan areas where the JTTF or ATAC is located, and did not have task
force or council members, were not as satisfied.

       Because terrorism and information about terrorism threats may be
located throughout the country, remote areas should not be overlooked. Most
remote law enforcement agencies do not have the financial resources to commit
a full-time representative to the JTTF, but still need information on terrorism
matters from the federal government and terrorism-related training. These
remote law enforcement officials, as well as first responders and
representatives of high-priority targets, are sometimes members of the ATAC
and receive terrorism and threat-related information from the ATAC. However,
communication with the remote agencies does not occur in every jurisdiction.
The JTTFs and ATACs do not have coordinated strategies to address the gaps
in information sharing, intelligence sharing, and training.

Geography and Infrastructure Constraints Complicate Outreach Efforts of the
ATACs and JTTFs and Limit Participation

       Because some ATACs and JTTFs are responsible for providing coverage
for the entire state or across multiple states, their outreach to remote areas is
difficult. The ATACs and JTTFs operate within the traditional jurisdictional
lines of the USAOs and the FBI’s field offices, and the areas covered are
expansive. 49 For example, because of the way judicial districts are drawn, 26



       48“Remote” is defined in this discussion as an urban or rural area outside the vicinity of
the physical location of the ATAC and JTTF.

       49 The FBI’s website states that the locations of its field divisions are based upon “crime

trends, the need for regional geographic centralization, and the need to efficiently manage
resources.” The judicial district’s boundaries are determined by Congress and alignment is
determined through federal statutes.

U.S. Department of Justice                                                                84
Office of the Inspector General
Evaluation and Inspections Division
of the 93 ATACs are responsible for the terrorism training, information sharing,
and prosecutorial coordination for their entire state.

      Some JTTFs also have problems due to the size of the area for which they
are responsible. At the time of our fieldwork, six JTTFs were responsible for
providing terrorism investigative coverage for more than one state. The FBI
SAC we interviewed in Salt Lake City stated that communication with the state
and local partners in Montana, Idaho, and the remote areas in Utah was both a
geographical and technological challenge.

            Table 11: JTTFs Responsible for More Than One State

           The JTTF Located in …                      Also has responsibility for …
           Albany, New York                           Vermont
           Baltimore, Maryland                        Delaware
                                                      Maine
           Boston, Massachusetts
                                                      New Hampshire
           Denver, Colorado                           Wyoming
                                                      North Dakota
           Minneapolis, Minnesota
                                                      South Dakota
                                                      Montana
           Salt Lake City, Utah
                                                      Part of Idaho
              Note:   Unlike other JTTFs listed above, the Albany, New York, and Denver, Colorado,
                      JTTFs share terrorism coverage within their state with one or more JTTFs. As of
                      September 2004, the FBI had approved JTTFs in Maine and Montana; and in
                      March 2005, the FBI approved JTTFs in Bedford, New Hampshire; Boise, Idaho;
                      and Wilmington, Delaware.


      In addition, some jurisdictional lines create anomalies. Two examples of
jurisdictional lines not matching the region’s geographic realities are described
below.

       •   The Washington, D.C., national capital region includes the
           District of Columbia and the surrounding jurisdictions in the
           states of Maryland (Prince George’s and Montgomery) and
           Virginia (Alexandria City, Arlington, Fairfax, Loudon, and Prince
           William). However, because of how the jurisdictional lines are
           drawn for the FBI’s field offices and the USAOs, the terrorism
           matters affecting this region are coordinated by two separate
           JTTFs and ATACs. 50 In Maryland, both the JTTF and ATAC are
           based in Baltimore. These two offices cover the entire state of


       50 The USAOs for the District of Columbia and the Eastern District of Virginia

consolidated their resources and formed one ATAC, although they received separate funding.


U.S. Department of Justice                                                                              85
Office of the Inspector General
Evaluation and Inspections Division
           Maryland, including the two counties that border the District of
           Columbia (Prince George’s and Montgomery). The FBI’s
           Washington, D.C., field office covers the District of Columbia
           and the Northern Virginia jurisdictions that are in close
           proximity to the District of Columbia (Alexandria City,
           Arlington, Fairfax, Loudon, and Prince William). A law
           enforcement official told us that this arrangement does not take
           into account the commonality of the regions when the terrorism
           focus is coordinated by separate offices.

       •   The state of Alaska has 33,904 miles of shoreline and 365
           million acres (one-fifth of the size of the lower contiguous 48
           states), of which only 160,000 acres are developed (less than
           1/20th of 1 percent). As a result, Alaska’s limited
           infrastructure and large undeveloped territory make it very
           difficult to provide counterterrorism coverage. JTTF members
           we interviewed told us that there are no roads that connect the
           entire state and some locations are only accessible by air, which
           during the winter months is problematic. The JTTF leadership
           also stated that due to infrastructure and budgetary constraints
           the JTTF was not effectively reaching the broader Alaska
           community. The ASAC for the Alaska Field Office told us that
           the FBI and JTTF members should be traveling to cities in
           various parts of Alaska proactively collecting intelligence.
           Unfortunately, lack of financial resources, as well as geographic
           and weather constraints, only allow these trips sporadically in
           the summer months. An ATAC member told us that the harsh
           weather and terrain posed a challenge to addressing Alaska’s
           vulnerabilities to terrorism. He believed that law enforcement
           in Alaska work together to minimize the vulnerabilities and
           were attempting to “harden” targets over a vast area with
           limited resources.




U.S. Department of Justice                                                     86
Office of the Inspector General
Evaluation and Inspections Division
                     Figure 7: Combined JTTF and ATAC locations




U.S. Department of Justice                                        87
Office of the Inspector General
Evaluation and Inspections Division
Some JTTFs and ATACs Have Not Reached Out to Law Enforcement Officials,
First Responders, and Other Relevant Organizations in Remote Areas

       Some JTTFs and ATACs we visited have not made effective use of the
U.S. Attorneys’ branch offices, FBI’s RAOs, and communication systems to
conduct outreach to those in remote areas who need terrorism information and
training. 51

      We found that not all ATACs have included representatives from remote
regions of their districts. Some state, local, or other federal law enforcement
agencies or first responders in these regions were not members of and had no
knowledge of the ATAC. They did not receive training, e-mails, faxes, or other
forms of communication on terrorism issues from the USAO or ATAC.
Similarly, we found that law enforcement agencies in the remote areas received
limited or no terrorism information from the JTTFs or FBI. These remotely
located agencies believed they had a need for counterterrorism training and
information and stated that they could in return provide resources,
information, or intelligence to the ATACs and the JTTFs.

       Through our site visits and review of the ATAC activity reports from 91
USAOs, we found that the majority of the USAOs do not use their branch
offices to provide terrorism coverage (i.e., counterterrorism training or
information sharing) to remote areas. 52 USAOs have a headquarters office and
may have one or more branch offices in other cities in the judicial district.
ATAC operations are run from the USAO headquarters offices and only
sometimes are ATAC operations extended out to branch offices. During a site
visit, we found that although a branch office of the Idaho USAO was located in
Coeur d’Alene, Idaho, the ATAC operations were in the district’s headquarters
office in Boise, Idaho, 400 miles away. The AUSA assigned to the Coeur
d’Alene USAO branch office had no participation or involvement on the Idaho
ATAC.

      In interviews during our site visits to remote areas in Oklahoma and
Puerto Rico, we found that the state and local law enforcement officials who
were not members of the JTTF interacted and communicated with the FBI
through its RAOs, but received limited or no terrorism-related information.



       51 Remote areas visited by the OIG include Aguadilla, Puerto Rico; Enid, Oklahoma;
and Woodward, Oklahoma. USAO branch offices are located in different geographic areas
within the judicial district.

       52 We did not review reports from 2 of the 93 USAOs because the two judicial districts

did not provide the summary reports of their districts’ activities.


U.S. Department of Justice                                                             88
Office of the Inspector General
Evaluation and Inspections Division
Further, these remote areas received limited or no terrorism-related
information from the ATACs.

       Oklahoma: The mayors, fire chiefs, local National Guard officials,
       military officials, security forces for the local universities, and
       airport managers in Enid and Woodward, Oklahoma, whom we
       interviewed never received terrorism-related information for their
       region from either the ATAC or the FBI. Further, the sheriffs in the
       counties that included these cities did not have any contact with
       the ATAC and did not receive terrorism information related to their
       region. Both sheriffs received only terrorism-related information
       from the FBI that addressed nationwide threats (e.g., the Golden
       Gate Bridge). Both sheriffs stated that they wanted more specific
       information regarding potential threats, especially domestic
       terrorism, in remote areas of Oklahoma.

       Puerto Rico: Aguadilla, Puerto Rico (approximately two hours west
       of San Juan), has 15 miles of unprotected shoreline that people
       use to enter Puerto Rico illegally. The Aguadilla law enforcement
       personnel we interviewed stated that for individuals entering
       Puerto Rico illegally, it would be easy to fly into the United States
       without a passport. Yet Aguadilla’s police officers do not have
       information and have not received training on what to look for or
       how to identify suspicious individuals in relation to terrorism.
       Although the FBI RAO in Aguadilla works with the city and the
       police department on drug enforcement, Aguadilla’s Mayor and
       Chief of Police told us that they never receive terrorism information
       from the FBI, but they need this information. They also stated that
       they received no information from the ATAC. When we visited San
       Juan in September 2003, the ATAC had no members outside of the
       San Juan metropolitan area and had not considered adding
       members from across the island. Subsequent to our visit, the
       ATAC Coordinator invited the Mayor of Aguadilla to the ATAC
       meetings and added him to an e-mail distribution list.




U.S. Department of Justice                                                     89
Office of the Inspector General
Evaluation and Inspections Division
The FBI and Some ATACs Attempt to Reach Remote Areas

       FBI

      To address the remote areas, the FBI implemented different strategies,
such as creating the (now defunct) Regional Terrorism Task Forces (RTTFs),
expanding the number of JTTF annexes, developing local strategies to readily
deploy law enforcement in response to a terrorism event, and consolidating
task forces to expand its resources.

             RTTFs: Before the rapid expansion in the number of JTTFs, the
FBI used its RTTFs to conduct investigations, share intelligence, provide
training, and promote cooperation among law enforcement agencies that did
not have a JTTF. 53 The FBI reported in 2002 that RTTFs existed in six regions:
inland northwest, south central, southeastern, south, northeast border, and
the southwest. In June 2003, the NJTTF Unit Chief told us that the RTTFs had
been absorbed into the then 66 JTTFs and that the RTTFs would informally act
as liaisons to the ATACs and “pick up the slack” in rural areas where a JTTF
did not exist. None of the SACs or ASACs we interviewed believed that the
disbanding of the RTTFs adversely affected JTTF operations. For example, the
Salt Lake City FBI SAC stated that “the Inland Northwest RTTF was the
springboard for the Inland Northwest JTTF” and that disbanding the RTTF
helped to “better define responsibilities for addressing terrorism.” An Inland
Northwest JTTF member told us that the intelligence officers that formerly
attended the RTTF monthly meetings were now attending the Tier 1 JTTF
meetings. 54

            JTTF Annexes: During FY 2002, the FBI approved 10 annexes in
its RAOs to augment the 56 JTTFs in its field offices. The purpose of the
annexes is to expand JTTFs to areas where the need for additional terrorism
coverage has been justified by the FBI field office based on the threat
assessment, domestic and international terrorism caseloads, staff utilization
rates, and a statement of unaddressed or under addressed work. In addition,



       53 FBI field offices that used RTTFs to reach areas not covered by a JTTF were Inland
Northwest – Salt Lake City and Seattle; Southeastern – Charlotte, Cola, Knoxville, Louisville,
Norfolk, Richmond; South Central – Oklahoma City, New Orleans, Little Rock, Dallas, Houston,
Kansas City, St. Louis, Memphis, and Jackson; Northeast Border – Albany, Buffalo, Boston,
and Legat Ottawa; Southwest Border – Albuquerque, Phoenix, San Diego, San Antonio, and El
Paso; Deep South Border – Birmingham, Atlanta, Jacksonville, Mobile, and Tampa.

         54 Some of the JTTFs and ATACs we visited had two forms of meetings for their law

enforcement members with and without security clearances. The Inland Northwest JTTF used
its Tier 1 meetings to share unclassified information with law enforcement officials who did not
have a security clearance.

U.S. Department of Justice                                                               90
Office of the Inspector General
Evaluation and Inspections Division
the field office must identify the geographic area that will be covered by the
expansion, obtain full-time commitments to the expansion from participating
agencies, develop a management plan and budget, and receive a statement of
concurrence from the ATAC Coordinator in the affected region. All requests for
JTTF annexes must be submitted through the NJTTF to the FBI
Counterterrorism Division for approval.

       By the end of FY 2003 the FBI had activated 18 additional JTTF annexes
in its RAOs, and by March 2005 it approved 19 additional annexes in the
following locations:

        •   Montgomery, Alabama             •   Grand Rapids, Michigan
        •   Fayetteville, Arkansas          •   Helena, Montana
        •   Fresno, California              •   Bedford, New Hampshire
        •   Colorado Springs, Colorado      •   Erie, Pennsylvania
        •   Wilmington, Delaware            •   Providence, Rhode Island
        •   West Palm Beach, Florida        •   Lubbock, Texas
        •   Boise, Idaho                    •   Midland, Texas
        •   Bloomington, Indiana            •   Plano, Texas
        •   Covington, Kentucky             •   Everett, Washington
        •   Portland, Maine

       During a January 2004 interview, John Pistole, the then FBI’s Executive
Assistant Director for Counterterrorism and Counterintelligence, told us that
one of the FBI’s greatest challenges is “reaching the rural areas covered by the
field divisions.” He stated that the FBI hopes to have one JTTF deployed in
each USAO judicial district by the end of FY 2004 to help provide additional
coverage. As of March 2005, the FBI had either activated or approved the
activation of 103 JTTFs. Sixty-eight of the 103 JTTFs are located jointly with
an ATAC (or in the same city as the headquarters office of the USAO).

       Some FBI RAOs without JTTFs have taken measures to improve
readiness in the event of terrorist incidents or investigations. When we visited
Portland, Maine, in August 2003, we found that the FBI’s RAO established a
program whereby approximately 30 state and local law enforcement personnel
from across the state were deputized as federal marshals and were receiving
terrorism training through the FBI. In the event of a terrorism incident or
event, these deputized law enforcement personnel could become an ad hoc
JTTF. The Portland RAO also was working to increase the number of
participants in this program to 40 to ensure representation from the
U.S./Canadian border area. The Boston FBI SAC told us that the RAOs in
Rhode Island and New Hampshire were following the Portland, Maine, model.
In July 2004, Portland, Maine, was approved as a JTTF annex.


U.S. Department of Justice                                                 91
Office of the Inspector General
Evaluation and Inspections Division
             Combined Resources: The FBI shares resources between its RAOs
to provide coverage across state lines. For example, the FBI’s RAOs in Coeur
d’Alene, Idaho, and Spokane, Washington, co-joined their JTTF operations.
The Inland Northwest JTTF addresses terrorism threats for the entire state of
Idaho and two-thirds of Washington State. The NJTTF Coordinator told us that
as of August 2004, the Inland Northwest JTTF is the only JTTF made up of
members from two RAOs and two FBI field offices.

             Technology and communication systems: The FBI provides an
Intelligence Bulletin every week that reaches over 18,000 law enforcement
agencies nationwide through the NLETs system. These bulletins are stored for
retrieval on the LEO-online system (see Progress Made and Appendix III for
discussion of these systems). The FBI states that it is working with the DHS to
establish regional networks across the country that will allow SACs to contact
law enforcement officials simultaneously using cell phones, pagers, and e-mail.
However, we did not examine how the regional networks would address
information gaps in remote areas.

       USAOs

      Some ATAC Coordinators we interviewed told us that they are exploring
methods, such as rotating training and meetings to different locations and
increasing the use of technology, to accommodate the needs of remote areas of
the district.

            Branch offices: In a review of ATAC activity reports provided to us
by the USAOs, we found nine of the USAOs include their branch offices or
remote ATAC members in advisory council activities (meetings, trainings,
information sharing systems). Maine, Nebraska, Montana, and Wyoming
USAOs use either video or teleconferencing for ATAC meetings to include ATAC
members in remote areas. The Massachusetts ATAC meeting includes
representatives from each of its five USAO branch offices, who then share the
information provided at regional group meetings with law enforcement officials.
The Minnesota ATAC holds meetings in its three USAO branch offices. The
Nevada ATAC Coordinator personally travels the state to meet with local law
enforcement officials who cannot attend the ATAC meetings. The New Mexico
USAO has AUSAs in each branch office assigned to the ATAC. The South
Carolina ATAC identified all localities within its jurisdiction without an ATAC
representative, visited these potential members, and ensured there were ATAC
representatives from each area of the state.

            Technology and communication systems: We found that 81 out of
92 (88 percent) of the USAOs spent some or all of their initial ATAC allocation
of $100,000 on communication and computer equipment to improve the


U.S. Department of Justice                                                92
Office of the Inspector General
Evaluation and Inspections Division
communication with state and local law enforcement. Only eleven of the
ATACs chose to spend their allocation solely on training or other expenses,
rather than on communication or computer equipment. Because of the way
the ATACs reported their expenses in the quarterly budget reports submitted to
EOUSA, we could only determine that approximately 20 of the ATACs spent
funds on communication items directly for state and local law enforcement. 55
For example, the Northern District of West Virginia (USAO) purchased
computers for each of the chiefs of police or sheriffs in its judicial district.
These law enforcement executives were then able to access the Internet and
receive e-mail alerts and threat information from the ATAC. Overall, the ATACs
spent approximately 52 percent of the total $9.3 million allocated for their
operations to provide communication and computer equipment.

CONCLUSION

       Despite the FBI’s efforts to expand the number of JTTF annexes and co-
join JTTFs across state lines, some JTTFs remain responsible for addressing
the terrorism matters for their entire state, as well as additional states. While
some ATACs have included outreach to remote areas as part of their normal
activities or strategic plan, the majority of ATACs have not included all remote
and rural law enforcement, first responders, and other relevant organizations
in ATAC meetings, trainings, and information sharing networks. The gaps in
information sharing, intelligence sharing, and training may affect
responsiveness to terrorism threats.

RECOMMENDATION

7. The FBI, CTS, EOUSA, and USAOs should work jointly to develop a
coordinated strategy to consistently reach out to remote areas.




        55 The Needed Improvements – ATAC–Specific Issues section of this report contains a

detailed discussion of the ATAC quarterly budget reports.

U.S. Department of Justice                                                             93
Office of the Inspector General
Evaluation and Inspections Division
       The FBI has not fully developed outcome-oriented performance
       measures that effectively determine the progress of the JTTFs, the
       NJTTF, and the FTTTF, or their individual members. CTS and
       EOUSA have not developed outcome-oriented performance measures
       for the ATAC program.

Overall Task Force and Council Performance Measures

       Traditionally, the FBI, like any law enforcement agency, measures
performance with “hard” numbers, such as cases, arrests, and prosecutions.
For counterterrorism efforts, the FBI officials and JTTF members we
interviewed told us that these metrics are considered less useful and
sometimes not valid because a case may never result in an arrest or a
prosecution but instead may produce important intelligence or information that
prevents a terrorist act. The quality of information generated by a source also
may be more important in assessing task forces’ success rather than the
number of sources. Additionally, a terrorism investigation may continue for a
much longer period than a traditional criminal investigation and will not
demonstrate immediate measurable results. ATAC Coordinators and members
told us that the ATACs are for the most part responsible for activities such as
training, information sharing, and communication that may be better
measured through feedback from their participants. The managers and
members of the NJTTF and FTTTF told us that their task forces are primarily
support organizations that may be better measured by the customers served
and their assessments of timeliness and quality of the customer support
provided.

      In our survey, we asked how the task forces’ or advisory councils’
performance should be measured and many respondents told us that assessing
quality is more important than quantity. Examples of some JTTF and NJTTF
responses include:

              • Clearly the number of investigations performed is
                one measure of the performance, but it is also
                somewhat flawed.         One could easily perform
                investigations that have no terrorism nexus [and]
                that merely ‘pad’ the stats for the agency. The mere
                collection of intelligence, subsequent analysis, and
                linking of the information obtained can often
                produce valuable insight to the operations of
                terrorists but will not produce a statistic that lends
                itself to a performance measure. In short, I feel that
                the liaison with state and local law enforcement and


U.S. Department of Justice                                               94
Office of the Inspector General
Evaluation and Inspections Division
                 other emergency first responders, coupled with
                 public education, may produce an effective task
                 force whose performance cannot be measured
                 except by the "secure feelings" of the community in
                 which they serve. This might be best achieved
                 through a survey instrument such as this one.
                 Arrest stats or case stats do not accurately reflect
                 the amount of work being done.

              • [Performance should be measured in terms of] How
                each    investigation/lead/threat assessment     is
                conducted. A thoroughness of each investigation,
                not how many or if an arrest occurred, but how
                each investigation was conducted to either exclude
                or include subject(s) as threats.

              • I do not believe the FBI, Department, my parent
                agency, nor the press truly understand the role and
                function of intelligence operations. In theory, all
                recognize the function of disruption, yet all continue
                to be measured on a regular basis for performance
                on the traditional law enforcement measures. Intel
                is rarely sexy or headline grabbing. The MOST
                successful intel effort in this regard would be
                absolute disruption, making ‘effective’ extremely
                difficult to measure.

FTTTF survey respondents answered:

              • Performance should be measured on the type and
                amount of intelligence a task force shares with other
                federal, state, and local agencies who have a valid
                mandate to receive that type of information. Also the
                value of the intelligence provided needs to be
                assessed to determine if it was timely and useful.
                Feedback from the investigating component is
                needed to ascertain whether the intelligence is
                “hitting the mark.” How was the information used?
                Did [it] help to identify other individuals or criminal
                activities?    Did it aid in the prosecution of a
                terrorist?

              • …[S]tatistical accomplishments do not provide a
                true measure of the work and value of the task


U.S. Department of Justice                                                95
Office of the Inspector General
Evaluation and Inspections Division
                 force, as it does not take into account the quality of
                 life issues of a given community when a threat is
                 removed from the area as that type of data is harder
                 to quantify.

              • The task force’s performance should not be
                measured by metrics rather the quality of work.
                Quantity is not everything.

Steve McCraw, former FTTTF Director and Chief of the FBI Inspections Review
Division, told us that the FBI recognizes the importance of establishing
performance measures for the FTTTF. However, he stated that quantifying the
FTTTF’s accomplishments is one of the biggest challenges the FTTTF faces. He
further stated, “The FBI expects performance goals. For $61 million [FY 2004
FTTTF budget], we need to know we’re getting a bang for the buck.” A veteran
FTTTF member told us:

              A Quality Assurance unit was set up [in 2003] but it
              didn’t work well because there was never a procedure
              set up to tell the value of our information. We provide
              information but we don’t know if it’s been used or if it
              was useful. The government spent a lot of money and
              they need to get their money’s worth – currently they
              are not. Operational accomplishments are difficult to
              enumerate.

        The ATAC respondents identified the importance of cooperation and
coordination in prevention of terrorism and often mentioned how important it
is for the participants to believe that they benefit from ATAC activities. Many
ATAC members suggested that it also is important to tailor performance
measures to the needs and circumstances of the district the ATAC is serving.
ATAC survey respondents’ suggestions on how to measure the ATACs
performance were:

              • [Performance should be measured] [b]y how well the
                state, local, and federal authorities work together,
                share information, and ensure a coordinated effort
                to prevent and disrupt terrorist activities in the
                region.

              • The Advisory Council in my district is a mechanism
                to disseminate information. It is not operational. As
                such, the performance should be measured based
                upon the effectiveness of the meetings, participation


U.S. Department of Justice                                                96
Office of the Inspector General
Evaluation and Inspections Division
                 of the members, and the quality of the information
                 provided.

              • Each district should be required to draft a quarterly
                report to the [CTS] outlining the accomplishments of
                the Advisory Council to include—how many
                members are in the ATAC, what initiatives has the
                council produced, what is the ATAC actively doing to
                prevent terrorism, the mandate. No two districts are
                alike and the ATAC is value added for each USA, but
                I think those basics above can be used to measure
                all of us.

              • It would be difficult to get an exact quantitative
                measure of the success of the ATAC. However, I
                believe that surveys can be distributed to ATAC
                members asking their opinion of the program. Also,
                obtaining anecdotal feedback from the federal, state,
                and local ATAC members should be a fairly accurate
                gauge of the effectiveness of the program.

      Performance measures for the ATAC program have not been developed by
CTS, EOUSA, or the USAOs. Some reporting requirements for USAOs and
ATACs exist, but the criteria for evaluating the reported information has not
been established.

      The FBI told us that it has developed performance measures for the
Counterterrorism Division and the individual FBI field offices. To examine this
issue, we reviewed the FBI Strategic Plan, Counterterrorism Division reports
that contained data on counterterrorism investigations and operations, and
various Annual Field Office Reports.

       In the FBI’s Strategic Plan, which the FBI says is a “high-level road map
for the FBI to achieve its mission,” the Counterterrorism Division has created
strategic objectives and accompanying performance goals. However, the goals
for counterterrorism operations in the FBI do not include measurable criteria
on which to base performance or accomplishments of the task forces.

       Additionally, the Counterterrorism Division prepares reports for FBI
officials that contain data on counterterrorism operations and investigations
(such as the number of investigations in each field office, number of assets and
sources, and disruptions). While this data is important to collect, the FBI told
us that the numbers alone do not present an accurate picture of the activities



U.S. Department of Justice                                              97
Office of the Inspector General
Evaluation and Inspections Division
of the task forces. Additionally, because the data is presented without any
measurable criteria, it is not as useful for determining performance progress.

       Each FBI field office is required to submit an Annual Field Office Report
to FBI headquarters that contains data on established performance measures
for each field office in all investigative programs, including counterterrorism.
The performance measures are a mix of quantitative and qualitative criteria for
judging the status of field office resources and activities. The questions and
criteria that a field office must address vary in relevance for meeting the FBI’s
overall counterterrorism objectives and goals. Some questions and criteria are
narrowly focused, such as whether agents have attended a specific type of
training. Other questions and criteria are broader in nature and look to
address substantive topics of counterterrorism such as building an intelligence
base through informants and improving information sharing with FBI and non-
FBI entities. However, collectively, many of the measures in the Annual Field
Office Report appear oriented toward outputs for various aspects of field office
activities rather than oriented toward outcomes for the counterterrorism
program as a whole. 56

      Other than the overall Counterterrorism Division goals and objectives,
the NJTTF and the FTTTF do not have measures on which to assess
performance.

Individual Task Force Members and ATAC Coordinators Performance Measures

       We found no established or implemented performance measures for
individual task force members, and only one ATAC Coordinator we interviewed
was directly given a set of performance measures. EOUSA has developed a set
of suggested “performance standards” for ATAC Coordinators. EOUSA told us
they developed these standards in 2003 and posted them on the Personnel
Page on the USANet (the webpage for USAOs). The Administrative Officers and
Human Resource Officers in each USAO are supposed to check the Personnel
Page regularly and pass on useful news to the USAO leadership. EOUSA told
us that the performance standards were also mentioned to the ATAC
Coordinators at the annual conference in 2004, although hard copies were not
distributed. However, most ATAC Coordinators interviewed and surveyed
stated they have no performance measures.
     Without performance measures, these task force members and ATAC
Coordinators do not have standards for prioritizing and directing their work


         56 Outcomes are the measurable results of a project, the positive or negative changes

that occur in conditions, people, and policies as a result of an organization’s or program’s
inputs, activities, and outputs. Outputs are the tangible products of a project or program
activities, for example the number of training sessions held for members.

U.S. Department of Justice                                                            98
Office of the Inspector General
Evaluation and Inspections Division
and measuring their own progress in meeting the mission of the task force or
council. Additionally, their supervisors do not have an effective means to
adequately evaluate individual performance or make informed personnel
management decisions.

      Some of the non-FBI task force members we interviewed had not received
a performance evaluation since joining the task force and were uncertain as to
how the FBI or their parent agency measured their task force involvement. Our
survey results revealed that:

          •   75 percent of FTTTF, JTTF, and NJTTF respondents
              did not receive performance measures.

          •   78 percent of the ATAC Coordinator respondents did
              not receive performance measures.

          •   37 percent of FTTTF, JTTF, and NJTTF respondents
              were uncertain whether their parent agency measured
              their task force performance.

          •   67 percent of the FTTTF, JTTF, and NJTTF non-FBI
              respondents did not know whether the FBI reported
              their performance to their parent agency.


Task Forces and Councils’ Strategies to Address the Lack of Performance
Measurement

      Although the Department recognizes the need for new terrorism-related
performance measures, until performance measures are completed, the FBI,
CTS, and EOUSA rely on existing evaluation systems for assessing the task
forces and councils’ performance as outlined below:

       JTTF: The NJTTF is responsible for conducting onsite reviews of all the
JTTFs. In March 2004, the NJTTF completed a review of the Kansas City JTTF
and from this experience compiled a list of “JTTF best practices.” The NJTTF
also is developing a standard operating procedure (SOP) for the JTTFs and
intends to distribute the SOP and the JTTF “best practices” to the field.
Additionally, the FBI Inspections Division will include an evaluation of the
JTTF in its standard review of an FBI field office. Additionally, each field office
is required to submit an Annual Field Office Report that has some measurable
criteria for counterterrorism operations.




U.S. Department of Justice                                                99
Office of the Inspector General
Evaluation and Inspections Division
      NJTTF: Every quarter, NJTTF members submit a report to the NJTTF
Unit Chief that lists their activities and accomplishments. An NJTTF manager
compiles these submissions and prepares a report that the Unit Chief uses to
review the NJTTF’s performance. There are no standard criteria for these
summary reports; they are just a summation of activities. The FBI Inspections
Division conducts cyclic evaluations of FBI offices and programs, including the
NJTTF.

       FTTTF: The FBI Inspections Division conducted a review of the
Counterterrorism Division, which included the FTTTF, in the fall of 2003. The
FTTTF did draft a Quality Assurance Plan in February 2004 based on the task
force’s mission, goals, and objectives. In April 2004, the FTTTF issued a
Statement of Work to develop a performance measurement system and sought
to contract with an organization to enhance, implement, and formalize the
Quality Assurance Plan into a performance measurement plan using these
categories:

             •   Efficiency – measure the performance of the process
                 (getting the work done);

             •   Technical – availability, capacity, performance,
                 redundancy, ease of use;

             •   Quality – user and customer satisfaction;

             •   Outcome –expected results were or were not produced
                 by the work (both within the processes that exist in
                 FTTTF but also those relating to organizations that use
                 information provided by FTTTF). 57

However, in November 2004, the FTTTF Director informed us that FBI
headquarters denied the request to contract for development of a performance
measurement system. The FTTTF will develop the measures internally.

      ATAC: EOUSA measures the ATACs’ performance through the cyclic
USAO assessments conducted by the Evaluation and Review Staff (EARS). We
reviewed the ATAC section of EARS’ reports from October 2001 to September
2003 and found that EARS did not have specific measures to assess each
ATAC, but rather presented broad descriptions of ATAC activities. 58 We also


       57   Draft Statement of Work – Performance Measurement Support, FTTTF, FBI, 2004.

       58 The EARS was developed before September 11, 2001, and requires each USAO to be

reviewed at least once every three years. The USAO conducts a self-evaluation and is then

U.S. Department of Justice                                                        100
Office of the Inspector General
Evaluation and Inspections Division
reviewed the Instructions for Evaluator that list general factors the EARS
evaluator should consider when reviewing an ATAC and the USAO’s anti-
terrorism efforts. The factors include the question, “How effective is the Anti-
Terrorism Advisory Council?” but provide no standards by which to evaluate
effectiveness. The EARS relies on caseload data, workload charts, district
performance reports, and USAO staff interviews, but does not include any
interviews with ATAC members or data that reflects the actual work of the
ATAC. The EARS reports we reviewed stated that most USAOs were successful
in forming active and effective ATACs, meeting Department directives, and
having appropriate memberships. The EARS reports did find a few specific
issues or problems with certain ATACs, such as not reporting the time spent on
anti-terrorism activities correctly on forms or not having information sharing
protocols.

      Each USAO also submits annual performance reports to EOUSA that
contain a narrative outlining the status and accomplishments of the ATACs.
However, USAOs are “self-reporting” in these performance reports, meaning
that they determine the accomplishments and rate themselves on their
interaction and communication with the JTTFs.

CONCLUSION

       The FBI, CTS, and EOUSA have not established performance measures
for task force and council programs. The FBI does not have performance
measures for the NJTTF and FTTTF and their members. Although, the FBI has
established field office (includes the JTTFs) performance measures, which must
be addressed in the Annual Field Office Report, the measures are mostly
output oriented for various aspects of field office activities rather than outcome
oriented for the counterterrorism program as a whole. However, the Annual
Field Office Report can provide useful information about the status of a field
office. The FBI does not have performance measures for its individual task
force members. Without proper performance measures and assessments, the
FBI, CTS, and EOUSA cannot adequately assess the strategies, operations, and
resources for the task forces and councils.

RECOMMENDATIONS

8. The FBI should ensure its performance measures provide an effective means
for determining the qualitative and quantitative accomplishments of the task
forces and their members in fulfilling the Department’s counterterrorism
strategy. The measures for the task forces could include the following:


reviewed on a set of criteria by a team of experienced AUSAs convened by EARS. We reviewed
the ATAC section of the EARS reports for 56 of the judicial districts.

U.S. Department of Justice                                                      101
Office of the Inspector General
Evaluation and Inspections Division
   JTTF

   •   Quality and timeliness of information shared with member and
       outside agencies (such as, meetings, briefings, and feedback on
       information received) that furthered investigative efforts
   •   Outreach efforts that resulted in improved information sharing and
       partnerships
   •   Quality of intelligence collected and generated that furthered
       investigative efforts
   •   Quality of intelligence/information analysis that furthered
       investigative efforts
   •   Quality and number of human assets that furthered investigative
       efforts
   •   Disruptions and dismantlements

   NJTTF

   •   Quality and number of products produced for JTTFs and other FBI units
       that furthered investigative efforts
   •   Quality and timeliness of support provided to JTTFs that facilitated the
       JTTFs mission
   •   Quality and timeliness of information shared with JTTFs and member
       agencies that furthered investigative efforts

   FTTTF
   (in addition to those performance measures already established)

   •   Amount and usefulness of new information added to cases that furthered
       investigative efforts
   •   Timeliness and number of products produced for JTTFs, other FBI
       units, and outside agencies that furthered investigative efforts
   •   Acquisition of databases required for analysis that resulted in improved
       analytical products

9. CTS and EOUSA should develop outcome-oriented performance measures
for the ATAC program. The measures for the ATAC program could include the
following:

   •   Quality and timeliness of information shared with member and
       outside agencies that resulted in improved understanding of
       terrorism issues and improved prevention activities
   •   Quality and timeliness of training for members that resulted in improved
       understanding of terrorism issues and improved prevention activities

U.S. Department of Justice                                           102
Office of the Inspector General
Evaluation and Inspections Division
   •   Outreach efforts that resulted in increasing targeted membership
   •   Quality and currency of threat assessments that result in improved
       prevention activities.




U.S. Department of Justice                                           103
Office of the Inspector General
Evaluation and Inspections Division
ATAC-SPECIFIC ISSUES

       The ATAC Coordinators are unclear about the roles of CTS,
       EOUSA, or the USAOs in the ATAC program. No one entity has
       full responsibility for ATAC program management, oversight is
       fragmented, and future ATAC funding requirements have not
       been evaluated. The Department, CTS, and EOUSA have not
       provided ATAC Coordinators enough guidance on their roles
       and responsibilities or on how to structure and manage an
       ATAC. Further, the USAOs’ level of compliance with the
       Attorney General mandate to establish and operate an ATAC
       varies across judicial districts.

The ATAC Coordinators are Unclear About the Roles of CTS, EOUSA, or
the USAOs in the ATAC Program, No One Entity has Full Responsibility for
Program Management, and Oversight is Fragmented

       The roles of EOUSA and CTS in the ATAC program are not fully
                                        understood by the ATAC Coordinators, and it
      ATAC Findings Presented           is not clear to the ATAC Coordinators which
        Earlier in This Report          Department component has responsibility for
   • The JTTFs and ATACs have not
                                        management of the ATAC program. Because
     fully coordinated their efforts to ATAC Coordinators did not know which office
     reach out to and share             was responsible for the overall ATAC program,
     information with law
     enforcement agencies, first
                                        they routinely reported the same information
     responders, and other relevant     to both EOUSA and CTS. Traditionally,
     organizations in remote areas.     EOUSA provides administrative support and
                                        CTS provides prosecutorial assistance to the
  • Neither EOUSA nor CTS has
    developed a national training       USAOs. However, U.S. Attorneys have the
    plan or conducted a training        autonomy and discretion to operate their
    needs assessment for the ATAC       ATACs as is appropriate for their judicial
    Coordinator or members.
                                        districts. EOUSA and CTS only have limited
  • CTS and EOUSA have not              authority to direct a USAO’s ATAC operations.
    developed outcome-oriented          Although the CTS Chief told us that CTS and
    performance standards for the
    ATAC program.                       EOUSA share joint oversight of the ATAC
                                        program, we found that neither group fully
                                        monitors and assesses the ATACs’ operations.
Prosecutive and investigative information is reported to CTS regularly, but
information related to management or administration of the ATACs is not
reported on a regular basis to CTS or EOUSA, and no standard is in place to
ensure consistent reporting across ATACs. CTS, EOUSA, and the USAOs have
responsibilities for partial pieces of the ATAC program, but no one organization
within the Department has responsibility for fully managing the ATAC program.


U.S. Department of Justice                                                104
Office of the Inspector General
Evaluation and Inspections Division
      The following describes how each entity views its role in the ATAC
program:

      CTS: The CTS Regional ATAC Coordinators are not full-time managers or
supervisors of ATAC operations, but rather are advisers on terrorism cases and
coordinators of a national prevention strategy. They believe that each U.S.
Attorney has the responsibility for overseeing his or her ATAC, with input and
advice from the Regional ATAC Coordinators. The Regional ATAC Coordinators
perform their functions as a collateral duty and estimate that they spend 15 to
50 percent of their time on ATAC functions, depending on the scope of ATAC-
related activities, active prosecutions, or the current threat. Regional ATAC
Coordinators also are normally involved in lengthy litigation aside from their
ATAC duties and devote considerable time to that function. Some Regional
ATAC Coordinators told us that when they are litigating, they might not have
time to address issues or inquiries from the ATACs in their regions. They said
that another Regional ATAC Coordinator or the National ATAC Coordinator
would handle their duties in the interim. During this review there were two
incidences of turnover in the Regional ATAC Coordinator positions.

       The National ATAC Coordinator is responsible for ensuring the ATAC
Coordinators are adequately communicating with Regional ATAC Coordinators,
communicating with USAOs to solicit input on the ATAC program, and filling in
for Regional ATAC Coordinators who are busy with other duties. CTS
recognized the need for and created the position of “National ATAC
Coordinator” in February 2004 and filled it with an experienced AUSA/ATAC
Coordinator from the field on a 1-year detail. The position will be staffed on a
rotating basis, possibly with other ATAC Coordinators from the field. The
current National Coordinator believes it is valuable to fill this position with field
ATAC Coordinators because they can bring a better understanding of the
issues in the field to headquarters.

      EOUSA: The Supervising Counsel to the EOUSA Director’s staff, who is
the EOUSA point of contact for ATACs, told us that she provides the field
ATACs with guidance on administrative issues (training, budget) and performs
troubleshooting as issues arise. She also stated that her role is more process-
oriented than operational. Similar to the CTS National ATAC Coordinator, the
EOUSA point of contact for ATACs is serving in a rotational capacity, having
been detailed from a particular USAO. EOUSA assigns additional duties to the
point of contact for ATACs and she is not devoted solely to the ATAC program.
EOUSA collects budget information in the ATAC Quarterly Reports (budget
reports) and handles requests for reimbursements from the ATACs. The
EOUSA EARS staff is responsible for periodically evaluating USAOs and
includes a section on the USAOs’ ATACs in its reports.



U.S. Department of Justice                                                105
Office of the Inspector General
Evaluation and Inspections Division
       USAO: Each USAO, through the ATAC Coordinator, independently
determines ATAC membership, training topics, frequency of meetings,
communication or information sharing methods, and how to spend the
$100,000 ATAC allocation. The USAO ATAC Coordinators perform their
functions as a collateral duty. Those that we interviewed estimated that they
spend 15 to 50 percent of their time on ATAC functions, depending on ATAC
activities or if they are prosecuting cases.

EOUSA Does Not Strategically Analyze the ATACs’ Budget to Evaluate the
Need for Additional Funding

       Although ATAC Coordinators told us that they needed further ATAC
funding, EOUSA has not adequately assessed this need. Based on our review
of the ATACs’ financial reports and the information we obtained through
interviews, we found that the majority of ATACs have used their initial
allocation of $100,000 each and the ATAC program has received no additional
funding since FY 2002. Congress intended the funds for the purchase of
communications equipment and the provision of training for state and local law
enforcement agencies, including first responders. 59 The U.S. Attorneys we
interviewed stated they were committed to the ATAC program and were trying
to continue with the same level of activity despite no identified future funding.
These U.S. Attorneys believed the ATAC program has developed partnerships
and information sharing that is vital to their districts. However there has not
been a separate request for additional funding for allocation to the USAOs and
those interviewed in CTS and EOUSA saw no future funding availability.

       EOUSA did establish procedures to monitor how the ATACs spent the
total $9.3 million. Each ATAC must submit to EOUSA the ATAC Quarterly
Report that lists the funds authorized, obligated, and projected for three budget
categories (communication items, intelligence coordination, and task force
infrastructure) and contains copies of its reimbursable agreements and a
narrative report of accomplishments. 60 However, EOUSA does not consolidate




       59 Originally, the districts had until September 30, 2003, to expend the money, but

were allowed extensions until December 2003. Some ATACs requested, and received,
extensions to spend the money by December 2004 or March 2005.

       60  The three budget categories are defined as: communication items - secure faxes,
Secure Telephone Unit III telephones, telecommunications equipment, and/or computers and
related software; intelligence coordination - training and technical assistance, overtime to
attend ATTF/ATAC meetings or projects, and support services; and task force infrastructure -
not defined in the guidance.



U.S. Department of Justice                                                        106
Office of the Inspector General
Evaluation and Inspections Division
the financial information from the ATAC Quarterly Reports to systematically
analyze how the $9.3 million allocation is spent. 61

     Some USAOs now supplement their ATAC funding by using their general
budgets or the Law Enforcement Coordinating Committee (LECC) allocations. 62
EOUSA and CTS personnel stated that ATAC Coordinators could tap into the
LECC allocations available to each USAO, as well as federal and state DHS
money to fund ATAC training. While this may be a viable option for some
ATACs, it may not provide enough funding for active ATACs. For example, one
ATAC Coordinator survey respondent stated:

              Given the LECC receives an annual stipend, it would
              follow that the ATAC should as well receive some
              annual funding to support bringing in speakers,
              providing printed material handouts to members at
              quarterly meetings, refreshments… With terrorism
              prevention the mandate, it is incumbent upon us in
              each ATAC to constantly foster vigilance in our
              membership… and we need what I see as minimal
              funding to best accomplish that goal.

       When asked in the survey what resources the ATAC needed that it did
not have, 14 of the 22 respondents identifying themselves as ATAC
Coordinators stated they needed one or more of the following: annual
funding/financial resources, office and meeting space, and more staff dedicated
to the ATAC. Additionally, the ATAC Coordinators we interviewed stated that
they need funding to continue offering training to the ATAC members. A few
complained of a lack of space large enough to hold meetings and the lack of an
adequate staff assigned to complete the administrative duties of the ATAC.
One U.S. Attorney said, “If the ATTF [now ATAC] had more funding, they could
do more training and reach the law enforcement and public service agencies
out in the hinterlands.” When asked what the impact of the lack of resources
has had on the ATAC achieving its mission, two ATAC Coordinator survey
respondents said:


       61   We reviewed a compilation of ATAC Quarterly Reports submitted by each ATAC from
September 2002 through December 2004 and found that not all ATACs submitted reports each
quarter, completed reports in the same manner, provided a narrative of accomplishments, or
listed the items purchased in the correct categories. EOUSA officials told us they follow up
with these ATACs to ensure proper accounting and submission of Quarterly Reports.

        62 In 1981, each USAO established an LECC with a membership of federal, state, and

local law enforcement, and the mission to improve coordination and cooperation among these
members. Each LECC receives an allocation for training of state and local law enforcement
personnel.

U.S. Department of Justice                                                      107
Office of the Inspector General
Evaluation and Inspections Division
              • Lack of funding for training.

              • Need detached personnel to follow through with
                initiatives and/or initiative development (since all
                participants have many other duties, when meetings
                are over, [there is] little follow-up on ideas, because
                non-terrorism related agency duties intrude).

       In April 2005, ATAC Coordinators told us they were unable to attend
terrorism-related training in different areas of their district or region due to a
lack of available funds for ATAC mileage reimbursement. Similarly, the ATAC
Coordinators were unable to hold regional meetings or conferences during FY
2005 due to insufficient funds.

      Prevention of terrorism is the number one priority of the Department,
and the ATAC program is a crucial component in this prevention initiative.
Therefore, we believe EOUSA should strategically assess the need for future
ATAC program funding.

The Department, CTS, and EOUSA Have Not Provided Enough Guidance on
ATAC Coordinator Roles and Responsibilities or on How to Structure and
Manage an ATAC. Further, the Level of Compliance With the Attorney
General’s Mandate to Establish and Maintain ATACs Varies Across Judicial
Districts

      Although the former Attorney General issued a memorandum
establishing the ATAC and the former Deputy Attorney General issued initial
guidance on how to set-up an ATAC, ATAC Coordinators we interviewed and
surveyed told us they needed additional guidance from CTS and EOUSA. 63 The
ATAC Coordinators wanted guidance that clearly delineates the roles and
responsibilities of the ATAC Coordinators and further guidance on ATAC
operations and structure. ATAC Coordinators told us they do not have a guide
to use in identifying members, training opportunities, sponsoring terrorism
exercises, and developing mechanisms to aid in the dissemination of
information, and therefore need additional guidance on their roles and duties.
Further, this role of coordinator is a new one for most AUSAs, and many we




        63 On October 8, 2001, the Deputy Attorney General issued a memorandum, Guidance

for Anti-Terrorism Task Forces, which discusses the ATAC role in preparedness planning and
provides initial guidance on ATAC operations, membership, and the USAOs’ and FBI’s roles.
The guidance contained in this memorandum is general and recognizes the variance in
circumstances and practices for each judicial district.

U.S. Department of Justice                                                     108
Office of the Inspector General
Evaluation and Inspections Division
interviewed told us they do not have much experience as managers or
administrators.

Lack of Adequate Guidance on ATAC Coordinator Roles and Responsibilities
and How to Structure and Manage an ATAC

      Some of the ATAC Coordinators we interviewed believed that while the
Department has charged them with a new mission, it has not defined their role
in the prevention of terrorism and is still not providing adequate guidance on
operating an ATAC.

       One U.S. Attorney we interviewed stated:

              It was a daunting task to change your mission in 24
              hours [after 9/11], but people are committed to this
              [prevention of terrorism] in the USAOs. The USAO
              tried to build this intelligence function without the
              experience or tools from the Department.

       Two ATAC Coordinators told us:

              • The main obstacle the ATAC confronts is a lack of
                guidance and direction from [the Department].
                There is not a chain of command and no one has
                grabbed hold of the program, and no one is
                examining these issues.

              • [I am] not entirely sure that everyone [in the field]
                knows what Washington expects or wants. There is
                not clear direction from D.C.

      Because they received limited guidance from the Department when the
ATACs were established, some ATAC Coordinators informally polled their
counterparts in other USAOs or polled the ATAC membership to determine the
best way to implement the advisory council in their districts. An ATAC
Coordinator told us:

              We assembled 35 or so different agencies and sat
              around the table and decided how to set it [the ATAC]
              up… If the ATTF [ATAC] had a motto it would be, “We
              are making it up as we go along,” but it seems as if the
              same thing is happening in HQ/DC; they are making it
              up as they go along. Why are we not getting more
              guidance?


U.S. Department of Justice                                               109
Office of the Inspector General
Evaluation and Inspections Division
       ATAC Coordinators told us that they could benefit from additional
guidance and direction from CTS and EOUSA on how to set up and operate the
ATAC. They believed that they also could benefit from learning about the
activities and operations of other ATACs to determine the applicability of these
practices in their judicial district, and to gauge if they are “on target” based on
what others are doing. The ATAC Coordinators we interviewed told us that
EOUSA and CTS have not provided adequate opportunities for ATAC
Coordinators to share “best practices.”

        The ATAC Coordinators have met for training in their regions and at the
National Advocacy Center, but the sessions have emphasized investigative and
prosecutorial issues and have not focused on ATAC management issues. 64
There have been limited opportunities to exchange ideas or discuss the
successful initiatives of individual ATACs. The ATAC Coordinators joined the
Crisis Management Coordinators (those responsible for crisis planning in
USAOs) in a March 2004 conference, but the agenda only provided one
breakout session for the ATAC Coordinators, despite specific requests directly
from ATAC Coordinators to schedule a forum to discuss best practices. 65
Each ATAC Coordinator attended a breakout session organized by region,
facilitated by the CTS Regional ATAC Coordinator. We observed two of these
sessions and both of the Regional ATAC Coordinators who ran the sessions
were new. One Regional ATAC Coordinator used the session to familiarize
herself with the ATACs and ATAC Coordinators in her region, and to better
understand how they were implementing the ATAC program. In the other
session another new Regional ATAC Coordinator was confronted with a host of
questions from ATAC Coordinators concerning the ATAC program that he was
not able to answer. The main issues for ATAC Coordinators in this breakout
session were the role of the USAOs and ATACs in relation to DHS and the state
homeland security task forces, and the future existence or structure of ATACs.


       64The National Advocacy Center is the Department’s training center located in
Columbia, South Carolina.

         65 The following are topics from the ATAC portion of the ATAC Coordinators/Crisis

Management Coordinators Conference in March 2004: CTS Update; FBI International Threat
Assessment; Implementation of the Attorney General National Security Guidelines; FISA
Prosecution Issues; DHS Update; ATAC Training and other issues; FBI Databases and
Resources; Legal Issues in Extraterritorial Investigations; Practical/Tactical Issues in
Extraterritorial Investigations; Remarks from EOUSA; Counterterrorism and Criminal
Intelligence at the USAOs: The role of the Intelligence Research Specialist; Material Support
Cases; Prevention/Disruption Issues; Immigration; Domestic Terrorism; CTS Website Overview;
Ethics; Remarks from Chief Prosecutor, Paris Court, Paris, France; Northern Border Issues;
Community Outreach to Muslims; Aviation/Man-Portable Air Defense System (MANPADS);
Bureau of Prisons Issues; and Information Center (Director of the Terrorist Screening Center).



U.S. Department of Justice                                                        110
Office of the Inspector General
Evaluation and Inspections Division
While it is appropriate for new Regional ATAC Coordinators to use sessions to
learn about ATACs in their regions, neither of the breakout sessions allowed for
a detailed discussion of “ATAC best practices” or answered the questions posed
by ATAC Coordinators related to ATAC operations and these sessions were the
only time scheduled for such discussion.

      The Regional ATAC Coordinators have tried to provide training
opportunities for ATACs by holding regional conferences. The ATAC
Coordinators told us that regional meetings were effective and helpful, and
provided counterterrorism training and some opportunities to discuss
individual ATAC projects. However, these meetings are not required and have
not occurred in every region. We reviewed the agendas for these regional
conferences, and each had only one session scheduled for “task force
operations” or “ATAC issues.” Most sessions concentrated on prosecutive or
investigative topics. The CTS National ATAC Coordinator told us that some
ATACs that share similar issues (such as port security) have organized
meetings themselves on an ad hoc basis.

       In addition to the regional conferences, CTS developed a secure website
available to ATAC Coordinators and other terrorism prosecutors and support
personnel. 66 The website contains a specific section for ATACs that includes
links to ATAC documents, memorandums, contact lists, USA Patriot Act
information, training information, and “best practices.” When the OIG
observed this website in February 2004, CTS was conducting the pilot test with
18 ATACs. The pilot was completed in two weeks, and as of March 2005, all 93
judicial districts with ATACs had access to the website. 67 Additionally, the
Section Chiefs within the Criminal Division and 79 Intelligence Research
Specialists have access to the website.

       The “Best Practices” link on the CTS website provides overviews of the
activities for six ATACs. 68 However, the ATAC Coordinators were unable to use


       66  Each judicial district received two accounts for accessing the website, which cost
$45-50 for each access account. The website also can be used by federal prosecutors and
support personnel. The website allows users to access and download law enforcement
sensitive information like the CTS Daily Report, as well as to view and share information with
other users. Users can link directly to a variety of terrorism-related websites or documents.

       67The judicial districts of Guam and Northern Mariana Islands joined together to form
one ATAC. Therefore there are 93 ATACs, but 94 judicial districts.

       68 The districts and subjects of their postings include: Maryland-the ATTF overview

and Maryland Coordination and Analysis Center; Vermont - Anti-Terrorism Plan for the District
of Vermont; Southern District of Texas - Strategies for an Effective District Anti-Terrorism Task
Force; Eastern District of Pennsylvania (EDPA)- Slide Show Presentation of EDPA's ATTF
program, Information Flow Chart, Incident Intake Sheet, Law Enforcement Questionnaire, and

U.S. Department of Justice                                                           111
Office of the Inspector General
Evaluation and Inspections Division
the website to post bulletin board messages or use it as a forum for sharing
best practices. The CTS webmaster told us that the program used to design
and operate the website contains a bulletin board feature, but it was not as
useful as CTS had hoped; therefore, in November 2004, CTS created an “ATAC
E-mail Group” for all ATAC Coordinators and terrorism prosecutors in the
USAOs to interact and communicate on terrorism-related issues.

The USAOs’ Level of Compliance With the Attorney General Mandate to
Establish and Maintain an ATAC Varies Across Judicial Districts

       We found that the USAOs’ level of compliance with the Attorney
General’s mandate to establish and maintain an ATAC varied across judicial
districts. Each USAO has the authority and autonomy to determine how best
to operate the ATAC in its district, and we found that ATACs were not
consistently operated because there are no standards or guidelines from the
Department related to meeting frequency or training topics. Some varying
levels of activity and compliance are to be expected, but the lack of guidance
could negatively affect the further development of the terrorism prevention
mission of the Department.

       We visited 13 sites across the country with ATACs and contacted all 93
ATACs for rosters. We found that two of the ATACs we visited had joined with
state homeland security task forces. One of these ATACs merged its activities
and membership with the state homeland security task force, but the task
force’s operations are managed by the state. The ATAC Coordinator does not
have input into the meeting agendas, membership, structure, or functions,
although he attends all meetings. The USAO acts more as a “silent partner”
and had contributed financial resources to task force activities. The state
homeland security task force, not the USAO, disseminates information to its
members. Further, the overall membership of the task force is mostly private
sector individuals, local first responders, and local law enforcement officers.
The only federal representation is from the FBI and USAO, which is not full
representation from other federal law enforcement components as suggested by
the Attorney General’s memorandum establishing the ATACs.

       A second ATAC we visited also merged with the state homeland security
task force, but the ATAC Coordinator continued to co-manage the activities of
the joint task force/advisory council and maintained the title of co-coordinator.



Law Enforcement Agency Registration; Eastern District of New York – Weapons of Mass
Destruction (WMD) Outline and Corel Presentation WMD Slide Show; Eastern District of
Missouri - Interagency OPSEC (Operations Security) Support Staff Terrorism Threat Handbook,
Justice Television Network Training Materials, and Miscellaneous Information and Materials.



U.S. Department of Justice                                                     112
Office of the Inspector General
Evaluation and Inspections Division
       While it is not contrary to the Attorney General’s memorandum for an
ATAC to join with a state homeland security task force to eliminate duplication
of services and improve coordination, we question whether the first model
described above adheres to the Attorney General’s plan for the ATAC program.
The CTS Section Chief, when asked about a joint ATAC and state homeland
security task force, stated, “it is not the best way to operate to only have the
state leading and DOJ following. It is ok to partner, but the ATAC Coordinator
should still be out there working.” We believe the Department should
determine if the first ATAC model described above fulfills the Attorney
General’s directive and achieves the goals of the ATAC program.

      The September 2001 guidance from the Deputy Attorney General
required the ATACs to maintain “updated rosters of its members.” On two
occasions, we requested rosters of all ATAC members listed by judicial district.
We made the first request in June 2003 so that we could contact members to
schedule interviews prior to our initial site visits, and the second request in
November 2003 so that we could randomly select ATAC members for our
survey sample. We found that neither EOUSA nor CTS maintained a national
database of ATAC members. EOUSA eventually obtained the information from
most of the ATACs, although ten did not respond as requested. 69

      Many of the rosters we received were out of date (e.g., included names of
individuals who were no longer ATAC members) or identified individuals who
were never ATAC members. Of the 134 survey respondents who indicated that
they were never members of any task force or advisory council, 103 (77
percent) were individuals listed on ATAC rosters.

       We also found that because of a lack of standards and guidance, great
variation exists in the frequency of ATAC meetings in the districts we visited.
Meeting frequency ranged from monthly to once a year. Although the number
of ATAC meetings could be different in each judicial district, without regularly
scheduled meetings members tend to lose:

       •   Understanding of the ATAC mission;

       •   Opportunities for training;




        69 Eight districts did not submit the requested updated rosters in November 2003 and

two districts submitted rosters after our survey sample was selected. The OIG used the rosters
from the first request, originally submitted to us in June 2003, for these ten districts. One
district did not submit a roster in June 2003 or in November 2003, and could not be included
in the survey sample.

U.S. Department of Justice                                                         113
Office of the Inspector General
Evaluation and Inspections Division
         •    Opportunities for networking and establishing valuable contacts;

         •    Awareness of local, state, and federal resources; and

         •    The ability to plan for and respond to terrorist incidences.

      Because of the lack of regular meetings and in some cases ineffective
communication from the USAOs, we found that some ATAC members were
unsure of the exact mission of the ATAC and did not fully understand their role
or responsibility on the advisory council. If ATAC members are not able to see
a benefit of the council or are not able to understand how they fit into the
ATAC efforts, the advisory council may lose members and communication will
be hampered further.

RECOMMENDATIONS

10. The Department should clearly delineate the roles of CTS, EOUSA, and the
USAO in the ATAC program, clarifying who has primary responsibility and
authority for:

     •       Oversight,
     •       Monitoring ATAC operations,
     •       Evaluating success of the ATAC program, and
     •       Enforcing compliance.

11. CTS and EOUSA should jointly issue written guidance defining their roles
and responsibilities in the ATAC program, as well as the roles and
responsibilities of the Regional ATAC Coordinators, the National ATAC
Coordinator, and the EOUSA point of contact for ATACs. This written guidance
should be communicated to the ATAC Coordinators.

12. CTS or EOUSA should issue written guidance for ATAC Coordinators that
includes a definition of roles, how to determine membership base, and how to
structure and manage an ATAC.

13. EOUSA should strategically analyze the ATAC budget to assess the need
for future funding.

14. ATAC Coordinators should regularly update and maintain accurate
electronic rosters of the ATAC membership.

15. ATACs should meet at least quarterly, and ATAC Coordinators should
periodically review and communicate the ATAC mission to members.



U.S. Department of Justice                                                   114
Office of the Inspector General
Evaluation and Inspections Division
FTTTF-SPECIFIC ISSUES

         The FBI has not provided stable leadership, organizational
         structure, or adequate resources to the FTTTF to fully meet its
         mission. In addition, the FBI has assigned responsibilities to
         the FTTTF outside of its defined mission. As a result, the
         FTTTF is behind schedule in its acquisition of databases and
         development and implementation of its risk assessment tool.
         Additionally, the FTTTF has not sufficiently marketed its
         services, and consequently many JTTF and NJTTF members
         were unaware of the FTTTF and did not use the FTTTF’s
         services to aid their investigations.

The FBI Has Not Provided Stable Leadership, Organizational Structure, or
Adequate Resources to the FTTTF to Fully Meet Its Mission and the FBI
Assigned Responsibilities to the FTTTF Outside of Its Defined Mission

         The FTTTF’s leadership, organizational structure, and physical location
                                         changed multiple times as the Department
        FTTTF Findings Presented         and the FBI struggled to determine the
          Earlier in This Report         FTTTF’s most appropriate organizational
 •   The FBI had not developed written   alignment. The FTTTF is not fully staffed with
     performance measures for the        the necessary FBI personnel, or outside
     FTTTF or for the individual task    agency personnel. Further, the FTTTF was
     force members.
                                         assigned responsibility for “standing up” the
 •   The FBI has not developed a         Presidentially mandated Terrorist Screening
     national training plan for the task Center (TSC), a separate organization from
     forces, defined minimum training
     standards, or conducted training
                                         the FTTTF, and the flight training candidate
     needs assessments of task force     check system. The lack of stability and
     members.                            resources, combined with responsibility for
 •   The FBI has not provided written
                                         other missions, has affected the FTTTF’s
     guidance that defines the roles and operational effectiveness.
     responsibilities of task force
     members.                         Structure and Leadership Changed
                                      Frequently

      Unlike the other task forces and councils, the FTTTF was created as an
independent Department component with its own budget, personnel, and
information technology authority. Since its inception, the FTTTF’s
organizational chain of command changed four times, its immediate director
changed four times, and its internal structure changed eight times. The FTTTF
members believe that the current FTTTF Director now may provide the stability
and skills to adequately define and direct the task force operations. However,



U.S. Department of Justice                                                  115
Office of the Inspector General
Evaluation and Inspections Division
the impact of the initial structural and management instability continues to
affect the FTTTF’s effectiveness.

      The following timeline outlines the numerous changes in the FTTTF’s
chain of command:

       •   Initially in November 2001, the FTTTF reported to the Attorney
           General through the Deputy Attorney General. For the first 10
           months, an FBI Director and INS Deputy Director led FTTTF’s
           operations.

       •   In August 2002, the Attorney General transferred the FTTTF to
           the FBI’s Counterterrorism Division, with reporting
           responsibilities to the FBI Director and the Deputy Attorney
           General. 70

       •   In April 2003, Director Mueller approved the FTTTF’s transfer
           from the Counterterrorism Division to the FBI’s Office of
           Intelligence.

       •   In October 2003, the FTTTF returned to the Counterterrorism
           Division because Congress did not approve its relocation to the
           Office of Intelligence. FTTTF remains in the Counterterrorism
           Division.

       The following timeline outlines the four changes in the FTTTF Director:

       •   First Director served from November 2001 to June 2002,

       •   Second Director served from June 2002 to October 2002,

       •   Third Director served from October 2002 to May 2003, and

       •   Fourth Director has served from May 2003 to the present.

      In 2002, former Deputy Attorney General Thompson required the
Department’s Justice Management Division (JMD) to conduct a management
review of the FTTTF’s mission and functions, organizational placement and
structure, staffing, information resources, and administrative management.



       70 Foreign Terrorist Tracking Task Force Memorandum, Attorney General John Ashcroft,

August 6, 2002. The memorandum states that Homeland Security Presidential Directive-2
requires the FTTTF to report to the Deputy Attorney General.

U.S. Department of Justice                                                      116
Office of the Inspector General
Evaluation and Inspections Division
JMD’s November 2002 draft report addressed the need for stability in FTTTF
leadership. Specifically, the report stated:

               The most critical leadership positions within the FTTTF are
               the Director, Deputy Director, and the CIO… [and] stable,
               sustained leadership is imperative for ensuring FTTTF’s
               effectiveness over the long term. 71

       Even after the issuance of the JMD report, the FTTTF’s Director changed
two additional times, and the Deputy Director’s position was vacated and not
filled until 2005. Some FTTTF members we interviewed stated that with each
change in director and management oversight, the priorities changed, the
supervision became more fragmented, and the mission more unclear.

      An FBI FTTTF member further stated that while the FTTTF’s
management oversight changed four times since 2001, another major obstacle
was FTTTF’s eight internal reorganizations. Another internal reorganization
occurred in October 2004 when the FTTTF transferred responsibility for
operating its Flight Training Security Unit to the DHS. 72

Lack of Adequate Resources

      Lack of Permanent Office Space: Because the FTTTF was in office space
borrowed first from the INS, and then the Counterintelligence Field Activity
(CIFA), it has moved its physical location five times since it was created in
November 2001. 73 The FTTTF Director told us that because CIFA controlled
the space the task force used prior to November 2003, the FTTTF could not


        71 Draft White Paper: Management Review of the Foreign Terrorist Tracking Task Force,

U.S. Department of Justice, Justice Management Division, November 13, 2002. (The review
results were prepared and disseminated to the FBI and the Deputy Attorney General’s office;
however, the report was never issued in final.)

       72   The Flight Training Security Unit assists in denying entry of aliens into the United
States associated with or suspected of being engaged in terrorist activity and aids in locating,
detaining, prosecuting, or deporting any such aliens already present in the United States,
through implementation of Section 113 of the Aviation and Transportation Security Act. This
act mandates the screening of foreign nationals who seek Federal Aviation Administration
certification to pilot certain types of aircraft. The H.R. 2115, "Vision 100 -- Century of Aviation
Reauthorization Act" authorizing the Unit’s transfer to the DHS was signed into law on
December 12, 2003, and amended title 49 of the U.S. Code.

       73 CIFA is a DOD field agency that develops systems to facilitate analytical support

processes and data analysis. Its mission of critical infrastructure protection complements
FTTTF’s mission of identifying and locating potential terrorists. CIFA provided to the FTTTF
financial support, hardware, software, systems and procurement expertise, and shared office
space.

U.S. Department of Justice                                                             117
Office of the Inspector General
Evaluation and Inspections Division
restrict the number of times it was moved. While the FTTTF has viewed its
partnership with CIFA as critical, FTTTF staff stated that the moves negatively
impacted the FTTTF’s operations, consumed a substantial amount of time, and
became the primary focus of staff meetings rather than operational issues. The
FTTTF Director stated that hundreds of man-hours were diverted from
sustaining critical operational tasks (such as data acquisition, desktop
support, server operations, telecommunications, technology deployment, and
data support to analysts) to make each new facility ready, move computers and
other equipment, and set up after the move. Counterterrorism Division
management acknowledged that the frequent moves of the FTTTF were
disruptive and caused inefficiencies in information technology enhancements
that the FTTTF requires for its analytical products.

      The following table shows the chronology of moves that occurred since
the FTTTF’s inception:

                   Table 12: Chronology of FTTTF’s Office Moves


         Date                                        Location

    October 2001        FTTTF begins operations in INS Headquarters, Washington, D.C.


                        FTTTF leaves INS and relocates to CIFA Headquarters in Northern
    January 2002
                        Virginia, on the 9th and 12th floors of Building #1.


    April 2003          FTTTF units move from the 12th floor to the 2nd floor of Building #1.


    June 2003           FTTTF units move from the 9th floor to the 3rd floor of Building #1.

                        FTTTF moves one block to Building #2 occupying the 5th and 4th
    November 2003       floors. The Flight Training Security Unit remains on the 3rd Floor of
                        Building #1.

    December 2003       FTTTF activates TSC in a portion of its office space.

                        FTTTF vacates 3rd floor of Building #1 and relocates the Flight
    January 2004
                        Training Security Unit to Building #2.
                        FTTTF acquires lease to Building #3, awaits construction
    February 2004       completion to move and house all of its operations in September
                        2004.
                        FTTTF partially vacates Building #2 and moves to Building #3.
    September 2004      Some FTTTF staff and the data center remain at Building #2, but
                        are scheduled to move to Building #3 by February 2005.
       Source: FTTTF.



U.S. Department of Justice                                                            118
Office of the Inspector General
Evaluation and Inspections Division
       Inadequate Staffing: The lack of adequate FBI personnel assigned full
time to the FTTTF, combined with decreased outside agency participation, has
hindered the FTTTF operations. In FY 2004, the FTTTF had a funded staffing
level of 26 FBI personnel, and as of November 2004 had 23 FBI staff on board.

       In April 2003, the then FTTTF Director recommended in an FBI
electronic communication that the FTTTF’s organizational structure be revised
to improve its “efficiency and effectiveness.” Because the FBI is the only
permanent member assigned to the FTTTF, the FTTTF Director proposed that
the FBI’s funded staffing level include 5 special agents and 36 support
positions (e.g., budget analysts, operations specialists, management analysts,
administrative staff). The recommendations took into consideration the on-
board non-FBI detailees and contract employees. The electronic
communication further stated that excluding the FBI’s positions:

              • All other positions on the task force are detailees
                and as such are subject to re-assignment on short
                notice. It is incumbent on the FBI to provide the
                bulk of the staffing and ensure continuity in
                personnel assignments, given the fact that the
                FTTTF was placed within the FBI by the Attorney
                General.

              • It is vitally important that the staffing levels
                recommended herein be approved to ensure that the
                FBI can meet its responsibilities in the effective
                leadership and operation of the FTTTF. 74

       The FBI did not adopt these staffing recommendations. The current
FTTTF Director told us that the FTTTF is still understaffed. The FTTTF
members told us that the task force needs analysts and administrative support
staff.

       With the exception of its FBI staff, the FTTTF has functioned primarily
with staff detailed from only a few of the agencies required by Homeland
Security Presidential Directive 2. When the FTTTF was established in October
2001, the Homeland Security Presidential Directive 2 directed the task force,
“…to be staffed by expert personnel from the Department of State, the INS [now
ICE], the FBI, the U.S. Secret Service, the Customs Service [now CBP], the


      74 Organization Structure Foreign Terrorist Tracking Task Force, EC 66F-HQ-

A1355682, 66F-HQ-A1355682-D, FBI, April 17, 2003.


U.S. Department of Justice                                                     119
Office of the Inspector General
Evaluation and Inspections Division
Intelligence Community, military support components, and other federal
agencies as appropriate to accomplish the Task Force’s mission.” In November
2002, the FTTTF reported that its membership included detailees from the
following agencies:

          •   FBI
          •   Office of Personnel Management
          •   INS
          •   U.S. Customs Service
          •   USMS
          •   Department of State
          •   Other Department of Justice
          •   Social Security Administration
          •   DOD-CIFA/Joint Counterintelligence Assessment Group
          •   Intelligence Community
          •   Local law enforcement
          •   Royal Canadian Mounted Police 75

       The following table lists agencies that as of November 2004 had staff
detailed to the FTTTF, agencies missing on the FTTTF according to the
requirements of Homeland Security Presidential Directive-2, and agencies the
FTTTF would like to contribute full-time staff.




       75 Foreign Terrorist Tracking Task Force Power Point Presentation, presented by Grace

Mastalli, ATTF Intelligence Research Specialist Conference, November 13, 2002.


U.S. Department of Justice                                                       120
Office of the Inspector General
Evaluation and Inspections Division
       Table 13: Agencies Detailed to the FTTTF, Agencies Missing
    From the FTTTF, and Additional Agencies Desired as New Members
                            November 2004

                                          Agencies Missing,
                                           but Required by                 Agencies FTTTF
           Agencies with Staff
                                          Homeland Security              Would Like to Add as
           Detailed to FTTTF1
                                             Presidential                Full-Time Members2
                                             Directive-2
          • Department of                 • Department of                • DHS – ICE (more
            Justice Criminal                State                          members), TSA
            Division                      • U.S. Secret Service          • Federal Aviation
          • Office of Personnel           • CBP                            Administration
            Management                                                   • DEA
          • ICE                                                          • Social Security
          • Defense: CIFA                                                  Administration
          • Intelligence                                                 • Internal Revenue
            Community                                                      Service
                                                                         • Department of Labor
              Source: FTTTF documents
              Note 1: All agencies listed in this column are required to participate by Homeland Security
                       Presidential Directive-2 except for Office of Personnel Management and CRM, U.S.
                       Department of Justice.
              Note 2: These agencies are in addition to those required by Homeland Security Presidential
                       Directive-2.


      A veteran FTTTF member told us that the FTTTF has the finances and
equipment to perform its mission, but not the staff. He stated, “We don’t have
enough government employees, there is a need for more analysts. No one has
any customs expertise and the one person from ICE has minimal immigration
background.” The FTTTF’s General Counsel added that the participating
agencies also are being tapped to provide representatives to other task forces or
agencies (such as the NCTC, TSA, and others).

      Several FTTTF survey respondents and interviewees reported that the
inadequate numbers of personnel hurt FTTTF’s operations by:

              • [making] it difficult to conduct expeditious analysis
                on time-sensitive information and the analytical
                process is slowed down,

              • [preventing it] from responding to or setting leads, or

              • [inhibiting it] from conducting proactive searches
                and analyses.




U.S. Department of Justice                                                                         121
Office of the Inspector General
Evaluation and Inspections Division
One critical impact of insufficient staffing, at the time of our December 2003
interviews, was a three-month backlog in updating the TIPOFF portion of the
Consolidated Tracking List. The FTTTF uses the Consolidated Tracking List to
identify undetected terrorists that are already in the United States and to notify
public sources of the need to alert the FTTTF when changes occur with specific
persons (e.g., address changes, acquisition of public documents). 76 The FTTTF
used detailed staff to address the backlog. When asked about the status of the
backlog, the FTTTF Director informed us that as of August 2004, it had been
reduced to four weeks. However, FTTTF does not consider the four weeks a
“backlog,” but rather a built-in time period to ensure the data is standardized,
cleansed, and prepared for matching against the
FTTTF datamart and a selected set of external                FTTTF’s Functions
commercial databases.
                                                              • Tracking suspected
                                                                terrorists and their
Assignment of Additional Responsibilities                       supporters within the United
                                                                States,
       Activation of the TSC Diverted FTTTF’s
Resources: FTTTF members told us that the            • Detecting previously
biggest disruption to the FTTTF’s mission was          unknown foreign terrorists
                                                       and their supporters within
the activation of the TSC. In September 2003,
                                                       the United States, and
the FBI delegated the responsibility for
“standing up” the TSC by December 1, 2003, to        • Conducting risk assessment
the FTTTF. The TSC was mandated by the                 of foreign nationals seeking
President as part of the national                      visas who want to enter or
                                                       remain in the United States.
counterterrorism strategy. The FTTTF was
specifically tasked with developing the
information technology structure to integrate multiple agencies’ terrorist
watchlists and to provide direct support for TSC’s operations. 77 The FTTTF
successfully carried out the start-up mission in 75 days. Successful
completion of this mission, however, contributed to further disruption of FTTTF
operations that were already impacted by the multiple leaders, multiple moves,
and inadequate staffing. The FTTTF managers told us that the diversion of its



       76  The FTTTF maintains a Consolidated Tracking List that combines the Department of
State’s TIPOFF System, the FBI’s Violent Gang and Terrorist Organizations File found in
National Crime Information Center, and the FBI’s 22 Most Wanted Terrorists. The TIPOFF
system contains more than 100,000 names of potential terrorists that form the basis for both
the TTIC and TSC databases. Although TIPOFF was originally operated by the Department of
State, responsibility for maintaining it has been transferred to TTIC, now known as NCTC.

        77 On September 16, 2003, the Homeland Security Presidential Directive-6 established

the TSC and required it to become operational by December 1, 2003. The TSC was created to
consolidate terrorist watchlists from multiple agencies and provide 24/7 operational support
for federal screeners and state and local law enforcement nationwide and worldwide.


U.S. Department of Justice                                                       122
Office of the Inspector General
Evaluation and Inspections Division
technology resources delayed the development of critical profiles and other
information technology enhancements required to conduct analyses and
prepare analytical products.

       At the time of our December 2003 interviews, FTTTF information
technology staff continued to provide support for TSC’s operations, but
as of August 2004, the FTTTF Director informed us that no staff was
being shared between the TSC and FTTTF. In addition, the FTTTF spent
13 percent ($7.8 million) of its $61.6 million budget activating the TSC,
but was eventually reimbursed.

      Flight Training Security Unit: The former Attorney General delegated the
responsibility to screen foreign nationals seeking Federal Aviation
Administration certification to pilot certain types of aircraft to the FTTTF. The
FTTTF created the Flight Training Security Unit to perform this function.
While some FTTTF members believed that this unit did not fit in with the
FTTTF’s mission, others viewed the success of the unit as one of the FTTTF’s
major accomplishments. In December 2003, Congress passed a bill
transferring responsibility for flight training candidate checks to DHS. 78
FTTTF worked with the DHS to support this transition, which finally occurred
in October 2004. As a result of this transfer, the FTTTF had to plan another
internal reorganization and shift staff to other units.

      Threat Processing and Assessment Unit: In February 2005, the FBI
Director established a permanent unit called the Threat Processing and
Assessment Unit (TPAU) within the FTTTF to perform evaluations of large sets
of data for identification of potential terrorists among foreign visitors. These
types of evaluations were first conducted for the FBI’s 2004 Threat Task Force,
which the FBI considered to be successful. 79 Because the function was
supported by and consistent with the functions of FTTTF, the decision was
made to permanently house this new unit there.

       Funded staffing levels have not yet been allocated for the TPAU. In the
interim, the TPAU is staffed predominantly with contractors and an insufficient
number of personnel detailed from the FTTTF and other FBI divisions.
According to the FTTTF Director, the TPAU requires many more permanent
full-time staff to sufficiently maintain day-to-day operations. We believe that



        78 The H.R. 2115 “Vision 100 -- Century of Aviation Reauthorization Act” was signed

into law on December 12, 2003.

        79 The Department assembled the 2004 Threat Task Force, headed by the FBI, to

prepare for the various events occurring in the summer of 2004 and into 2005 that might be
targets for terrorists, i.e., the Summer Olympics, the Presidential election and inauguration.

U.S. Department of Justice                                                           123
Office of the Inspector General
Evaluation and Inspections Division
assignment of the TPAU duties to the FTTTF without sufficient staff may
contribute to further delays in accomplishing other FTTTF mission critical
functions.

The FTTTF Is Behind Schedule in Its Acquisition of Databases and
Development and Implementation of Its Risk Assessment Tool

Acquisition of Databases

         As a result of instability in leadership and organizational structure,
inadequate resources, and additional responsibilities, the FTTTF’s
acquisition of government databases is behind schedule, which affects
the effectiveness and efficiency of the analyses the FTTTF performs. To
fulfill its mission, the FTTTF requires electronic access to large sets of
data, including databases from many federal agencies, open source and
private industry data, and access to sensitive materials from law
enforcement and intelligence sources. The FTTTF’s initial goal was to
obtain a state-of-the-art information technology infrastructure with a
suite of sophisticated analytical tools to mine these databases for
suspicious patterns and conduct unique risk assessments to identify
high-risk individuals. The FTTTF also intended to use the unified watch
list to conduct periodic “batch” searches of a series of government and
public databases. However, as described below, the FTTTF still has not
fully acquired the number and type of databases it needs.

      Previous Database Requirements: In April 2002, the former Attorney
General issued a memorandum directing the FTTTF to identify the agency
databases needed to fulfill its mission. 80 In June 2002, the FTTTF submitted a
memorandum to the former Attorney General identifying approximately 85
databases. We found that as of July 2004, 50 of these requested databases
had not been acquired, and some that had been acquired were not kept up to
date. FTTTF survey respondents reported that missing or incomplete data
caused the analytical process to be slow and incomplete.




        80 Coordination of Information Relating to Terrorism Memorandum, U.S. Department of

Justice, Attorney General John Ashcroft, April 11, 2002. The memorandum also directed all
Department investigative components to establish procedures to provide on a regular basis and
in electronic format the names, photographs, and other identifying data of all known or
suspected terrorists for inclusion in their own databases. It further directed each agency to
provide to the FTTTF unfiltered, timely, and electronic access to the information systems and
data sets deemed relevant by the FTTTF Director, subject to any legal restrictions on the
sharing of such information.



U.S. Department of Justice                                                       124
Office of the Inspector General
Evaluation and Inspections Division
       When we initially interviewed the FTTTF’s Director in June 2003, he had
been in the position for only one month and was unaware of the existence of
the June 2002 list of 85 required databases developed by the previous FTTTF
Director. During subsequent interviews in May and August 2004, the Director
said he believed that the original list was primarily “brainstorming” and a
“wish list,” which was in constant evolution, and some of the databases placed
on it were a result of one-time requests in response to a particular threat or
project.

      Current Database Requirements: In August 2004, the FTTTF Director
provided us with a new list of 30 FTTTF database requirements, 17 of which
belong to the DHS. He informed us that the FTTTF Requirements Team had
taken the lead in defining current data requirements and had recently added
two new staff, including a data librarian, to focus on obtaining the latest data
and to ensure existing data is refreshed. Additionally, he stated, as the risk
assessment tool is implemented, it will help the FTTTF to evaluate which
databases it needs.

      In August 2004, the Homeland Security Council advised the DHS to
provide certain databases to the FTTTF. 81 The FTTTF Director stated that
although his staff had made repeated requests, both informal and formal, for
many of the remaining databases, numerous factors affect the acquisition
process. For example, he said the acquisition of each database must be
negotiated with the parent agency and documented in an MOU, each database
is unique, and each requires staff to “cleanse” and evaluate the data and
ensure that it is in a form recognized by the FTTTF’s analytical tools.
Additionally, the FTTTF Director stated that:

              There is limited time and personnel available to
              negotiate agreements and resolve technical issues
              related to transferring data. There is an impact to
              FTTTF (FBI) as well as the other organizations. For
              example, the mandate to provide full access for the FBI
              to US-VISIT and SEVIS data was made during July
              [2004] by the Homeland Security Council. The first
              transfer of “pilot” data occurred on 1/18/05 with a
              plan of 30 days to resolve technical issues…Regular


       81  The DHS was mandated by the Homeland Security Council to provide the FBI “full
access” to US-VISIT and SEVIS data, and an MOU regarding such access was signed on
February 10, 2005. Although the transfer of data was originally stalled according to the FTTTF
Director, the pilot data sharing of approximately 100,000 records from US-VISIT and SEVIS
was completed on February 18, 2005. The Director stated that all technical and operational
issues were resolved and the FTTTF began receiving an “historical load” of data in May 2005,
which will be followed by regular periodic updates.

U.S. Department of Justice                                                        125
Office of the Inspector General
Evaluation and Inspections Division
              transfer of data [is set to begin] in April
              [2005]…Transferring data is much easier said than
              done.

     When we asked the FTTTF Director for a timetable for acquiring the
remaining databases, he responded:

              FTTTF is currently performing its mission as defined in
              Homeland Security Presidential Directive 2, with
              tangible results.   A multitude of government and
              commercial datasets and analytical tools are currently
              used by FTTTF to generate leads on potential terrorist
              threats. The primary data query tool in use can
              simultaneously search many disparate data sets.
              Acquiring additional data sets, specifically the ones
              mentioned above, will significantly enhance analysts’
              ability to perform link analysis and identify non-
              obvious relationships that would not otherwise be
              available.

              Some of the data sets mentioned above can be
              accessed from a stand-alone terminal.       FTTTF’s
              production system eliminates the stove-pipes created
              by these stand-alone systems. Ingesting the data in
              its entirety (into the FTTTF data mart) or accessed
              through automated channels would add real value to
              the analyst. Such capabilities are pursued within
              existing    capabilities, priorities, and    funding
              constraints.

       The FTTTF Director could not estimate what could have been
accomplished since June 2002 with access to the databases. He stated that he
believes, however, that the additional data combined with the available
analytical tools will have a positive impact on the FTTTF’s ability to locate,
identify, and track terrorists. The FTTTF Director stated that as of November
2004, the FTTTF has acquired 9 of the 30 databases.

      We also found that the FTTTF had difficulty obtaining requested datasets
from some units within the FBI. For example, since July 2004, the TSC
stopped providing the FTTTF with the Terrorist Watch List. Efforts by the
FTTTF to resume receiving this list have been unsuccessful.




U.S. Department of Justice                                              126
Office of the Inspector General
Evaluation and Inspections Division
Risk Assessment Tool

       Since FY 2002, the FTTTF has been developing complex risk assessment
profiles that will assist in identifying a terrorist by prioritizing an individual’s
risk through the assignment of threat scores. However, this project is at least
seven months behind schedule. In FTTTF’s October 29, 2003, briefing for the
House Judiciary Subcommittee on Immigration, Border Security, and Claims,
the FTTTF Director testified that the risk assessment prototype would be
completed by October 31, 2003, with a projected start date of April 1, 2004.
The FTTTF contracted with two outside vendors to create a series of algorithms
to perform automated risk assessments or analyses of an individual or group.
There were also delays in securing properly cleared contractor staff to support
the classified portion of the risk assessment tool.

       In May 2004, the FTTTF Director told us that the FTTTF would receive its
risk assessment tool and begin testing it in August 2004. The Director said the
project’s delay was caused by the FTTTF’s responsibility for activating the TSC,
which diverted both contractor and FTTTF staff from the risk assessment tool,
and the complexity of the tool was greater than initially anticipated. In August
2004, the Director informed us that the results of the testing were positive, and
the first operational version of the prototype software would begin validation
testing by September 2004. In November 2004, the Director further informed
us that the FTTTF has worked with the contractors to finalize the tool’s
integration and complete the test plan.

The FTTTF Has Not Adequately Marketed Its Services, and Many JTTF
and NJTTF Members Were Unaware of the FTTTF and Did Not Use the
FTTTF’s Services to Aid Their Investigations

       Our interviews with task force members showed that most JTTF and
NJTTF members had no knowledge of the FTTTF’s role, mission, or functions.
JTTF supervisors stated often that they either had no contact with the FTTTF
or had heard of the FTTTF, but were unfamiliar with what functions it
performed. Many FTTTF members and supervisors who we interviewed or
surveyed stated that the FTTTF needs to market its services. Additionally, an
intelligence agency representative said that it is important for the FTTTF to
educate others on how it fits into the intelligence community and the fight
against terrorism. This would help the FTTTF better integrate into the
intelligence community and ensure an open exchange of information.

      Some FTTTF members acknowledged the marketing problem. They
stated that requests they receive are sometimes inappropriately directed and
assigned to the FTTTF because of the lack of knowledge that the JTTFs, NJTTF,
DHS, and other government agencies have about the FTTTF’s services. The
FTTTF Director told us in May 2004 that he became aware of the level of

U.S. Department of Justice                                                127
Office of the Inspector General
Evaluation and Inspections Division
unfamiliarity with the FTTTF during his recent visits to two JTTFs in Baltimore
and Houston. He stated, “It was pretty enlightening as to how much they don’t
know what we do.” The Director stated that educating “customers” on what the
FTTTF does and how to use its services is one of the challenges he faces. To
address this issue, he said he is visiting FBI field offices and attending JTTF
conferences to give presentations on FTTTF mission and functions. The FTTTF
previously sent e-mails and electronic communications to the field, but he
believes the task force members are so overwhelmed with information that the
message just did not “sink in.” The Director also briefs the SACs when they
rotate into the Counterterrorism Division at FBI headquarters, and he has
briefed a group of FBI ASACs. However, the lack of resources and assignment
of projects outside of the FTTTF’s mission has affected the Director’s ability to
fully market the FTTTF’s services.

       While FTTTF members stated that they are eager to have their task
force’s mission and services understood, they expressed serious concern that
marketing the FTTTF will result in additional work that it will not be able to
perform without sufficient staff and analytical capability.

CONCLUSION

      The FTTTF performs a unique and innovative service that can add great
value to various agency inquiries in support of the Department’s mission to
prevent terrorism. However, the lack of stable leadership and resources has
resulted in delays in the acquisition of databases and development and
implementation of a risk assessment tool, which prevents the FTTTF from
providing the full complement of services to FBI terrorism task forces and
outside law enforcement agencies with a terrorism-related mission. The FTTTF
has not adequately marketed its services and, as a result, JTTFs and the larger
law enforcement and intelligence community are not taking full advantage of
the FTTTF’s analytical capabilities.

RECOMMENDATIONS

16. The FTTTF should develop a plan to acquire and regularly update
the required databases from other agencies.

17. The FBI should identify and address the obstacles the FTTTF
encounters in securing and regularly updating required databases from
other agencies.

18. The FBI should identify and address the FTTTF’s unmet resource
requirements for staff (FBI and other government agencies), space, and
equipment.


U.S. Department of Justice                                            128
Office of the Inspector General
Evaluation and Inspections Division
19. The FBI should ensure long-term, stable leadership, organizational
structure, and housing for the FTTTF.

20. The FTTTF should develop and implement a plan to improve awareness
and understanding of its services.




U.S. Department of Justice                                          129
Office of the Inspector General
Evaluation and Inspections Division
JTTF-SPECIFIC ISSUES

       Although the FBI has reallocated considerable resources to the
       counterterrorism program, the JTTFs still experience certain
       staffing shortages and turnover in leadership. Some JTTFs
       experience space and information technology connectivity
       problems.

The FBI Has Reallocated Considerable Resources to the Counterterrorism
Program but the JTTFs Still Experience Certain Staffing Shortages and
Turnover in Leadership

        Our review found that the JTTFs had inadequate administrative and
analytical support, were exceeding their authorized staffing levels, and had
                                                  high turnover in leadership. Since
            JTTF Findings Presented               September 11, 2001, the FBI has
              Earlier in This Report              expanded the number of JTTFs
 • The JTTFs and ATACs have not fully
                                                  across the country (to a total of 103),
   coordinated their efforts to reach out to and  and the FBI Director mandated that
   share information with law enforcement         every terrorism lead be addressed.
   agencies, first responders, and other relevant
   organizations in remote areas.
                                                  Even though the FBI reallocated
                                                  special agent and support staff
 • The FBI had not fully developed outcome-       resources to the counterterrorism
   oriented performance measures for the JTTFs,
   or for the individual task force members.
                                                  program, the number of support staff
                                                  has not increased proportionately to
 • The FBI has not developed a national training  the workload expansion.
   plan for the task forces, defined minimum
   training standards, or conducted training
   needs assessments of task force members.           Lack of Analytical and Administrative
   Notification of available training is ad hoc and   Support
   non-FBI JTTF members believe that FBI
   members get preference for training
   notification and attendance.                              Many JTTF members we
                                                      interviewed and surveyed stated that
 • The FBI has not developed a structured,            they had inadequate administrative
   systemwide orientation program for new JTTF
   members. The FBI has not provided written          and analytical support. 82 For
   guidance that defines the roles and                example, at the time of our 2003
   responsibilities of task force members.            interviews of JTTF managers and
                                                      members, administrative staffing
                                                      deficiencies on the New York City


        82 The FBI has recognized the need for additional intelligence analysts and has initiated

an intensive recruitment and training program for intelligence analysts. Concurrent with this
counterterrorism task force review, the OIG was conducting a review of the FBI’s intelligence
analyst recruitment program and released the final report in May 2005; The Federal Bureau of
Investigation's Efforts to Hire, Train, and Retain Intelligence Analysts, DOJ-OIG, May 2005.

U.S. Department of Justice                                                           130
Office of the Inspector General
Evaluation and Inspections Division
JTTF caused a 6-month backlog in the uploading of lead status information
(i.e., leads assigned, covered, or closed) in the ACS system. Thus, when a task
force agent anywhere in the country retrieves ACS data on a New York City
case or subject of investigation, the case record could contain outdated or
inadequate information. This could compromise investigative processes
nationwide if task force members are unable to access all current and known
information on a subject or case. When we interviewed New York City JTTF
managers in April 2004, the acting FBI SAC stated that these staffing
deficiencies and a backlog still existed.

      We also found through our survey and interviews that in the absence of
adequate numbers of support staff, JTTF members spend significant amounts
of time completing administrative tasks. The JTTF members commented:

              • Investigative agents are being tasked with
                administrative, analytical, and record keeping tasks
                that take away substantially from the investigative
                efforts of the initiative.

              • Lack of support personnel has slowed most of our
                investigations. The case agent not only investigates
                but also does 90 percent of the support work.

              • We are not accomplishing nearly as much as we
                need to be. Morale suffers when you aren’t able to
                stay on top of the work that you know is being
                neglected.      Agents/TFOs       [Task       Force
                Officers]/Analysts are being pulled away from
                investigative work to handle administrative matters.
                Analyst is called upon to relieve [the switchboard
                operator] on a rotating basis, [along] with other
                support personnel.

              • An unreasonable amount of time is spent on
                administrative, and paper related issues that could
                be spent on actual investigative duties.

       JTTF members also told us that the JTTFs need additional analysts:

              • There are not enough analysts to review bank
                records, telephone records, etc. so that analytical
                reports can be completed for investigators to review
                and use.



U.S. Department of Justice                                             131
Office of the Inspector General
Evaluation and Inspections Division
              • Our task force has too little analytical support. The
                analysts we have are good, but there are simply not
                enough of them to do much good.

              • It takes a few days/weeks to get back simple
                background and financial checks… [I] cannot
                conduct an investigation unless I have the
                intelligence to interview a subject. In the case of
                New York, a backlog existed in uploading lead
                status (i.e., assigned, covered, closed) into the ACS
                system.

              • [There is] not enough analytical support available to
                even come close to conducting a thorough and
                complete investigation.

              • Lack of professional analysts hampers every aspect
                of our investigations.

              • Poor analytical support at the field level.

              • Agents are performing analyst work 30 percent of
                their day …

              • Need more analysts [because] analysts should be
                assigned to the JTTF and not assigned out of the
                main office. Experience counts with analysts – they
                are often our sole repositories of institutional
                knowledge of the subject matter. We need financial
                analysts and data entry clerks so that when we do
                gather the information, we have help organizing it.
                We need consistent and professional help in the
                area of confidential file maintenance.


The FBI’s Rotation of Field Office JTTF Leadership

      Although the FBI often rotates managers in the field to provide
opportunities to gain varied experience, we found this frequent rotation
negatively affected the structure and stability of the JTTF, and terrorism
investigations, as well as an important pilot information sharing project.

      The JTTFs existed before September 11, 2001, but doubled in number in
the three years since then. Along with this increase in task forces and


U.S. Department of Justice                                              132
Office of the Inspector General
Evaluation and Inspections Division
members comes a need for stability and structure, especially in task force
management. The JTTF and terrorism investigations are often new experiences
for both FBI and non-FBI task force members, and members benefit from
stable, consistent, experienced management of the task force. A former JTTF
supervisor with many years of experience in the counterintelligence and
counterterrorism programs in the FBI told us:

              The FBI must recognize the difference between the
              “criminal” side and the “intelligence” side.        The
              counterterrorism and counterintelligence [program]
              requires more stability and continuity. It is vital to
              have continuity [in leadership] because of the nature of
              counterterrorism work.

      Some of the JTTF members we interviewed commented that the lack of
continuity in leadership created inconsistencies in the JTTF’s management,
work prioritization, and operations. For example, members stated:

              • The lack of continuity in the JTTF supervisors has
                had a negative effect: there was no direction and
                the team did not maintain cohesion. At some point,
                one part of the JTTF did not know what the other
                part was doing; there was a breakdown in
                communication.

              • Turnover has been a problem at the JTTF. You
                need continuity in a leader and they have to have an
                interest in [the work]. With every new leader comes
                a new management design. There was a lack of
                leadership and direction on the JTTF.

              • The impact of the changes in supervision [is]
                strained communication and a lack of continuity in
                direction.

              • There has been lots of turnover in the supervision of
                the JTTF. It affects the leadership, makes everyone
                nervous if you don’t have continuity, especially if
                you don’t have someone with experience.

              • We’re on our sixth supervisor… We have never had
                one [supervisor] for very long. I’ve had no direction.




U.S. Department of Justice                                               133
Office of the Inspector General
Evaluation and Inspections Division
       We found that instability in the FBI field office leadership affected some
terrorism investigations. For example, in an 18-month period, the FBI’s
St. Louis Field Office had three different SACs, two different counterterrorism
ASACs, and six different JTTF SSAs. Prior to the JTTF supervisor currently
assigned, the members told us they had no direction, continuity of leadership,
or squad meetings. The squad meetings are important methods of
communication and coordination for JTTF members, and without this forum,
we were told it was difficult to update case information, or receive direction and
assignments. One St. Louis JTTF member described the lack of supervision as
the biggest obstacle and stated:

               The turnover has impacted us negatively. That’s my
               single biggest complaint. There’s a lack of supervision.
               We just continue doing what we do – through initiative
               of the task force members. …if there was a structure
               or a game plan – we’d know what to expect. With the
               new supervisor we’ve had a few meetings. We have 29
               people – we need to have meetings to go around the
               table to see what everyone’s working on – they may be
               connected.     But we don’t have them [meetings]
               regularly or nearly enough. It’s like a bunch of wasps
               flying around – but no one’s telling us what to do.

       The instability in leadership in the St. Louis FBI Field Office also affected
the external law enforcement community by significantly delaying the
development and pilot testing of the Gateway Information Sharing Initiative
(ISI). Originally conceived by local and state law enforcement agencies in and
around St. Louis, Missouri, in 1999, the ISI was intended to be a multi-agency
regional information sharing network to merge investigative data from federal,
state, and local law enforcement agencies into a single, searchable database. 83
The database, housed in the FBI’s St. Louis Field Office, marked the first time
the FBI entered records into a database containing investigative data from state
and local law enforcement agencies. Law enforcement officials who contribute
to the database would be able to search it by names, addresses, phrases,
vehicle makes, weapons data, scars, tattoos, and other factors to retrieve
information from other cases that might be relevant to a case they are


       83  Developed in 1999, the project began as the St. Louis Intelligence Center, better
known as SLIC, to address drug trafficking and violent crime and was originally sponsored by
the St. Louis Metropolitan Police, St. Louis County Police, Missouri State Highway Patrol,
Illinois State Police, and the St. Louis FBI (including the JTTF). The project has since
expanded to include the St. Clair County Sheriff’s Office, Collinsville Police, Southern Illinois
Police Chiefs Association, and the United States Attorneys’ Offices of the Southern District of
Illinois and Eastern District of Missouri.


U.S. Department of Justice                                                            134
Office of the Inspector General
Evaluation and Inspections Division
investigating. Investigators could then export the retrieved data to analytical
software that could identify and graphically depict relationships among people,
weapons, phone numbers and other components of the crime. The ISI system
would allow for link analysis and geo-spatial mapping of the data by members
of JTTFs in other cities who planned to launch similar pilot projects: Norfolk,
Virginia; San Diego, California; Seattle/Portland, Washington; and Baltimore,
Maryland.

      During October 2002, the Attorney General issued a news release that
stated ISI was to be fully operational within 60 days. 84 He stated:

               Information that was previously fragmented and would
               take analysts months to collate will be connected
               within seconds. This revolutionary system will enable
               investigators to identify intelligence gaps and to see
               tangible    links   between       seemingly  unrelated
               investigations.

If successful, the project would serve as a model for a nationwide information-
sharing initiative. However, according to federal officials we interviewed in
St. Louis in November 2003, ISI was stalled due to the frequent turnover in the
St. Louis FBI leadership leading to developmental delays. A supervisor in the
St. Louis FBI Field Office informed us that although ISI was to be operational
by December 2002, it was still in the planning stages at the time of our
November 2003 interviews. Other federal law enforcement officials we
interviewed in St. Louis stated to us that this delay caused frustration and
anger within the local law enforcement community who were counting on the
FBI to take the lead in this project.

       According to a recent information update from the St. Louis FBI field
office in January 2005, contracting issues resulted in the dismissal of the
original and succeeding vendors. After several months of inactivity, another
vendor was awarded a contract by FBI headquarters to complete the project.
The name of the project also was changed from the Gateway Information
Sharing Initiative, to the Multi-Agency Information Sharing Initiative (MISI), to
the Regional Data Exchange (RDEx). The beginning stages of RDEx will
include regional databases from such areas as St. Louis, Seattle, San Diego,
and Norfolk. According to the FBI, once these areas become operational within
their own regional databases, RDEx will move to an inter-regional approach.
This approach will link the operating regional databases, so that queries can be
made in a wider scope.


        84 “Attorney General John Ashcroft Unveils Gateway Information Sharing Pilot Project in

St. Louis, Missouri,” U.S. Department of Justice News Release, October 9, 2002.

U.S. Department of Justice                                                           135
Office of the Inspector General
Evaluation and Inspections Division
      The JTTF staff we interviewed indicated that the St. Louis field office’s
management team in place at the time of our August 2003 visit had made
noticeable changes and there was improvement in the JTTF’s management and
guidance that also improved task force operations. For example, one JTTF
member told us that the new JTTF supervisor had initiated regular task force
meetings where everyone discussed their cases. During one of these meetings
he learned that he and another JTTF member were conducting surveillance on
houses very near each other, and their suspects had a relationship. He turned
over ten months worth of surveillance and intelligence information to the other
JTTF member, and they expected an indictment within a month. The JTTF
member we interviewed estimated that without the shared information, it
would have taken another year to get an indictment:

                He [the other JTTF member] was in week two of the
                investigation; we put him in week 50. We had a lot of
                people working on the same case and didn’t know it.

Even though there were evident improvements, each of the managers had been
in place for less than one year (e.g., SAC - ten months, ASAC – one month, SSA
– one month as JTTF supervisor). Therefore, we could not measure the long-
term impact of their changes. As of October 2004, the ASAC had been
transferred back to FBI headquarters in Washington D.C. and in January 2005
the SAC also was transferred to FBI headquarters. The St. Louis field office
had yet another new SAC and ASAC.

       In addition to the transfers of supervisors, some of the JTTF members we
interviewed and surveyed commented that frequent transfers of the FBI JTTF
agents, sooner than the standard rotation, also can have an impact on the
investigations. For example a non-FBI JTTF member commented, “I had a case
to work on with an FBI agent and have gone through 5 agents on the same
case.”

JTTF Staffing Levels

       The FBI’s investigative strategy that requires the JTTFs to cover every
terrorism lead results in a demanding workload that is surpassing the
resources available to the task forces. At all the sites we visited, we found that
the JTTFs were exceeding their authorized staffing levels for FBI agents by 75
to 125 percent by borrowing from other FBI programs (such as drugs or white-
collar crime). 85


       85   The “authorized staffing level” is the number of staff allocated to the JTTF.


U.S. Department of Justice                                                              136
Office of the Inspector General
Evaluation and Inspections Division
        Since September 11, 2001, the FBI has permanently reassigned some of
its field agent resources from traditional criminal programs (such as violent
crime, white collar crime, and drugs) to meet the workload demands of the
counterterrorism and counterintelligence programs. Additionally, the FBI
realigned its priorities, and to “protect the U.S. from terrorist attack” became
the number one priority. In September 2004 the OIG completed a follow-up
audit of the FBI’s casework and human resource allocation. The OIG report
stated that the FBI “generally shifted its allocation [of field agents] to reflect its
new priorities.” 86 Additionally, the OIG reported that the FBI allocated a larger
number of agent resources to counterterrorism matters in FY 2003 than in
FY 2000 and reduced the number of positions allocated to traditional crime
programs during the same time period. However, the FBI used 845 more
agents than it had allocated for terrorism matters, while it used 879 fewer
agents than planned in traditional criminal programs in FY 2003.

       The FBI monitors the staffing utilization rates of its agents through its
Time Utilization and Recordkeeping (TURK) system. 87 Before March 2004, the
FBI did not include the non-FBI task force members in the TURK system,
which underrepresented the number of man hours devoted to JTTF work. A
senior FBI official told us that the non-FBI agents were now included in the
TURK system to enable the FBI to assess the overall staffing levels and needs of
its task forces.

       The JTTF members we interviewed and surveyed described the impact of
insufficient staffing as follows:

              • With such an important and time consuming
                mission it is easy for JTTF members including FBI
                agents to be over-worked and over loaded. The
                JTTF members work long hours and many, many
                weekends and holidays at the sacrifice of their
                families. Most work without complaint or desire of
                recognition, however, working at an unrelenting
                pace can cause burn out.




        The Internal Effects of the Federal Bureau of Investigation’s Reprioritization, U.S.
       86

Department of Justice, Office of the Inspector General, September 2004, Audit Report No. 04-
39.

        87 The FBI’s TURK system is used to record the percentage of time spent by field agents

on different types of investigations (e.g., counterterrorism, white-collar crime, drugs).


U.S. Department of Justice                                                         137
Office of the Inspector General
Evaluation and Inspections Division
              • Without the commitment of manpower, cases
                remain under-assigned and the intelligence
                capabilities are limited.

              • Every person on the task force is overburdened with
                too much work which I believe leads to the quality
                [of] investigations that are there not getting done
                right [sic].

              • Other than slowing the mission, resource problems
                have tended to bring down [the] morale of the unit…

              • Case loads has [sic] led to very long hours … Many
                non-FBI task force members are being over tasked.

              • The complete lack of resources is a daily hindrance
                to the terrorism investigations the field offices are
                attempting to conduct. It takes ten times as long to
                complete a task that should take less than a day.

Some JTTFs Experienced Space and Information Technology Connectivity
Problems

Space Is Inadequate for Some JTTFs

       Although the majority of JTTF members surveyed and interviewed were
satisfied with their task force office space, we found through our site visits that
various JTTF members were working in cramped conditions that hampered
communication, slowed work processes, and limited the JTTF’s ability to add
members. In addition, JTTF leadership and members told us they needed more
space to accommodate additional members or to improve the existing members’
working conditions.

      Several of the JTTF members we interviewed believed that their working
conditions were undesirable. The following table shows how survey
respondents rated office space.




U.S. Department of Justice                                              138
Office of the Inspector General
Evaluation and Inspections Division
                             Table 14: JTTF Members’ Ratings of
                                   Task Force Office Space

        Survey Question: How would you rate the task force’s space?
                                                     Responses
 Task Force
                     Excellent          Good          Average             Poor        Very Poor
 JTTF                        17%             24%               31%           18%               10%
       Source: Office of the Inspector General, Counterterrorism Task Force Survey, January
               2004.
       Note: The respondents who replied “not applicable” were excluded.

JTTF members commented that:

              • Lack of space has made it difficult to coordinate
                activities with other squad members.

              • Lack of space               prohibits      additional      full-time
                members.

              • Meeting space is very cramped and located in a
                common area. Issues are difficult to discuss with
                other agency personnel continually walking through
                the meeting space. The meeting area is often times
                too small to accommodate all of the attending
                personnel.

              • There has been a negative impact on the task force
                due to the lack of space. Currently the task force
                officers are spread among the entire office.

              • The space is too small and cramped. Bigger space
                coming, we have been promised, over and over and
                over and over and …

              • [The] working conditions [are] so incredibly poor,
                adversely impacts efficiency.

              • We are presently in a basement with no circulation,
                no cleaning, no computers and outdated equipment,
                making morale poor.

              • Space is a major issue. We have a very good and
                large group of agencies but with the lack of space

U.S. Department of Justice                                                               139
Office of the Inspector General
Evaluation and Inspections Division
                 and parking for the members, it becomes a
                 deterrent. They do not work in the FBI office due to
                 lack of space which means their databases are not
                 readily available and they need to return to their
                 office to conduct investigations. There would be a
                 greater combination of intel together in one office
                 with space availability.

              • Without      office   space,     communication and
                coordination cannot occur. Until then, cases and
                targets will not be efficiently worked.

      At the time of our visits the San Francisco, St. Louis, and Salt Lake City
JTTFs could not accept additional members due to the lack of available office
space. The ASAC for the FBI’s St. Louis Field Office told us that additional
member agencies approached the FBI about joining the JTTF, but he had not
accepted their offers because he required additional space. Similar concerns
were raised by the San Francisco and Salt Lake City JTTF leaders. In
San Francisco, the SSA told us that he wanted to accept the National Security
Agency’s offer to join the JTTF but did not have space to accommodate any
additional members.

       The FBI has explored alternatives to improving space and working
conditions for JTTF members through acquiring additional office space in
offsite locations. The FBI told us that “every basic [reasonable] request
requirement has been fulfilled.” However, we found that the acquisition of
some offsite locations has been delayed and poorly coordinated.

       For example, when we visited the Inland Northwest JTTF (in Spokane,
Washington, and Coeur d’Alene, Idaho) we found that for 15 months the JTTF
was paying a lease for space that it did not occupy. The Inland Northwest
JTTF leadership told us that the space was not habitable because the required
security upgrades were not complete. Two FBI Special Agents from the JTTF
were assigned to plan for the space, acquire the space, and handle all the
contracting issues. The staff assigned to prepare for the move had requested,
but not received, adequate direction from the FBI on how to move a JTTF to an
offsite location. They received conflicting information from FBI Headquarters
staff on the procedures used to move an operation offsite. One of the JTTF
survey respondents shared the same concerns raised by the Inland Northwest
JTTF leaders:

              [The] efficiency of the operations and cohesiveness of
              the JTTF is hampered by the lack of sufficient office
              space. The designation of and security upgrades on


U.S. Department of Justice                                              140
Office of the Inspector General
Evaluation and Inspections Division
              an offsite have been pending for an unreasonable
              amount of time. This is a budgetary, FBI Space
              Management, and GSA bureaucratic shortcoming.

The move was further complicated because two separate FBI field offices
(Seattle, Washington, and Salt Lake City, Utah) had oversight for the Spokane
and Coeur d’Alene RAOs, but neither was identified as “the” office responsible
for the move. In September 2003, the Inland Northwest JTTF finally moved to
its space.

       A senior FBI official shared the following perspective on why problems
exist concerning the JTTFs’ moves.

              Even though the FBI’s Counterterrorism Division has
              made counterterrorism the number one priority, the
              FBI’s administrative support divisions have not
              changed their procedures to support the operational
              needs of the Counterterrorism Division.

       As another example, in July 2003, the New York City FBI field office
received $20 million from Congress to move its JTTF to an offsite location.
However, the FBI SAC told us that the move of the New York City JTTF had
been delayed because of the manner in which it was funded. He stated that
the New York City JTTF received the $20 million over multiple fiscal years and
received only enough funding each fiscal year to acquire the space floor by
floor. As of February 2005 the New York City JTTF had moved into one floor in
their new space and expected to complete the move to two additional floors in
late summer 2005.

Information Technology Systems Connectivity Does Not Meet the Needs of
Some JTTFs

       While the FBI has issued 1,300 new desktops to the JTTFs, we found
that there are information technology connectivity problems in some field
offices. FBI Counterterrorism Division officials told us all information
technology equipment requests received from JTTFs have been approved, but
many JTTFs still work in older offices that do not have the adequate
connectivity technology to support task force members’ needs. Some of the
offices are too ill-equipped to allow JTTF members direct access to their parent
agencies’ databases and systems, which limits the data searches that the
JTTFs can complete on site. Task force members are forced to return to their
parent agencies to perform data runs which is inefficient and time consuming
and a survey respondent commented that, “Communications connectivity is a
major obstacle in communicating info[rmation].”


U.S. Department of Justice                                            141
Office of the Inspector General
Evaluation and Inspections Division
      JTTF members we interviewed were frustrated with the FBI’s computer
systems and connectivity. They described these systems as “outdated” and
“unreliable,” which negatively affected the operations. Survey respondents
stated that:

              • Lack of adequate printer connections, analog
                computer lines, and similar technical problems at
                times chill the momentum of the work flow.

              • We have to go down five floors to get dial-up internet
                access which makes no sense in the 21st century.

              • It is frustrating that the secure [I]nternet is not
                always available to task force members without
                leaving their office space.

              • Lack of high-speed [Internet] access to conduct
                research makes it take a great deal of time to do
                investigative work.

       JTTF members cannot access the Internet from their desktops. Instead,
JTTF members can only access the Internet on the one or two dedicated
terminals available to each squad. Similarly, the NJTTF members did not have
access to the Internet from their desktops for three years. However, in
September 2004, the NJTTF moved from FBI Headquarters to Northern Virginia
co-located with TTIC (now known as NCTC), and all members gained access to
the Internet at their desks. The JTTF and NJTTF members we interviewed
believed that the access problem was disruptive to the work process and
affected their productivity.

CONCLUSION

      The FBI needs to ensure that sufficient staffing, space, and information
technology connectivity is available to fully support the task forces’ efforts. The
FBI also needs to recognize that the frequent rotation of JTTF leadership has a
negative impact on the task force structure and work. After the initial
expansion of JTTFs in a crisis environment, the FBI now needs to plan for
appropriate office space and equipment for new and existing JTTFs.

RECOMMENDATIONS

21. The FBI should determine and allocate sufficient staff to effectively support
the terrorism task forces.


U.S. Department of Justice                                               142
Office of the Inspector General
Evaluation and Inspections Division
22. The FBI should seek more stability in JTTF leadership.

23. The FBI should develop a plan and issue written guidance for the JTTFs on
how to activate new JTTFs and move existing JTTFs to offsite locations.

24. The FBI should ensure sufficient information technology connectivity
needed to effectively support the terrorism task forces.




U.S. Department of Justice                                          143
Office of the Inspector General
Evaluation and Inspections Division
EXTERNAL FACTORS

       Some factors external to the terrorism task forces and advisory councils
affect their overall operations. We found that the DEA has limited membership
on some task forces. We also found that the DHS does not provide sufficient
numbers of members to the Department’s task forces, and for those members it
does provide, DHS guidance and direction is inconsistent. In addition, some
ATAC members viewed the functions of the state homeland security task forces
as duplicative of those performed by the ATACs.

       Although Congress, the DEA, and the Department leadership
       recognize the critical link between drug trafficking and
       terrorism, the DEA has minimal membership on the JTTFs and
       did not assign a permanent representative to the NJTTF until
       April 2004.

       Despite the DEA’s recognition of links between drug trafficking and
terrorism (often called narco-terrorism), we found that as of January 2005 the
DEA has only assigned one full-time member to the JTTFs. 88 The DEA also did
not assign a permanent representative to the NJTTF until April 2004,
approximately two years after the NJTTF’s inception. In comparison with other
Department law enforcement components, the DEA has the lowest level of
membership on the JTTFs. 89 According to the NJTTF and JTTF members we
interviewed, the DEA was “noticeably absent” from the Department’s terrorism
task forces.

      Since September 11, 2001, law enforcement, and particularly the DEA,
has been concerned about the link between terrorism and drug trafficking. In
May 2003, the DEA’s former Assistant Administrator for Intelligence told the
Senate Committee on the Judiciary that:

              Prior to September 11, 2001, the law enforcement
              community typically addressed drug trafficking and
              terrorist activities as separate issues… these two
              criminal    activities  are    visibly intertwined…



       88   The DEA defines a narco-terrorist organization as “an organized group that is
complicit in the activities of drug trafficking in order to further, or fund, premeditated,
politically motivated violence perpetrated against noncombatant targets with the intention to
influence a government or group of people.” See testimony of Steven Casteel, former DEA
Assistant Administrator for Intelligence, Senate Committee on the Judiciary, May 20, 2003.

     89 By contrast, as of March 2005 the ATF had 65 members and the USMS had 51

members on JTTFs across the country.

U.S. Department of Justice                                                          144
Office of the Inspector General
Evaluation and Inspections Division
              investigating the link between drugs and terrorism has
              taken on renewed importance. 90

      During a speech in March 2004, the DEA Administrator reinforced these
statements when she stated that:

              DEA investigations have identified links between
              groups and individuals under investigation for drug
              violations and terrorist organizations…As of February
              2004, DEA had 51 open Priority Target Organization
              [PTO]      cases     with     links    to     terrorist
              organizations…DEA’s intelligence program is working
              very closely with law enforcement and the intelligence
              community to identify and anticipate emerging threats
              posed by the links between drugs and terrorism. 91

      In addition, DEA officials told us that the DEA is skilled in recruiting and
developing intelligence sources (human assets) and that the DEA has a
network of national and international sources. JTTF survey respondents, as
well as JTTF leadership and members interviewed, identified asset development
as essential to JTTF terrorism investigations. DEA officials also stated that
they excel in surveillance and analyst programs, and that its intelligence
program is second to none. Yet, the JTTFs’ access to and use of DEA
informants and other expertise are limited because the DEA does not assign
enough full-time members to the JTTFs.

       Further, the DEA ASAC who supervised the only full-time DEA agent on
a JTTF told us that he believes that JTTFs are more effective at investigations
because they can use the expertise of the FBI, DEA and other law enforcement
agencies. For example, using the drug expertise of DEA agents as members of
the task force, a suspected terrorist’s or supporter’s links to drugs or drug
trafficking could be more readily identified and the suspect charged and
convicted of drug crimes, which may be less difficult to prosecute than a
terrorism charge. He further stated that the DEA benefits from its presence on
the JTTF through an enhanced exchange of information and a better
relationship with the FBI.




       90 Testimony of Steven Casteel, former DEA Assistant Administrator for Intelligence,

Senate Committee on the Judiciary, May 20, 2003.

       91 Testimony of DEA Administrator Karen Tandy before the United States House of

Representatives, Committee on Appropriations, Subcommittee on Commerce, Justice, State,
the Judiciary, and Related Agencies, March 24, 2004.

U.S. Department of Justice                                                        145
Office of the Inspector General
Evaluation and Inspections Division
       When we asked officials at FBI headquarters about the need for DEA’s
presence on the JTTFs, they stated that they would welcome DEA on the task
forces and agreed that the JTTFs could benefit from enhanced access to
intelligence sources and information sharing through DEA membership. They
said that increased DEA membership on JTTFs would ensure that the JTTFs
consistently receive timely information on narco-terrorism cases.

      However, despite these benefits, DEA membership on the JTTFs is
minimal, and actually has declined over time. We reviewed JTTF member
rosters and found that in June 2003 the DEA had 14 members on 11 JTTFs,
and in May 2004 had decreased its participation to 12 members on 10 JTTFs.
As of January 2005, its participation was reduced to one full-time JTTF
member from the DEA’s Field Office in San Francisco, and 105 JTTF “points of
contact.”

       In response, DEA officials from the Special Operations and Intelligence
Divisions stated that the DEA is fully responsive to the FBI’s requests for
assistance. They stated that in addition to DEA “points of contact,” each time
the threat level increases, DEA temporarily assigns full-time members to the
JTTFs where needed. One DEA SAC in the field informed us that after
September 11, 2001, he offered full-time DEA members to his local JTTF but
his offer was never acted upon.

       The DEA managers we interviewed at headquarters and in the field
offices also told us that decisions to assign DEA agents to a JTTF are
determined locally by the DEA SAC. The DEA has a designated headquarters
group, the Special Coordination Unit, to ensure counterterrorism-related
information is shared with appropriate organizations outside of DEA. 92

       When asked in August 2004 about the DEA’s JTTF membership, the
DEA Administrator told us that the JTTFs are sometimes in locations that the
DEA is not, drugs and terrorism are not interconnected in every area where the
DEA and a JTTF exist together, and the DEA’s resources are stretched. She
further stated that the DEA’s membership on the JTTFs is “isolated and
specific” to the threat for a particular area and that the DEA identified “points



        92 In December 2001, DEA established the Special Coordination Unit in the Special Operations
Division to respond to classified information requests related to terrorism from other law enforcement
organizations and the intelligence community. In October 2002, DEA Headquarters established within the
Office of Domestic Operations an ad hoc counterterrorism unit for the purpose of tracking information
about terrorism investigations and leads provided by its field offices, and sharing terrorism information
between appropriate elements within DEA, as well as with outside law enforcement agencies and intelligence
agencies with a need to know. In January 2004, the ad hoc unit was merged into the Special Coordination
Unit in the Special Operations Division to centralize all the terrorist related investigations and information
within DEA.
U.S. Department of Justice                                                                    146
Office of the Inspector General
Evaluation and Inspections Division
of contact” in its field offices to serve as liaisons to the JTTFs where the DEA
was not represented.

      We compared the lists of the DEA’s domestic field offices with the FBI’s
JTTF locations and found that the DEA has offices in 83 of the existing 103
JTTF locations. The DEA is not represented on the JTTFs in high threat areas
such as New York City, Washington, DC, Los Angeles, or along the southwest
border where the propensity for narco-terrorism may be higher.

      We also found that the DEA did not define the role of its JTTF points of
contact. We interviewed DEA points of contact during three of our site visits
who told us that they had not received any policies or guidance from the DEA
headquarters on their liaison role. One of the three could not identify who he
was supposed to contact on the JTTF. In addition, in September 2004, the
DEA’s NJTTF representative stated that he did not receive guidance from the
DEA on his role. He also stated he would like to know more about the JTTFs.

       DEA informed us that they had sent several cables to the field describing
protocols for information sharing. In 2002, two DEA cables instructed field
offices to identify investigations with a potential nexus to terrorism and to send
that information to DEA headquarters for review. In 2004, two cables
instructed field offices to share terrorism related information with DEA
headquarters and simultaneously with the FBI and JTTFs. However, the
cables do not provide instructions to the JTTF points of contact and DEA did
not provide other documents that address the scope of responsibilities of the
points of contact.

CONCLUSION

       The DEA does not have enough full-time members on the JTTFs. During
our site visits, the few points of contact DEA assigned to the JTTFs and the
NJTTF member told us they had limited guidance about their roles. The JTTFs
would benefit from more and better informed DEA members, who could share
their expertise on developing human assets, surveillance and analytical skills,
and provide DEA information and resources that could help the JTTFs. We
believe the DEA should reconsider its limited membership on JTTFs.

RECOMMENDATIONS

25. The DEA should increase its full-time membership on the JTTFs and work
with the FBI to assess the optimum locations for new DEA members.

26. The DEA should issue written guidance that defines the roles and
responsibilities of its JTTF and NJTTF members and points of contact.


U.S. Department of Justice                                              147
Office of the Inspector General
Evaluation and Inspections Division
       Many of the DHS ICE task force members told us that ICE has
       not provided them needed direction, has not cross-trained
       supervisors or agents in their new areas of responsibility, and
       has not provided a sufficient number of ICE representatives to
       perform task force work. As a result, the FBI does not have
       adequate access to immigration and customs expertise and
       information systems to assist its investigative efforts. We also
       were told that the ICE did not always understand the roles of
       its task force members, leading to assignment of non-JTTF
       tasks to its members on the JTTFs.

        Both of DHS’s Immigration and Customs Enforcement (ICE) and
                                                             Customs and Border Protection
     Merging Immigration and Customs Functions               (CBP) divisions are considered
   On March 1, 2003, approximately 180,000 personnel
                                                             critical members of the
   from 22 different organizations were merged under the     Department terrorism task forces
   newly created Department of Homeland Security, with
   responsibility to manage major domestic incidents by
                                                             because almost all terrorism cases
   establishing a single, comprehensive national incident    have an immigration or customs
   management system. Two of these 22 organizations,
   formerly known as the Immigration and Naturalization
                                                             nexus. 93 Moreover, the DHS and
   Service (INS) from the Department of Justice and the      the FBI agree that the task forces
   United States Customs Service (Customs) from the
   Department of the Treasury, each had vital roles in the
                                                             do not operate as effectively
   war on terrorism and thus play a significant role on the  without ICE and CBP agents and
   Department’s terrorism task forces and advisory councils.
   The inspection functions of INS, U.S. Customs Service,
                                                             analysts who have the expertise in
   and the U.S. Department of Agriculture were transferred   immigration and customs.
   to the DHS and combined into one agency called Customs
   and Border Protection (CBP) to control the nation’s
   borders and to prevent illegal entry. The enforcement and          The DHS reports that it is
   investigative functions of INS, U.S. Customs Service, the
   Federal Protective Service, and the Federal Air Marshals
                                                               the largest contributor of
   Service were combined to create another new DHS agency      personnel to the JTTFs nationwide
   called Immigration and Customs Enforcement (ICE),
   which is responsible for identifying and shutting down
                                                               and ICE is the largest contributor
   vulnerabilities in the nation’s border, economic,           of personnel (311) among DHS
   transportation, and infrastructure security.
                                                               components. ICE also has
   Source: http://www.ice.gov/graphics/about/index.htm         personnel assigned to other task



       93  Three agencies comprise ICE: 1) Office of Investigations, whose mission is, “to focus
on national security , financial and smuggling violations including illegal arms exports,
financial crimes, commercial fraud, human trafficking, narcotics smuggling, child
pornography/exploitation, and immigration fraud,” 2) Federal Air Marshal Service, whose
mission is, “to be responsible for and protect air security and promote public confidence in our
nations’ civil aviation system through the effective deployment of Federal Air Marshals in order
to detect, deter, and defeat hostile acts targeting U.S. carriers, airports, passengers, and crews,
and 3) Federal Protective Service, whose mission is, “to provide law enforcement and security
services to over one million tenants and daily visitors to all federally owned and leased facilities
nationwide.” See: ICE Comments to the DOJ OIG Report on DOJ Terrorism Task Forces, Michael
J. Garcia, Assistant Secretary ICE, May 18, 2005.


U.S. Department of Justice                                                             148
Office of the Inspector General
Evaluation and Inspections Division
       forces in the Department including the FTTTF, ITOS, TFOS, and the
       NJTTF. However, despite these numbers, according to both FBI and
       DHS ICE task force members, the DHS ICE has not provided sufficient
       support to the task forces.

DHS ICE Has Not Provided Its JTTF Members Needed Direction

        Throughout the country, many of the ICE task force members we
interviewed described disorganization and lack of guidance from ICE
headquarters that has affected task force efficiency. They told us they receive
little direction from the ICE, the direction they receive is contradictory, and the
supervisors in the ICE field offices are ill-equipped to provide guidance to task
force members.

       For example, an ICE agent (formerly an INS agent) told us:

              • Everything is still up in the air with this new agency. We
                still have no badges or credentials.           We had to
                electronically convert all our criminal cases over to the
                Treasury      Enforcement      Communications       System
                database, which is not classified, and we never got any
                training in it. The quality of guidance and direction from
                ICE is extremely poor – no one knows what to do and
                there is no flow of information. I don’t know if my bosses
                were just not filtering information down to the agents or
                my bosses are just not getting any information.

       Other ICE agents (formerly a Customs agents) told us:

              • The direction [from Customs] is limited. It would be nice
                to have a little more guidance from my agency, more
                from a national standpoint and what my agency expects.
                I don’t know if what I do here is the same as everyone
                else.

              • I don’t go to the ICE supervisor for guidance. With
                Customs, we’re having a little bit of confusion – they’re
                confused as to what DHS headquarters is going to do.
                Customs is not going to handle any terrorism cases.
                There was a questionnaire that came out from DHS
                headquarters as to what the role is of a Special Agent
                from Customs on the JTTF. I also got a questionnaire
                from the FBI on my role.

      An October 2004 GAO report on immigration programs in DHS supports
these concerns. The report noted that ICE officials told GAO that ICE had been
“slow to establish uniform operational policies and procedures, causing

U.S. Department of Justice                                                   149
Office of the Inspector General
Evaluation and Inspections Division
confusion and some delay in the creation of a new, unified ICE culture.” 94
Additionally, the report states:

              Officials [in CBP, CIS, and ICE offices] noted that in
              some cases, unresolved disagreements and confusion
              regarding the roles and responsibilities of the DHS
              immigration bureaus related to investigative techniques
              and other operational issues has the potential for
              serious consequences.

       The GAO report further stated:

              One SAC official said that a lack of unified operational
              procedures had in some cases resulted in confusion or
              the establishment of local policies. Other SAC officials
              told us this can be problematic if investigators working
              together are relying upon different policies and
              procedures to carry out their investigative work.

       An example of the contradictory guidance the DHS ICE provided to its
task force members occurred in June 2003. An ICE Program Manager,
(referred to as a JTTF Regional Coordinator at that time) from DHS
headquarters used an outdated 1999 MOU between the former INS and the
JTTF to prohibit ICE agents on the St. Louis, Kansas City, and San Antonio
JTTFs from working on intelligence cases. This ICE Program Manager sent an
e-mail on June 4, 2003 to St. Louis, Kansas City, and San Antonio ICE field
offices referring to the outdated 1999 MOU that stated that FBI supervisors will
not assign INS agents to conduct routine intelligence cases. Although the three
ICE agents on the task forces and their supervisors agreed to comply with the
restriction in the outdated memorandum, only the ICE agent on the St. Louis
JTTF complied. 95

      Since many JTTF members work primarily on intelligence cases, the
St. Louis ICE JTTF agent told us that he closed out the majority of his cases
and the JTTF supervisor had to reassign them to other JTTF members,
including agents from other DHS components such as the U.S. Secret Service
and Federal Protective Service who were not affected by this memorandum. He



       94 Homeland Security, Management Challenges Remain in Transforming Immigration

Programs, GAO-05-81, U.S. Government Accountability Office, October 2004.

       95 The FBI was not made aware of the DHS’s ICE restriction and therefore did not

enforce it elsewhere in that region. We interviewed the FBI JTTF supervisors from Kansas City
and San Antonio and found that ICE never notified them of this restriction.

U.S. Department of Justice                                                        150
Office of the Inspector General
Evaluation and Inspections Division
stated the quality of his assignments suffered because he could no longer be
assigned as a lead investigator on JTTF cases.

      According to a St. Louis ICE JTTF agent, three months later, in
September 2003 this restriction was lifted, when Michael Garcia, Assistant
Secretary, ICE, addressed a conference of ICE JTTF agents in Baltimore,
Maryland, and stated to the participants he was unaware of this e-mail (from
the ICE Program Manager) and that it was never his intention to remove ICE
JTTF agents from intelligence cases.

       Several ICE agents on other JTTFs also told us that they were aware of
friction between the DHS and the FBI regarding intelligence cases, but they
continued to work these cases. Another ICE agent (formerly a Customs agent)
on a JTTF told us that his supervisor informed him that Customs JTTF
representatives would not be “handling any terrorism cases,” but this was
never enforced.

ICE JTTF Agents Expressed Concern About the Lack of Cross-Training in
Immigration and Customs Matters

       We were told by ICE agents who were members of JTTFs and ATACs that
many former INS agents on the JTTFs are now supervised by former Customs
staff who have not been cross-trained in immigration matters and are therefore
unprepared to provide adequate guidance and supervision to their JTTF
members. The majority of JTTF members we surveyed and interviewed
described the FBI supervision on the task force as positive. However, task
force members also need guidance and supervision from their parent agency on
their own agency-related matters.

       For example, a JTTF agent (formerly a Customs agent) told us that he
needed training in immigration policies and procedures because other JTTF
members frequently approached him regarding these issues. He said that he
had only cursory knowledge of immigration issues. His agency supervisor had
training only in immigration issues and did not have the expertise to guide him
on customs issues.

      An ICE Resident Agent-in-Charge (formerly a Customs agent), who is an
ATAC member, expressed frustration about the lack of direction and training
from DHS ICE. He stated that even though he is in charge of an office that
combined INS and Customs staff and functions, he received no training in
immigration issues and therefore is unaware of what legal or other authority he
has related to immigration arrests. He also was unaware that an ICE agent
(formerly an INS agent) under his supervision was assigned to the local JTTF



U.S. Department of Justice                                           151
Office of the Inspector General
Evaluation and Inspections Division
because, at the time of our interview, former INS and Customs offices were
located separately.

      This lack of cross-training also led to confusion regarding the assignment
of ICE agents to JTTFs. After INS and Customs agencies merged to form ICE,
some former Customs supervisors questioned why there was a need to assign
an ICE agent (with customs expertise) to a JTTF when an ICE agent (with
immigration expertise) was already assigned. JTTFs need ICE agents with
expertise in both customs and immigration operations and databases.
However, all ICE agents have not been cross-trained in both functions.

       The October 2004 GAO report cited steps taken by DHS toward
integrating former INS and Customs investigative workforces. According to the
report, ICE headquarters issued a cross-training curriculum to all SAC offices
in January 2004 with a deadline for all investigators to complete cross-training
by September 20, 2004, although there was no deadline for group supervisors
or senior managers. 96 According to the GAO report, in late August 2004, 2,175
out of approximately 5,400 former INS and Customs investigators had taken
and passed at least one of nine exams, including 1,210 former INS and
Customs investigators who had fully
completed cross-training. ICE reports          Enhancing ICE Participation on JTTFs
that as of March 15, 2005, 4,900 ICE
                                           The JTTF Enhancement Act of 2003 directed
special agents have completed cross-       that the Secretary of Homeland Security, “from
training, which it states represents all   amounts made available, shall increase the
non-supervisory special agents in the      number of law enforcement agents of the
                                           Bureau of Citizenship and Immigration
field and a majority of supervisory and    services and (make) available for participation
headquarters special agents.               in the joint terrorism task force program.”
                                                     Additionally, Homeland Security Presidential
                                                     Directive-2 issued in 2001 directed that a
Insufficient ICE Staff Detailed to the               “multi-year plan be developed and
JTTFs and FTTTF                                      implemented to enhance the investigative and
                                                     intelligence analysis capabilities of the INS and
                                                     Customs, which should significantly increase
      JTTF: Most JTTF members and                    the number of Customs and INS special agents
supervisors stated that additional ICE               assigned to the JTTFs.”
agents, particularly former INS agents,              References: The JTTF Enhancement Act of 2003,
are needed on the JTTFs, since                       H.R. 3439, November 4, 2003, Section 3, and
                                                     Homeland Security Presidential Directive-2, October
virtually all international terrorism                29, 2001. A.2.
cases have some link to immigration.
ICE task force members, including




        96 Investigators must pass, with a score of 70 percent or higher, a series of nine written

tests in order to be certified as cross-trained. Homeland Security, Management Challenges
Remain in Transforming Immigration Programs, GAO-05-81, U.S. Government Accountability
Office, October 2004.

U.S. Department of Justice                                                                  152
Office of the Inspector General
Evaluation and Inspections Division
former Customs agents, emphasized to us the need for additional ICE agents
with immigration experience on the JTTFs. They stated:

              • Omaha could always use more people. I suggest at
                least two immigration people.

              • Not enough bodies from ICE. Every case involves an
                ICE component.

              • Should have a full-time Immigration investigative
                assistant to locate ICE (legacy INS) immigration
                records and [files].

              • More ICE members from legacy INS.

Similarly, other ICE task force members we interviewed and surveyed indicated
a need for additional ICE members with customs expertise. For example, one
ICE task force member (formerly Customs) stated:

              I get called by customs people constantly. I play a support
              role to a large number of people. The calls are all day from
              border stations in four states. I’m currently working on 15
              (FBI) taskings but others come in on a daily basis. Eight to
              ten of them involve me having to visit and interview. I
              coordinate whatever they need from a customs standpoint,
              TECS [Treasury Enforcement Communication System]
              database checks, travel itineraries, etc. FBI asks me to look
              up customs information that’s not terrorism related. I could
              really use another customs person here but it’s unlikely
              because they (DHS) look at it as we already have four people
              here, but three are [former] INS.

       The NJTTF Director informed us that at the request of DHS, he
conducted a critical needs assessment by querying the JTTF field supervisors
on how many ICE agents were needed on each of the task forces. The results
of this assessment showed that there were 159 full-time and 22 part-time ICE
agents on 86 JTTFs in November 2003. However, the field JTTFs requested an
additional 138 full-time ICE agents from the DHS. In March 2005, NJTTF
officials informed us that as of October 26, 2004, ICE had 311 members
assigned to the JTTFs. This represents 269 full-time members and 42 part-
time positions, an increase of 110 full-time and 20 part-time personnel. Part of
this increase is attributed to the 58 Federal Air Marshals who were already
JTTF members (then under TSA) but were subsequently assimilated into the
DHS ICE. Because the number of JTTFs increased from 86 to 100 during this


U.S. Department of Justice                                             153
Office of the Inspector General
Evaluation and Inspections Division
time frame, the FBI could not verify whether the remainder of the DHS ICE
staff increases (72) resulted from the overall increase in the number of JTTFs
or the NJTTF’s needs assessment that was submitted to the DHS ICE in
November 2003, requesting 138 additional positions for the JTTFs.

       FTTTF: According to the FTTTF Director and the majority of FTTTF
members interviewed and surveyed, the lack of DHS ICE analysts and agents
assigned to the FTTTF is detrimental to the operation’s efficiency. The FTTTF
receives results of data inquiries from immigration and customs databases and
must rely on ICE task force members to analyze the information. According to
the FTTTF Director and members we interviewed, the one ICE agent and one
ICE analyst assigned to the FTTTF are overburdened with analysis requests,
and the task force needs additional analytical support from ICE and an analyst
familiar with customs data. 97 A former ICE employee told us that the one ICE
analyst assigned had been employed by the INS only briefly before being
detailed to the FTTTF and the analyst’s knowledge of immigration databases
and procedures was limited.

       One FTTTF task force member stated that the lack of analysts makes it
difficult to conduct expeditious analyses on time-sensitive information.
Because only one ICE person has access to all ICE immigration data systems,
that person is inundated with work, and it often takes up to a week for task
force members to get answers, which in turn delays analytical products.
Another member stated that the FTTTF is dependent on ICE for much of the
information used in its analyses. He previously used the ICE representative in
his unit to run checks on immigration databases to assist in his analyses.
However, there was no longer ICE staff in his unit, which made it cumbersome
to request these checks. He stated that it often takes weeks to receive an
answer, and it would be more efficient if the FTTTF members had direct access
to the DHS data systems.

      We also were informed that although initially supportive, the immigration
and inspections function of CBP ceased providing support to the FTTTF after
January 2003. This is important because CBP staff members are the most
knowledgeable on databases with airport entry data. A former senior ICE
representative on the FTTTF stated he personally contacted a high-ranking
manager at DHS and asked for additional personnel, but he did not receive a
response.




      97 Previously, the DHS had seven ICE FTTTF members (six with immigration experience

and one with customs experience). As of January 2005, there are no ICE FTTTF members with
customs experience.


U.S. Department of Justice                                                    154
Office of the Inspector General
Evaluation and Inspections Division
      As stated earlier in this report, a senior-level official from the INS served
as the FTTTF’s Deputy Director from its inception in October 2001 until
November 2002. The FTTTF Director stated that he made several requests to
the DHS to fill this position, and DHS verbally agreed to do so. JMD’s
November 2002 management review of the FTTTF had recommended that the
“FTTTF Deputy Director be a senior level INS official who commits to a two-year
tenure and who has access to the [then] INS Commissioner and field units
when circumstances/information dictate action by INS.” 98 The report cited the
importance of maintaining strong INS leadership and significant staff presence
to ensure the FTTTF’s access to immigration information needed to identify
known or potential terrorists, engage appropriate INS enforcement officials
when appropriate, and communicate through INS channels information aimed
at denying entry as articulated in the mission. The report further noted that if
the INS was to be integrated into the DHS, the FBI should work with the DHS
to continue having the FTTTF Deputy Director’s position filled by the DHS.

       This recommendation for a DHS FTTTF Deputy Director still appears
valid. However, as of August 2004 the DHS ICE had declined to fill the
position, and DOD/CIFA agreed to fill the position of Deputy Director.

ICE Assigns Non-JTTF Tasks to Its Members on the JTTFs

       Several ICE JTTF members, particularly those who formerly were INS
agents, told us that their ICE supervisors did not understand their roles on the
task force and their reporting responsibilities within the FBI’s chain of
command. They said this led to the ICE referring taskings with a terrorism
nexus directly to their members on the JTTF rather than referring directly to
the FBI ASAC for the JTTF. The ICE agents believed all ICE referrals should go
directly to the FBI to allow the JTTFs to properly vet cases, make
determinations as to whether a terrorism nexus exists, and assign cases to the
appropriate JTTF squads. These agents, however, did not want to complain to
their ICE supervisors because they enjoyed their work on the JTTF and were
concerned that if they did not perform these additional assignments, it might
jeopardize their continued placement on the JTTF. For example, an ICE JTTF
told us:

              INS cases assigned are an obstacle to performing work
              on the JTTF. You should have one road on terrorism
              related issues. If INS comes across intelligence that’s
              terrorism related, it should be given to the FBI.


       98 Draft White Paper: Management Review of the Foreign Terrorist Tracking Task Force,

U.S. Department of Justice, Justice Management Division, November 13, 2002. (Not officially
published.)

U.S. Department of Justice                                                        155
Office of the Inspector General
Evaluation and Inspections Division
              Sometimes, we get stuff from the NSU [National
              Security Unit at the DHS] that the FBI is clearly not
              aware of. NSU got information on a business from
              NY… so they task us [JTTF representatives from ICE].
              NSU should have dealt solely with the FBI and taken
              INS out of the loop. A supervisor here [FBI] should
              look at a case and rule out terrorism and assign the
              case accordingly – but not to a JTTF/INS member
              assigned by NSU. There was a period of overtasking
              from INS that had nothing to do with our [work].

      ICE task force members also commented in our interviews and survey
that ICE overtasks its JTTF agents with ICE cases that do not have a terrorism
nexus. For example, two ICE JTTF survey respondents stated:

              • Despite being designated as “full-time,” my agency
                continues to require my time on investigations other
                than JTTF. As my agency is small and received no
                compensation for my participation in the JTTF, my
                future here is in question.      Also, there is the
                problem of receiving credit for my efforts on the
                JTTF. Unfortunately, my agency tends to assess my
                participation on a quid pro quo basis. This results
                in a scenario where my own personal career is
                jeopardized by my full-time participation.

              • My parent agency still assigns me daily work and
                expects notification of ALL my activities. The FBI
                expects me to be a task force member and conduct
                the work of the task force, not what my parent
                agency deems necessary.

         The October 2004 GAO report on management challenges also
addressed the topic of DHS agents assigned collateral duties, and reported that
both DHS inspectors and investigators “have been assigned administrative
functions full-time or as a collateral duty,” and “they are not spending all of
their time on duties needed to accomplish the program’s mission.”

Response to ICE Issues

NJTTF Response

      Both the NJTTF Director and former Deputy Director (an ICE employee)
stated that they would like to see some type of national plan or policy issued by


U.S. Department of Justice                                             156
Office of the Inspector General
Evaluation and Inspections Division
the DHS regarding ICE representation on the JTTFs. Both also agreed that
updated policies and MOUs defining the ICE roles on the JTTFs as well as
providing a strategy on agent assignments to the JTTFs would be useful.

      The NJTTF Unit Chief told us during our May 2004 interview that he is
aware of some problems in the field with the DHS ICE and the JTTFs (such as
confusion resulting from a former Customs or INS supervisor who does not
understand the role of the ICE JTTF member, the number of agents assigned to
the JTTFs, and the non-JTTF taskings assigned). He stated that he is
monitoring these matters.

DHS/ICE Response

       In March 2004, the Assistant Secretary and the Chief of Operations for
ICE at the DHS told us that they believe that DHS headquarters had increased
guidance and communication to the field since ICE was created. The DHS
coordinates its counterterrorism initiatives with the Department through
1) MOUs and written procedures that define the relationships between the two
organizations at the field level; 2) ICE participation on the JTTFs, NJTTF,
FTTTF, and Terrorist Financing Operations Section, 3) ICE’s and the FBI’s
agreement to assign senior-level managers at each other’s agencies; and
4) briefings on cases they work jointly. 99 They said that the role of ICE on the
task forces is to bring its expertise and knowledge about tools in law
enforcement that the JTTFs can use. Additionally, we were told that law
enforcement powers and authority available to ICE officers relating to
enforcement, detention, or arrest of individuals for violation of immigration or
customs laws were not available to FBI or JTTF agents previously. The JTTFs,
through their ICE members, can now use these laws to detain or deport a
terrorist or terrorist supporter. The ICE officials informed us that it is cross-
training ICE members on the JTTFs in both customs and immigration issues to
increase their knowledge base.

       The Assistant Secretary said he believes that the task forces are effective
tools and the task force model works well. He also informed us that he
requested an analysis of ICE’s participation on the terrorism task forces to
determine where and how many personnel are currently assigned, and where
ICE will gain the most benefit. 100


       99   Terrorist Financing Operations Support (TFOS) is a unit within the FBI that
identifies ties to terrorism and terrorist financing. ICE and TFOS are coordinating investigative
initiatives that will enable ICE to identify financial systemic vulnerabilities and which will
enable TFOS to identify ties to terrorism and terrorist financing.
         100 As mentioned previously in this report, the Unit Chief of the NJTTF told us the DHS

requested an analysis of ICE participation on JTTFs. The NJTTF submitted the results of this
analysis to the DHS in November 2003.

U.S. Department of Justice                                                           157
Office of the Inspector General
Evaluation and Inspections Division
CONCLUSION

      Both the FBI and DHS recognize that the terrorism task forces cannot
operate effectively without ICE agents and analysts who have knowledge of
immigration and customs operations. However, task force members and
managers repeatedly expressed the need for additional trained staff to provide
expert representation from ICE. An adequate number of sufficiently trained
representatives from ICE will contribute to more complete and timely
counterterrorism investigations. Additionally, ICE task force members
complained about a lack of cross-trained supervisors and insufficient guidance
from their parent agencies concerning their task force duties. ICE task force
members told us that ICE supervisors overtask their JTTF agents with ICE
cases that do not have a terrorism nexus. These task force members also told
us that ICE has at times referred taskings with a terrorism nexus directly to its
JTTF members rather than through the FBI for assignment. This detracts from
the FBI’s ability to properly manage and coordinate the work of the JTTFs.

RECOMMENDATION

27. The Deputy Attorney General should work jointly with DHS officials to
ensure:

          • Sufficient DHS participation on the Department’s task forces,

          • Sufficiently trained ICE members on the task force and their
            supervisory chain of command,

          • Non-task force-related assignments to DHS members are
            minimized, and

          • Updated MOUs defining roles and information sharing
            responsibilities between the FBI and DHS.




U.S. Department of Justice                                             158
Office of the Inspector General
Evaluation and Inspections Division
       Functions Performed by the States’ Homeland Security Task
       Forces are Viewed as Duplicative to Those Performed by the
       ATACs.

      State homeland security task forces hold meetings, share threat related
information and conduct anti-terrorism training, which could be duplicative of
the ATACs efforts. ATAC Coordinators, as well as ATAC members, told us that
they viewed the activities of the state homeland security task forces and the
ATAC as duplicative. Several ATAC members stated that they receive the same
information from both the state homeland security task forces and the ATACs,
but would rather receive more information than no information. While they do
not view this information sharing duplication as a problem, those who were
members of both a state homeland security task force and an ATAC expressed
concern with the time expended attending dual meetings and trainings. In
addition, many ATAC Coordinators told the OIG that the states’ offices of
homeland security did not regularly coordinate or communicate with the
USAOs.

       Immediately after September 11, 2001, many states established an Office
of Homeland Security to mirror the federal Office of Homeland Security (now
DHS). In July 2002, the President called on each Governor to establish a state
homeland security task force to serve as a “primary coordinating body with the
federal government…” and “…provide a collaborative, cost-effective structure
for effectively communicating to all organizations and citizens.” 101 In response,
each state created a homeland security task force made up of federal, state,
and local law enforcement; first responders; private industry security officials;
and other government representatives. The mission of these state task forces
is to prepare for a coordinated response to a terrorist event or incident and to
aid in the prevention of terrorism.

       Often, the ATAC and the state homeland security task force consist of
the same membership and address similar issues. In some states, there may
be more than one judicial district, and therefore more than one ATAC. State
homeland security task forces are headquartered in the state capital, while
ATACs are headquartered in judicial districts, which may or may not be in the
state capital. If the state homeland security task force and ATAC are in
different cities, the opportunity for duplication or gaps in information sharing
and training activities is increased and coordination between the two entities
becomes vital.




       101 National Strategy for Homeland Security, Office of Homeland Security, Office of the

President of the United States, July 2002, page 14.

U.S. Department of Justice                                                          159
Office of the Inspector General
Evaluation and Inspections Division
       We found that some states were working jointly with USAOs to
coordinate activities and reduce duplication in information sharing and
training. For example, the ATAC and state homeland security task force in
Alaska have joined together to form one task force. The coordinators from each
are now co-coordinators of the joint task force and together host meetings and
training. According to U.S. Attorney Timothy M. Burgess (Alaska), the purpose
of the task force is to “protect the state’s citizens, resources and
infrastructure,” and the merger will “facilitate communication, avoid
duplication of effort and ensure adequate and timely responses to prevent any
future terrorist incidents in the state.” 102 We found in other sites that the
ATAC and the state homeland security task force have no interaction or only
communicated occasionally.

CONCLUSION

       While some ATACs have established successful partnerships or
communication links with the state homeland security task forces, others have
no information sharing or established relationships. This results in duplication
of, or gaps in, information sharing and training activities that target the same
audience.

RECOMMENDATION

28. The ATAC Coordinators should work jointly with the state offices of
homeland security and the state homeland security task forces to coordinate
activities and to minimize duplication and gaps in terrorism-related
information sharing and training.




       102 New Anti-Terrorism Task Force Emerges, Alaska Department of Military and

Veteran’s Affairs, Office of Homeland Security and Emergency Services, August 4, 2003.


U.S. Department of Justice                                                       160
Office of the Inspector General
Evaluation and Inspections Division
                                      CONCLUSION


       We concluded that the task forces and councils have enhanced
information sharing, partnerships, and investigative capabilities for the
Department’s counterterrorism efforts. The task forces and councils have
separate functions that generally are not duplicative, and they strengthen the
Department’s counterterrorism infrastructure and relationships with other
federal, state, local, and private agencies. However, although we recognize that
the task forces and councils were established or expanded quickly after the
terrorist attacks of September 11, 2001, we found that the Department has not
ensured their organizational development or that all their functions have been
accomplished. We concluded that the Department:

       •   Does not use the NSCC for centralizing counterterrorism
           planning, policy development, and monitoring policy
           implementation across the Department;

       •   Has not ensured that the JTTFs and ATACs have a coordinated
           strategy for sharing information with law enforcement agencies
           and first responders in remote areas;

       •   Has not clearly defined what organization has oversight
           authority for the ATAC program;

       •   has not ensured the FTTTF’s timely acquisition of databases
           and development of its risk assessment tool for terrorist
           tracking; and

       •   Has not ensured sufficient task force membership from certain
           internal and external organizations to facilitate
           counterterrorism efforts.

     From an organizational development perspective, we concluded that the
Department:

       •   Has not ensured minimum training requirements in
           counterterrorism, which is a new subject to many task force
           and council members;

       •   Has not ensured stability and continuity in task force
           leadership to minimize work disruption;



U.S. Department of Justice                                               161
Office of the Inspector General
Evaluation and Inspections Division
       •   Has not adequately addressed continuing problems with
           information technology connectivity that interfere with task
           force work; and

       •   Has not fully developed relevant performance measures to
           determine the outcomes of the task forces and councils, and the
           contributions of individual members.

      To aid in the improvement of the task forces’ and councils’ operations, we
made 28 recommendations some of which include Department-wide issues,
others of which address individual task forces and councils. Appendix I
contains a complete list of the issues and recommendations. We believe that if
the Department pursues these recommendations, its counterterrorism
capabilities will be enhanced.




U.S. Department of Justice                                                162
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX I: SUMMARY OF ISSUES AND RECOMMENDATIONS


PROGRESS MADE

The task forces and councils have distinct functions that are generally
not duplicative.

The establishment of the task forces and councils has facilitated sharing
of information and expanding of partnerships with federal, state, and local
law enforcement and other government agencies, and private industry.

The JTTFs are implementing the FBI’s new counterterrorism investigative
strategy that has provided them with increased capabilities to help the
Department achieve its strategic goal of preventing terrorism and
promoting the nation’s security. The FBI also has improved its agents’
access to automated investigative information.

NEEDED IMPROVEMENTS

Although the National Security Coordination Council (NSCC) is an
important and beneficial forum for Department leaders, the NSCC’s role is
unclear for long-term counterterrorism planning, centralizing and
coordinating counterterrorism policy and operations, and monitoring
policy implementation by the components.

1. The Department should assess the counterterrorism functions outlined in
the Attorney General’s memorandum establishing the NSCC and determine if
they are still appropriate for the NSCC. If they are, the Department should
ensure that written guidance describes the responsibilities of the NSCC and
that the NSCC carries out its assigned functions. If the functions are not
appropriate for the NSCC, they should be assigned to another Department
entity.

The FBI has not developed a national training plan for the task forces,
defined minimum training standards, or conducted a training needs
assessment to determine the training needs of task force members.
Similarly, neither EOUSA nor CTS has developed a training plan or
conducted a training needs assessment for the ATAC Coordinators or
members. Notification of available training is ad hoc, and non-FBI task
force members believe that FBI members get preference for training
notification and attendance.



U.S. Department of Justice                                         163
Office of the Inspector General
Evaluation and Inspections Division
2. The FBI should develop a national training plan for each task force that
includes:

    •   Responsibility for developing and managing the training plan and
        program,
    •   Initial needs assessment,
    •   Frequency of future needs assessments,
    •   Development of minimum mandatory training standards and time
        frames for completion of training, to include completion of the
        introductory training session within 90 days of joining the task force.
    •   Required minimum annual training hours,
    •   Target audience – training equities for FBI and non-FBI task force
        members, and
    •   Responsibility for training notification to the field.

3. EOUSA’s Office of Legal Education, along with CTS, should develop a
national training plan for ATACs that includes:

    •   Initial needs assessment of ATAC Coordinators,
    •   How to manage and structure an ATAC (membership, frequency of
        meetings, methods and sources of communication, how to conduct an
        ATAC members’ needs assessment, identify trainers, and develop a local
        training plan),
    •   Frequency of future needs assessments for ATAC Coordinators and
        ATACs,
    •   Development of minimum mandatory training standards and time
        frames for completion of training for ATAC Coordinators,
    •   Required minimum annual training hours for ATAC Coordinators, and
    •   Responsibility for training notification to the ATAC Coordinators.

4. The ATAC Coordinators should conduct training needs assessments and
develop a training plan for ATAC members.

The FBI has not developed a structured, systemwide orientation program
for new JTTF and NJTTF members. Additionally, the FBI has not
provided written guidance that defines the roles and responsibilities of its
task force members.
5. The FBI should develop a formal, standardized orientation program for all
new task force members and provide it within 30 days of the new member’s
start date. Orientation should include:

        •   FBI policies and procedures,



U.S. Department of Justice                                              164
Office of the Inspector General
Evaluation and Inspections Division
       •   Access and use of the ACS system, IDW, and any other case
           management system,
       •   Intelligence gathering versus criminal investigations,
       •   Definition of task force member roles and responsibilities,
       •   Roles of other Department terrorism task forces and other FBI units,
       •   Sources of information and contact information for other
           organizations frequently used by the terrorism task forces (e.g., DHS,
           Internal Revenue Service, Social Security Administration, U.S. Postal
           Service), and
       •   Information sharing protocols.

6. The FBI should finalize MOUs with all agencies participating on the
Department’s terrorism task forces.

The JTTFs and ATACs have not fully coordinated their efforts to reach out
to and share information with law enforcement agencies, first responders,
and other relevant organizations in remote areas.

7. The FBI, CTS, EOUSA, and USAOs should work jointly to develop a
coordinated strategy to consistently reach out to remote areas.

The FBI has not fully developed outcome-oriented performance measures
that effectively determine the progress of the JTTFs, the NJTTF, and the
FTTTF, or their individual members. CTS and EOUSA have not developed
outcome-oriented performance measures for the ATAC program.

8. The FBI should ensure its performance measures provide an effective means
for determining the qualitative and quantitative accomplishments of the task
forces and their members in fulfilling the Department’s counterterrorism
strategy. The measures for the task forces could include the following:

   JTTF

   •   Quality and timeliness of information shared with member and
       outside agencies (such as, meetings, briefings, and feedback on
       information received) that furthered investigative efforts;
   •   Outreach efforts that resulted in improved information sharing and
       partnerships;
   •   Quality of intelligence collected and generated that furthered
       investigative efforts;
   •   Quality of intelligence/information analysis that furthered
       investigative efforts;
   •   Quality and number of human assets that furthered investigative
       efforts; and

U.S. Department of Justice                                              165
Office of the Inspector General
Evaluation and Inspections Division
   •   Disruptions and dismantlements.

   NJTTF

   •   Quality and number of products produced for JTTFs and other FBI units
       that furthered investigative efforts;
   •   Quality and timeliness of support provided to JTTFs that facilitated the
       JTTFs mission; and
   •   Quality and timeliness of information shared with JTTFs and member
       agencies that furthered investigative efforts.

   FTTTF
   (in addition to those performance measures already established)

   •   Amount and usefulness of new information added to cases that furthered
       investigative efforts;
   •   Timeliness and number of products produced for JTTFs, other FBI
       units, and outside agencies that furthered investigative efforts; and
   •   Acquisition of databases required for analysis that resulted in improved
       analytical products.

9. CTS and EOUSA should develop outcome-oriented performance measures
for the ATAC program. The measures for the ATAC program could include the
following:

   •   Quality and timeliness of information shared with member and
       outside agencies that resulted in improved understanding of
       terrorism issues and improved prevention activities;
   •   Quality and timeliness of training for members that resulted in improved
       understanding of terrorism issues and improved prevention activities;
   •   Outreach efforts that resulted in increasing targeted membership; and
   •   Quality and currency of threat assessments that result in improved
       prevention activities.




U.S. Department of Justice                                           166
Office of the Inspector General
Evaluation and Inspections Division
The ATAC Coordinators are unclear about the roles of CTS, EOUSA, or the
USAOs in the ATAC program. No one entity has full responsibility for
ATAC program management and oversight is fragmented. The
Department, CTS, and EOUSA have not provided ATAC Coordinators
adequate guidance on their roles and responsibilities or on how to
structure and manage an ATAC. Further, the USAOs’ level of compliance
with the Attorney General mandate to establish and operate an ATAC
varies across judicial districts.

10. The Department should clearly delineate the roles of CTS, EOUSA, and the
USAO in the ATAC program, clarifying who has primary responsibility and
authority for:

     •   Oversight,
     •   Monitoring ATAC operations,
     •   Evaluating success of the ATAC program, and
     •   Enforcing compliance.

11. CTS and EOUSA should jointly issue written guidance defining their roles
and responsibilities in the ATAC program, as well as the roles and
responsibilities of the Regional ATAC Coordinators, the National ATAC
Coordinator, and the EOUSA point of contact for ATACs. This written guidance
should be communicated to the ATAC Coordinators.

12. CTS or EOUSA should issue written guidance for ATAC Coordinators that
includes a definition of roles, how to determine membership base, and how to
structure and manage an ATAC.

13. EOUSA should strategically analyze the ATAC budget to assess the need
for future funding.

14. ATAC Coordinators should regularly update and maintain accurate
electronic rosters of the ATAC membership.

15. ATACs should meet at least quarterly, and ATAC Coordinators should
periodically review and communicate the ATAC mission to members.




U.S. Department of Justice                                         167
Office of the Inspector General
Evaluation and Inspections Division
The FBI has not provided stable leadership, organizational structure, or
adequate resources to the FTTTF to fully meet its mission. In addition,
the FBI has assigned responsibilities to the FTTTF outside of its defined
mission. As a result, the FTTTF is behind schedule in its acquisition of
databases and development and implementation of its risk assessment
tool. Additionally, the FTTTF has not sufficiently marketed its services,
and consequently many JTTF and NJTTF members were unaware of the
FTTTF and did not use the FTTTF’s services to aid their investigations.

16. The FTTTF should develop a plan to acquire and regularly update
the required databases from other agencies.

17. The FBI should identify and address the obstacles the FTTTF
encounters in securing and regularly updating required databases from
other agencies.

18. The FBI should identify and address the FTTTF’s unmet resource
requirements for staff (FBI and other government agencies), space, and
equipment.

19. The FBI should ensure long-term, stable leadership, organizational
structure, and housing for the FTTTF.

20. The FTTTF should develop and implement a plan to improve awareness
and understanding of its services.

Although the FBI has reallocated considerable resources to the
counterterrorism program, the JTTFs still experience certain staffing
shortages and turnover in leadership. Some JTTFs experience space and
information technology connectivity problems.

21. The FBI should determine and allocate sufficient staff to effectively support
the terrorism task forces.

22. The FBI should seek more stability in JTTF leadership.

23. The FBI should develop a plan and issue written guidance for the JTTFs on
how to activate new JTTFs and move existing JTTFs to offsite locations.

24. The FBI should ensure sufficient information technology connectivity
needed to effectively support the terrorism task forces.




U.S. Department of Justice                                             168
Office of the Inspector General
Evaluation and Inspections Division
Although Congress, the DEA, and the Department leadership recognize
the critical link between drug trafficking and terrorism, the DEA has
minimal membership on the JTTFs and did not assign a permanent
representative to the NJTTF until April 2004.

25. The DEA should increase its full-time membership on the JTTFs and work
with the FBI to assess the optimum locations for new DEA members.

26. The DEA should issue written guidance that defines the roles and
responsibilities of its JTTF and NJTTF members and points of contact.

Many of the ICE task force members told us that ICE has not provided
them needed direction, has not cross-trained supervisors or agents in
their new areas of responsibility, and has not provided a sufficient
number of representatives to perform task force work. As a result, the
FBI does not have adequate access to immigration and customs expertise
and information systems to assist its investigative efforts. We also were
told that ICE did not always understand the roles of its task force
members, leading to assignment of non-JTTF tasks to its members on the
JTTFs.

27. The Deputy Attorney General should work jointly with DHS officials to
ensure:

          • Sufficient DHS participation on the Department’s task forces,

          • Sufficiently trained ICE members on the task force and their
            supervisory chain of command,

          • Non-task force-related assignments to DHS members are
            minimized, and

          • Updated MOUs defining roles and information sharing
            responsibilities between the FBI and DHS.

Functions Performed by the States’ Homeland Security Task Forces are
Viewed as Duplicative to Those Performed by the ATACs.

28. The ATAC Coordinators should work jointly with the state offices of
homeland security and the state homeland security task forces to coordinate
activities and to minimize duplication and gaps in terrorism-related
information sharing and training.




U.S. Department of Justice                                           169
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX II: TERRORISM TASK FORCES AND COUNCILS


                 Anti-               Joint              National Joint      Foreign               National
                 Terrorism           Terrorism          Terrorism           Terrorist             Security
                 Advisory            Task Force         Task Force          Tracking Task         Coordination
                 Councils            (JTTF)             (NJTTF)             Force (FTTTF)         Council
                 (ATAC)                                                                           (NSCC)
Mission          “To coordinate      “To detect,        “To enhance         “To provide           To promote the
                 the                 prevent, and       communication,      information that      “seamless
                 dissemination of    investigate        coordination,       helps keep            coordination of
                 information and     individuals or     and cooperation     foreign terrorists    all [DOJ]
                 the development     groups carrying    between federal,    and their             functions
                 of investigative    out terrorists     state, and local    supporters out of     relating to
                 and prosecutive     acts directed      government          the United States     national
                 strategy            against the        agencies by         or leads to their     security,
                 throughout the      United States.”    providing a point   exclusion,            particularly
                 United States.”                        of fusion for       removal,              [its] efforts to
                                                        terrorism           surveillance, or      combat
                                                        intelligence and    prosecution.”         terrorism.”
                                                        supporting the
                                                        JTTFs.”
History          Established by      Established in     Established by      Mandated by           Established by
                 the Attorney        May 1980 in the    the FBI Director    Presidential          the Attorney
                 General             FBI’s New York     in                  Directive-2           General
                 September 17,       Field Office.      July 2002.          issued on             March 5,
                 2001 as Anti-                                              October 29,           2002.
                 Terrorism Task                                             2001.
                 Forces
                                                                            Started in DOJ
                 September 25,                                              on October 31,
                 2003                                                       2001.
                 (renamed to Anti-
                 Terrorism
                 Advisory
                 Councils)
Functions        • Coordinates       • Investigates     • Operates an       • Responds to         • Serves as a
                 anti-terrorism      actual and         interagency         requests received     forum for
                 initiatives         perceived          taskforce that      from the              DOJ’s
                 • Initiates         domestic and       fully utilizes      Counter-              component/
                 training            international      expertise offered   terrorism             agency leaders
                 programs            terrorism acts     by each             Division’s            to meet bi-
                 •Facilitates        that occur in or   representative.     operational units,    weekly to
                 information         affect the         • Establishes and   the CIA and the       discuss
                 sharing.            United States      maintains           JTTFs to perform      terrorism
                 • Works with        • Acts as a        liaisons with       data runs against     issues,
                 JTTF                “force             intelligence, law   public,               • Coordinates
                                     multiplier” by     enforcement and     proprietary, and      DOJ’s
                                     maintaining a      federal partners    government data       terrorism
                                     multi-agency       with a terrorism    systems.              policy,
                                     taskforce with     focus.              • Maintains the       planning, and
                                     state, federal,    • Assesses          Consolidated          operations,
                                     and local          terrorism           Terrorist List that   • Frames
                                     participants.      intelligence to     combines the          national
                                     •Shares            de-conflict         FBI’s Violent         security issues
                                     intelligence       information and     Gang and              for the
                                     information        minimize the        Terrorist             Attorney


   U.S. Department of Justice                                                                       170
   Office of the Inspector General
   Evaluation and Inspections Division
                 Anti-                Joint              National Joint     Foreign             National
                 Terrorism            Terrorism          Terrorism          Terrorist           Security
                 Advisory             Task Force         Task Force         Tracking Task       Coordination
                 Councils             (JTTF)             (NJTTF)            Force (FTTTF)       Council
                 (ATAC)                                                                         (NSCC)
Functions                             with task force    duplication of     Organization File   General’s and
                                      members and        effort,            (VGTOF) and 22      Deputy
                                      agency contacts    •Promotes          Most Wanted         Attorney
                                      that are           information        with the            General’s
                                      properly cleared   sharing between    Department of       consideration
                                      and have a         participating      State’s TIPOFF.     • Reviews
                                      “need to know.”    agencies,           • Acquires data    DOJ’s
                                      •Declassifies      • Conducts         federal agencies    resource
                                      intelligence and   special studies    and private         allocations for
                                      shares with law    on terrorism       industries data     terrorism
                                      enforcement        matters,           sets to improve     matters,
                                      and others.        • Coordinates      its search          • Oversees the
                                      •Detects and       with FTTTF,        capabilities.       operations of
                                      prevents           FBI’s              • Conducts risk     the Joint
                                      terrorist acts     Counterterrorism   assessments on      Intelligence
                                      •Apprehends        Division’s         flight training     Coordinating
                                      terrorism          Operational        candidates, and     Council,
                                      suspects           Units, Terrorist   persons             • Provides
                                      •Develops          Threat             requesting          input into the
                                      human assets,      Integration        changes to their    DOJ’s position
                                      •Coordinates       Center, and the    VISA status.        on terrorism
                                      federal, state,    Strategic                              matters and
                                      and local law      Intelligence                           presents this
                                      enforcement’s      Operations                             position to
                                      response to a      Center, and                            other agencies.
                                      terrorist act.     • Administrative
                                                         support to the
                                                         JTTFs.

Budget           FY 2002 - $9.3       FY 2004 - $286     FY 2004 - $5.1     FY 2004 - $61.6     FY 2003 - $2
                 million              million (total)    million (total),   million             million
                                                         $2.8 million
                 $100,000 for each    FY 2005 - $375     (non-personnel)    FY 2005 - $52.3     Now Funded out
                 of the 93 judicial   million (total)                       million             of Office of the
                 districts, no                                                                  Deputy Attorney
                 additional funding                                                             General budget.
                 since FY 2002
Total Number     93*                  Pre 9/11 – 35      1                  1                   1
of Groups                             JTTFs
                 * One ATAC for       As of March
                 each judicial        2005 – 103
                 district, except     JTTFs
                 Guam and
                 Northern Mariana
                 Islands are
                 combined into
                 one.
Field/           Field and            Field              Headquarters       Headquarters        Headquarters
Headquarters     Headquarters
Size/Total       11,000               5,085 members      62 total members   138 total           10 Permanent
Number of        members                                 representing 40    members             Members,
Members          (approximately)                         agencies                               Invited Guests
                                                                                                as needed




   U.S. Department of Justice                                                                       171
   Office of the Inspector General
   Evaluation and Inspections Division
                 Anti-              Joint             National Joint    Foreign             National
                 Terrorism          Terrorism         Terrorism         Terrorist           Security
                 Advisory           Task Force        Task Force        Tracking Task       Coordination
                 Councils           (JTTF)            (NJTTF)           Force (FTTTF)       Council
                 (ATAC)                                                                     (NSCC)
Types of         Private            FBI agents and    Federal, state,   FBI agents and      Senior DOJ
Members          industry,          analysts, other   and local law     analysts, federal   leadership
                 federal, state,    government        enforcement,      and military        including the:
                 and local law      agencies,         intelligence      members from        • Deputy
                 enforcement,       federal, state,   community         the intelligence    Attorney
                 intelligence       and local law     members, FBI      community, and      General
                 community,         enforcement       agents and FBI    members from        • Chief of Staff
                 federal agencies                     intelligence      other federal       to the
                                                      operations        agencies.           Attorney
                                                      support.                              General
                                                                                            • FBI, Director
                                                                                            • AAG
                                                                                            Criminal
                                                                                            Division
                                                                                            • AAG Office of
                                                                                            Justice
                                                                                            Programs
                                                                                            • Counsel,
                                                                                            OIPR
                                                                                            • DEA,
                                                                                            Administrator
                                                                                            • USMS,
                                                                                            Director
                                                                                            •ATF, Director
                                                                                            •BOP, Director
                                                                                            •Senior
                                                                                            Counsel
                                                                                            National
                                                                                            Security
                                                                                            Matters




   U.S. Department of Justice                                                                  172
   Office of the Inspector General
   Evaluation and Inspections Division
                Anti-                Joint              National Joint     Foreign              National
                Terrorism            Terrorism          Terrorism          Terrorist            Security
                Advisory             Task Force         Task Force         Tracking Task        Coordination
                Councils             (JTTF)             (NJTTF)            Force (FTTTF)        Council
                (ATAC)                                                                          (NSCC)
Management      Headquarters         Headquarters       Headquarters       Headquarters         Headquarters
Structure       Administrative       Administrative     Headed by an       Originally,          Chaired by the
                oversight            oversight          FBI Unit Chief     FTTTF’s Director     United States
                provided by the      provided by the    and a DHS          reported to the      Deputy
                Eloisa’s ATAC        National Joint     Deputy Unit        U.S. Deputy          Attorney
                Coordinator and      Terrorism Task     Chief. Reports     Attorney General     General. Staff
                six Regional         Force and the      directly to the    and served as a      from the
                ATAC                 FBI’s Counter-     Deputy Assistant   liaison to the       Deputy
                Coordinator          terrorism          Director for the   then                 Attorney
                from the             Division.          Operations         Commissioner of      General’s
                Criminal                                Support Branch     the Immigration      Office support
                Division’s           Field              of the             and                  its operations.
                Counter-             Divided into       Counterterrorism   Naturalization
                terrorism            International      Division. Has 4    Service and a
                Section.             Terrorism and      FBI Supervisory    Senior Advisor to
                                     Domestic           Special Agents     the President’s
                Field                Terrorism.         that assist in     Assistant for
                Chaired by the       Operational        managing the       Homeland
                United States        oversight          NJTTF’s            Security.
                Attorney in each     provided by a      operations.
                judicial district.   Supervisory
                A senior             Special agent                         In August 6,
                Assistant U.S.       with the                              2002, the
                Attorney serves      approval of the                       Attorney General
                as the district’s    Assistant                             mandated that
                ATAC                 Special Agent in                      FTTTF’s reporting
                Coordinator and      Charge and                            responsibility
                is assisted by       Special Agent in                      shift to the FBI’s
                an Intelligence      Charge.                               Counterterrorism
                Research                                                   Division.
                Specialist.




  U.S. Department of Justice                                                                      173
  Office of the Inspector General
  Evaluation and Inspections Division
   APPENDIX III: ELECTRONIC SYSTEMS USED BY THE TASK
               FORCES: LEO, RISS, AND NLETS


 Communication
                        Content and Services                 Organization               Users
    System
LEO                 • Contains Law Enforcement         • 32,500 members (2/3 are    • JTTF
                      Online Special Interest            state and local, 1/3 are   • NJTTF
                      Groups that provide access         federal, and some          • ATAC
                      for members of specialized         international users)         Coordinators
                      organizations and law            • Started in 1995              (to
                      enforcement disciplines          • Operates as a Virtual        communicate
                    • Capability to send and receive     Private Network (VPN)        with law
                      e-mail between LEO users           with secure access           enforcement)
                      and unsecured Internet email       through the Internet
                      addresses                        • Connected to Riss.net
                    • Bulletin boards for posting
                      information events from local,
                      state, and federal law
                      enforcement, criminal justice,
                      and public safety agencies
                    • Concise information on
                      various topics and news briefs
                    • Contains “chat” features for
                      users to communicate
                      electronically in a secure
                      environment in real time
                    • Electronic calendar used to
                      post upcoming dates for
                      conferences meetings, training
                      courses, seminars, and other
                      dates
                    • Library containing broad
                      range of publications,
                      documents, studies, and
                      research
                    • Learning modules




U.S. Department of Justice                                                               174
Office of the Inspector General
Evaluation and Inspections Division
 Communication
                        Content and Services                   Organization                  Users
     System
RISS               • Information sharing (bulletin       • Nearly 6,000 local, state,    • JTTF
                     boards, contact lists, national       and federal law               • ATAC
                     gang database, publications)          enforcement agencies are         Coordinators
                   • 6 regional criminal intelligence      members                          (to
                     databases available for             • First center opened in           communicate
                     simultaneous query                    1974                             with law
                   • Data analysis (telephone toll       • Objective is to enhance          enforcement
                     case, financial, computer             the ability of law               and
                     forensics, and criminal activity      enforcement to identify,         members)
                     analyses)                             target, and remove
                   • Telecommunications (long              criminal conspiracies that
                     distance telephone service)           may span jurisdictions,
                   • Investigative Support (some           including international
                     financial support available for     • Comprised of 6 regional
                     multi-jurisdictional                  centers, operates in all 50
                     investigations)                       states, D.C., U.S.
                   • Equipment Sharing                     territories, Canada,
                     (investigative equipment              England, and Australia.
                     available for loan to members)      • A secure network utilizing
                   • Training (coordinated or              Web-based technology
                     conducted by staff)                 • Received $24.9 million
                                                           from Congress in 2001
NLETS              • Links together state, local, and   • International computer         • JTTF
                     federal law enforcement and          based message switching
                     justice agencies for information     system
                     exchange                           • Operates in a secure
                   • Acts primarily as a network          environment
                     provider                           • User population includes
                   • Also acts as a data warehouse        all states/territories,
                     to justice community                 selected international
                   • Contains links to member             agencies, and all federal
                     agencies, state, and other           agencies with a justice
                     related websites                     component
                   • Shares driver’s license            • A 501(c)(3), not for profit
                     information                          agency
                                                        • Representatives from each
                                                          state elect a Board of
                                                          Directors and Officers
                                                        • Membership dues are
                                                          primary source of income
                                                        • Supported by a central
                                                          computer system at the
                                                          Arizona Department of
                                                          Public Safety




U.S. Department of Justice                                                                    175
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX IV: SURVEY INSTRUMENT AND RESULTS

DOJ's TERRORISM TASK FORCES


Thank you for your participation in our survey.

The Department of Justice's Office of the Inspector General is conducting a nationwide
evaluation of the Department's Counterterrorism Task Forces [i.e., National Joint
Terrorism Task Force (NJTTF), Joint Terrorism Task Force (JTTF), Anti-Terrorism
Advisory Council (ATAC) formerly the Anti-Terrorism Task Force, and Foreign Terrorist
Tracking Task Force (FTTTF)] and we need your help. You have been identified as a
contributor to this effort and we need your candid responses to the questions that follow.

We obtained your name from the FBI's or the United States Attorneys' Office for your
area. Your responses will not identify you individually. The information that you provide
us will be consolidated with information received from respondents in other jurisdictions
and used to assess the functions, accomplishments, and challenges of the terrorism
task forces. Whether you are a new member, a former member, or have served on the
task force since its inception, your input is very important to us; so please share your
thoughts and experiences. If you are not a member of a Terrorism Task Force, please
indicate as such on the survey provided. While participation is strictly voluntary, we are
counting on you to respond openly to the questions provided. Please save your
responses by selecting the "Finish" button. Note: If you exit the survey without selecting
"Finish", your responses will not be saved.

If you have any questions or concerns please don't hesitate to contact Jennifer La Point
in the Office of the Inspector General's Evaluation and Inspections Division on (202)
616-4620.

MEMBERSHIP INFORMATION AND EXPERIENCE

Are you or have you ever been a member of a Department of Justice Terrorism Task
Force or Advisory Council?

[ ] I am currently a member.
[ ] I am no longer a member but have been a member within the last 12 months.
[ ] I was a member more than 12 months ago.
[ ] No, I have never been a member of the DOJ's Terrorism Task Forces.

1. Which of the following describes your current involvement on a Department of Justice
Terrorism Task Force or Advisory Council. Please choose the statement that describes
your main level of participation.



U.S. Department of Justice                                                         176
Office of the Inspector General
Evaluation and Inspections Division
[ ] I am a member of the Federal Bureau of Investigation's Joint Terrorism Task Force
(JTTF).
(Only select this option if you work as a Task Force Officer/Agent who actively conducts
JTTF investigations at the FBI's direction.)

[ ] I am a member of the United States Attorneys Anti-Terrorism Advisory Council
(ATAC). *(See note below)

[ ] I am a member of the National Joint Terrorism Task Force (NJTTF)

[ ] I am a member of the Foreign Terrorist Tracking Task Force (FTTTF)

* On 9/25/03, Attorney General John Ashcroft announced that the nation's 93 Anti-Terrorism Task Forces
(ATTF) will be reconstituted as Anti-Terrorism Advisory Councils (ATAC). Therefore any mention of the
Anti-Terrorism Advisory Council (ATAC) in this survey refers to the previously known Anti-Terrorism Task
Force (ATTF)*. Throughout this survey, you will see the term TASK FORCE/ADVISORY COUNCIL. This
term means that you are either a Terrorism Task Force (FTTTF, JTTF, NJTTF) or Advisory Council
(ATAC) member, so please respond accordingly.

2. When did you join this Terrorism Task Force or Advisory Council?

Month
[ ] January [ ] February [ ] March [ ] April [ ] May [ ] June [ ] July [ ] August [ ] September
[ ] October [ ] November [ ] December

Year (yyyy) [ ]

2a. How were you selected to serve on this task force or advisory council? (check all
that apply)

[ ] Applied for the position [ ] Selected by management without applying
[ ] Volunteered [ ] Already performing related functions [ ] Prior Task Force experience
[ ] Don't know

2b. Are you a full-time or part-time member?

[ ] Full time [ ] Part time

How many hours do you spend on this Task Force per week? [ ]

FORMER MEMBER

1. Which of the following statements identifies your former Task Force/Advisory Council
involvement?




U.S. Department of Justice                                                                      177
Office of the Inspector General
Evaluation and Inspections Division
[ ] I was a member of the Federal Bureau of Investigation's Joint Terrorism Task Force
(JTTF)
[ ] I was a remember of the United States Attorneys Anti-Terrorism Advisory Council
(formerly know
as the Anti-Terrorism Task Force) (ATTF/ATAC).
[ ] I was a member of the National Joint Terrorism Task Force (NJTTF)
[ ] I was a member of the Foreign Terrorist Tracking Task Force (FTTTF).

2. When did you join?

Month
[ ] January [ ] February [ ] March [ ] April [ ] May [ ] June [ ] July [ ] August [ ] September
[ ] October [ ] November [ ] December

Year (yyyy) [ ]

3. When did you leave?

Month
[ ] January [ ] February [ ] March [ ] April [ ] May [ ] June [ ] July [ ] August [ ] September
[ ] October [ ] November [ ] December

Year (yyyy) [ ]

4. Why did you leave?

5. How should the task force's/advisory council's performance be measured?

6. How should the task force/advisory council be improved?

7. We are interested in knowing more about your task force experiences. Please
complete the questions which follow based upon your task force involvement. The
questions are written in a manner which suggests that you are still a member of this
task force. Do you wish to proceed?

[ ] Yes [ ] No

3. Approximately how many years do you anticipate remaining on this task force? (write
in number)
[]    Don't know [ ]

4. Please identify your years of professional work experience in the following categories:

Law Enforcement Investigations [ ]
Domestic Terrorism [ ]


U.S. Department of Justice                                                               178
Office of the Inspector General
Evaluation and Inspections Division
International Terrorism [ ]
Counterintelligence [ ]
Intelligence [ ]
Other Investigations [ ]

5. What level of security clearance do you have?
[ ] Interim Clearance [ ] Secret [ ] Top Secret [ ] Top Secret with SCI access
[ ] Don't know [ ] None

How does it impact your ability to do your job?

5a. When did you receive this clearance?

Month
[ ] January [ ] February [ ] March [ ] April [ ] May [ ] June [ ] July [ ] August [ ] September
[ ] October [ ] November [ ] December

Year (yyyy) [ ]        Don't know [ ]

5b. Was it before or after joining the task force?

[ ] Before [ ] After

ROLES AND RESPONSIBILITIES

6. Are you a supervisor, coordinator, or task force/advisory council member?
[ ] Member [ ] Coordinator [ ] Supervisor

6a. When did you assume this position?
Month
[ ] January [ ] February [ ] March [ ] April [ ] May [ ] June [ ] July [ ] August [ ] September
[ ] October [ ] November [ ] December

Year (yyyy) [ ]

6b. How long did your predecessor serve in this position?
[ ] No Predecessor [ ] 1 month [ ] 2 months [ ] 3 months [ ] 4 months [ ] 5 months
[ ] 6 or more months

7. Briefly describe your role on the Task Force/Advisory Council.

8. What percentage of your work on the task force is devoted to (this should equal
100%):




U.S. Department of Justice                                                               179
Office of the Inspector General
Evaluation and Inspections Division
% Domestic Terrorism [ ] % International Terrorism [ ] % Terrorism Support (Intelligence
Analysis, Electronic Surveillance, etc.) [ ] % Other [ ]

9. Do you have written policies, procedures, and/or objectives that address your role as
a Task Force/Advisory Council participant?

[ ] Yes [ ] No [ ] Don't know

9c. How does the lack of defined policies, procedures, and/or objectives that address
your role on the Task Force/Advisory Council impact your ability to carry-out your role?

9a. What are the written policies, procedures and/or objectives that address your role on
the task force/advisory council?

9b. Where did these policies, procedures and/or objectives originate? (check all that
apply)
[ ] Federal Bureau of Investigation [ ] Parent Agency [ ] United States Attorneys Office [ ]
Self-generated

10. Please respond to the following statements regarding your role on the task
force/advisory council.

The FBI defined my role on the task force/advisory council.
[ ] Yes [ ] No [ ] Not Applicable

The U.S. Attorney/U.S. Attorneys' Office defined my role on the taskforce/advisory
council.
[ ] Yes [ ] No [ ] Not Applicable
The U.S. Attorney General defined my role on the taskforce/advisory council.
[ ] Yes [ ] No [ ] Not Applicable

My parent agency defined my role on the task force/advisory council.
[ ] Yes [ ] No [ ] Not Applicable

I defined my role of the task force/advisory council.
[ ] Yes [ ] No [ ] Not Applicable

My role on the task force/advisory council has not been determined.
[ ] Yes [ ] No [ ] Not Applicable

10a. Do conflicts exist between the expectations of your parent agency and those of the
task force leadership concerning your role?

[ ] Yes [ ] No



U.S. Department of Justice                                                           180
Office of the Inspector General
Evaluation and Inspections Division
Please describe these conflicts and how it has impacted your work on the Task Force.

PERFORMANCE

11. Did you receive a list of performance standards that apply to your role as a member
of the task force/advisory council?

[ ] Yes [ ] No

11a. Please list these performance standards.

11 b. How would you rate these standards in assisting you in your job performance on
the task force/advisory council?

[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

11c. Where did these performance standards originate?

[ ] Federal Bureau of Investigation [ ] Parent Agency [ ] United States Attorneys Office
[ ] Self-generated

12. Is your performance on this task force....

Routinely measured by your parent agency?
[ ] Yes [ ] No [ ] Don't know [ ] Not Applicable

Routinely measured by the FBI
[ ] Yes [ ] No [ ] Don't Know [ ] Not Applicable

Reported by the FBI to your supervisor at your parent agency?
[ ] Yes [ ] No [ ] Don't know [ ] Not Applicable

13. Is the overall performance of this task force/advisory council measured?
[ ] Yes [ ] No [ ] Don't know

How is the overall performance of this task force/advisory council measured?

13a. In your opinion, how should the task force's/advisory council's performance be
measured?

MEETINGS

14. In the last year, how often did the entire task force/advisory council meet?



U.S. Department of Justice                                                         181
Office of the Inspector General
Evaluation and Inspections Division
[ ] Daily [ ] Weekly [ ] Every two weeks [ ] Once a month [ ] Quarterly [ ] Never
[ ] Other

How have the lack of meetings (full, squad, or sub-committee) impacted the
performance of the task force/advisory council?

Please specify meeting frequency.

14a. At these meetings of the entire task force/advisory council, please rate how the
following are accomplished:

Information/Intelligence shared
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Training planned
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Training conducted
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Taskings assigned
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Cases updated
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Administrative issues discussed
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Agency updates are provided
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Threat assessments discussed
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

14b. How would you rate the usefulness of these meetings in preparing you to plan for
and respond to terrorism?


U.S. Department of Justice                                                          182
Office of the Inspector General
Evaluation and Inspections Division
[ ] Very Useful [ ] Useful [ ] Not at all useful [ ] Not able to evaluate [ ] No opinion

14c. How can the task force/advisory council meetings be improved?

15. In the last year, how often did the task force's squad or advisory council's sub-
committees meet?

[ ] Daily [ ] Weekly [ ] Every two weeks [ ] Once a month [ ] Quarterly [ ] Never
[ ] Other [ ] We don't have any squad or subcommittees on our task force/advisory
council.

Please specify frequency.

How have the lack of meetings (full, squad, or sub-committee) impacted the
performance of the task force/advisory council?

15a. At these squad or sub-committee meetings, please rate how the following are
accomplished:

Information/Intelligence shared
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Training conducted
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Taskings assigned
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Cases updated
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Administrative issues discussed
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Training planned
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Agency updates are provided


U.S. Department of Justice                                                                 183
Office of the Inspector General
Evaluation and Inspections Division
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

Threat assessments discussed
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Don't Know
[ ] Not Applicable

15b. How would you rate the usefulness of these squad or sub-committee meetings in
preparing you to plan for and respond to terrorism?

[ ] Very Useful [ ] Useful [ ] Not at all useful [ ] Not able to evaluate [ ] No opinion

15c. How can the squad or sub-committee meetings be improved?

15d. How would these improvements impact your role on this task force/advisory
council?

15d. How would these improvements impact your role on this task force/advisory
council?

TRAINING

16. How were your terrorism training needs determined?

[ ] Task Force Supervisor determined with my/my agency's input
[ ] ATAC Coordinator determined with my/my agency's input
[ ] Task Force Supervisor determined without my/my agency's input
[ ] ATAC Coordinator determined without my/my agency's input
[ ] I alone determined my training needs [ ] Needs not determined
[ ] Other [ ] Don't know

Please explain

17. Since becoming a task force/advisory council participant, have you completed any
terrorism training?

[ ] Yes [ ] No

17a. The following is a list of terrorism related training courses sponsored by either the
FBI or the United States Attorneys Office. Please complete the information which
follows for each course.

International Terrorism CD
[ ] Useful [ ] Not Useful [ ] Did not complete



U.S. Department of Justice                                                                 184
Office of the Inspector General
Evaluation and Inspections Division
Domestic Terrorism CD
[ ] Useful [ ] Not Useful [ ] Did not complete

Identifying Terrorist Groups/Characteristics
[ ] Useful [ ] Not Useful [ ] Did not complete

Terrorism/Incident Response
[ ] Useful [ ] Not Useful [ ] Did not complete

Terrorism/Investigative Strategies
[ ] Useful [ ] Not Useful [ ] Did not complete

Cultural Sensitivity
[ ] Useful [ ] Not Useful [ ] Did not complete

FISA/USA Patriot ACT
[ ] Useful [ ] Not Useful [ ] Did not complete

NJTTF Conference
[ ] Useful [ ] Not Useful [ ] Did not complete

Terrorism Financing
[ ] Useful [ ] Not Useful [ ] Did not complete
Other
[ ] Useful [ ] Not Useful [ ] Did not complete

Please specify other course titles [ ]

18. Overall, how has all of the training you have received impacted your work on the
task force or advisory council?

19. Is there counterterrorism training that you need or should receive that you have not
taken?
[ ] Yes [ ] No

19a. Please explain:

RESOURCES

20. How would you rate the task force's/advisory council's resources?
Number of Staff
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Not Applicable

Equipment
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Not Applicable


U.S. Department of Justice                                                        185
Office of the Inspector General
Evaluation and Inspections Division
Space
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Not Applicable

Staff Skills
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Not Applicable

Overall Rating
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Not Applicable

20a. What impact has the problem(s) with resources had on the task force/advisory
council achieving its mission?

21. Briefly describe what resources the task force/advisory council needs that it doesn't
have.

22. The Congress has drafted legislation suggesting that the United States Attorneys
should continue to participate in the Joint Terrorism Task Forces rather than maintaining
a separate set of U.S. Attorney Task Forces. If this legislation is adopted, how will it
impact the counterterrorism coverage in your area?

[ ] Favorably impact [ ] Unfavorably impact [ ] No impact [ ] Not sure of impact
[ ] Other

Please explain.
SUPERVISION AND GUIDANCE

23. Upon joining the task force, were you given an orientation to the and the FBI's
policies and procedures?

[ ] Yes [ ] No [ ] Don't know

Briefly describe the orientation process.

How did the lack of an orientation process impact your work on the task force?

24. The next list of statements applies to the supervision, direction, and support that you
receive as a task force participant. Please rate the statements that characterize the
quality of supervision and guidance that you receive on the with the scale provided.

The chain of command for this task force is well defined.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

There is stability in the management structure of this task force


U.S. Department of Justice                                                          186
Office of the Inspector General
Evaluation and Inspections Division
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

I have the authority I need to perform my job on this task force.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

My task force supervisor provides the guidance I need.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

My task force supervisor provides the support I need.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

My task force supervisor encourages my input in decisions affecting my work.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

My supervisor from my parent agency provides me with the guidance I need to
effectively represent my agency.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

24a. How can the quality of the supervision and support that you receive be improved?

24b. How does the quality of guidance your receive from the FBI and/or your parent
agency impact your work on the task force?

TASKINGS

25. Please identify how many taskings you are currently working on in each category
listed below.
I am currently not working on any taskings. [ ]
International Terrorism [ ]
Domestic Terrorism [ ]
Counterintelligence [ ]
Terrorism Financing [ ]
Weapons of Mass Destruction [ ]
* Other [ ]

* Please identify the categories and quantities for these Other taskings. [ ]

26. Considering your taskings for this task force, please rate the following statements:
The taskings I receive are in my area of expertise.


U.S. Department of Justice                                                         187
Office of the Inspector General
Evaluation and Inspections Division
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

The taskings I receive are assigned to other members/agencies for completion.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

When appropriate, I am assigned as the lead investigator on cases that are in my areas
of expertise.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

I am normally included in the initial stages of a tasking where my expertise is most
useful.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

The contributions I make to this task force are worthwhile to the mission of this task
force.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

An FBI Special Agent is usually assigned as the lead agent on all IT cases.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

An FBI Special Agent is usually assigned as the lead agent on all DT cases.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Don't Know

27. Do you receive non- taskings?
[ ] Yes [ ] No

27a. How often do you receive these assignments?
[ ] Seldom [ ] Occasionally [ ] Frequently

28. How have these non- taskings impacted your role on this task force? (check all that
apply)
[ ] I am not assigned to complex investigations.
[ ] I am not assigned to lead investigations.
[ ] I primarily support the work of other task force members/agents.
[ ] My task force cases remain open for extended periods of time.
[ ] My task force cases are unresolved.
[ ] I work longer hours to complete my work. [ ] No impact.
[ ] Other


U.S. Department of Justice                                                          188
Office of the Inspector General
Evaluation and Inspections Division
Please explain:

29. Do you have complete access to the following sources of FBI information?

Automated Case System (ACS)
[ ] Yes [ ] No [ ] Don't know

FBI databases
[ ] Yes [ ] No [ ] Don't know

FBI records
[ ] Yes [ ] No [ ] Don't know

Other sources of information from the FBI
[ ] Yes [ ] No [ ] Don't know


29a. How has the limited access to FBI information impacted your work on the task
force?

30. At the worksite, do you have access to....?

parent agency's databases
[ ] Yes [ ] No [ ] Don't know

parent agency's contacts
[ ] Yes [ ] No [ ] Don't know

parent agency's intelligence
[ ] Yes [ ] No [ ] Don't know

parent agency's email
[ ] Yes [ ] No [ ] Don't know

Internet/www
[ ] Yes [ ] No [ ] Don't know

30a. How has this limited access impacted your work on the task force?

INFORMATION SHARING

31. Which of the following describes your information sharing responsibilities on this
task force?
My responsibility is to share information with my parent agency supervisor.


U.S. Department of Justice                                                         189
Office of the Inspector General
Evaluation and Inspections Division
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown

My responsibility is to share information with my FBI supervisor.
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown

My responsibility is to share information directly with my agency head.
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown

My responsibility is to share information that I receive from the participating agencies on
the task force.
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown

My responsibility is to share information that I receive from other agencies that are not
task force members.
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown

My responsibility is to share information from my parent agency with the task force.
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown

My responsibility is to share information with other task forces.
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown


I don't share any information with the task force.
[ ] Strongly Agree [ ] Agree [ ] Neither Agree Nor Disagree
[ ] Disagree [ ] Strongly Disagree [ ] Not Applicable [ ] Unknown

31.a. Where are your task force information sharing responsibilities defined? (check all
that apply)

[ ] Policy from my agency [ ] FBI Policy [ ] Memorandum of Understanding (FBI and My
Agency) [ ] Attorney General's Guidelines [ ] Good Management Practice
[ ] They aren't defined [ ] Other [ ] Don't know

32. From which of the following sources do you receive information on this Task Force?
(check all that apply)

[ ] National Joint Terrorism Task Force [ ] Local JTTF


U.S. Department of Justice                                                          190
Office of the Inspector General
Evaluation and Inspections Division
[ ] FBI's weekly Intelligence Bulletin
[ ] Secure Video Teleconferencing System (SVTS)
[ ] National Law Enforcement Telecommunications System (NLETS)
[ ] National Criminal Information Center (NCIC) Watch Lists
[ ] Regional Information Sharing Systems Law
[ ] ATAC Coordinator's Electronic Messages
[ ] Law Enforcement Online (LEO)
[ ] Anti-Terrorism Information Exchange (ATIX) [ ] Other

32a. Considering the sources of information that you identified how would you rate the:

Quality
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Unknown
[ ] Not Applicable

Timeliness
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Unknown
[ ] Not Applicable

Relevance to your work on the task force
[ ] Excellent [ ] Good [ ] Average [ ] Poor [ ] Very Poor [ ] Unknown
[ ] Not Applicable

23. Which of the following describes your information sharing responsibilities on this
task force?

I share information from my parent agency with ATAC members.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Unknown

I share information from the ATAC meetings with my parent agency.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Unknown

I share information that I receive from other agencies with the ATAC members.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Unknown

I do not share information with the ATAC members.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree
[ ] Not Applicable [ ] Unknown

I do not share any information from the ATAC with my parent agency or any other
agency.
[ ] Strongly Agree [ ] Agree [ ] Neutral [ ] Disagree [ ] Strongly Disagree


U.S. Department of Justice                                                         191
Office of the Inspector General
Evaluation and Inspections Division
[ ] Not Applicable [ ] Unknown

24. Where are your task force information sharing responsibilities defined?
[ ] Policy from my agency [ ] Attorney General's Guidelines [ ] Good Management
Practice [ ] They aren't defined [ ] Other [ ] Don't know

25. How does the ATAC Coordinator/United States Attorneys' Office share information
outside of scheduled meetings? (check all that apply)

[ ] Electronic Mail (email) [ ] Alert System [ ] Telephone Calls [ ] Other
[ ] Information not shared outside of meetings.

Please explain:

26 As a result of your membership on the ATAC, do you get the information you need in
order to effectively perform your terrorism related job duties at your parent agency?
[ ] Yes [ ] No

27. How has this impacted your ability to perform your terrorism related job duties at
your parent agency?

28. On a scale of 1-5 with (1 being the most important and 5 being the least important)
how would you rank order the following ATAC priorities?

[ ] Training for ATAC members [ ] Information Sharing
[ ] Coordination of Counterterrorism Related Initiatives
[ ] Coordination of Prosecutions [ ] Promoting Community Awareness

How has the change from an Anti-Terrorism Task Force to an Anti-Terrorism Advisory
Council impacted your role on this task force?

What types of training have you conducted or provided? (check all that apply)

[ ] Identifying Terrorist Groups/Characteristics
[ ] Terrorism/Incident Response
[ ] Terrorism Investigative Strategies [ ] Cultural Sensitivity
[ ] FISA/USA PATRIOT ACT [ ] Terrorism Financing [ ] Other

Please identify other training coordinated or provided:

33. On a scale of 1-5 with (1 being the most important and 5 being the least important),
how would you rank order the following JTTF priorities?

[ ] Investigate Terrorist Threats [ ] Coordinate Special Events
[ ] Provide Counterterrorism Training [ ] Information Sharing and Coordination


U.S. Department of Justice                                                         192
Office of the Inspector General
Evaluation and Inspections Division
[ ] Community Partnerships

33. On a scale of 1-5 with (1 being the most important and 5 being the least important)
how would you rank order the following NJTTF priorities?

[ ] Point of fusion for information sharing (receipt and exchange)
[ ] Provide guidance to the field JTTF members from my agency
[ ] Respond to threats within my area of expertise.
[ ] Conduct special studies to determine a terrorism nexus
[ ] Community Awareness

34. How often do you interact with NJTTF members? (interactions can be in person, by
telephone, email, etc.)

[ ] Daily [ ] Weekly [ ] Every two weeks [ ] Once a month [ ] As needed [ ] Never
[ ] Other

34a. Which of the following describes the reasons for your interactions with NJTTF
members? (check all that apply)

[ ] To receive guidance and direction [ ] To respond to inquiries
[ ] To discuss agency specific needs [ ] To complete taskings
[ ] To share information /intelligence

34b. How often do you interact with FTTTF members ?

(interactions can be in person, by telephone, email, etc.)
[ ] Daily [ ] Weekly [ ] Every two weeks [ ] Once a month
[ ] Never [ ] Other [ ] As needed

34c.Which of the following describes the reasons for your interactions with FTTTF?
(check all that apply)

[ ] To receive guidance and direction [ ] To respond to inquiries
[ ] To discuss agency specific needs [ ] To complete taskings
[ ] To obtain information [ ] To request analysis

35. The FBI plans to move the NJTTF's operations to the Terrorism Threat Integration
Center. How will this planned move impact the NJTTF's operations?

[ ] Improve the NJTTF's operations
[ ] No change in the NJTTF's operations
[ ] Adversely impact the NJTTF's operations
[ ] Not sure of the impact [ ] Other



U.S. Department of Justice                                                          193
Office of the Inspector General
Evaluation and Inspections Division
35a. Please explain:

34. How often do you interact with JTTF members? (interactions can be in person, by
telephone, email, etc.)

[ ] Daily [ ] Weekly [ ] Every two weeks [ ] Once a month [ ] As needed
[ ] Never [ ] Other

34a. Which of the following describes the reasons for your interactions with JTTF
members? (check all that apply)

[ ] To receive guidance and direction [ ] To respond to inquiries
[ ] To discuss agency specific needs [ ] To complete taskings
[ ] To share information /intelligence

34b. How often do you interact with FTTTF members ?

(interactions can be in person, by telephone, email, etc.)
[ ] Daily [ ] Weekly [ ] Every two weeks [ ] Once a month [ ] Never
[ ] Other [ ] As needed

34c.Which of the following describes the reasons for your interactions with FTTTF?
(check all that apply)

[ ] To receive guidance and direction [ ] To respond to inquiries
[ ] To discuss agency specific needs [ ] To complete taskings
[ ] To obtain information [ ] To request analysis

35. The FBI plans to move the NJTTF's operations to the Terrorism Threat Integration
Center. How will this planned move impact the NJTTF's operations?

[ ] Improve the NJTTF's operations
[ ] No change in the NJTTF's operations
[ ] Adversely impact the NJTTF's operations
[ ] Not sure of the impact [ ] Other

33. On a scale of 1-5 with (1 being the most important and 5 being the least important)
how would you rank order the following FTTTF priorities?

[ ] Conduct data searches
[ ] Conduct special studies to determine a terrorism nexus
[ ] Maintain terrorist watch lists [ ] Conduct risk assessments
[ ] Maintain multidisciplinary databases




U.S. Department of Justice                                                          194
Office of the Inspector General
Evaluation and Inspections Division
35. How often do you interact with members of the following groups? (interactions can
be in person, by telephone, email, etc.)

Anti-Terrorism Advisory Council
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never


Department of Homeland Security (DHS)
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never

Executive Office for United States Attorneys (EOUSA)
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never
Joint Terrorism Task Force (JTTF)
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never

National Joint Terrorism Task Force
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never

Terrorism Screening Center (TSC)
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never

Terrorism Threat Integration Center (TTIC)
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never

United States Attorneys Office
[ ] Daily [ ] Weekly [ ] Monthly [ ] Quarterly [ ] Never

36. Which of the following describes the reasons for these interactions? (check all that
apply)

[ ] To give guidance and direction
[ ] To receive guidance and direction [ ] To respond to inquiries
[ ] To share information [ ] To discuss agency specific needs
[ ] To obtain information to complete taskings from my agency [ ] Other

36a. Please explain:

What have been the task force's/advisory council's greatest accomplishments?

What have been the task force's/advisory council's greatest challenges?

Is there anything else that you would like to share about the task force/advisory council?

What is your current job title?



U.S. Department of Justice                                                         195
Office of the Inspector General
Evaluation and Inspections Division
[ ] Assistant Chief [ ] Assistant Special Agent In Charge [ ] Assistant United States
Attorney [ ] Deputy U.S. Marshall [ ] Captain [ ] Chief [ ] Deputy Commissioner [ ]
Detective [ ] Director [ ] Federal Air Marshal [ ] Intelligence Analyst [ ] Intelligence
Research Specialist [ ] Investigator [ ] Lieutenant [ ] Manager [ ] Officer [ ] Resident
Agent In Charge [ ] Sergeant [ ] Special Agent
[ ] Special Agent in Charge [ ] Supervisory Special Agent [ ] Sheriff [ ] Other

If not provided above, please provide your current job title.

Agency Affiliation
[ ] Local Government/Agency
[ ] State Government/Agency
[ ] Private Business (Utilities, Transportation, Private Security, Pharmaceutical, etc.)
[ ] Bureau of Alcohol, Tobacco, and Firearms (ATF)
[ ] Bureau of Immigration and Customs Enforcement (BICE)
[ ] Central Intelligence Agency (CIA)
[ ] Drug Enforcement Administration (DEA)
[ ] Executive Office of United States Attorneys (EOUSA)
[ ] Federal Bureau of Investigations (FBI)
[ ] Federal Bureau of Prisons (BOP)
[ ] Federal Protective Service (FPS)
[ ] Internal Revenue Service (IRS)
[ ] National Imagery and Mapping Agency (NIMA)
[ ] National Security Agency (NSA)
[ ] Office of Special Investigations (OSI)
[ ] Military Intelligence Unit (Air Force, Army, Naval)
[ ] Transportation Security Administration (TSA)
[ ] United States Attorneys Office
[ ] United States Marshals Service (USM)
[ ] United States Secret Service (USS)
[ ] Other Federal Government Agency


Geographic Region

[ ] Northeast (CT, MA, ME, NH, NJ, NY, PA, RI, VT)
[ ] Midwest (IA, IL, IN, KS, MI, MN, MO, ND, NE, OH, SD, WI)
[ ] South (AR, AL, DE, District of Columbia, FL, GA, KY, LA, MD, MS, NC, OK, SC, TN,
TX, VA, WV)
[ ] West (AK, AZ, CA, CO, HI, ID, MT, NM, NV, OR, UT, WA, WY)

Please press the finish button to save your responses. Thank you for your time and
cooperation. We appreciate your help.




U.S. Department of Justice                                                            196
Office of the Inspector General
Evaluation and Inspections Division
              COUNTERTERRORISM TASK FORCE SURVEY RESULTS

            Are you or have you ever been a member of a DOJ Terrorism Task Force or Advisory Council?


                                                                                   Valid       Cumulative
                                                       Frequency     Percent      Percent       Percent
                         I am currently a member              531         75.4          75.4          75.4
                         I am no longer a member,
                         but have been a member                30          4.3           4.3          79.7
                         w/in the last 12 months
                         I was a member more than
                         12 months ago                          9          1.3           1.3          81.0

                         I have never been a
                                                              134         19.0          19.0        100.0
                         member
                         Total                                704       100.0          100.0


   Which of the following statements describes your current involvement on a DOJ Terrorism Task Force or Advisory
                                                      Council?


                                                                                  Valid        Cumulative
                                                       Frequency     Percent     Percent        Percent
                 Valid              JTTF                     266          37.8         46.6           46.6
                                    ATAC                     270          38.4         47.3           93.9
                                    NJTTF                      19          2.7          3.3           97.2
                                    FTTTF                      16          2.3          2.8          100.0
                                    TOTAL                    571          81.1        100.0
                 Missing            System                   133          18.9
                 Total                                       704        100.0




                                           Are you a full-time or part-time member?


                                                                                  Valid        Cumulative
                                                       Frequency     Percent     Percent        Percent
                Valid             Full time                  213          30.3         72.0           72.0
                                  Part time                    83         11.8         28.0          100.0
                                  TOTAL                      296          42.0        100.0
                Missing           System                     408          58.0
                Total                                        704        100.0




         Which of the following statements identifies your former Task Force/Advisory Council involvement?


                                                                                  Valid        Cumulative
                                                       Frequency     Percent     Percent        Percent
                Valid             JTTF                         26          3.7         63.4           63.4
                                  ATAC                         13          1.8         31.7           95.1
                                  FTTTF                         2           .3          4.9          100.0
                                  TOTAL                        41          5.8        100.0
                Missing           System                     663          94.2
                Total                                        704        100.0



U.S. Department of Justice                                                                                   197
Office of the Inspector General
Evaluation and Inspections Division
                                          What level of security clearance do you have?


                                                                                  Valid          Cumulative
                                                       Frequency     Percent     Percent          Percent
                  Valid        Interim Clearance                7          1.0        1.3                1.3
                               Secret                          59          8.4       10.6               11.9
                               Top Secret                     204         29.0       36.7               48.6
                               Top Secret w/ SCI
                               access                         176         25.0       31.7               80.2

                               Don't know                      67          9.5       12.1               92.3
                               None                            43          6.1        7.7              100.0
                               TOTAL                          556         79.0      100.0
                  Missing      System                         148         21.0
                  Total                                       704        100.0


                          Are you a supervisor, coordinator, or task force/advisory council member?


                                                                                   Valid         Cumulative
                                                       Frequency     Percent      Percent         Percent
                  Valid         Member                        461         65.5            82.9          82.9
                                Coordinator                    44          6.3             7.9          90.8
                                Supervisor                     51          7.2             9.2         100.0
                                TOTAL                         556         79.0       100.0
                  Missing       System                        148         21.0
                  Total                                       704        100.0



Do you have policies, procedures, and/or objectives that address your role as a Task Force/Advisory Council participant?


                                                                                   Valid         Cumulative
                                                       Frequency     Percent      Percent         Percent
                  Valid          Yes                          233         33.1            42.0          42.0
                                 No                           201         28.6            36.2          78.2
                                 Don't know                   121         17.2            21.8         100.0
                                 TOTAL                        555         78.8       100.0
                  Missing        System                       149         21.2
                  Total                                       704        100.0




U.S. Department of Justice                                                                                     198
Office of the Inspector General
Evaluation and Inspections Division
                         Where did these policies, procedures, and/or objectives originate?
                                (1 = FBI, 2 = Parent Agency, 3 = USAO, 4 = Self-generated)


                                                                                Valid         Cumulative
                                                    Frequency     Percent      Percent         Percent
              Valid                                       473          67.2         67.2            67.2
                         "1,"                               77         10.9         10.9            78.1
                         "1,2"                               2           .3           .3            78.4
                         "1,2,"                             32          4.5          4.5            83.0
                         "1,2,3,"                           11          1.6          1.6            84.5
                         "1,2,3,4,"                          1           .1           .1            84.7
                         "1,2,4,"                            4           .6           .6            85.2
                         "1,3,"                             19          2.7          2.7            87.9
                         "1,3,4,"                            3           .4           .4            88.4
                         "1,4,"                              7          1.0          1.0            89.3
                         "2"                                 2           .3           .3            89.6
                         "2,"                               28          4.0          4.0            93.6
                         "2,3,"                              2           .3           .3            93.9
                         "2,3,4,"                            3           .4           .4            94.3
                         "2,4,"                              3           .4           .4            94.7
                         "3,"                               28          4.0          4.0            98.7
                         "3,4,"                              4           .6           .6            99.3
                         "4,"                                5           .7           .7           100.0
                         Total                            704         100.0        100.0


                        Please respond to the following statements regarding your role on the
                                            task force/advisory council:

                                The FBI defined my role on the task force/advisory council.


                                                                                Valid         Cumulative
                                                    Frequency     Percent      Percent         Percent
              Valid             Yes                        258         36.6         46.5             46.5
                                No                         224         31.8         40.4             86.8
                                Not applicable              73         10.4         13.2            100.0
                                TOTAL                      555         78.8        100.0
              Missing           System                     149         21.2
              Total                                        704        100.0


                  The U.S. Attorney’s Office defined my role on the task force/advisory council.


                                                                                Valid         Cumulative
                                                    Frequency     Percent      Percent         Percent
              Valid        Yes                             201         28.6         36.2             36.2
                           No                              252         35.8         45.4             81.6
                           Not applicable                  102         14.5         18.4            100.0
                           TOTAL                           555         78.8        100.0
              Missing      System                          149         21.2
              Total                                        704        100.0



U.S. Department of Justice                                                                                  199
Office of the Inspector General
Evaluation and Inspections Division
                     The U.S. Attorney General defined my role on the task force/advisory council.


                                                                                 Valid      Cumulative
                                                    Frequency     Percent       Percent      Percent
             Valid          Yes                            131         18.6          23.6            23.6
                            No                             299         42.5          53.9            77.5
                            Not applicable                 125         17.8          22.5         100.0
                            TOTAL                          555         78.8        100.0
             Missing        System                         149         21.2
             Total                                         704        100.0


                         My parent agency defined my role on the task force/advisory council.


                                                                                 Valid      Cumulative
                                                    Frequency     Percent       Percent      Percent
             Valid          Yes                            297         42.2          53.5            53.5
                            No                             163         23.2          29.4            82.9
                            Not applicable                  95         13.5          17.1         100.0
                            TOTAL                          555         78.8        100.0
             Missing        System                         149         21.2
             Total                                         704        100.0


                                   I defined my role on the task force/advisory council.


                                                                                 Valid      Cumulative
                                                    Frequency      Percent      Percent      Percent
             Valid           Yes                           207         29.4          37.4             37.4
                             No                            247         35.1          44.6             81.9
                             Not applicable                100         14.2          18.1          100.0
                             TOTAL                         554         78.7         100.0
             Missing         System                        150         21.3
             Total                                         704        100.0


                         My role on the task force/advisory council has not been determined.


                                                                                 Valid      Cumulative
                                                    Frequency     Percent       Percent      Percent
             Valid         Yes                              55          7.8           9.9              9.9
                           No                              226         32.1          40.8             50.7
                           Not applicable                  273         38.8          49.3            100.0
                           TOTAL                           554         78.7        100.0
             Missing       System                          150         21.3
             Total                                         704        100.0




U.S. Department of Justice                                                                                   200
Office of the Inspector General
Evaluation and Inspections Division
               Do conflicts exist between the expectations of your parent agency and those of the
                                   task force leadership concerning your role?


                                                                             Valid      Cumulative
                                                 Frequency     Percent      Percent      Percent
             Valid          Yes                          65          9.2        11.7            11.7
                            No                          490         69.6        88.3           100.0
                            TOTAL                       555         78.8       100.0
             Missing        System                      149         21.2
             Total                                      704        100.0


               Did you receive a list of performance standards that apply to your role as a member
                                         of the task force/advisory council?


                                                                             Valid      Cumulative
                                                 Frequency     Percent      Percent      Percent
             Valid          Yes                          92         13.1        16.6            16.6
                            No                          463         65.8        83.4           100.0
                            TOTAL                       555         78.8       100.0
             Missing        System                      149         21.2
             Total                                      704        100.0


                   How would you rate these standards in assisting you in your job performance on
                                          the task force/advisory council?


                                                                             Valid       Cumulative
                                                 Frequency     Percent      Percent       Percent
            Valid            Excellent                   29          4.1        31.2                31.2
                             Good                        41          5.8        44.1                75.3
                             Average                     14          2.0        15.1                90.3
                             Poor                         2           .3         2.2                92.5
                             Very Poor                    2           .3         2.2                94.6
                             Don't know                   1           .1         1.1                95.7
                             Not applicable               4           .6         4.3            100.0
                             TOTAL                       93         13.2       100.0
            Missing          System                     611         86.8
            Total                                       704        100.0


                   Is your performance on the task force routinely measured by your parent agency?


                                                                              Valid       Cumulative
                                                  Frequency     Percent      Percent       Percent
           Valid          Yes                            150         21.3        51.0                51.0
                          No                              58          8.2        19.7                70.7
                          Don't know                      29          4.1         9.9                80.6
                          Not applicable                  57          8.1        19.4               100.0
                          TOTAL                          294         41.8       100.0
           Missing        System                         410         58.2
           Total                                         704        100.0




U.S. Department of Justice                                                                                  201
Office of the Inspector General
Evaluation and Inspections Division
           Is your performance on this task force routinely measured by the FBI?


                                                                                      Valid      Cumulative
                                                    Frequency        Percent         Percent      Percent
            Valid          Yes                             171            24.3           58.2            58.2
                           No                                  47             6.7        16.0            74.1
                           Don't know                          68             9.7        23.1            97.3
                           Not applicable                       8             1.1         2.7           100.0
                           TOTAL                           294            41.8          100.0
            Missing        System                          410            58.2
            Total                                          704           100.0

        Is your performance on this task force reported by the FBI to your supervisor at your parent agency?


                                                                                     Valid      Cumulative
                                                   Frequency        Percent         Percent      Percent
            Valid          Yes                             73            10.4           24.8             24.8
                           No                              72            10.2           24.5             49.3
                           Don't know                      67             9.5           22.8             72.1
                           Not applicable                  82            11.6           27.9            100.0
                           TOTAL                          294            41.8          100.0
            Missing        System                         410            58.2
            Total                                         704           100.0


                           Is the performance of this task force/advisory council measured?


                                                                                     Valid      Cumulative
                                                  Frequency         Percent         Percent      Percent
            Valid          Yes                            142            20.2           25.6             25.6
                           No                              62             8.8           11.2             36.8
                           Don't know                     351            49.9           63.2           100.0
                           TOTAL                          555            78.8          100.0
            Missing        System                         149            21.2
            Total                                         704           100.0


                       In the last year, how often did the entire task force/advisory council meet?


                                                                                     Valid      Cumulative
                                                  Frequency         Percent         Percent      Percent
             Valid              Daily                     23              3.3            4.2             4.2
                                Weekly                    62              8.8           11.2            15.3
                                Every 2 weeks             42              6.0            7.6            22.9
                                Once a month             145             20.6           26.2            49.1
                                Quarterly                168             23.9           30.3            79.4
                                Never                     30              4.3            5.4            84.8
                                Other                     84             11.9           15.2           100.0
                                TOTAL                    554             78.7          100.0
             Missing            System                   150             21.3
             Total                                       704            100.0



U.S. Department of Justice                                                                                      202
Office of the Inspector General
Evaluation and Inspections Division
     At these meetings of the entire task force/advisory council, please rate how the following are accomplished:


                                           Information/Intelligence shared


                                                                              Valid      Cumulative
                                                Frequency     Percent        Percent      Percent
                Valid     Excellent                    198        28.1            37.8           37.8
                          Good                         203        28.8            38.7           76.5
                          Average                       72        10.2            13.7           90.3
                          Poor                          24         3.4             4.6           94.8
                          Very Poor                      7         1.0             1.3           96.2
                          Don't know                    11         1.6             2.1           98.3
                          Not applicable                 9         1.3             1.7          100.0
                          TOTAL                        524        74.4           100.0
                Missing   System                       180        25.6
                Total                                  704      100.0


                                                  Training Planned


                                                                              Valid      Cumulative
                                                Frequency     Percent        Percent      Percent
                Valid     Excellent                     77        10.9           14.7            14.7
                          Good                         199        28.3           38.0            52.7
                          Average                      125        17.8           23.9            76.5
                          Poor                          32           4.5          6.1            82.6
                          Very Poor                      9           1.3          1.7            84.4
                          Don't know                    34           4.8          6.5            90.8
                          Not applicable                48           6.8          9.2           100.0
                          TOTAL                        524        74.4          100.0
                Missin    System
                                                       180        25.6
                g
                Total                                  704       100.0


                                                 Training Conducted


                                                                              Valid      Cumulative
                                                Frequency     Percent        Percent      Percent
               Valid      Excellent                     94        13.4           17.9             17.9
                          Good                         176        25.0           33.5             51.4
                          Average                      121        17.2           23.0             74.5
                          Poor                          36           5.1          6.9             81.3
                          Very Poor                     10           1.4          1.9             83.2
                          Don't know                    36           5.1          6.9             90.1
                          Not applicable                52           7.4          9.9            100.0
                          TOTAL                        525        74.6          100.0
               Missing    System                       179        25.4
               Total                                   704       100.0




U.S. Department of Justice                                                                                     203
Office of the Inspector General
Evaluation and Inspections Division
                                               Taskings assigned


                                                                               Valid         Cumulative
                                              Frequency        Percent        Percent         Percent
              Valid     Excellent                     69            9.8           13.1               13.1
                        Good                         181           25.7           34.5               47.6
                        Average                      116           16.5           22.1               69.7
                        Poor                          34            4.8            6.5               76.2
                        Very Poor                     11            1.6            2.1               78.3
                        Don't know                    45            6.4            8.6               86.9
                        Not applicable                69            9.8           13.1              100.0
                        TOTAL                        525           74.6          100.0
              Missing   System                       179           25.4
              Total                                  704         100.0


                                                 Cases updated


                                                                               Valid         Cumulative
                                              Frequency        Percent        Percent         Percent
             Valid      Excellent                    103           14.6           19.7               19.7
                        Good                         176           25.0           33.6               53.2
                        Average                       89           12.6           17.0               70.2
                        Poor                          31            4.4            5.9               76.1
                        Very Poor                      8            1.1            1.5               77.7
                        Don't know                    44            6.3            8.4               86.1
                        Not applicable                73           10.4           13.9              100.0
                        TOTAL                        524           74.4          100.0
             Missing    System                       180           25.6
             Total                                   704         100.0


                                         Administrative issues discussed


                                                                                Valid         Cumulative
                                               Frequency        Percent        Percent         Percent
             Valid      Excellent                     112           15.9           21.3               21.3
                        Good                          215           30.5           41.0               62.3
                        Average                       114           16.2           21.7               84.0
                        Poor                           20            2.8            3.8               87.8
                        Very Poor                          4             .6             .8            88.6
                        Don't know                     32            4.5            6.1               94.7
                        Not applicable                 28            4.0            5.3              100.0
                        TOTAL                         525           74.6          100.0
             Missing    System                        179           25.4
             Total                                    704          100.0




U.S. Department of Justice                                                                                   204
Office of the Inspector General
Evaluation and Inspections Division
                                                 Agency updates are provided


                                                                                Valid      Cumulative
                                                      Frequency    Percent     Percent      Percent
             Valid          Excellent                       146        20.7        27.8             27.8
                            Good                            213        30.3        40.6             68.4
                            Average                          87        12.4        16.6             85.0
                            Poor                             27         3.8         5.1             90.1
                            Very Poor                         9         1.3         1.7             91.8
                            Don't know                       25         3.6         4.8             96.6
                            Not applicable                   18         2.6         3.4           100.0
                            TOTAL                           525        74.6       100.0
             Missing        System                          179        25.4
             Total                                          704       100.0


                                              Threat assessments discussed


                                                                                Valid      Cumulative
                                                       Frequency   Percent     Percent      Percent
             Valid          Excellent                        163       23.2        31.0             31.0
                            Good                             205       29.1        39.0             70.1
                            Average                           78       11.1        14.9             85.0
                            Poor                              23        3.3         4.4             89.3
                            Very Poor                         13        1.8         2.5             91.8
                            Don't know                        23        3.3         4.4             96.2
                            Not applicable                    20        2.8         3.8           100.0
                            TOTAL                            525       74.6       100.0
             Missing        System                           179       25.4
             Total                                           704      100.0


                     How would you rate the usefulness of these meetings in preparing you to plan
                                            for and respond to terrorism?


                                                                                Valid      Cumulative
                                                       Frequency   Percent     Percent      Percent
            Valid         Very useful                        159       22.6        30.3              30.3
                          Useful                             270       38.4        51.5              81.9
                          Not at all useful                   40        5.7          7.6             89.5
                          Not able to evaluate                38        5.4          7.3             96.8
                          No opinion                          17        2.4          3.2            100.0
                          Total                              524       74.4       100.0
            Missing       System                             180       25.6
            Total                                            704      100.0




U.S. Department of Justice                                                                                  205
Office of the Inspector General
Evaluation and Inspections Division
         In the last year, how often did the task force’s squad or advisory council’s sub-committees meet?


                                                                             Valid      Cumulative
                                                 Frequency     Percent      Percent      Percent
              Valid     Daily                            14           2.0         2.5            2.5
                        Weekly                           51           7.2         9.2           11.7
                        Every 2 weeks                    29           4.1         5.2           16.9
                        Once a month                     85          12.1        15.3           32.3
                        Quarterly                        50           7.1         9.0           41.3
                        Never                            20           2.8         3.6           44.9
                        Other                            99          14.1        17.8           62.7
                        We don't have
                        squads/sub-committees           207          29.4        37.3          100.0

                        TOTAL                           555          78.8       100.0
              Missing   System                          149          21.2
              Total                                     704       100.0


           At these squad or sub-committee meetings please rate how the following are accomplished:


                                          Information/Intelligence shared


                                                                             Valid      Cumulative
                                                 Frequency     Percent      Percent      Percent
              Valid      Excellent                       97          13.8       30.1            30.1
                         Good                            93          13.2       28.9            59.0
                         Average                         29           4.1        9.0            68.0
                         Poor                             7           1.0        2.2            70.2
                         Very Poor                        4            .6        1.2            71.4
                         Don't know                      60           8.5       18.6            90.1
                         Not applicable                  32           4.5        9.9           100.0
                         TOTAL                          322          45.7      100.0
              Missing    System                         382          54.3
              Total                                     704       100.0


                                                Training conducted


                                                                             Valid      Cumulative
                                                 Frequency     Percent      Percent      Percent
             Valid       Excellent                       43           6.1       13.4             13.4
                         Good                            83          11.8       25.8             39.1
                         Average                         53           7.5       16.5             55.6
                         Poor                            14           2.0        4.3             59.9
                         Very Poor                        4            .6        1.2             61.2
                         Don't know                      60           8.5       18.6             79.8
                         Not applicable                  65           9.2       20.2            100.0
                         TOTAL                          322          45.7     100.0
             Missing     System                         382          54.3
             Total                                      704       100.0




U.S. Department of Justice                                                                                   206
Office of the Inspector General
Evaluation and Inspections Division
                                                 Taskings assigned


                                                                              Valid     Cumulative
                                                   Frequency    Percent      Percent     Percent
             Valid        Excellent                       57          8.1        17.8           17.8
                          Good                            94         13.4        29.3           47.0
                          Average                         47          6.7        14.6           61.7
                          Poor                            10          1.4         3.1           64.8
                          Very Poor                         6          .9         1.9           66.7
                          Don't know                      61          8.7        19.0           85.7
                          Not applicable                  46          6.5        14.3          100.0
                          TOTAL                          321         45.6       100.0
             Missing      System                         383         54.4
             Total                                       704       100.0


                                                   Cases updated


                                                                              Valid     Cumulative
                                                  Frequency     Percent      Percent     Percent
             Valid       Excellent                        62          8.8        19.3           19.3
                         Good                             94         13.4        29.3           48.6
                         Average                          36          5.1        11.2           59.8
                         Poor                             11          1.6         3.4           63.2
                         Very Poor                         6           .9         1.9           65.1
                         Don't know                       63          8.9        19.6           84.7
                         Not applicable                   49          7.0        15.3          100.0
                         TOTAL                           321         45.6      100.0
             Missing     System                          383         54.4
             Total                                       704       100.0




                                           Administrative issues discussed


                                                                              Valid     Cumulative
                                                  Frequency     Percent      Percent     Percent
             Valid     Excellent                          75         10.7        23.3           23.3
                       Good                              102         14.5        31.7           55.0
                       Average                            41          5.8        12.7           67.7
                       Poor                                6           .9         1.9           69.6
                       Very Poor                           2           .3          .6           70.2
                       Don't know                         61          8.7        18.9           89.1
                       Not applicable                     35          5.0        10.9          100.0
                       TOTAL                             322         45.7      100.0
             Missin    System
                                                         382         54.3
             g
             Total                                       704       100.0




U.S. Department of Justice                                                                             207
Office of the Inspector General
Evaluation and Inspections Division
                                               Training planned


                                                                           Valid     Cumulative
                                               Frequency       Percent    Percent     Percent
             Valid      Excellent                      47           6.7       14.7           14.7
                        Good                           79          11.2       24.7           39.4
                        Average                        52           7.4       16.3           55.6
                        Poor                           19           2.7        5.9           61.6
                        Very Poor                       5            .7        1.6           63.1
                        Don't know                     62           8.8       19.4           82.5
                        Not applicable                 56           8.0       17.5          100.0
                        TOTAL                        320           45.5     100.0
             Missing    System                       384           54.5
             Total                                   704          100.0


                                         Agency updates are provided


                                                                           Valid     Cumulative
                                                Frequency      Percent    Percent     Percent
             Valid     Excellent                       67           9.5       20.9           20.9
                       Good                           101          14.3       31.5           52.3
                       Average                         42           6.0       13.1           65.4
                       Poor                            11           1.6        3.4           68.8
                       Very Poor                        7           1.0        2.2           71.0
                       Don't know                      60           8.5       18.7           89.7
                       Not applicable                  33           4.7       10.3          100.0
                       Total                          321          45.6      100.0
             Missing   System                         383          54.4
             Total                                    704         100.0


                                         Threat assessments discussed


                                                                           Valid     Cumulative
                                                Frequency      Percent    Percent     Percent
            Valid      Excellent                       77          10.9       24.1           24.1
                       Good                            91          12.9       28.5           52.7
                       Average                         40           5.7       12.5           65.2
                       Poor                                8        1.1        2.5           67.7
                       Very Poor                           7        1.0        2.2           69.9
                       Don't know                      59           8.4       18.5           88.4
                       Not applicable                  37           5.3       11.6          100.0
                       TOTAL                          319          45.3      100.0
            Missing    System                         385          54.7
            Total                                     704         100.0




U.S. Department of Justice                                                                          208
Office of the Inspector General
Evaluation and Inspections Division
            How would you rate the usefulness of these squad or sub-committee meetings in preparing
                                    you to plan for and respond to terrorism?


                                                                            Valid       Cumulative
                                                   Frequency    Percent    Percent       Percent
             Valid      Very useful                        79       11.2       24.3             24.3
                        Useful                            120       17.0       36.9             61.2
                        Not at all useful                  23        3.3        7.1             68.3
                        Not able to evaluate               62        8.8       19.1             87.4
                        No opinion                         41        5.8       12.6            100.0
                        TOTAL                             325       46.2      100.0
             Missing    System                            379       53.8
             Total                                        704      100.0


                                 How were your terrorism training needs determined?


                                                                            Valid       Cumulative
                                                   Frequency    Percent    Percent       Percent
            Valid      TF Supervisor determined
                       w/ my agency’s input                94       13.4       17.1              17.1

                       ATAC Coordinator
                       determined w/ my                    74       10.5       13.4              30.5
                       agency’s input

                       TF Supervisor determined
                       w/out my agency’s input             37        5.3        6.7              37.2

                       ATAC Coordinator
                       determined w/out my                 26        3.7        4.7              41.9
                       agency’s input

                       I alone determined my
                                                           74       10.5       13.4              55.4
                       needs
                       Needs not determined                94       13.4       17.1              72.4
                       Other                               52        7.4        9.4              81.9
                       Don’t know                         100       14.2       18.1             100.0
                       TOTAL                              551       78.3      100.0
            Missing    System                             153       21.7
            Total                                         704      100.0


       Since becoming a task force/advisory council participant, have you completed any terrorism training?


                                                                            Valid      Cumulative
                                                  Frequency     Percent    Percent      Percent
             Valid        Yes                            429        60.9       77.3             77.3
                          No                             126        17.9       22.7            100.0
                          TOTAL                          555        78.8      100.0
             Missing      System                         149        21.2
             Total                                       704      100.0




U.S. Department of Justice                                                                                    209
Office of the Inspector General
Evaluation and Inspections Division
  The following is a list of terrorism related training courses sponsored by either the FBI or the Unites States Attorneys
                           Office. Please complete the information which follows for each course.

                                                 International Terrorism CD


                                                                                        Valid         Cumulative
                                                       Frequency        Percent        Percent         Percent
                Valid     Useful                             211            30.0           49.0               49.0
                          Not useful                           11            1.6            2.6               51.5
                          Did not complete                   209            29.7           48.5              100.0
                          TOTAL                              431            61.2          100.0
                Missing   System                             273            38.8
                Total                                        704          100.0


                                                   Domestic Terrorism CD


                                                                                        Valid         Cumulative
                                                       Frequency        Percent        Percent         Percent
               Valid        Useful                           178            25.3           41.3                41.3
                            Not useful                          5             .7             1.2               42.5
                            Did not complete                 248            35.2           57.5              100.0
                            TOTAL                            431            61.2          100.0
               Missing      System                           273            38.8
               Total                                         704          100.0


                                         Identifying Terrorist Groups/Characteristics


                                                                                        Valid         Cumulative
                                                       Frequency        Percent        Percent         Percent
               Valid       Useful                             200           28.4            46.3               46.3
                           Not useful                           3             .4                 .7            47.0
                           Did not complete                   229           32.5            53.0              100.0
                           TOTAL                              432           61.4           100.0
               Missing     System                             272           38.6
               Total                                          704          100.0


                                                Terrorism/Incident Response


                                                                                         Valid         Cumulative
                                                        Frequency        Percent        Percent         Percent
               Valid        Useful                              156          22.2            36.1              36.1
                            Not useful                              3             .4             .7            36.8
                            Did not complete                    273          38.8            63.2             100.0
                            TOTAL                               432          61.4          100.0
               Missing      System                              272          38.6
               Total                                            704         100.0




U.S. Department of Justice                                                                                            210
Office of the Inspector General
Evaluation and Inspections Division
                                        Terrorism/Investigative Strategies


                                                                                   Valid      Cumulative
                                                  Frequency        Percent        Percent      Percent
           Valid     Useful                              135           19.2           31.3            31.3
                     Not useful                            1             .1             .2            31.5
                     Did not complete                    296           42.0           68.5           100.0
                     TOTAL                               432           61.4          100.0
           Missing   System                              272           38.6
           Total                                         704          100.0


                                               Cultural Sensitivity


                                                                                   Valid      Cumulative
                                                   Frequency       Percent        Percent      Percent
           Valid      Useful                              166          23.6           38.4            38.4
                      Not useful                               9        1.3             2.1           40.5
                      Did not complete                    257          36.5           59.5           100.0
                      TOTAL                               432          61.4          100.0
           Missing    System                              272          38.6
           Total                                          704         100.0


                                            FISA/USA PATRIOT ACT


                                                                                   Valid      Cumulative
                                                   Frequency       Percent        Percent      Percent
          Valid      Useful                               225           32.0           52.1            52.1
                     Not useful                            13            1.8            3.0            55.1
                     Did not complete                     194           27.6           44.9           100.0
                     TOTAL                                432           61.4          100.0
          Missing    System                               272           38.6
          Total                                           704         100.0


                                               NJTTF Conference


                                                                                    Valid      Cumulative
                                                   Frequency        Percent        Percent      Percent
          Valid       Useful                               72           10.2           16.7            16.7
                      Not useful                               5             .7         1.2            17.8
                      Did not complete                    355           50.4           82.2           100.0
                      TOTAL                               432           61.4          100.0
          Missing     System                              272           38.6
          Total                                           704          100.0




U.S. Department of Justice                                                                                    211
Office of the Inspector General
Evaluation and Inspections Division
                                                 Terrorism Financing


                                                                                 Valid       Cumulative
                                                     Frequency       Percent    Percent       Percent
          Valid               Useful                        98           13.9        22.7             22.7
                              Not useful                    10            1.4         2.3             25.0
                              Did not complete             324           46.0        75.0           100.0
                              TOTAL                        432           61.4      100.0
          Missing             System                       272           38.6
          Total                                            704          100.0


                                                       Other


                                                                                 Valid       Cumulative
                                                     Frequency       Percent    Percent       Percent
          Valid      Useful                                119           16.9       37.0             37.0
                     Not useful                                 2          .3         .6             37.6
                     Did not complete                      201           28.6       62.4            100.0
                     TOTAL                                 322           45.7      100.0
          Missin     System
                                                           382           54.3
          g
          Total                                            704         100.0


            Is there counterterrorism training that you need or should receive that you have not taken?


                                                                                 Valid       Cumulative
                                                    Frequency       Percent     Percent       Percent
           Valid           Yes                            284            40.3       51.4             51.4
                           No                             269            38.2       48.6            100.0
                           TOTAL                          553            78.6      100.0
           Missing         System                         151            21.4
           Total                                          704          100.0


                         How would you rate the task force’s/advisory council’s resources?

                                                   Number of staff


                                                                                 Valid       Cumulative
                                                    Frequency       Percent     Percent       Percent
          Valid               Excellent                   118            16.8        21.3            21.3
                              Good                        236            33.5        42.5            63.8
                              Average                     112            15.9        20.2            84.0
                              Poor                         38             5.4         6.8            90.8
                              Very Poor                    11             1.6         2.0            92.8
                              Not applicable               40             5.7         7.2           100.0
                              TOTAL                       555            78.8      100.0
          Missing             System                      149            21.2
          Total                                           704          100.0




U.S. Department of Justice                                                                                   212
Office of the Inspector General
Evaluation and Inspections Division
                                        Equipment


                                                                   Valid     Cumulative
                                       Frequency       Percent    Percent     Percent
          Valid       Excellent                75          10.7       13.5           13.5
                      Good                    173          24.6       31.2           44.8
                      Average                 155          22.0       28.0           72.7
                      Poor                     45           6.4        8.1           80.9
                      Very Poor                15           2.1        2.7           83.6
                      Not Applicable           91          12.9       16.4          100.0
                      TOTAL                   554          78.7      100.0
          Missing     System                  150          21.3
          Total                               704         100.0


                                          Space


                                                                   Valid     Cumulative
                                       Frequency       Percent    Percent     Percent
          Valid       Excellent                94          13.4       16.9           16.9
                      Good                    154          21.9       27.7           44.7
                      Average                 145          20.6       26.1           70.8
                      Poor                     61           8.7       11.0           81.8
                      Very Poor                29           4.1        5.2           87.0
                      Not Applicable           72          10.2       13.0          100.0
                      TOTAL                   555          78.8      100.0
          Missing     System                  149          21.2
          Total                               704         100.0


                                        Staff skills


                                                                   Valid     Cumulative
                                       Frequency       Percent    Percent     Percent
          Valid       Excellent               166          23.6       29.9           29.9
                      Good                    239          33.9       43.1           73.0
                      Average                  82          11.6       14.8           87.7
                      Poor                     18           2.6        3.2           91.0
                      Very Poor                 2            .3         .4           91.4
                      Not Applicable           48           6.8        8.6          100.0
                      TOTAL                   555          78.8      100.0
          Missing     System                  149          21.2
          Total                               704         100.0




U.S. Department of Justice                                                                  213
Office of the Inspector General
Evaluation and Inspections Division
                                                      Overall rating


                                                                                        Valid          Cumulative
                                                      Frequency        Percent         Percent          Percent
            Valid            Excellent                        94           13.4            16.9                16.9
                             Good                            264           37.5            47.6                64.5
                             Average                         131           18.6            23.6                88.1
                             Poor                             24            3.4             4.3                92.4
                             Very Poor                         4             .6              .7                93.2
                             Not Applicable                   38            5.4             6.8               100.0
                             TOTAL                           555           78.8           100.0
            Missing          System                          149           21.2
            Total                                            704          100.0


 The Congress has drafted legislation suggesting that the United States Attorneys should continue to participate in the
  Joint Terrorism Task Forces rather than maintaining a separate set of U.S. Attorney task forces. If this legislation is
                        adopted, how will it impact the counterterrorism coverage in your area?


                                                                                         Valid          Cumulative
                                                       Frequency        Percent         Percent          Percent
           Valid              Favorably impact                194           27.6            35.0                35.0
                              Unfavorably impact               55                7.8             9.9            44.9
                              No impact                        89           12.6            16.1                61.0
                              Not sure of impact              213           30.3            38.4                99.5
                              Other                                3              .4              .5           100.0
                              TOTAL                           554           78.7           100.0
           Missing            System                          150           21.3
           Total                                              704          100.0


      Upon joining the task force, were you given an orientation to the FBI and the FBI’s policies and procedures?


                                                                                         Valid         Cumulative
                                                       Frequency        Percent         Percent         Percent
            Valid              Yes                            171           24.3            58.0               58.0
                               No                             109           15.5            36.9               94.9
                               Don't know                      15            2.1             5.1              100.0
                               TOTAL                          295           41.9           100.0
            Missing            System                         409           58.1
            Total                                             704          100.0




U.S. Department of Justice                                                                                             214
Office of the Inspector General
Evaluation and Inspections Division
The next list of statements applies to the supervision, direction, and support that you receive as a task force participant.
Please rate the statements that characterize the quality of supervision and guidance you receive with the scale provided.

                                The chain of command for this task force is well-defined.


                                                                                     Valid        Cumulative
                                                        Frequency      Percent      Percent        Percent
            Valid           Strongly agree                     123          17.5         41.8              41.8
                            Agree                              118          16.8         40.1              82.0
                            Neutral                             24           3.4          8.2              90.1
                            Disagree                            14           2.0          4.8              94.9
                            Strongly disagree                    7           1.0          2.4              97.3
                            Not applicable                       1            .1            .3             97.6
                            Don't know                           7           1.0          2.4             100.0
                            TOTAL                              294          41.8        100.0
            Missing         System                             410          58.2
            Total                                              704        100.0


                             There is stability in the management structure of this task force.


                                                                                     Valid        Cumulative
                                                        Frequency      Percent      Percent        Percent
           Valid             Strongly agree                     87          12.4         29.6               29.6
                             Agree                             122          17.3         41.5               71.1
                             Neutral                            41           5.8         13.9               85.0
                             Disagree                           28           4.0          9.5               94.6
                             Strongly disagree                   9           1.3          3.1               97.6
                             Not applicable                      1            .1            .3              98.0
                             Don't know                          6            .9          2.0              100.0
                             TOTAL                             294          41.8        100.0
           Missing           System                            410          58.2
           Total                                               704        100.0


                             I have the authority I need to perform my job on this task force.


                                                                                     Valid        Cumulative
                                                        Frequency      Percent      Percent        Percent
           Valid             Strongly agree                     93          13.2         31.6               31.6
                             Agree                             141          20.0         48.0               79.6
                             Neutral                            30           4.3         10.2               89.8
                             Disagree                           14           2.0          4.8               94.6
                             Strongly disagree                   7           1.0          2.4               96.9
                             Not applicable                      3            .4          1.0               98.0
                             Don't know                          6            .9          2.0              100.0
                             Total                             294          41.8        100.0
           Missing           System                            410          58.2
           Total                                               704        100.0




U.S. Department of Justice                                                                                         215
Office of the Inspector General
Evaluation and Inspections Division
                             My task force supervisor provides the guidance I need.


                                                                                Valid       Cumulative
                                                   Frequency    Percent        Percent       Percent
         Valid                 Strongly agree            104         14.8          35.4             35.4
                               Agree                     110         15.6          37.4             72.8
                               Neutral                    41           5.8         13.9             86.7
                               Disagree                   13           1.8            4.4           91.2
                               Strongly disagree           8           1.1            2.7           93.9
                               Not applicable             12           1.7            4.1           98.0
                               Don't know                  6              .9          2.0          100.0
                               TOTAL                     294         41.8         100.0
         Missing               System                    410         58.2
         Total                                           704        100.0


                              My task force supervisor provides the support I need.


                                                                                Valid       Cumulative
                                                   Frequency    Percent        Percent       Percent
         Valid           Strongly agree                  109         15.5          37.1             37.1
                         Agree                           108         15.3          36.7             73.8
                         Neutral                          42           6.0         14.3             88.1
                         Disagree                         16           2.3            5.4           93.5
                         Strongly disagree                 4              .6          1.4           94.9
                         Not applicable                    9           1.3            3.1           98.0
                         Don't know                        6              .9          2.0          100.0
                         TOTAL                           294         41.8         100.0
         Missing         System                          410         58.2
         Total                                           704        100.0


                   My task force supervisor encourages my input in decision affecting my work.


                                                                                Valid       Cumulative
                                                   Frequency    Percent        Percent       Percent
         Valid           Strongly agree                  118         16.8          40.3             40.3
                         Agree                           113         16.1          38.6             78.8
                         Neutral                          32           4.5         10.9             89.8
                         Disagree                         12           1.7            4.1           93.9
                         Strongly disagree                 3              .4          1.0           94.9
                         Not applicable                   10           1.4            3.4           98.3
                         Don't know                        5              .7          1.7          100.0
                         TOTAL                           293         41.6         100.0
         Missing         System                          411         58.4
         Total                                           704        100.0




U.S. Department of Justice                                                                                 216
Office of the Inspector General
Evaluation and Inspections Division
    My supervisor from my parent agency provides me with the guidance I need to effectively represent my agency.


                                                                                          Valid        Cumulative
                                                        Frequency      Percent           Percent        Percent
          Valid               Strongly agree                    78           11.1              26.5             26.5
                              Agree                             83           11.8              28.2             54.8
                              Neutral                           37            5.3              12.6             67.3
                              Disagree                          16            2.3               5.4             72.8
                              Strongly disagree                  7            1.0               2.4             75.2
                              Not applicable                    66            9.4              22.4             97.6
                              Don't know                         7            1.0               2.4            100.0
                              TOTAL                            294           41.8             100.0
          Missing             System                           410           58.2
          Total                                                704          100.0


                                         I am currently not working on any taskings.


                                                                                                Cumulative
                                           Frequency       Percent       Valid Percent           Percent
                    Valid     Ǿ                   636           90.3                   90.3             90.3
                              "1"                  68            9.7                    9.7            100.0
                              TOTAL               704          100.0                  100.0
                  Note: Ǿ - indicates those respondents that did not type anything in response to the question.
                  The table shows that 68 respondents indicated they were not currently working on any taskings.


                    Considering your taskings for this task force, please rate the following statements:

                                      The taskings I receive are in my area of expertise.


                                                                                          Valid        Cumulative
                                                        Frequency      Percent           Percent        Percent
          Valid               Strongly agree                    77           10.9              26.9             26.9
                              Agree                            131           18.6              45.8             72.7
                              Neutral                           39            5.5              13.6             86.4
                              Disagree                           4               .6             1.4             87.8
                              Strongly disagree                  6               .9             2.1             89.9
                              Not applicable                    26            3.7               9.1             99.0
                              Don't know                         3               .4             1.0            100.0
                              TOTAL                            286           40.6             100.0
          Missing             System                           418           59.4
          Total                                                704          100.0




U.S. Department of Justice                                                                                             217
Office of the Inspector General
Evaluation and Inspections Division
                   The taskings I receive are assigned to other members/agencies for completion.


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
         Valid            Strongly agree                    10            1.4          3.5                   3.5
                          Agree                             38            5.4         13.4                  16.9
                          Neutral                           32            4.5         11.3                  28.2
                          Disagree                          99          14.1          34.9                  63.0
                          Strongly disagree                 33            4.7         11.6                  74.6
                          Not applicable                    61            8.7         21.5                  96.1
                          Don't know                        11            1.6          3.9             100.0
                          TOTAL                            284          40.3         100.0
         Missing          System                           420          59.7
         Total                                             704         100.0


        When appropriate, I am assigned as the lead investigator on cases that are in my areas of expertise.


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
         Valid            Strongly agree                    58            8.2         20.4                  20.4
                          Agree                             93          13.2          32.6                  53.0
                          Neutral                           37            5.3         13.0                  66.0
                          Disagree                          13            1.8          4.6                  70.5
                          Strongly disagree                  8            1.1          2.8                  73.3
                          Not applicable                    71          10.1          24.9                  98.2
                          Don't know                         5               .7        1.8             100.0
                          TOTAL                            285          40.5         100.0
         Missing          System                           419          59.5
         Total                                             704         100.0


             I am normally included in the initial stages of a tasking where my expertise is most useful.


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
         Valid            Strongly agree                    77          10.9          26.9                  26.9
                          Agree                            107          15.2          37.4                  64.3
                          Neutral                           41            5.8         14.3                  78.7
                          Disagree                          15            2.1          5.2                  83.9
                          Strongly disagree                  6               .9        2.1                  86.0
                          Not applicable                    37            5.3         12.9                  99.0
                          Don't know                         3               .4        1.0             100.0
                          TOTAL                            286          40.6         100.0
         Missing          System                           418          59.4
         Total                                             704         100.0




U.S. Department of Justice                                                                                         218
Office of the Inspector General
Evaluation and Inspections Division
             The contributions I make to this task force are worthwhile to the mission of the task force.


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
         Valid            Strongly agree                   107          15.2          37.4                  37.4
                          Agree                            117          16.6          40.9                  78.3
                          Neutral                           24            3.4          8.4                  86.7
                          Disagree                          10            1.4          3.5                  90.2
                          Strongly disagree                  3               .4        1.0                  91.3
                          Not applicable                    19            2.7          6.6                  97.9
                          Don't know                         6               .9        2.1              100.0
                          TOTAL                            286          40.6         100.0
         Missing          System                           418          59.4
         Total                                             704         100.0


                    An FBI Special Agent is usually assigned as the lead agent on all IT cases.


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
         Valid            Strongly agree                    59            8.4         20.6                  20.6
                          Agree                             68            9.7         23.8                  44.4
                          Neutral                           25            3.6          8.7                  53.1
                          Disagree                          53            7.5         18.5                  71.7
                          Strongly disagree                 10            1.4          3.5                  75.2
                          Not applicable                    37            5.3         12.9                  88.1
                          Don't know                        34            4.8         11.9              100.0
                          TOTAL                            286          40.6         100.0
         Missing          System                           418          59.4
         Total                                             704         100.0


                    An FBI Special Agent is usually assigned as the lead agent on all DT cases.


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
         Valid            Strongly agree                    51            7.2         17.8                  17.8
                          Agree                             68            9.7         23.8                  41.6
                          Neutral                           27            3.8          9.4                  51.0
                          Disagree                          46            6.5         16.1                  67.1
                          Strongly disagree                  9            1.3          3.1                  70.3
                          Not applicable                    42            6.0         14.7                  85.0
                          Don't know                        43            6.1         15.0              100.0
                          TOTAL                            286          40.6         100.0
         Missing          System                           418          59.4
         Total                                             704         100.0




U.S. Department of Justice                                                                                         219
Office of the Inspector General
Evaluation and Inspections Division
                                     Do you receive non-JTTF related taskings?


                                                                                                    Cumulative
                                          Frequency       Percent           Valid Percent            Percent
              Valid        Yes                   132              18.8                45.2                  45.2
                           No                    160              22.7                54.8                 100.0
                           TOTAL                 292              41.5               100.0
              Missing      System                412              58.5
              Total                              704          100.0


                                    How often do you receive these assignments?


                                                                                       Valid           Cumulative
                                                      Frequency          Percent      Percent           Percent
           Valid           Seldom                            34                4.8           25.8                25.8
                           Occasionally                      62                8.8           47.0                72.7
                           Frequently                        36                5.1           27.3            100.0
                           TOTAL                            132               18.8          100.0
           Missing         System                           572               81.3
           Total                                            704              100.0


                      Do you have complete access to the following sources of FBI information?

                                              Automated Case System


                                                                                       Valid           Cumulative
                                                      Frequency          Percent      Percent           Percent
            Valid          Yes                              187               26.6           63.6                63.6
                           No                                83               11.8           28.2                91.8
                           Don't know                        24                3.4            8.2            100.0
                           TOTAL                            294               41.8          100.0
            Missing        System                           410               58.2
            Total                                           704              100.0


                                                      FBI databases


                                                                                       Valid           Cumulative
                                                      Frequency          Percent      Percent           Percent
            Valid          Yes                              177               25.1           60.2                60.2
                           No                                84               11.9           28.6                88.8
                           Don't know                        33                4.7           11.2            100.0
                           TOTAL                            294               41.8          100.0
            Missing        System                           410               58.2
            Total                                           704              100.0




U.S. Department of Justice                                                                                              220
Office of the Inspector General
Evaluation and Inspections Division
                                                 FBI records


                                                                                Valid     Cumulative
                                                Frequency      Percent         Percent     Percent
           Valid      Yes                              184            26.1         62.6          62.6
                      No                                76            10.8         25.9          88.4
                      Don't know                        34             4.8         11.6        100.0
                      TOTAL                            294            41.8        100.0
           Missing    System                           410            58.2
           Total                                       704         100.0


                                   Other sources of information from the FBI


                                                                                Valid     Cumulative
                                                Frequency      Percent         Percent     Percent
           Valid      Yes                              189            26.8         64.5          64.5
                      No                                58             8.2         19.8          84.3
                      Don't know                        46             6.5         15.7        100.0
                      TOTAL                            293            41.6        100.0
           Missing    System                           411            58.4
           Total                                       704         100.0


                               At the worksite, do you have access to . . . ?

                                          Parent agency’s databases


                                                                                Valid     Cumulative
                                                Frequency      Percent         Percent     Percent
           Valid      Yes                              160            22.7         54.4          54.4
                      No                               105            14.9         35.7          90.1
                      Don't know                        29             4.1          9.9        100.0
                      TOTAL                            294            41.8        100.0
           Missing    System                           410            58.2
           Total                                       704         100.0


                                           Parent agency’s contacts


                                                                                Valid     Cumulative
                                                Frequency      Percent         Percent     Percent
           Valid      Yes                              210            29.8         71.4          71.4
                      No                                54             7.7         18.4          89.8
                      Don't know                        30             4.3         10.2        100.0
                      TOTAL                            294            41.8        100.0
           Missing    System                           410            58.2
           Total                                       704         100.0




U.S. Department of Justice                                                                              221
Office of the Inspector General
Evaluation and Inspections Division
                                                Parent agency’s intelligence


                                                                                      Valid     Cumulative
                                                       Frequency      Percent        Percent     Percent
            Valid           Yes                               178           25.3         60.5          60.5
                            No                                 83           11.8         28.2          88.8
                            Don't know                         33              4.7       11.2        100.0
                            TOTAL                             294           41.8        100.0
            Missing         System                            410           58.2
            Total                                             704          100.0


                                                  Parent agency’s e-mail


                                                                                      Valid     Cumulative
                                                       Frequency      Percent        Percent     Percent
            Valid           Yes                               159           22.6         54.1          54.1
                            No                                101           14.3         34.4          88.4
                            Don't know                         34              4.8       11.6        100.0
                            TOTAL                             294           41.8        100.0
            Missing         System                            410           58.2
            Total                                             704          100.0


                                                      Internet/WWW


                                                                                      Valid     Cumulative
                                                       Frequency      Percent        Percent     Percent
            Valid           Yes                               221           31.4         75.2          75.2
                            No                                 45              6.4       15.3          90.5
                            Don't know                         28              4.0        9.5        100.0
                            Total                             294           41.8        100.0
            Missing         System                            410           58.2
            Total                                             704          100.0

                      Which of the following describes your information sharing responsibilities?

                      My responsibility is to share information with my parent agency supervisor.


                                                                                      Valid      Cumulative
                                                       Frequency      Percent        Percent      Percent
         Valid              Strongly agree                     91           12.9         31.3                31.3
                            Agree                             101           14.3         34.7                66.0
                            Neither agree nor
                            disagree                           20              2.8        6.9                72.9

                            Disagree                           10              1.4        3.4                76.3
                            Strongly disagree                   3               .4        1.0                77.3
                            Not applicable                     61              8.7       21.0                98.3
                            Don't know                          5               .7        1.7            100.0
                            TOTAL                             291           41.3        100.0
         Missing            System                            413           58.7
         Total                                                704          100.0



U.S. Department of Justice                                                                                          222
Office of the Inspector General
Evaluation and Inspections Division
                           My responsibility is to share information with my FBI supervisor.


                                                                                    Valid       Cumulative
                                                     Frequency      Percent        Percent       Percent
           Valid            Strongly agree                  132           18.8          45.5             45.5
                            Agree                           114           16.2          39.3             84.8
                            Neither agree nor
                            disagree                         16            2.3           5.5             90.3

                            Disagree                          7            1.0           2.4             92.8
                            Not applicable                   15            2.1           5.2             97.9
                            Don't know                        6               .9         2.1            100.0
                            TOTAL                           290           41.2        100.0
           Missing          System                          414           58.8
           Total                                            704          100.0


                       My responsibility is to share information directly with my agency head.


                                                                                    Valid        Cumulative
                                                     Frequency      Percent        Percent        Percent
         Valid              Strongly agree                   51            7.2          17.7               17.7
                            Agree                            62            8.8          21.5               39.2
                            Neither agree nor
                            disagree                         57            8.1          19.8               59.0

                            Disagree                         44            6.3          15.3               74.3
                            Strongly disagree                16            2.3           5.6               79.9
                            Not applicable                   53            7.5          18.4               98.3
                            Don't know                        5               .7         1.7             100.0
                            TOTAL                           288           40.9        100.0
         Missing            System                          416           59.1
         Total                                              704          100.0
       My responsibility is to share information that I receive from the participating agencies on the task force.


                                                                                    Valid        Cumulative
                                                     Frequency      Percent        Percent        Percent
         Valid              Strongly agree                   89           12.6          30.8               30.8
                            Agree                           125           17.8          43.3               74.0
                            Neither agree nor
                            disagree                         32            4.5          11.1               85.1

                            Disagree                          7            1.0           2.4               87.5
                            Strongly disagree                 3               .4         1.0               88.6
                            Not applicable                   26            3.7           9.0               97.6
                            Don't know                        7            1.0           2.4             100.0
                            TOTAL                           289           41.1        100.0
         Missing            System                          415           58.9
         Total                                              704          100.0




U.S. Department of Justice                                                                                           223
Office of the Inspector General
Evaluation and Inspections Division
       My responsibility is to share information I receive from other agencies that are no task force members.


                                                                                     Valid       Cumulative
                                                      Frequency      Percent        Percent       Percent
         Valid               Strongly agree                   67            9.5         23.2               23.2
                             Agree                           112           15.9         38.8               61.9
                             Neither agree nor
                             disagree                         39            5.5         13.5               75.4

                             Disagree                         24            3.4           8.3              83.7
                             Strongly disagree                 7            1.0           2.4              86.2
                             Not applicable                   33            4.7         11.4               97.6
                             Don't know                        7            1.0           2.4             100.0
                             TOTAL                           289           41.1        100.0
         Missing             System                          415           58.9
         Total                                               704          100.0


                   My responsibility is to share information from my parent agency with the task force.


                                                                                     Valid       Cumulative
                                                      Frequency      Percent        Percent       Percent
         Valid               Strongly agree                   91           12.9         31.5               31.5
                             Agree                           120           17.0         41.5               73.0
                             Neither agree nor
                             disagree                         27            3.8           9.3              82.4

                             Disagree                          1               .1          .3              82.7
                             Strongly disagree                 2               .3          .7              83.4
                             Not applicable                   44            6.3         15.2               98.6
                             Don't know                        4               .6         1.4             100.0
                             TOTAL                           289           41.1        100.0
         Missing             System                          415           58.9
         Total                                               704          100.0

                             My responsibility is to share information with other task forces.


                                                                                     Valid       Cumulative
                                                      Frequency      Percent        Percent       Percent
         Valid               Strongly agree                   63            8.9         22.2               22.2
                             Agree                           104           14.8         36.6               58.8
                             Neither agree nor
                             disagree                         51            7.2         18.0               76.8

                             Disagree                         20            2.8           7.0              83.8
                             Strongly disagree                 9            1.3           3.2              87.0
                             Not applicable                   30            4.3         10.6               97.5
                             Don't know                        7            1.0           2.5             100.0
                             TOTAL                           284           40.3        100.0
         Missing             System                          420           59.7
         Total                                               704          100.0




U.S. Department of Justice                                                                                        224
Office of the Inspector General
Evaluation and Inspections Division
                                  I don’t share any information with the task force.


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
         Valid         Strongly agree                        1               .1           .3                 .3
                       Agree                                 2               .3           .7                1.0
                       Neither agree nor
                       disagree                              8            1.1            2.8                3.8

                       Disagree                             70            9.9           24.5            28.3
                       Strongly disagree                   148           21.0           51.7            80.1
                       Not applicable                       48            6.8           16.8            96.9
                       Don't know                            9            1.3            3.1           100.0
                       TOTAL                               286           40.6          100.0
         Missing       System                              418           59.4
         Total                                             704         100.0


                   Where are your task force information sharing responsibilities defined?


                                                                                   Valid       Cumulative
                                                    Frequency      Percent        Percent       Percent
          Valid                                            414           58.8           58.8          58.8
                       "1"                                   1               .1           .1          58.9
                       "1,"                                  7            1.0            1.0          59.9
                       "1,2,"                               10            1.4            1.4          61.4
                       "1,2,3,"                              7            1.0            1.0          62.4
                       "1,2,3,4,"                           12            1.7            1.7          64.1
                       "1,2,3,4,5"                           1               .1           .1          64.2
                       "1,2,3,4,5,"                         10            1.4            1.4          65.6
                       "1,2,3,4,5,6,7,8,"                    1               .1           .1          65.8
                       "1,2,3,5,"                            4               .6           .6          66.3
                       "1,2,3,5,6,"                          1               .1           .1          66.5
                       "1,2,4,"                              4               .6           .6          67.0
                       "1,2,4,5,"                            2               .3           .3          67.3
                       "1,2,5,"                              7            1.0            1.0          68.3
                       "1,3"                                 1               .1           .1          68.5
                       "1,3,"                                6               .9           .9          69.3
                       "1,3,4,"                              1               .1           .1          69.5
                       "1,3,5,"                              3               .4           .4          69.9
                       "1,3,6,8,"                            1               .1           .1          70.0
                       "1,5,"                                6               .9           .9          70.9
                       "1,6,"                                2               .3           .3          71.2
                       "1,7,"                                1               .1           .1          71.3
                       "2,"                                 34            4.8            4.8          76.1
                       "2,3,"                               11            1.6            1.6          77.7
                       "2,3,4,"                              9            1.3            1.3          79.0
                       "2,3,4,5,"                            5               .7           .7          79.7
                       "2,3,5,"                              1               .1           .1          79.8
                       "2,3,7,"                              1               .1           .1          80.0
                       "2,4,"                               18            2.6            2.6          82.5



U.S. Department of Justice                                                                                        225
Office of the Inspector General
Evaluation and Inspections Division
                            "2,4,5,"                           3             .4            .4                83.0
                            "2,4,5,7,"                         2             .3            .3                83.2
                            "2,5,"                             8            1.1           1.1                84.4
                            "2,6,"                             1             .1            .1                84.5
                            "3"                                1             .1            .1                84.7
                            "3,"                              16            2.3           2.3                86.9
                            "3,4,"                             2             .3            .3                87.2
                            "3,4,5,"                           1             .1            .1                87.4
                            "3,5,"                             3             .4            .4                87.8
                            "3,6,"                             1             .1            .1                87.9
                            "3,7,"                             1             .1            .1                88.1
                            "4,"                               6             .9            .9                88.9
                            "4,5,"                             3             .4            .4                89.3
                            "5,"                              10            1.4           1.4                90.8
                            "5,6,"                             3             .4            .4                91.2
                            "6"                                1             .1            .1                91.3
                            "6,"                              22            3.1           3.1                94.5
                            "6,8,"                             2             .3            .3                94.7
                            "7,"                               1             .1            .1                94.9
                            "8,"                              36            5.1           5.1            100.0
                            TOTAL                            704          100.0         100.0
                 1 = Policy from my agency, 2 = FBI Policy, 3 = MOU between FBI and my parent agency,
                 4 = Attorney General’s Guidelines, 5 = Good management practice, 6 = They aren’t defined,
                 7 = Other, 8 = Don’t know


                         The following 10 questions were only directed to ATAC respondents:

           Which of the following describes your information sharing responsibilities on this task force?

                           I share information from my parent agency with ATAC members.


                                                                                       Valid       Cumulative
                                                       Frequency       Percent        Percent       Percent
         Valid              Strongly agree                    125           17.8          48.3                48.3
                            Agree                              92           13.1          35.5                83.8
                            Neutral                            18            2.6           6.9                90.7
                            Disagree                               3             .4        1.2                91.9
                            Strongly disagree                      1             .1         .4                92.3
                            Not applicable                     17            2.4           6.6                98.8
                            Don't know                             3             .4        1.2               100.0
                            TOTAL                             259           36.8         100.0
         Missing            System                            445           63.2
         Total                                                704          100.0




U.S. Department of Justice                                                                                           226
Office of the Inspector General
Evaluation and Inspections Division
                        I share information from the ATAC meetings with my parent agency.


                                                                                   Valid      Cumulative
                                                     Frequency     Percent        Percent      Percent
         Valid            Strongly agree                   123          17.5           47.3           47.3
                          Agree                             93          13.2           35.8           83.1
                          Neutral                           18           2.6            6.9           90.0
                          Disagree                           2               .3          .8           90.8
                          Strongly disagree                  1               .1          .4           91.2
                          Not applicable                    20           2.8            7.7           98.8
                          Don't know                         3               .4         1.2          100.0
                          TOTAL                            260          36.9          100.0
         Missing          System                           444          63.1
         Total                                             704         100.0


                   I share information that I receive from other agencies with the ATAC members.


                                                                                   Valid      Cumulative
                                                     Frequency     Percent        Percent      Percent
         Valid            Strongly agree                    98          13.9           38.0           38.0
                          Agree                            101          14.3           39.1           77.1
                          Neutral                           29           4.1           11.2           88.4
                          Disagree                           8           1.1            3.1           91.5
                          Strongly disagree                  1               .1          .4           91.9
                          Not applicable                    16           2.3            6.2           98.1
                          Don't know                         5               .7         1.9          100.0
                          TOTAL                            258          36.6          100.0
         Missing          System                           446          63.4
         Total                                             704         100.0


                                  I do not share information with the ATAC members.


                                                                                   Valid      Cumulative
                                                     Frequency     Percent        Percent      Percent
         Valid            Strongly agree                     2               .3          .8                .8
                          Agree                              7           1.0            2.8            3.6
                          Neutral                           19           2.7            7.7           11.3
                          Disagree                          82          11.6           33.1           44.4
                          Strongly disagree                104          14.8           41.9           86.3
                          Not applicable                    26           3.7           10.5           96.8
                          Don't know                         8           1.1            3.2          100.0
                          TOTAL                            248          35.2          100.0
         Missing          System                           456          64.8
         Total                                             704         100.0




U.S. Department of Justice                                                                                      227
Office of the Inspector General
Evaluation and Inspections Division
                 I do not share any information from the ATAC with my parent agency or any other agency.


                                                                                                Valid       Cumulative
                                                            Frequency        Percent           Percent       Percent
            Valid              Strongly agree                       1                  .1              .4                .4
                               Agree                                3                  .4             1.2              1.6
                               Neutral                              8              1.1                3.2              4.9
                               Disagree                            89             12.6               36.0             40.9
                               Strongly disagree                  113             16.1               45.7             86.6
                               Not applicable                      26              3.7               10.5             97.2
                               Don't know                           7              1.0                2.8            100.0
                               TOTAL                              247             35.1              100.0
            Missing            System                             457             64.9
            Total                                                 704            100.0


                       Where are your advisory council information sharing responsibilities defined?


                                                                                                      Cumulative
                                            Frequency         Percent        Valid Percent             Percent
                    Valid                           443            62.9                      62.9             62.9
                               "1,"                  42             6.0                       6.0             68.9
                               "1,4,"                   3               .4                     .4             69.3
                               "1,4,5,"              10             1.4                       1.4             70.7
                               "1,5,"                   8           1.1                       1.1             71.9
                               "1,5,6,"                 1               .1                     .1             72.0
                               "1,7,"                   1               .1                     .1             72.2
                               "1,8,"                   1               .1                     .1             72.3
                               "4,"                  30             4.3                       4.3             76.6
                               "4,5,"                   3               .4                     .4             77.0
                               "4,5,6,"                 2               .3                     .3             77.3
                               "4,7,"                   1               .1                     .1             77.4
                               "4,8,"                   3               .4                     .4             77.8
                               "5,"                  39             5.5                       5.5             83.4
                               "5,6,"                   3               .4                     .4             83.8
                               "5,7,"                   1               .1                     .1             83.9
                               "6,"                  80            11.4                      11.4             95.3
                               "7,"                     2               .3                     .3             95.6
                               "8,"                  30             4.3                       4.3             99.9
                               5                        1               .1                     .1            100.0
                               TOTAL                704           100.0                     100.0
1 = Policy from my agency, 2 = Attorney General’s Guidelines, 3 = Good management practice, 4 = They aren’t defined, 5 = Other,
6 = Don’t know




U.S. Department of Justice                                                                                                    228
Office of the Inspector General
Evaluation and Inspections Division
         How does the ATAC Coordinator/U.S. Attorney’s Office share information outside of scheduled meetings?


                                                                                                               Cumulative
                                              Frequency          Percent           Valid Percent                Percent
                      Valid                            444           63.1                        63.1                  63.1
                                "1,"                   120           17.0                        17.0                  80.1
                                "1,2,"                  16            2.3                         2.3                  82.4
                                "1,2,3,"                23            3.3                         3.3                  85.7
                                "1,2,3,4
                                                          3               .4                       .4                  86.1
                                ,"
                                "1,3,"                  49            7.0                         7.0                  93.0
                                "1,3,4,"                17            2.4                         2.4                  95.5
                                "1,3,5,"                  1               .1                       .1                  95.6
                                "1,4,"                    8           1.1                         1.1                  96.7
                                "3,"                      3               .4                       .4                  97.2
                                "3,4,"                    1               .1                       .1                  97.3
                                "3,5,"                    1               .1                       .1                  97.4
                                "4,"                      5               .7                       .7                  98.2
                                "5,"                    13            1.8                         1.8                 100.0
                                TOTAL                  704          100.0                       100.0
1 = Electronic mail (email), 2 = Alert System, 3 = Telephone calls, 4 = Other, 5 = Information not shared outside meetings


          As a result of your membership on the ATAC, do you get the information you need in order to effectively
                              perform your terrorism related job duties at your parent agency?


                                                                                                               Cumulative
                                               Frequency          Percent           Valid Percent               Percent
                   Valid        Yes                    221                31.4                   86.0                  86.0
                                No                        36               5.1                   14.0                 100.0
                                TOTAL                  257                36.5                  100.0
                   Missing      System                 447                63.5
                   Total                               704            100.0


                              The following 4 questions were directed only to JTTF respondents:

          How often do you interact w/ NJTTF members? (interactions can be in person, by telephone, email, etc.)


                                                                                                 Valid             Cumulative
                                                              Frequency          Percent        Percent             Percent
              Valid            Daily                                 30                4.3              11.6                  11.6
                               Weekly                                25                3.6               9.7                  21.2
                               Every 2 weeks                          5                    .7            1.9                  23.2
                               Once a month                           8                1.1               3.1                  26.3
                               As needed                            108               15.3              41.7                  68.0
                               Never                                 78               11.1              30.1                  98.1
                               Other                                  5                    .7            1.9                100.0
                               TOTAL                                259               36.8          100.0
              Missing          System                               445               63.2
              Total                                                 704             100.0




U.S. Department of Justice                                                                                                           229
Office of the Inspector General
Evaluation and Inspections Division
           Which of the following describes the reasons for your interactions with the NJTTF members?


                                                                                                      Cumulative
                                              Frequency       Percent        Valid Percent             Percent
             Valid                                   520             73.9                73.9                 73.9
                             "1,"                         7           1.0                 1.0                 74.9
                             "1,2,"                       1             .1                 .1                 75.0
                             "1,2,3"                      1             .1                 .1                 75.1
                             "1,2,3,"                     1             .1                 .1                 75.3
                             "1,2,3,4,"                   2             .3                 .3                 75.6
                             "1,2,3,4,5,"             24              3.4                 3.4                 79.0
                             "1,2,4,"                     2             .3                 .3                 79.3
                             "1,2,4,5,"               11              1.6                 1.6                 80.8
                             "1,2,5,"                     2             .3                 .3                 81.1
                             "1,3,4,"                     1             .1                 .1                 81.3
                             "1,4,5,"                     1             .1                 .1                 81.4
                             "1,5,"                       7           1.0                 1.0                 82.4
                             "2,"                     21              3.0                 3.0                 85.4
                             "2,3,"                       2             .3                 .3                 85.7
                             "2,3,4,5,"                   4             .6                 .6                 86.2
                             "2,3,5,"                     5             .7                 .7                 86.9
                             "2,4,"                       6             .9                 .9                 87.8
                             "2,4,5,"                 16              2.3                 2.3                 90.1
                             "2,5"                        1             .1                 .1                 90.2
                             "2,5,"                       8           1.1                 1.1                 91.3
                             "3,"                         7           1.0                 1.0                 92.3
                             "3,4,5,"                     3             .4                 .4                 92.8
                             "3,5,"                       1             .1                 .1                 92.9
                             "4,"                     11              1.6                 1.6                 94.5
                             "4,5,"                       7           1.0                 1.0                 95.5
                             "5,"                     32              4.5                 4.5                100.0
                             TOTAL                   704            100.0               100.0
                  1 = To receive guidance and direction, 2 = To respond to inquiries, 3 = To discuss agency specific needs,
                  4 = To complete taskings, 5 = To share information/intelligence


                                        How often do you interact w/ FTTTF members?


                                                                                         Valid           Cumulative
                                                       Frequency         Percent        Percent           Percent
          Valid               Daily                            11              1.6              4.3                  4.3
                              Weekly                            9              1.3              3.5                  7.8
                              Every 2 weeks                     2                  .3            .8                  8.6
                              Once a month                      4                  .6           1.6                 10.2
                              As needed                       104             14.8            40.8                  51.0
                              Never                           123             17.5            48.2                  99.2
                              Other                             2                  .3            .8                100.0
                              Total                           255             36.2           100.0
          Missing             System                          449             63.8
          TOTAL                                               704            100.0




U.S. Department of Justice                                                                                                 230
Office of the Inspector General
Evaluation and Inspections Division
  The FBI plans to move the NJTTF’s operations to the Terrorism Threat Integration Center. How will this planned move
                                           impact the NJTTF’s operations?


                                                                                             Valid           Cumulative
                                                          Frequency         Percent         Percent           Percent
           Valid               Improve NJTTF
                               operations                          36              5.1            14.0                   14.0

                               No change in the
                               NJTTF operations                    14              2.0               5.4                 19.4

                               Not sure of the impact             208             29.5            80.6                  100.0
                               TOTAL                              258             36.6         100.0
           Missing             System                             446             63.4
           Total                                                  704            100.0


                            The following 5 questions were only directed to NJTTF respondents:

                                           How often do you interact w/ JTTF members?


                                                                                             Valid           Cumulative
                                                          Frequency         Percent         Percent           Percent
           Valid            Daily                                  10                 1.4         52.6                  52.6
                            Weekly                                  1                  .1            5.3                57.9
                            As needed                               7                 1.0         36.8                  94.7
                            Never                                   1                  .1            5.3            100.0
                            TOTAL                                  19                 2.7      100.0
           Missing          System                                685             97.3
           Total                                                  704            100.0


                   Which of the following describes the reasons for your interactions with JTTF members?


                                                                                                           Cumulative
                                                  Frequency       Percent         Valid Percent             Percent
              Valid                                      686             97.4                97.4                  97.4
                               1,2,3,4,5                      2             .3                  .3                 97.7
                               1,2,3,5                        2             .3                  .3                 98.0
                               1,2,4,5                        1             .1                  .1                 98.2
                               1,2,5                          1             .1                  .1                 98.3
                               1,3,5,                         1             .1                  .1                 98.4
                               2,3,4,5                        1             .1                  .1                 98.6
                               2,3,5                          1             .1                  .1                 98.7
                               2,4,                           1             .1                  .1                 98.9
                               2,4,5                          2             .3                  .3                 99.1
                               2,5                            2             .3                  .3                 99.4
                               5                              4             .6                  .6                100.0
                               TOTAL                     704            100.0               100.0
                    1 = To receive guidance and direction, 2 = To respond to inquiries, 3 = To discuss agency specific needs,
                    4 = To complete taskings, 5 = To share information/intelligence




U.S. Department of Justice                                                                                                      231
Office of the Inspector General
Evaluation and Inspections Division
      How often do you interact with FTTTF members (interactions can be in person, by telephone, email, etc.)?


                                                                                                  Valid         Cumulative
                                                        Frequency              Percent           Percent         Percent
          Valid              Daily                                  1                     .1             5.3               5.3
                             Every 2 weeks                          1                     .1             5.3              10.5
                             As needed                              9                    1.3            47.4              57.9
                             Never                                  8                    1.1            42.1            100.0
                             TOTAL                                19                     2.7           100.0
          Missing            System                              685                97.3
          Total                                                  704               100.0


                     Which of the following describes the reasons for your interactions with FTTTF?


                                                                                                           Cumulative
                                            Frequency           Percent          Valid Percent              Percent
                  Valid                             693                 98.4                    98.4               98.4
                             "1,3,5,"                   1                 .1                      .1               98.6
                             "2,"                       1                 .1                      .1               98.7
                             "2,4,5,6,"                 1                 .1                      .1               98.9
                             "2,5,"                     2                 .3                      .3               99.1
                             "3,5,"                     1                 .1                      .1               99.3
                             "5,"                       3                 .4                      .4               99.7
                             "5,6,"                     2                 .3                      .3              100.0
                             TOTAL                  704             100.0                      100.0
                  1 = To receive guidance and direction, 2 = To respond to inquiries, 3 = To discuss agency specific needs,
                  4 = to complete taskings, 5 = To obtain information, 6 = To request analysis

             The FBI plans to move the NJTTF’s operations to the Terrorism Threat Integration Center.
                           How will this planned move impact the NJTTF’s operations?


                                                                                                  Valid         Cumulative
                                                            Frequency          Percent           Percent         Percent
          Valid              Improve the NJTTF
                             operations                             6                     .9            31.6              31.6

                             No change in NJTTF
                             operations                             1                     .1             5.3              36.8

                             Not sure of impact                    12                    1.7            63.2            100.0
                             TOTAL                                 19                    2.7           100.0
          Missing            System                               685               97.3
          Total                                                   704              100.0




U.S. Department of Justice                                                                                                       232
Office of the Inspector General
Evaluation and Inspections Division
                     The following 8 questions were only directed to FTTTF respondents:

                      How often do you interact with members of the following groups?
                          (interactions can be in person, by telephone, email, etc.)

                                              JTTF members


                                                                                 Valid     Cumulative
                                               Frequency        Percent         Percent     Percent
          Valid       Daily                                1              .1         6.7            6.7
                      Quarterly                            1              .1         6.7           13.3
                      Never                            13                1.8        86.7          100.0
                      TOTAL                            15                2.1       100.0
          Missing     System                          689            97.9
          Total                                       704           100.0


                                     Department of Homeland Security


                                                                                Valid      Cumulative
                                              Frequency        Percent         Percent      Percent
           Valid      Daily                            5                  .7        31.3          31.3
                      Weekly                           3                  .4        18.8          50.0
                      Monthly                          2                  .3        12.5          62.5
                      Quarterly                        1                  .1         6.3          68.8
                      Never                            5                  .7        31.3         100.0
                      Total                           16                 2.3      100.0
           Missing    System                         688             97.7
           Total                                     704            100.0


                          Executive Office of the United States Attorneys (EOUSA)


                                                                                Valid      Cumulative
                                               Frequency       Percent         Percent      Percent
           Valid      Quarterly                            1             .1         6.7            6.7
                      Never                            14            2.0           93.3          100.0
                      TOTAL                            15            2.1          100.0
           Missing    System                          689           97.9
           Total                                      704          100.0


                                     Joint Terrorism Task Force (JTTF)


                                                                                Valid      Cumulative
                                              Frequency        Percent         Percent      Percent
           Valid      Weekly                           1                 .1         6.7            6.7
                      Monthly                          2                 .3        13.3           20.0
                      Quarterly                        2                 .3        13.3           33.3
                      Never                           10             1.4           66.7          100.0
                      TOTAL                           15             2.1          100.0
           Missing    System                        689             97.9
           Total                                    704            100.0



U.S. Department of Justice                                                                                233
Office of the Inspector General
Evaluation and Inspections Division
                                  National Joint Terrorism Task Force (NJTTF)


                                                                                 Valid     Cumulative
                                               Frequency       Percent          Percent     Percent
           Valid      Daily                              1               .1          6.7           6.7
                      Weekly                             2               .3         13.3          20.0
                      Monthly                            1               .1          6.7          26.7
                      Quarterly                          1               .1          6.7          33.3
                      Never                             10            1.4           66.7         100.0
                      Total                             15            2.1          100.0
           Missing    System                          689            97.9
           Total                                      704           100.0


                                       Terrorism Screening Center (TSC)


                                                                                 Valid     Cumulative
                                               Frequency       Percent          Percent     Percent
           Valid     Daily                               2               .3         13.3          13.3
                     Weekly                              3               .4         20.0          33.3
                     Monthly                             1               .1          6.7          40.0
                     Never                               9            1.3           60.0         100.0
                     TOTAL                              15            2.1          100.0
           Missing   System                           689            97.9
           Total                                      704           100.0

                                   Terrorism Threat Integration Center (TTIC)


                                                                                 Valid     Cumulative
                                               Frequency       Percent          Percent     Percent
           Valid      Daily                              1               .1          7.1           7.1
                      Weekly                             3               .4         21.4          28.6
                      Monthly                            1               .1          7.1          35.7
                      Quarterly                          1               .1          7.1          42.9
                      Never                              8            1.1           57.1         100.0
                      TOTAL                             14            2.0          100.0
           Missing    System                          690            98.0
           Total                                      704           100.0


                                    United States Attorneys Office (USAO)


                                                                                 Valid     Cumulative
                                               Frequency       Percent          Percent     Percent
           Valid     Daily                               1               .1          7.1           7.1
                     Weekly                              2               .3         14.3          21.4
                     Never                              11            1.6           78.6         100.0
                     TOTAL                              14            2.0          100.0
           Missing   System                           690            98.0
           Total                                      704           100.0




U.S. Department of Justice                                                                               234
Office of the Inspector General
Evaluation and Inspections Division
                                         What is your current job title?


                                                                                 Valid     Cumulative
                                               Frequency        Percent         Percent     Percent
           Valid       Assistant Chief                  21             3.0           3.1           3.1
                       ASAC                              7             1.0           1.0           4.1
                       AUSA                             26             3.7           3.8           7.9
                       Deputy USM                       18             2.6           2.6          10.5
                       Captain                          21             3.0           3.1          13.5
                       Chief                            57             8.1           8.3          21.8
                       Deputy
                                                         1                 .1         .1          22.0
                       Commissioner
                       Detective                        16             2.3           2.3          24.3
                       Director                         23             3.3           3.3          27.7
                       Federal Air Marshal               3                 .4         .4          28.1
                       Intell Analyst                   20             2.8           2.9          31.0
                       IRS                              15             2.1           2.2          33.2
                       Investigator                     29             4.1           4.2          37.4
                       Lieutenant                       32             4.5           4.7          42.1
                       Manager                          14             2.0           2.0          44.1
                       Officer                          11             1.6           1.6          45.7
                       RAC                              11             1.6           1.6          47.3
                       Sergeant                         16             2.3           2.3          49.6
                       Special Agent                   172            24.4          25.0          74.7
                       SAC                               9             1.3           1.3          76.0
                       SSA                              32             4.5           4.7          80.6
                       Sheriff                          11             1.6           1.6          82.2
                       Other                           122            17.3          17.8         100.0
                       TOTAL                           687            97.6         100.0
           Missing     System                           17             2.4
           Total                                       704           100.0




U.S. Department of Justice                                                                               235
Office of the Inspector General
Evaluation and Inspections Division
                                             Agency Affiliation


                                                                             Valid     Cumulative
                                              Frequency      Percent        Percent     Percent
          Valid      ATF                              31            4.4          4.5            4.5
                     DEA                                 5             .7         .7            5.2
                     FBI                            109            15.5         15.9           21.1
                     BOP                                 7          1.0          1.0           22.2
                     BICE                             28            4.0          4.1           26.2
                     CIA                              12            1.7          1.7           28.0
                     FPS                                 7          1.0          1.0           29.0
                     TSA                                 9          1.3          1.3           30.3
                     EOUSA                               1             .1         .1           30.5
                     USSS                                7          1.0          1.0           31.5
                     IRS                              14            2.0          2.0           33.5
                     OSI                                 4             .6         .6           34.1
                     USAO                             47            6.7          6.9           41.0
                     USMS                             29            4.1          4.2           45.2
                     Military Intelligence
                                                         5             .7         .7           45.9
                     Unit
                     State govt./agency               87           12.4         12.7           58.6
                     Local govt./agency             170            24.1         24.8           83.4
                     Private Business                 22            3.1          3.2           86.6
                     Other Federal Agency             92           13.1         13.4          100.0
                     TOTAL                          686            97.4        100.0
          Missing    System                           18            2.6
          Total                                     704           100.0


                                             Geographic Region


                                                                             Valid     Cumulative
                                             Frequency       Percent        Percent     Percent
           Valid      Northeast                     129            18.3         18.6          18.6
                      Midwest                       150            21.3         21.6          40.3
                      South                         287            40.8         41.4          81.7
                      West                          127            18.0         18.3         100.0
                      TOTAL                         693            98.4        100.0
           Missing    System                         11             1.6
           Total                                    704           100.0




U.S. Department of Justice                                                                            236
Office of the Inspector General
Evaluation and Inspections Division
                    APPENDIX V: NSCC MEMORANDUM




U.S. Department of Justice                        237
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            238
Office of the Inspector General
Evaluation and Inspections Division
                  APPENDIX VI: ATAC MEMORANDUMS




U.S. Department of Justice                        239
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            240
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            241
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            242
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            243
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            244
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            245
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            246
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            247
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            248
Office of the Inspector General
Evaluation and Inspections Division
                 APPENDIX VII: FTTTF MEMORANDUMS




U.S. Department of Justice                         249
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            250
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            251
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            252
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            253
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            254
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX VIII: THE OFFICE OF THE DEPUTY ATTORNEY
                   GENERAL’S RESPONSE




U.S. Department of Justice                       255
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            256
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IX: OIG ANALYSIS OF THE OFFICE OF THE DEPUTY
            ATTORNEY GENERAL’S RESPONSE


       The OIG sent copies of the draft report to the Office of the Deputy
Attorney General (ODAG) with a request for written comments on
Recommendations 1, 10, and 27. The ODAG responded to the OIG in a
memorandum dated May 27, 2005, concurring with all of the
recommendations. The ODAG agreed to review the functions of the NSCC,
issue additional guidance to the ATACs, and work with the DHS to ensure
sufficient DHS participation on the terrorism task forces. Our analysis of the
ODAG’s response follows.

RECOMMENDATIONS

       Recommendation 1: Resolved – Open. The Department should assess
the counterterrorism functions outlined in the Attorney General’s
memorandum establishing the NSCC and determine if they are still appropriate
for the NSCC. If they are, the Department should ensure that written guidance
describes the responsibilities of the NSCC and that the NSCC carries out its
assigned functions. If the functions are not appropriate for the NSCC, they
should be assigned to another Department entity.

       Summary of the ODAG’s Response. The ODAG concurred with the
recommendation and stated that as part of a larger review of the Department’s
national security responsibilities, the ODAG has “begun to examine more
closely the best approach to the coordination of counterterrorism functions
within the greater national security umbrella.”

       The OIG’s Analysis. The review of the Department’s national security
responsibilities planned by the ODAG is responsive to the recommendation. By
October 31, 2005, please provide us the results of this review and the ODAG’s
recommendations regarding whether the NSCC or another entity should carry
out its assigned counterterrorism functions.

       Recommendation 10: Resolved – Open. The Department should
clearly delineate the roles of CTS, EOUSA, and the USAO in the ATAC program,
clarifying who has primary responsibility and authority for:

       •   Oversight,
       •   Monitoring ATAC operations,
       •   Evaluating success of the ATAC program, and
       •   Enforcing compliance.


U.S. Department of Justice                                                257
Office of the Inspector General
Evaluation and Inspections Division
      Summary of the ODAG’s Response. The ODAG concurred with the
recommendation (incorrectly numbered as 2 in the ODAG’s response) and
stated that issuing additional guidance and adopting best practices to address
operational, training, and membership issues for the ATACs are helpful
suggestions. The ODAG has formed a working group to develop and issue the
guidance by the end of the year.

      The OIG’s Analysis. The ODAG’s working group and its plan to issue
additional ATAC guidance is responsive to the recommendation. By October
31, 2005, please provide us copies of any guidance, recommendations, or
written materials developed by the working group.

     Recommendation 27: Resolved – Open. The Deputy Attorney General
should work jointly with DHS officials to ensure:

       •   Sufficient DHS participation on the Department’s task forces,
       •   Sufficiently trained ICE members on the task forces and their
           supervisory chain of command,
       •   Non-task-force related assignments to DHS members are minimized,
           and
       •   Updated MOUs defining roles and information sharing responsibilities
           between the FBI and DHS.

       Summary of the ODAG’s Response. The ODAG concurred with the
recommendation and agreed to work with its colleagues at the DHS to ensure
effective participation of DHS components on the JTTFs.

       The OIG’s Analysis. The ODAG’s plan to work with the DHS is
responsive to the recommendation. By October 31, 2005, please provide us
with examples of the ODAG’s coordination with the DHS to ensure effective
participation on the JTTFs.




U.S. Department of Justice                                               258
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX X: THE CRIMINAL DIVISION’S RESPONSE




U.S. Department of Justice                            259
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            260
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            261
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            262
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            263
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            264
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            265
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            266
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX XI: OIG ANALYSIS OF THE CRIMINAL DIVISION’S
                       RESPONSE


      The OIG sent the draft report to the Criminal Division (CRM) with a
request for written comments on Recommendations 3, 7, 9, 11, and 12. The
CRM responded to the OIG in a memorandum dated May 18, 2005. The CRM
concurred with all of the recommendations and agreed, through the
Counterterrorism Section (CTS), to continue to work with EOUSA and the
USAOs to develop a national training plan for the ATACs, a strategy for
reaching remote areas, performance measures for the ATAC program, and
guidance to ATAC Coordinators on roles, responsibilities, and management of
an ATAC. Our analysis of the CRM’s response follows.

RECOMMENDATIONS

       Recommendation 3: Resolved – Open. EOUSA’s Office of Legal
Education, along with CTS, should develop a national training plan for ATACs
that includes:

       •   Initial needs assessment of ATAC Coordinators,
       •   How to manage and structure an ATAC (membership, frequency
           of meetings, methods and sources of communication, how to
           conduct an ATAC members’ needs assessment, identify trainers,
           and develop a local training plan),
       •   Frequency of future needs assessments for ATAC Coordinators
           and ATACs,
       •   Development of minimum mandatory training standards and
           time frames for completion of training for ATAC Coordinators,
       •   Required minimum annual training hours for ATAC
           Coordinators, and
       •   Responsibility for training notification to the ATAC
           Coordinators.

       Summary of the CRM’s Response. The CRM concurred with the
recommendation. The CRM stated that although significant training for
terrorism prosecutors already has occurred, CTS will work with EOUSA’s Office
of Legal Education to develop a national training plan and provide subject
matter experts where appropriate. CTS, EOUSA, and the USAOs have formed
an ATAC Training Committee (referred to as the National ATAC Training
Working Group in EOUSA’s response) comprising the CTS Deputy Chief, two
CTS attorneys (who formerly were ATAC Coordinators), the CTS National ATAC
Coordinator, the Deputy Counsel to EOUSA’s Director, the Assistant Director of


U.S. Department of Justice                                              267
Office of the Inspector General
Evaluation and Inspections Division
EOUSA’s Office of Legal Education, and 10 current ATAC Coordinators from
different regions of the country. The Committee held an initial strategy meeting
in May 2005, to address the recommendations in the OIG report and agreed to
formulate a survey to assess the training needs of ATAC Coordinators and
ATAC members. Additionally, the Committee agreed that ATAC Coordinators
need assistance in determining the type of training to provide to their ATAC
members. The Committee will continue meeting to develop a national training
plan that addresses the identified needs of ATAC Coordinators and ATAC
members. The Committee plans to consider an accelerated course of training
for newly appointed ATAC Coordinators who may not be experienced in the
subject matter of terrorism. However, CTS stated that setting minimum and
mandatory annual training hours for ATAC Coordinators would not assist the
ATAC program and would require additional funding. CTS also stated that,
once the ATAC national training plan is established, EOUSA can monitor
compliance with the plan, assess frequency and suitability of training, and
determine whether additional measures are needed to achieve the goals of the
ATAC program.

       The OIG’s Analysis. The CRM’s plan for CTS to develop a national ATAC
training plan with EOUSA is responsive to the recommendation. The OIG
believes that the ATAC Training Committee can aid the development of the
training plan with input from all parties involved in the ATAC program.
Although the majority of ATAC Coordinators we interviewed and surveyed were
satisfied with prosecutive and investigative training, they indicated a need for
more training on the operation of ATACs. The CRM stated that the ATAC
national training plan will include an initial needs assessment of ATAC
Coordinators, guidance on how to manage and structure an ATAC, and
standards and time frames for completing ATAC Coordinator training. The OIG
believes that this action will ensure that ATAC Coordinators receive training on
ATAC operational issues. We have requested that EOUSA provide us a copy of
the ATAC national training plan by October 31, 2005.

      Recommendation 7: Resolved – Open. The FBI, CTS, EOUSA, and the
USAOs should work jointly to develop a coordinated strategy to consistently
reach out to remote areas.

      Summary of the CRM’s Response. The CRM agreed that all agencies
should work together to draft a coordinated strategy to consistently reach
remote areas. The CRM stated that many ATAC Coordinators and Intelligence
Research Specialists already are making progress toward communicating with
rural areas of their districts. ATACs exist in every judicial district and 24
states have two or more ATACs to further communication. Further, most
ATACs spent part of their terrorism funds on communication equipment to
improve information sharing. The CRM provided six additional examples of


U.S. Department of Justice                                                268
Office of the Inspector General
Evaluation and Inspections Division
ATACs that effectively use such equipment. The CRM also stated that CTS will
work with the FBI and the USAOs to address the gaps in communication
coverage with remote areas as identified in the OIG report.

       The OIG’s Analysis. The CRM’s plan for CTS to develop an outreach
strategy with the FBI and the USAOs is responsive to the recommendation. We
request that when CTS, EOUSA, the FBI, and the USAOs develop a coordinated
strategy to reach remote areas, they designate one agency to provide us a copy
of the coordinated strategy by October 31, 2005. We believe this strategy
should define the roles and responsibilities of each entity in implementing the
strategy.

      Recommendation 9: Resolved – Open. CTS and EOUSA should
develop outcome-oriented performance measures for the ATAC program. The
measures for the ATAC program could include the following:

       •   Quality and timeliness of information shared with member and
           outside agencies that resulted in improved understanding of
           terrorism issues and improved prevention activities,
       •   Quality and timeliness of training for members that resulted in
           improved understanding of terrorism issues and improved prevention
           activities,
       •   Outreach efforts that resulted in increasing targeted membership, and
       •   Quality and currency of threat assessments that result in improved
           prevention activities.

       Summary of the CRM’s Response. The CRM concurred with the
recommendation that performance measures should be developed for the ATAC
program. CTS will assist EOUSA in establishing performance measures for
ATAC members, drawing as appropriate on the existing performance measures
for the National and Regional ATAC Coordinators within CTS. CTS stated that
it would be difficult to have one standard to measure the success of the ATAC
program given the great number of differences in judicial districts. CTS
recommended that ATAC performance measures be developed to fit the needs
in each district as determined by a survey of ATAC members.

       The OIG’s Analysis. The CRM’s plan for CTS to assist EOUSA in
establishing performance measures for the ATAC program is responsive to the
recommendation. However, the OIG believes that EOUSA and CTS should
develop standard performance elements across ATACs to measure the
effectiveness of the ATAC program nationwide. We believe certain elements of
the ATAC program should be consistent across USAOs, while the particular
criteria used to measure each USAO’s success on these elements could be
different based on the various ATAC activities and how the program is operated


U.S. Department of Justice                                                269
Office of the Inspector General
Evaluation and Inspections Division
in each judicial district. The OIG requests that EOUSA provide us the jointly
developed standard performance elements and measures for the ATAC program
by October 31, 2005.

       Recommendation 11: Resolved – Open. CTS and EOUSA should
jointly issue written guidance defining their roles and responsibilities in the
ATAC program, as well as the roles and responsibilities of the Regional ATAC
Coordinators, the National ATAC Coordinator, and the EOUSA point-of-contact
for ATACs. This written guidance should be communicated to the ATAC
Coordinators.

       Summary of the CRM’s Response. The CRM concurred with the
recommendation. CTS has issued written guidance on the roles and
responsibilities of CTS staff working in the ATAC program, the National ATAC
Coordinator, and the Regional ATAC Coordinators. CTS will assist EOUSA in
drafting and issuing similar guidance. If the Deputy Attorney General
determines that additional clarification of roles and responsibilities of CTS and
EOUSA in the ATAC program is needed, CTS has agreed to work with EOUSA
on this guidance.

       The OIG’s Analysis. The CRM’s plan for CTS to work with EOUSA on
developing guidance about their roles and responsibilities for the ATAC
program is responsive to the recommendation. We also note that the Deputy
Attorney General has formed a working group to develop guidance that clarifies
the roles and responsibilities of CTS, EOUSA, and the USAOs in the ATAC
program with regard to oversight, monitoring, evaluating success, and
enforcing compliance (see the ODAG’s response to Recommendation 10, which
it labeled “2”). The OIG requests that EOUSA provide us a copy of the joint
EOUSA-CTS written guidance to the ATAC Coordinators by October 31, 2005.

      Recommendation 12: Resolved – Open. CTS or EOUSA should issue
written guidance for ATAC Coordinators that includes a definition of roles, how
to determine membership base, and how to structure and manage an ATAC.

       Summary of the CRM’s Response. The CRM concurred with the
recommendation but stated that guidance to ATAC Coordinators on the
definition of roles, how to determine membership, and how to structure and
manage an ATAC should come from EOUSA consistent with its responsibility
for oversight and monitoring of the ATAC program. CTS has agreed to assist
EOUSA and the USAOs in developing this written guidance.

     The OIG’s Analysis. The CRM’s plan for CTS to assist EOUSA and the
USAOs in developing guidance for the ATACs is responsive to the
recommendation. The OIG requests that EOUSA provide us a copy of the


U.S. Department of Justice                                                 270
Office of the Inspector General
Evaluation and Inspections Division
written guidance to the ATAC Coordinators on roles and ATAC membership,
structure, and management by October 31, 2005.




U.S. Department of Justice                                          271
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX XII: EXECUTIVE OFFICE FOR UNITED STATES
                   ATTORNEYS’ RESPONSE




U.S. Department of Justice                        272
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            273
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            274
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            275
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            276
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            277
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            278
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            279
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            280
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            281
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            282
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX XIII: OIG ANALYSIS OF THE EXECUTIVE OFFICE
       FOR UNITED STATES ATTORNEYS’ RESPONSE


       The OIG sent copies of the draft report to EOUSA with a request for
written comments on Recommendations 3, 4, 7, 9, 11, 12, 13, 14, 15, and 28.
EOUSA responded to the OIG in a memorandum dated May 17, 2005.
Although EOUSA believed that the draft report did not adequately present the
challenges faced by EOUSA, USAOs, and CTS since September 11, 2001, and
credit their achievements, EOUSA concurred with all of the recommendations.
EOUSA agreed to develop a national training plan for the ATAC Coordinators,
assist the ATAC Coordinators in developing a training plan for ATAC members,
develop a coordinated strategy with the FBI for reaching remote areas, develop
performance measures for the ATAC program, and provide guidance to ATAC
Coordinators on roles, responsibilities, and management of an ATAC. EOUSA
presented general comments on four issues and then addressed each
recommendation. Our analysis of EOUSA’s response follows.

GENERAL COMMENTS

      Shared Responsibilities. EOUSA stated that the report did not
adequately reflect the shared responsibilities between EOUSA, CTS, and the
USAOs for the oversight, monitoring, and evaluation of the ATAC program.
EOUSA stated that the U.S. Attorneys have primary responsibility for
implementing and coordinating the ATACs in their judicial districts. CTS
assists in coordinating the ATAC program and has primary responsibility for
coordinating terrorism cases and investigations across the USAOs. EOUSA
provides support for the USAOs, has responsibility for training Department
employees (which includes ATAC Coordinators), and serves as a liaison
between the USAOs and the Department. EOUSA cited a January 13, 2005,
memorandum from the Deputy Attorney General to the U.S. Attorneys and the
ATAC Coordinators as the most recent guidance on the roles of CTS and the
USAOs regarding international and domestic terrorism cases.

       The OIG’s Analysis. The OIG believes the report adequately outlined the
shared responsibilities for the ATAC program. However, we encountered a lack
of understanding on the part of ATAC Coordinators regarding these shared
responsibilities. The ATAC Coordinators we interviewed and surveyed were
unsure to which entity to report activities, ask questions, or get direction about
ATAC operations (including information sharing, meetings, and training, but
not prosecutions). The Deputy Attorney General’s January 13, 2005,
memorandum cited by EOUSA only defines roles of CTS and the USAOs in
relation to terrorism prosecutions and investigations, not ATAC operations.


U.S. Department of Justice                                                 283
Office of the Inspector General
Evaluation and Inspections Division
When we interviewed the former and current EOUSA points of contact for the
ATACs, they both stated that EOUSA provided training and budgetary
administrative support to the ATACs, the same administrative support it
traditionally provides to the USAOs in all programs. EOUSA at that time did
not view its’ role as one of oversight to the ATAC program. Both EOUSA and
CTS now seem clear on their roles and responsibilities in the ATAC program,
but these roles and responsibilities have not been adequately communicated to
the USAOs or the ATAC Coordinators. For example, most ATAC Coordinators
expected the CTS Regional ATAC Coordinators to provide guidance, not only on
terrorism prosecutive and investigative strategies but also on ATAC operations,
which is an EOUSA responsibility.

     Training. EOUSA stated that the report did not adequately recognize the
number and quality of counterterrorism training provided by EOUSA to ATAC
members and ATAC Coordinators since the inception of the ATAC program.
EOUSA outlined a variety of training sessions that have been provided to ATAC
Coordinators and members.

      The OIG’s Analysis. The OIG recognizes that EOUSA, with assistance
from CTS, has developed and provided a significant number of training
sessions for the ATAC Coordinators. In fact, we did not receive complaints
about training on prosecutive and investigative issues. However, we found in
our interviews and survey that ATAC Coordinators wanted additional, more
extensive training on day-to-day operations of the ATAC, a topic that the
Coordinators said received minimal coverage during any training sessions they
attended.

      The OIG reviewed the syllabi of the conferences and training listed by
EOUSA in its response, and we attended the 2004 ATAC Coordinator National
Conference. We found that the majority of these training sessions had only 30
minutes devoted to management or operations of the ATAC, and only a few of
the conferences had more than 30 minutes devoted to these issues. When
asked for suggested topics for the annual ATAC Coordinator conference, some
ATAC Coordinators specifically requested sessions devoted to the management
of an ATAC and ATAC best practices. However, the ATAC Coordinators
believed that the amount of time ultimately allocated to these matters was
inadequate.

       Compliance. EOUSA stated that its Evaluation and Review Staff (EARS)
can effectively determine whether a USAO complies with the Attorney General’s
policies for ATACs. Additionally, EOUSA stated that the ATAC program has the
flexibility to fit the needs of individual judicial districts because the USAOs, not
EOUSA or CTS, manage ATACs. EOUSA stated that our report did not
recognize the flexibility in this approach because the report implied that


U.S. Department of Justice                                                   284
Office of the Inspector General
Evaluation and Inspections Division
merging an ATAC with the state homeland security task force did not comply
with the Attorney General’s memorandum establishing the ATAC program.

       The OIG’s Analysis. We agree that the EARS can be used as a
mechanism to assess ATACs’ compliance with the Attorney General’s
guidelines. However, without a determination from the Department on what
constitutes “compliance” or ATAC program standards, the EARS cannot
sufficiently assess if an ATAC is adequate or is meeting the intent of the
program. The Deputy Attorney General has assembled a working group to
develop materials and guidance on who has responsibility for oversight,
monitoring, evaluation, and enforcing compliance for the ATAC program. The
working group expects to develop its guidance by the end of 2005. EOUSA and
CTS also agreed in their responses to Recommendation 9 to develop
performance measures for the ATAC program.

       Funding Analysis. EOUSA disagreed with the report’s finding that
EOUSA has not recognized, analyzed, or attempted to address funding needs
for the ATAC program. EOUSA stated that in fiscal year (FY) 2002, the
Department received supplemental funding in the Department of Defense
Appropriations Bill of $56,370,000 for increased personnel in the USAOs to
address anti-terrorism investigative and prosecutorial needs. This funding
provided for 468 attorney and support positions in the USAOs as well as
recurring funds for travel and supplies. EOUSA stated that one AUSA position
in each USAO was designated an ATAC Coordinator and each district received
an Intelligence Research Specialist position. EOUSA further stated that in FY
2002, the Department allocated $100,000 on a one-time basis to each ATAC
from funds originally provided to the U.S. Attorneys for increasing the USAOs’
capacity to fight terrorism. The Department directed the USAOs to use the
$100,000 for communication and intelligence coordination, communication
equipment, overtime for ATAC meetings, support services, and
counterterrorism training or technical assistance for state and local entities.

      EOUSA stated that since FY 2002, the USAOs became fully staffed and
the one-time funds provided to state and local entities were required in
subsequent years for salaries and expenses of those hired in the USAOs to
increase counterterrorism capacity. EOUSA stated that the
FY 2005 appropriation included an enhancement for terrorism prevention and
EOUSA is exploring options to use that funding to supplement the ATAC
program. EOUSA further stated that it will continue to request funds in FYs
2006 and 2007 to support the ATAC program.

      The OIG’s Analysis. The OIG believes that EOUSA has not strategically
or sufficiently analyzed the ATAC budget to assess future funding needs. Our
recommendation that EOUSA should conduct more strategic analysis of the


U.S. Department of Justice                                               285
Office of the Inspector General
Evaluation and Inspections Division
ATAC budget to assess the need for future funding specifically was directed at
funding used for ATAC operations, including information sharing,
communication items, and training for state and local entities, not funding for
USAOs to increase their prosecutive capacity. We considered the salaries and
expenses for additional personnel devoted to terrorism prosecutions and
investigations separate from the one-time allocation of $100,000 to each USAO
for improving the communication between the Department and state and local
law enforcement entities. For example, during FY 2005, ATAC Coordinators
have been unable to attend terrorism-related training and meetings in some
locations within their judicial districts due to insufficient travel funds.

      To plan adequately for the ATACs’ future funding needs or to direct the
ATAC program, we believe that EOUSA should analyze the expenditures of each
USAO’s $100,000 and determine if the expenditures achieved their purpose to
improve federal communication with state and local law enforcement.
Additionally, EOUSA should solicit information from the ATACs on their
funding requirements for improving information sharing, procuring
communication equipment, conducting training, and attending terrorism-
related meetings. Because the USAOs have competing priorities, strategic
analysis of the ATAC program and its budget is critical.

RECOMMENDATIONS

       Recommendation 3: Resolved – Open. EOUSA’s Office of Legal
Education, along with CTS, should develop a national training plan for ATACs
that includes:

       •   Initial needs assessment of ATAC Coordinators,
       •   How to manage and structure an ATAC (membership, frequency
           of meetings, methods and sources of communication, how to
           conduct an ATAC members’ needs assessment, identify trainers,
           and develop a local training plan),
       •   Frequency of future needs assessments for ATAC Coordinators
           and ATACs,
       •   Development of minimum mandatory training standards and
           time frames for completion of training for ATAC Coordinators,
       •   Required minimum annual training hours for ATAC
           Coordinators, and
       •   Responsibility for training notification to the ATAC
           Coordinators.

     Summary of EOUSA’s Response: EOUSA concurred with the
recommendation to develop a national training plan for the ATACs and that
EOUSA’s Office of Legal Education should have primary responsibility for this


U.S. Department of Justice                                               286
Office of the Inspector General
Evaluation and Inspections Division
development. EOUSA, with CTS, has convened a National ATAC Training
Working Group (referred to as the ATAC Training Committee in the CRM
response) consisting of representatives from EOUSA and CTS, as well as ATAC
Coordinators and Intelligence Research Specialists from several USAOs. The
Working Group has held one meeting and will continue to meet and work on a
national training plan that may include an initial needs assessment of ATAC
Coordinators, guidance on how to manage and structure an ATAC, suggested
standards and time frames for completing ATAC Coordinator training, and
guidance on appropriate training hours. EOUSA does not believe that
minimum mandatory training standards and time frames for completion of
training should be established for the ATAC members. EOUSA believes that it
is appropriate for each new ATAC Coordinator to receive some type of
orientation – in-person training, a Justice Television Network program, or a
review of self-study materials from EOUSA. EOUSA suggested that each
judicial district be given the flexibility to design its own ATAC training plan to
fit the local needs.

      The OIG’s Analysis: EOUSA’s training working group and plan to issue a
national ATAC training plan are responsive to the recommendation. The OIG
believes that the National ATAC Training Working Group can aid development
of a national training plan and will help EOUSA and the USAOs provide the
most appropriate training to ATAC Coordinators and ATAC members. The OIG
also believes the accelerated orientation for newly appointed ATAC
Coordinators can assist implementation of the ATAC program.

       The OIG did not recommend that EOUSA establish minimum training
standards for ATAC members, but rather for ATAC Coordinators. The training
for ATAC members should be determined by individual USAOs through the
ATAC training needs assessments and balanced by available resources. The
majority of ATAC Coordinators that we interviewed and surveyed indicated
satisfaction with prosecutive and investigative training but indicated a need for
more training on the operations of an ATAC. The OIG recommended the
development of minimum training hours for ATAC Coordinators to ensure these
operational issues were covered in training. However, a national training plan
that includes an appropriate amount of training on operational issues for ATAC
Coordinators, as determined by the ATAC Coordinators themselves, would be
responsive to the recommendation. Please provide us a copy of the national
ATAC training plan by October 31, 2005.

     Recommendation 4: Resolved – Open. The ATAC Coordinators should
conduct training needs assessments and develop a training plan for ATAC
members.




U.S. Department of Justice                                                  287
Office of the Inspector General
Evaluation and Inspections Division
       Summary of EOUSA’s Response: EOUSA concurred with the
recommendation and through the National ATAC Training Working Group
plans to conduct a training needs assessment for ATAC Coordinators. In
addition, the working group plans to assist the ATAC Coordinators in
conducting needs assessments for the members of their individual ATACs, and
assist the ATAC Coordinators in developing training plans for members.

      The OIG’s Analysis: EOUSA’s planned actions to conduct a training
needs assessment for ATAC Coordinators and assist ATAC Coordinators with
assessing and meeting the training needs of members are responsive to the
recommendation. Please provide us a copy of the results of the training needs
assessment for ATAC Coordinators by October 31, 2005. Additionally, please
provide us a copy of EOUSA’s plan for assisting the ATAC Coordinators in
developing training needs assessments and training plans for the ATAC
members by October 31, 2005.

      Recommendation 7: Resolved – Open. The FBI, CTS, EOUSA, and the
USAOs should work jointly to develop a coordinated strategy to consistently
reach out to remote areas.

       Summary of EOUSA’s Response: EOUSA concurred with the
recommendation and agreed to “work to provide additional guidance and best
practices to better reach remote areas through the national training plan for
USAOs.” However, EOUSA stated that the OIG report underestimates the
USAOs’ efforts in communicating terrorism and threat information to law
enforcement and other agencies in rural areas of their districts. EOUSA
outlined the extensive efforts that ATACs in Oklahoma and Alaska have made
to share information and provide training to local law enforcement agencies in
their districts.

      The OIG’s Analysis: EOUSA’s proposal to improve ATACs’
communication with remote areas through the national ATAC training plan is
partially responsive to the recommendation. Our recommendation intended
that a coordinated outreach strategy among the FBI, CTS, EOUSA, and the
USAOs be developed to ensure communication with state and local law
enforcement personnel who are not members of an ATAC or another
Department terrorism task force. It is unclear how the ATAC national training
plan will fulfill the recommendation’s intent.

       Also, in the report the OIG recognized the efforts of many ATACs to reach
out and communicate with remote areas within the judicial districts, and we
summarized the innovative efforts of some USAOs. The OIG found that the
majority of ATAC members were satisfied with the information sharing and
training received, but we found the opposite when we interviewed state and


U.S. Department of Justice                                                288
Office of the Inspector General
Evaluation and Inspections Division
local law enforcement personnel who were not members of the ATAC or another
Department counterterrorism task force. These non-members were
overwhelmingly dissatisfied with information sharing or training provided by
the Department and often had no knowledge of the ATAC or ATAC
communication and training efforts in their area. Additionally, the
counterterrorism communication and outreach efforts to remote areas often
were not coordinated between the USAO and the FBI’s JTTF or resident agency
office.

       While the ATAC in Oklahoma is conducting information sharing and
various training sessions, the OIG found gaps in these efforts, especially with
respect to remotely located state and local entities that were not members of
the ATAC. We have corrected the report on page 91 to reflect that it was the
sheriffs, not the police chiefs, who specifically told us they did not have contact
with the ATAC in Oklahoma City, did not receive terrorism-related information
from the ATAC, and stated they wanted more specific information on potential
threats related to Oklahoma, and especially Enid and Woodward, Oklahoma.

      The OIG agrees that the ATAC in Alaska was coordinating efforts with the
FBI, and had successfully merged with the state homeland security task force
to minimize gaps and duplication. The example of Alaska demonstrates the
extensive geographic barriers which the ATAC and the FBI must overcome to
reach remote areas, an effort that requires coordination of resources.

       We request that when CTS, EOUSA, the FBI, and the USAOs develop a
coordinated strategy to reach remote areas, they designate one agency to
provide us a copy of the coordinated strategy by October 31, 2005. We believe
this strategy should define the roles and responsibilities of each entity in
implementing the strategy.

      Recommendation 9: Resolved – Open. CTS and EOUSA should
develop outcome-oriented performance measures for the ATAC program. The
measures for the ATAC program could include the following:

       •   Quality and timeliness of information shared with member and
           outside agencies that resulted in improved understanding of
           terrorism issues and improved prevention activities,
       •   Quality and timeliness of training for members that resulted in
           improved understanding of terrorism issues and improved prevention
           activities,
       •   Outreach efforts that resulted in increasing targeted membership, and
       •   Quality and currency of threat assessments that resulted in improved
           prevention activities.



U.S. Department of Justice                                                   289
Office of the Inspector General
Evaluation and Inspections Division
       Summary of EOUSA’s Response: EOUSA concurred that performance
measures for the ATAC program would help the ATAC Coordinators ensure
consistency and effectiveness in the quality of information sharing and training
provided. However, EOUSA stated that performance measures should be
developed by and tailored to the needs of each judicial district because it would
be ineffective to use one standard measure for all ATACs to evaluate the
success of the ATAC program. EOUSA recommended that ATAC performance
measures be developed in each district as a part of the individual district’s
training plan. The National ATAC Training Working Group will provide
guidance to the ATAC Coordinators on suggested survey questions, including
the factors recommended by the OIG, for use in evaluating the effectiveness of
the ATAC program.

      The OIG’s Analysis: EOUSA’s plans for each USAO to develop its
individual performance measures and for the National ATAC Training Working
Group to develop evaluation questions are partially responsive to the
recommendation. The OIG believes that EOUSA and CTS should develop
standard performance elements across ATACs to measure the effectiveness of
the ATAC program nationwide. While certain elements of the ATAC program
should be consistent across USAOs, the particular criteria used to measure
each USAO’s success on these elements could be different based on the various
ATAC activities and how the program is operated in each judicial district.
Please provide us the standard ATAC performance elements or measures by
October 31, 2005.

       Recommendation 11: Resolved – Open. CTS and EOUSA should
jointly issue written guidance defining their roles and responsibilities in the
ATAC program, as well as the roles and responsibilities of the Regional ATAC
Coordinators, the National ATAC Coordinator, and the EOUSA point of contact
for ATACs. This written guidance should be communicated to the ATAC
Coordinators.

      Summary of EOUSA’s Response: EOUSA concurred with the
recommendation. EOUSA and CTS will work together to develop guidance on
the roles and responsibilities of CTS, EOUSA, and the EOUSA point of contact
for ATACs. EOUSA plans to provide this guidance to all ATAC Coordinators.

       The OIG’s Analysis: EOUSA’s plan to work with CTS and develop
guidance on roles and responsibilities is responsive to the recommendation.
The Deputy Attorney General has formed a working group to develop guidance
to clarify the roles and responsibilities of CTS, EOUSA, and the USAOs in the
ATAC program with regard to oversight, monitoring, evaluating success, and
enforcing compliance (see the ODAG’s response to Recommendation 10, which



U.S. Department of Justice                                                 290
Office of the Inspector General
Evaluation and Inspections Division
the ODAG labeled “2”). Please provide us a copy of the joint EOUSA-CTS
written guidance to the ATAC Coordinators by October 31, 2005.

      Recommendation 12: Resolved – Open. CTS or EOUSA should issue
written guidance for ATAC Coordinators that includes a definition of roles, how
to determine membership base, and how to structure and manage an ATAC.

       Summary of EOUSA’s Response: EOUSA concurred with the
recommendation. EOUSA stated that each USAO should have flexibility in
defining the role of the ATAC Coordinator and structuring and managing the
ATAC to fit the needs of each district. EOUSA developed performance
measures for the position of ATAC Coordinator and a copy of these measures
will be sent to the U.S. Attorneys and ATAC Coordinators.

      The OIG’s Analysis: EOUSA’s plan for reviewing, revising, and issuing
ATAC Coordinator performance standards to the USAOs and ATAC
Coordinators is partially responsive to the recommendation. The updated
performance standards should tie directly into the standard elements used to
measure the overall ATAC program. Further, ATAC Coordinators need
additional guidance on determining ATAC membership and structuring and
managing an ATAC. EOUSA’s response did not address developing this
guidance. Please provide us a copy of any revised ATAC Coordinator
performance standards by
October 31, 2005. Additionally, please provide us a copy of the written
guidance to the ATAC Coordinators on membership, structure, and
management for ATACs by October 31, 2005.

      Recommendation 13: Resolved – Open. EOUSA should strategically
analyze the ATAC budget to assess the need for future funding.

      Summary of EOUSA’s Response: EOUSA concurred with the
recommendation and stated that it will continue to strategically analyze the
ATAC budget to assess the need for future funding as noted in EOUSA’s
general comments on the report. In those comments, EOUSA stated that the
FY 2005 appropriation included an enhancement for terrorism prevention and
EOUSA is exploring options to use that funding to supplement the ATAC
program. EOUSA further stated that it will continue to request funds in FYs
2006 and 2007 to support the ATAC program.

      The OIG’s Analysis: EOUSA’s planned actions to potentially use FY 2005
counterterrorism funds to supplement the ATAC program and to request ATAC
funding in FYs 2006 and 2007 are partially responsive to the recommendation.
To plan adequately for the ATACs’ future funding needs or to direct the ATAC
program, the OIG believes that EOUSA should analyze the expenditures of each


U.S. Department of Justice                                               291
Office of the Inspector General
Evaluation and Inspections Division
USAO’s one-time allocation of $100,000 and whether the expenditures
achieved their purposes, and solicit information from the ATACs on their
funding requirements for improving information sharing, procuring
communication items, conducting training, and attending terrorism-related
meetings. Please provide us EOUSA’s plan for analyzing future ATAC funding
needs by
October 31, 2005.

      Recommendation 14: Resolved – Open. ATAC Coordinators should
regularly update and maintain accurate electronic rosters of the ATAC
membership.

      Summary of EOUSA’s Response: EOUSA concurred with the
recommendation and will request an electronic roster of ATAC members from
each judicial district. EOUSA also will request that each USAO continue to
maintain the roster.

      The OIG’s Analysis: EOUSA’s plan to request updated electronic rosters
of ATACs’ members and continual maintenance of the rosters is responsive to
the recommendation. Please provide us confirmation of EOUSA’s receipt of
updated electronic rosters from each ATAC by October 31, 2005. Also, please
provide us a copy of EOUSA’s plan for ensuring that the USAOs maintain
updated electronic rosters of ATAC members by October 31, 2005.

      Recommendation 15: Resolved – Open. ATACs should meet at least
quarterly, and ATAC Coordinators should periodically review and communicate
the ATAC mission to members.

       Summary of EOUSA’s Response: EOUSA concurred that the USAOs
should conduct ATAC meetings and periodically review and communicate the
ATAC mission to members, but EOUSA did not agree that ATACs should meet
at least quarterly. EOUSA stated that each USAO should determine, in its
local ATAC training plan, the appropriate number of ATAC meetings as well as
the most effective way to conduct the ATAC meetings.

       The OIG’s Analysis: EOUSA’s plan for individual USAOs to determine the
frequency of and method for conducting ATAC meetings in their district
training plans is responsive to the recommendation. The ATAC Coordinators’
individual training needs assessments of members could be used to determine
the type and frequency of meetings and training. The intent of the
recommendation to meet at least quarterly was to ensure that the USAOs were
responsive to the communication requirements of ATAC members, but the
suggested frequency was not a firm requirement. Please provide us copies of



U.S. Department of Justice                                             292
Office of the Inspector General
Evaluation and Inspections Division
the portion of each USAO’s ATAC training plan that addresses frequency of
ATAC meetings by October 31, 2005.

      Recommendation 28: Resolved – Open. The ATAC Coordinators
should work jointly with the state offices of homeland security and the state
homeland security task forces to coordinate activities and to minimize
duplication and gaps in terrorism-related information sharing and training.

      Summary of EOUSA’s Response: EOUSA concurred that the ATAC
Coordinators should work jointly with the DHS to coordinate activities and to
minimize duplication in information sharing and training. EOUSA stated that
ATACs and Intelligence Research Specialists are making efforts to coordinate
with the DHS.

      The OIG’s Analysis: EOUSA’s statement that outreach efforts are
ongoing with the DHS is partially responsive to the recommendation. The
recommendation is directed toward coordination of activities with the states.
Please provide us a description of each ATAC’s efforts to coordinate activities
with the state offices of homeland security by October 31, 2005.




U.S. Department of Justice                                                 293
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX XIV: THE FEDERAL BUREAU OF INVESTIGATION’S
                     RESPONSE




U.S. Department of Justice                     294
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            295
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            296
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            297
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            298
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            299
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            300
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            301
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            302
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            303
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            304
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX XV: OIG ANALYSIS OF THE FEDERAL BUREAU OF
              INVESTIGATION’S RESPONSE


       The OIG sent copies of the draft report to the FBI with a request for
written comments on Recommendations 2, 5, 6, 7, 8, and 16 through 24. The
FBI responded to the OIG in a memorandum dated May 17, 2005. The FBI
concurred with all the recommendations and agreed to develop a national task
force training plan and orientation program; finalize MOUs defining task force
members’ roles and responsibilities; develop performance measures for the task
forces and members; ensure adequate staffing, stable leadership, and other
required resources for the task forces; assist the FTTTF in acquiring databases
from other agencies; and develop a coordinated strategy with the USAOs to
reach remote areas.

RECOMMENDATIONS

      Recommendation 2: Resolved – Open. The FBI should develop a
national training plan for each task force that includes:

       •   Responsibility for developing and managing the training plan and
           program,
       •   Initial needs assessment,
       •   Frequency of future needs assessments,
       •   Development of minimum mandatory training standards and time
           frames for completion of training, including completion of the
           introductory training session within 90 days of joining the task force,
       •   Required minimum annual training hours,
       •   Target audience – training equities for FBI and non-FBI task force
           members, and
       •   Responsibility for training notification to the field.

      Summary of the FBI’s Response. The FBI concurred with the
recommendation that a national training plan should be developed for each
task force. The FBI acknowledged that it does not currently have a training
curriculum to ensure a standardized, minimum training program.

       The FBI stated that its Counterterrorism Division (CTD) and Training and
Development Division offer various types of counterterrorism training and basic
core function training, and that they have sponsored numerous JTTF national
and regional working conferences. The FBI reported that in the past 2½ years,
approximately 3,000 JTTF personnel received FBI-sponsored training. The FBI
also reported that it recently formed a unit within the CTD to identify and


U.S. Department of Justice                                                   305
Office of the Inspector General
Evaluation and Inspections Division
assess the training and professional development needs of the CTD as well as
to provide training on the skills and techniques needed to investigate terrorism
successfully. 103 The unit will be responsible for developing, executing, and
monitoring a national training plan for the JTTFs and the NJTTF. The FBI
anticipates that it will complete a draft national training plan for the JTTFs and
NJTTF by September 2005.

       The OIG’s Analysis. The actions planned by the FBI to develop a national
training plan with minimum training standards are responsive to the
recommendation. Please provide us a copy of the final draft of the national
training plan for the JTTFs, NJTTF, and FTTTF by October 31, 2005.

      Recommendation 5: Resolved – Open. The FBI should develop a
formal, standardized orientation program for all new task force members and
provide it within 30 days of the new member’s start date. Orientation should
include:

       •     FBI policies and procedures;
       •     Access and use of the ACS system, IDW, and any other case
             management system;
       •     Intelligence gathering versus criminal investigations;
       •     Definition of task force member roles and responsibilities;
       •     Roles of other Department terrorism task forces and other FBI units;
       •     Sources of information and contact information for other
             organizations frequently used by the terrorism task forces (e.g., DHS,
             Internal Revenue Service, Social Security Administration, U.S. Postal
             Service); and
       •     Information sharing protocols.

       Summary of the FBI’s Response. The FBI concurred with the
recommendation to develop a formal, standardized orientation program for all
new task force members and to provide it within 30 days of a new member’s
start date. The FBI reported that it has developed a short-term/immediate and
mid-range plan for addressing orientation and training for newly appointed
JTTF members. The FBI stated that on April 20, 2005, pending
implementation of a formal national standardized orientation and training
program, the CTD directed all JTTFs to immediately provide orientation and
training to newly appointed task force members within their first year of




       103The FBI reported that it modified the mission of the CTD training unit, originally
formed in March 2004, and renamed the unit the Continuing Education and Professional
Development Unit in April 2005.

U.S. Department of Justice                                                              306
Office of the Inspector General
Evaluation and Inspections Division
service. Implementation of the structured orientation program is planned for
early FY 2006.

      The OIG’s Analysis. The action planned by the FBI to develop a national
standardized orientation program is responsive to the recommendation. Please
provide us a copy of the program syllabus by October 31, 2005.

      Recommendation 6: Resolved – Open. The FBI should finalize MOUs
with all agencies participating on the Department’s terrorism task forces.

      Summary of the FBI’s Response. The FBI concurred with the
recommendation to finalize MOUs with all agencies participating on the
Department’s terrorism task forces. The FBI stated that since 1980, it has
maintained MOUs with all state and local agencies that participate on the
JTTFs and that currently it maintains 311 MOUs with these agencies. The FBI
stated that it also established 13 MOUs with other federal agencies prior to
September 2001. The CTD is currently updating all NJTTF and JTTF MOUs,
which will incorporate post-September 11, 2001, issues such as polygraph
requirements, information sharing policies, and length of commitment
agreements.

      The OIG’s Analysis. The action planned by the FBI to update or finalize
all MOUs is responsive to the recommendation. Please provide us a copy of the
updated MOUs with all federal agencies participating on the JTTFs, NJTTF,
and the FTTTF by October 31, 2005. Please provide written verification (in lieu
of actual copies) of updated MOUs with all other state, local, and participating
agencies on the task forces, by October 31, 2005.

      Recommendation 7: Resolved – Open. The FBI, CTS, EOUSA, and the
USAOs should work jointly to develop a coordinated strategy to consistently
reach remote areas.

       Summary of the FBI’s Response. The FBI concurred with the
recommendation that the FBI, EOUSA, and the USAOs should work jointly to
develop the coordinated strategy to consistently reach remote areas. The FBI
stated that information sharing is one of its highest priorities. The FBI
reported that it has already implemented several mechanisms as part of an
overall strategy to ensure effective information sharing with all state and local
law enforcement agencies and has additional initiatives in final development.
       The FBI also stated that the CTD is coordinating with the Directorate of
Intelligence to produce a weekly FBI National Report that will be the “primary
terrorism threat outreach bulletin” for law enforcement at the “for official use
only/Law Enforcement Sensitive” classification level. The FBI also proposed
using various law enforcement online services to deliver training and suggested


U.S. Department of Justice                                                 307
Office of the Inspector General
Evaluation and Inspections Division
the continued use of LECC allocations to the USAOs and federal and state DHS
money to fund coordinated outreach to remote law enforcement entities.

       The OIG’s Analysis. The information sharing with law enforcement in
remote and rural areas already undertaken or planned by the FBI is partially
responsive to the recommendation. We agree that information and intelligence
sharing through online services, as well as liaison among the FBI field offices
and resident agency offices and other government and law enforcement
agencies within their jurisdictions, can be effective outreach efforts. However,
as described in our report, outreach and information sharing efforts are not as
effective or consistent in all jurisdictions, leaving some remote and rural areas
without terrorism related information and training. The FBI’s response did not
include methods on how to share information with smaller, rural local law
enforcement agencies that have limited or no Internet access.

       We request that when CTS, EOUSA, the FBI, and the USAOs develop a
coordinated strategy to reach remote areas, they designate one agency to
provide us a copy of the coordinated strategy by October 31, 2005. We believe
this strategy should define the roles and responsibilities of each entity in
implementing the strategy.

      Recommendation 8: Resolved – Open. The FBI should ensure its
performance measures provide an effective means for determining the
qualitative and quantitative accomplishments of the task forces and their
members in fulfilling the Department’s counterterrorism strategy.

       Summary of the FBI’s Response. The FBI concurred with the
recommendation. The FBI stated that the NJTTF already has presented a list
of JTTF best practices to the JTTFs and that some of these practices are
documented in FBI policy communications, thus making them mandatory. The
FBI stated that it also is developing a web-based strategic management tool
called the Comprehensive Operational Management Plan Advancing Specific
Strategies (COMPASS). This application will provide information on specific
goals, objectives, and performance outcomes for each FBI division at
headquarters and in the field, and will track and collect progress on all
objectives. Senior management will be able to access this information online at
any time.

      The OIG’s Analysis. The actions taken or planned by the FBI –
developing a JTTF best practices list and a strategic management tool
(COMPASS) that monitors progress on all objectives – is partially responsive to
the recommendation. We believe that the FBI needs to take additional steps to
translate JTTF best practices into outcome-oriented performance measures
that would determine the qualitative and quantitative accomplishments of the


U.S. Department of Justice                                                 308
Office of the Inspector General
Evaluation and Inspections Division
task forces and their members in fulfilling the Department’s counterterrorism
strategy. Once developed, the performance measures and the web-based
application called COMPASS should enable the FBI to measure and track its
progress in fulfilling the Department’s counterterrorism strategy. Please
provide us a copy of the performance measures for the JTTFs, NJTTF, and
FTTTF by October 31, 2005.

      Recommendation 16: Resolved – Open. The FTTTF should develop a
plan to acquire and regularly update the required databases from other
agencies.

      Summary of the FBI’s Response. The FBI concurred with the
recommendation, stating that while it presently has a plan to identify and
acquire datasets from other agencies, the need to establish MOUs and each
agency’s limited resources affect the timing for receipt of the datasets and
updates. The FBI also stated that it will continue to work toward obtaining full
access to other agencies’ databases.

       The OIG’s Analysis. The action planned by the FBI toward obtaining full
access to other agencies’ databases is partially responsive to the
recommendation. The OIG found that the FTTTF has not acquired some
needed datasets from outside agencies since 2002 and these acquisitions may
require intervention by CTD executive staff. We also found that the FTTTF had
difficulty obtaining requested datasets from some units within the FBI. For
example, since July 2004, the TSC stopped providing the FTTTF with the
Terrorist Watch List. Efforts by the FTTTF to resume receiving this list have
been unsuccessful, and therefore the FTTTF requires assistance from CTD
executive staff. Please provide us a copy of the plan to identify and acquire
the datasets and updates that the FTTTF requires from other agencies and
other FBI units by August 30, 2005. This plan should include strategies for
overcoming identified obstacles to acquisition of datasets and the
responsibilities of CTD (not FTTTF) executive staff for facilitating the
acquisitions and updates.

      Recommendation 17: Resolved – Open. The FBI should identify and
address the obstacles the FTTTF encounters in securing and regularly updating
required databases from other agencies.

      Summary of the FBI’s Response. The FBI concurred with the
recommendation, stating that where obstacles exist, they have been identified
and are being addressed.

     The OIG’s Analysis. The FBI response that it has identified and
addressed obstacles where they exist is partially responsive to the


U.S. Department of Justice                                                309
Office of the Inspector General
Evaluation and Inspections Division
recommendation. By August 30, 2005, please identify and list the specific
obstacles in acquiring each dataset and the actions taken by CTD executive
staff (not FTTTF staff) to overcome these obstacles in obtaining datasets from
other agencies and from other FBI units.

      Recommendation 18: Resolved – Open. The FBI should identify and
address the FTTTF’s unmet resource requirements for staff (FBI and other
government agencies), space, and equipment.

        Summary of the FBI’s Response. The FBI concurred with the
recommendation. The FBI acknowledged the unmet staff resource
requirements for the FTTTF; however, it stated that previously unmet space
and equipment requirements have been met since the FTTTF completed its
move to its permanent location in 2005. The FBI stated that the current
facility provides access to other agency participants’ home data networks,
access to the FBINET for all cleared personnel with a need for access, and a
modern data center to service the network and application requirements of the
FTTTF. 104 Additionally, the FBI has approved a proposal for a project that will
provide secure access to the FTTTF data mart and analytical tools from any
FBINET workstation.

       The OIG’s Analysis. The stated actions of meeting space and equipment
requirements for the FTTTF are generally responsive to the recommendation.
The FTTTF Director told the OIG that the FTTTF’s space and equipment
requirements have been met with the move to its present location. However,
since its inception, the FTTTF has been understaffed in terms of full-time
personnel from the FBI and other government agencies. Please provide us the
plan for meeting the additional staffing requirements of the FTTTF by August
30, 2005.

      Recommendation 19: Resolved – Open. The FBI should ensure long-
term, stable leadership, organizational structure, and housing for the FTTTF.

      Summary of the FBI’s Response. The FBI concurred with the
recommendation. The FBI acknowledged instability in these areas during the
FTTTF’s first 2 years of existence, but according to the FBI, it has addressed
these problems. The FTTTF completed its move into its current facility in 2005
and has no plans to relocate.

      The OIG’s Analysis. The action taken by the FBI in ensuring long-term,
stable leadership, organizational structure, and housing for the FTTTF is


       104 FBI Network, known as FBINET, is the FBI’s centralized network management

system to access various administrative, financial, and investigative systems.

U.S. Department of Justice                                                         310
Office of the Inspector General
Evaluation and Inspections Division
partially responsive to the recommendation. Although the current FTTTF
Director has served for approximately 2 years, the longest serving of its four
Directors, past instability in leadership directly affected the FTTTF’s mission.
Future leadership stability must be assured due to the unique mission and
functions of the FTTTF and its technology complexities. Please provide us a
succession plan for ensuring long-term stable leadership of the FTTTF by
August 30, 2005.

      Recommendation 20: Resolved – Open. The FTTTF should develop
and implement a plan to improve awareness and understanding of its services.

      Summary of the FBI’s Response. The FBI concurred with the
recommendation and reported that the FTTTF has taken steps to implement
such a plan. The FTTTF currently provides briefings to visiting SACs and
ASACs, and briefs new SACs, Legats, new assignees, NJTTF conference
attendees, and outside law enforcement agencies. It is also scheduled to brief
the Homeland Security and Information Sharing Conference in New Orleans in
June 2005. The FTTTF has established a website on the FBI Intranet that will
be replicated in part on SIPRNET. 105 Also, the FBI has published an Executive
Guide to provide a concise synopsis of FTTTF’s capabilities and how to request
FTTTF’s support.

      The OIG’s Analysis. The actions of providing briefings, establishing a
FTTTF website on the FBI Intranet, and publishing an Executive Guide are
responsive to the recommendation. Please provide us a copy of the plan that
the FTTTF is implementing (to include how often the briefings occur), the
FTTTF’s website pages on the FBI Intranet, and the Executive Guide (including
to whom the Executive Guide is issued) by August 30, 2005.

      Recommendation 21: Resolved – Open. The FBI should determine
and allocate sufficient staff to effectively support the terrorism task forces.

       Summary of the FBI’s Response. The FBI did not state whether it
concurred with the recommendation. The FBI stated that it has “engaged in
the determination and allocation of sufficient staff to effectively support the
terrorism task forces.” The ADICs or SACs of the field offices are directly
responsible for managing and allocating JTTF officers to effectively support the
FBI’s counterterrorism mission. The ADICs or SACs annually report their
staffing and operational requirements to FBI headquarters. In FY 2005,
additional Special Agent resources were allocated to field offices and FBI
headquarters.



       105   SIPRNET is the DOD’s Secret level classified information network.

U.S. Department of Justice                                                       311
Office of the Inspector General
Evaluation and Inspections Division
       Regarding analytical support, the FBI reported that all FBI field offices
operate a Field Intelligence Group, primarily staffed with FBI Intelligence
Analysts whose mission is to provide direct operational and strategic analytical
support to JTTF officers. The FBI stated that on March 25, 2004, FBI
headquarters established mandatory coordination requirements among all
Field Intelligence Groups and the JTTFs. The ADICs or SACs of the field offices
are directly responsible for managing and allocating Field Intelligence Groups
to effectively support the FBI’s counterterrorism mission.

       The OIG’s Analysis. The intent of the recommendation is to promote
sufficient analytical and administrative support staff to the JTTFs. The action
taken by the FBI’s allocation of analytical support through the Field
Intelligence Groups is responsive to the portion of the recommendation
addressing analytical support. However, the FBI’s response does not address
the lack of administrative support staff, which has resulted in task force
officers being diverted from investigative duties to perform administrative
tasks. Please provide us a response addressing how the FBI will ensure that
JTTFs have adequate administrative support staff by October 31, 2005.

       Recommendation 22: Resolved – Open. The FBI should seek more
stability in JTTF leadership.

       Summary of the FBI’s Response. The FBI concurred with the
recommendation that it should seek stability in JTTF leadership but stated
that the OIG report focused on FBI management staff rather than specifically
on JTTF management staff. Regarding the report’s mention of the frequent
rotation of some JTTF agents, the FBI stated that all FBI personnel, no matter
what program, view the importance of following through on investigations as a
priority.

      The OIG’s Analysis. The FBI is partially responsive to the
recommendation in that it agreed to seek stability in JTTF leadership.
However, the FBI did not state what actions it will take or how it plans to seek
the stability. Additionally, the FBI erroneously concluded that the OIG report
focused on various levels of FBI management but did not focus specifically on
JTTF management such as JTTF SSAs and JTTF ASACs.

       To the contrary, this section of the report focused solely on the JTTFs’
management positions. All supervisory interviews conducted at the FBI field
offices consisted of the entire JTTF chain of command: the JTTF SSAs, JTTF
ASACs, and SACs.

      Some JTTF members told us of problems stemming from the turnover in
JTTF leadership, including hampered communication, lack of direction, and


U.S. Department of Justice                                                 312
Office of the Inspector General
Evaluation and Inspections Division
lack of coordination within the task force. Further, the St. Louis example cited
in the report specifically identified JTTF leadership instability with six different
JTTF SSAs, two JTTF ASACs, and three SACs in an 18-month period. The
report described the negative effect that the frequent turnover in the St. Louis
JTTF leadership had on JTTF investigations and operations. Please provide us
a plan to ensure more stability in JTTF leadership by October 31, 2005.

      Recommendation 23: Resolved – Open. The FBI should develop a
plan and issue written guidance for the JTTFs on how to activate new JTTFs
and move existing JTTFs to off-site locations.

      Summary of the FBI’s Response. The FBI stated that it issued written
guidance on January 30, 2001, and May 27, 2003, to all FBI field offices for
submitting proposals for the formation of JTTFs. The FBI stated that the May
27, 2003, guidance established an 11-point criterion for the activation of new
JTTFs.

       The OIG’s Analysis. The FBI did not state whether it concurred with the
recommendation. The intent of the recommendation was to address the FBI’s
need for guidance to plan for and activate off-site locations for new and existing
JTTFs. The May 27, 2003, guidance provides FBI field offices with guidelines
akin to application guidelines. However, after the FBI approves a JTTF and the
JTTF is moved to an off-site location (not in the field office or resident agency
office space), there are no instructions or guidelines for activation of the new
office space such as security requirements, information technology
requirements, or infrastructure requirements. Consequently, significant delays
in activating an off-site JTTF location can result. For example, because of the
lack of written guidance on the necessary security equipment and other
procedural requirements, the Spokane, Washington/Coeur d’ Alene, Idaho,
JTTF paid 15 months rent for unoccupied office space. Please provide us a
copy of the written guidance to plan and activate off-site locations for JTTFs by
October 31, 2005.

       Recommendation 24: Resolved – Open. The FBI should ensure
sufficient information technology connectivity needed to effectively support the
terrorism task forces.

       Summary of the FBI’s Response. The FBI concurred with the
recommendation and stated that the CTD supports JTTF funding requests for
technology requirements such as Internet access, analog phone/computer
lines, DSL, computers, and other supplies. The FBI stated that in September
2004, all NJTTF members gained Internet access at their workstations.
Additionally, the FBI stated that Internet connectivity is presently being
addressed through the Office of Information Technology Program Management


U.S. Department of Justice                                                    313
Office of the Inspector General
Evaluation and Inspections Division
and is being redesigned to produce a more stable network that will serve the
JTTFs’ long-term operational needs.

       The FBI also listed various technology training sessions that it provided
to JTTF members and included plans for providing access to new databases
and systems. The FBI further stated that the creation of IDW and investment
in iMap and Guardian were large steps forward in providing the JTTFs with the
tools needed to complete its mission. 106

      The OIG’s Analysis. The actions taken by the FBI are partially
responsive to the recommendation. While the FBI has made some technology
advancements, including IDW, Guardian, and iMap, significant technology
improvements are still needed. Moreover, the intent of this recommendation
was to address the lack of information technology connectivity or upgraded
information technology infrastructure available in JTTF work space. For
example, JTTF members did not have Internet access at their desktops and
had to perform investigative searches at the few workstations available with
Internet access, thus disrupting their work and affecting productivity.
Additionally, many task force members could not access their parent agencies’
databases from the task forces’ offices, requiring members to return to their
parent agencies for database information, again disrupting work and affecting
productivity. Please provide us a plan addressing how the FBI will improve
information technology connectivity or information technology infrastructure
available in JTTF work space by October 31, 2005.




       106   iMAP is a geospatial analytical tool used by JTTFs.

U.S. Department of Justice                                                314
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX XVI: THE DRUG ENFORCEMENT
                   ADMINISTRATION’S RESPONSE




U.S. Department of Justice                         315
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            316
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            317
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX XVII: OIG ANALYSIS OF THE DRUG ENFORCEMENT
              ADMINISTRATION’S RESPONSE


       The OIG sent copies of the draft report to the DEA with a request for
written comments on Recommendations 25 and 26. The DEA responded to the
OIG in a memorandum dated May 12, 2005. The DEA concurred with both
recommendations and agreed to evaluate requests from the FBI for full-time
participation on the JTTFs and to issue guidance to DEA agents who serve as
members on or points-of-contact to the NJTTF and JTTFs. The DEA presented
general comments about its support to the Department’s terrorism task forces
and then addressed the recommendations. Our analysis of the DEA’s response
follows.

GENERAL COMMENTS

       Summary of the DEA’s Comments. The DEA stated that it works with
the FBI and other law enforcement agencies domestically and internationally to
identify and anticipate threats posed by the links between drugs and terrorism.
The DEA also stated that, when requested by the Attorney General, it
participates in the Department’s efforts to prevent terrorist attacks and cited
the example of DEA’s participation during the 2004 election.

      Specifically concerning the JTTFs, the DEA stated that it assigned full-
time members to selected JTTFs after September 11, 2001. However, over time
the workload did not support the DEA’s full-time membership on the JTTFs.
The DEA believed that it could meet the JTTFs’ requirements by assigning DEA
agents as liaisons to the JTTFs, while allowing the same agents to conduct
DEA’s drug-related investigations. The DEA stated that its agents, intelligence
analysts, and other personnel are available to the JTTFs when needed.

      The DEA further stated that it has consistently offered or responded to
the FBI’s requests for assistance, and believed that the DEA’s temporary
assignment of personnel to meet specific situations has been adequate. As
evidence of its support, the DEA cited the absence of any examples in the OIG’s
report of unresponsiveness by the DEA to the JTTFs. The DEA also stated that
its Special Coordination Unit meets the needs of the counterterrorism
investigative community by disseminating terrorism-related information to
appropriate organizations outside of the DEA.

        The DEA stated that it recognizes its investigative expertise benefits
counterterrorism efforts, but that the DEA’s available resources must be
balanced against the JTTFs’ requirements. Therefore, the DEA responded that
it will continue to work with the FBI to determine optimal placement of

U.S. Department of Justice                                               318
Office of the Inspector General
Evaluation and Inspections Division
available full-time DEA personnel on JTTFs. However, at JTTF locations where
drugs and terrorism are not linked or the DEA does not have sufficient
resources to devote full-time personnel, the use of DEA liaisons to the JTTFs
will continue.

       The OIG’s Analysis. The OIG believes that the DEA’s “liaison” approach
does not adequately fulfill its long-term obligation to support the Department’s
counterterrorism efforts through active membership on JTTFs.
Notwithstanding the DEA’s stated responsiveness to specific requests for
assistance from the FBI or the Attorney General, the absence of the DEA’s
proactive daily presence on JTTFs is contrary to the Department’s vision for the
task forces. The Department, in its Strategic Plan, views the JTTFs as forums
that integrate law enforcement expertise from Department components and
those of other federal, state, and local agencies. The JTTFs are critical
elements of the Department’s strategy to prevent terrorism and investigate
individuals who have committed, or intend to commit, terrorist acts in the
United States. 107 For prevention, the strategy is to “Multiply preventive efforts
through increased representation in Joint Terrorism Task Forces (JTTFs).” For
investigation, the strategy is to “Utilize regional expertise in terrorism
investigations with the FBI’s Joint Terrorism Task Force.” Both strategies
stress that “JTTF members are force multipliers in the war against terrorism”
and “JTTFs bring the resources of multiple counterterrorism partners under
one roof to investigate potential terrorist activities.”

      The DEA has withdrawn from membership on all but one JTTF. In
contrast, the USMS and ATF have significantly increased their membership
during the same period in keeping with the Department’s anti-terrorism
strategies. Similarly, the Department of Homeland Security has devoted full-
time personnel to serve on JTTFs and other terrorism task forces. Like the
DEA, all these organizations have limited resources, yet they have devoted full-
time resources to the Department’s terrorism task forces. The OIG believes
that the DEA must do the same.

RECOMMENDATIONS

       Recommendation 25: Resolved – Open. The DEA should increase its
full-time membership on the JTTFs and work with the FBI to assess the
optimum locations for new DEA members.

     Summary of the DEA’s Response. The DEA concurred with the
recommendation and stated that “Should the FBI determine that it would be


        107 Strategic Plan, Fiscal Years 2003-2008, U.S. Department of Justice , Goal I, Prevent

Terrorism and Promote the Nation’s Security, pages 2.10, 2.11, 2.14, and 2.15.

U.S. Department of Justice                                                                319
Office of the Inspector General
Evaluation and Inspections Division
appropriate for DEA Special Agents or other personnel be assigned full time to
work at JTTFs, the FBI should notify the DEA of that request, including the
location and number of personnel requested.” The DEA agreed to “carefully
evaluate any specific FBI requests for additional personnel in conjunction with
the affected field offices as to the DEA resources available and the feasibility of
full time assignment at the designated locations.”

      The OIG’s Analysis. The DEA’s planned action to work with the FBI in
determining placement of full-time DEA members on JTTFs is partially
responsive to the recommendation. In its 2003-2008 Strategic Plan, the
Department already has determined that DEA membership on JTTFs is
required. Furthermore, as indicated in our report, the FBI has expressed a
strong desire for the DEA to provide full-time members on the JTTFs. The FBI
stated that DEA’s membership would enhance intelligence sources and
information sharing and ensure that the JTTFs consistently receive timely
information on drug cases with links to terrorism. Liaisons from the DEA, the
FBI told us, are not the same as task force members who work side-by-side
with other JTTF members on cases, providing immediate access to members’
expertise and parent agencies’ databases. The OIG recommends that the DEA
coordinate with the FBI to develop a joint plan to increase DEA full-time
membership on terrorism task forces. We ask the DEA to provide us that joint
plan by August 30, 2005.

      Recommendation 26: Resolved – Open. The DEA should issue
written guidance that defines the roles and responsibilities of its JTTF and
NJTTF members and points of contact.

      Summary of the DEA’s Response. The DEA concurred with the
recommendation and stated that the “DEA will prepare and transmit a teletype
that defines the established role and responsibilities of DEA Special Agents
assigned as full-time members or points-of-contact to the JTTFs and the
NJTTF. Guidance will also be included in the teletype that indicates DEA
Special Agents assigned to JTTF’s [sic] as full-time members or points-of-
contact are responsible for having up to date contact information for other
members of their respective task forces.”

      The OIG’s Analysis. The DEA’s planned action to transmit a teletype
defining the role and responsibilities of DEA task force members and points of
contact is responsive to the recommendation. We believe that prior to
issuance, the DEA should coordinate its teletype with the FBI to ensure that it
adequately reflects the roles and responsibilities of full-time JTTF members.
Please provide us a copy of the teletype by August 30, 2005.




U.S. Department of Justice                                                   320
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX XVIII: THE DEPARTMENT OF HOMELAND
                   SECURITY’S RESPONSE




U.S. Department of Justice                          321
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            322
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            323
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            324
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            325
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            326
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            327
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX XIX: OIG ANALYSIS OF THE DEPARTMENT OF
             HOMELAND SECURITY’S RESPONSE


      The OIG sent copies of the draft report to the Department of Homeland
Security, Immigration and Customs Enforcement (DHS ICE) with a request for
written comments on Recommendation 27, which concerns the DHS but is
directed to the Deputy Attorney General for action. Although the report
addressed issues related to the management and operations of the Department
of Justice’s task forces and advisory councils, a variety of issues regarding the
DHS ICE were implicated by our review. Therefore, the OIG provided the DHS
ICE a copy of the draft report for its review. The DHS ICE responded to the
OIG in a memorandum dated May 18, 2005. The DHS ICE did not state
whether it concurred with Recommendation 27, but provided extensive
comments about its significant resource contributions to the task forces.

GENERAL COMMENTS

      The DHS ICE stated that the draft report highlighted important
coordination issues and other areas where improvements should be made.
However, the DHS ICE expressed concern that the report relied on outdated or
inaccurate information and requested that several areas in the report be
modified to reflect the significant resources provided by the DHS ICE to
support the Department’s terrorism task forces and the related logistical and
financial challenges.

      Mission Statements. The DHS ICE requested that the OIG reword the
mission statements for several DHS ICE components.

     The OIG’s Analysis. The OIG has revised the mission statements for the
DHS ICE agencies using the requested language.

       GAO Report. The DHS ICE requested that the OIG remove excerpts
from a GAO report “Homeland Security: Management Challenges Remain in
Transforming Immigration Programs.” The DHS ICE stated that it has made
significant changes since the GAO issued that report and that the GAO report
did not refer to the DHS ICE’s direction to the DHS ICE JTTF agents.

      The OIG’s Analysis. The GAO report was one source in support of the
OIG’s conclusion that the DHS ICE did not provide DHS ICE JTTF members
with needed direction. Our conclusion was based on interviews with DHS ICE
JTTF agents and supervisors and survey results from randomly selected JTTF
members that included DHS ICE agents.


U.S. Department of Justice                                                 328
Office of the Inspector General
Evaluation and Inspections Division
       The GAO’s findings were based on interviews with officials in CBP, CIS,
and DHS ICE field offices nationwide and included interviews with managers,
supervisory investigators, and investigators in the DHS ICE. The GAO report
assessed the status of three areas within DHS, one being the integration of
immigration and customs investigators in the DHS ICE. Some of the findings
in the GAO’s report included: confusion about roles and responsibilities, lack of
uniform policies and procedures, and inappropriate administrative
assignments. While the GAO report did not specifically address direction to
DHS ICE JTTF agents, the same agents who conduct immigration or customs
investigations serve on the JTTFs. Therefore, the GAO findings have affected
all agents within the DHS ICE field offices, including those DHS ICE agents
assigned to JTTFs.

      DHS stated that it has made significant changes since the GAO report
was issued in October 2004. If true, these changes should aid DHS ICE JTTF
agents. However, we believe that that the report accurately describes the
conditions that existed at the time of our field work.

      Contradictory Guidance to DHS ICE JTTF Members. The DHS ICE
requested that we delete the example of the DHS ICE agent on the St. Louis
JTTF who was pulled off all intelligence cases for 3 months based on an
outdated 1999 MOU prohibiting such casework. The DHS ICE stated that the
incident occurred 2 years ago, was a one-time incident, and should therefore
not be used as an example of contradictory guidance being sent to DHS ICE
JTTF agents. The DHS ICE also stated that it has no record of a June 2003
memorandum forbidding DHS ICE agents from working on intelligence cases.

       The OIG’s Analysis. The report’s St. Louis example was the most vivid of
several examples cited to us by DHS ICE JTTF agents regarding confusion and
lack of direction from DHS ICE management. The example demonstrated the
effect such lack of guidance can have on a DHS ICE agent’s work and the
JTTF’s investigations. The e-mail (not memorandum) in question, written by a
DHS ICE Program Manager, referred to as the JTTF Regional Coordinator
(working title), was sent to two DHS ICE officials on June 4, 2003, with a copy
to the DHS ICE JTTF agents effected. The e-mail was listed as “Priority:
Urgent” and states as follows:

              Date: 6/4/2003
              Sender: [ICE JTTF Regional Coordinator - name omitted]
              To:      [2 ICE NSU/HQ officials – names omitted]
              cc:      [3 JTTF ICE Agents – names omitted]
              Priority: Urgent
              Subject 199 cases



U.S. Department of Justice                                                329
Office of the Inspector General
Evaluation and Inspections Division
               . . . I have personally spoken to JTTF agents/supervisors at St.
               Louis, Kansas City and San Antonio regarding the existing MOU
               between the FBI and us, and bullet point number 3 contained
               therein relative to Intelligence cases (199) . . . . [A]ll have reviewed
               the MOU and indicated that they will make the appropriate
               adjustments in order to fully comply . . . . [A]dditionally, I have
               offered my assistance if any issues arise from the host agency in
               making these adjustments . . . . . 108

               regards

               [initials of ICE JTTF Regional Coordinator omitted]

       While the position of DHS ICE JTTF Regional Coordinator no longer
exists, a DHS ICE employee informed us that all JTTF members in the Central
Region of the country (there were three regions at the time) reported to the DHS
ICE JTTF Central Regional Coordinator who authored the e-mail. The DHS ICE
JTTF member stated, “When the Regional Coordinator sent something, you had
to comply.”

       While the example we cited involved only one agent in one office, the
effect on terrorism investigations can be felt nationwide when an agency
provides confusing and contradictory managerial direction to JTTF members.
This direction from a DHS ICE Regional Manager – sent in writing to DHS ICE
JTTF agents in three states prohibiting their participation on intelligence cases
– was followed by a DHS ICE headquarters executive stating it was never the
agency’s intention to prohibit DHS ICE JTTF agents from participating on
intelligence cases. Further, the citing of this outdated 1999 MOU between the
INS and the FBI also supports the case for updating all JTTF MOUs to reflect
post-September 2001 changes.

       Lack of Cross-Training for DHS ICE in Immigration and Customs
Matters. The DHS ICE stated that the section of the report on cross-training
DHS ICE personnel in immigration and customs matters should be removed
because the August 2004 data is outdated. The DHS ICE has increased its
number of Special Agents and Supervisors who have been cross-trained since
that time.




        108 Bullet point number 3 referred to in the e-mail states as follows: “FBI supervisors

will not assign INS agents to conduct routine FBI intelligence (199) cases.” The bullet point is
from an ICE/INS document titled “Policy Highlights of the [1999] JTTF Memorandum of
Understanding Between the INS and the FBI.”

U.S. Department of Justice                                                                330
Office of the Inspector General
Evaluation and Inspections Division
      The OIG’s Analysis. The OIG has retained this section of the report and
updated the training statistics for DHS ICE agents and supervisors who were
provided cross-training to reflect March 2005 statistics.

      Insufficient DHS ICE Staff Detailed to the JTTFs and the FTTTF.
The DHS ICE requested that this section of the report be reworded to more
accurately reflect the significant support provided by the DHS ICE to the
Department of Justice’s task forces. The DHS ICE stated that most of the
agents in any office would argue that more personnel, resources, and
equipment are needed, but they are not always aware of competing resource
demands. The DHS ICE also stated that there were only five open DHS ICE
JTTF cases at the Omaha ICE Resident Agent-in-Charge’s office, which
indicates that the number of DHS ICE personnel assigned to the Omaha JTTF
is more than sufficient to cover the caseload.

      The DHS ICE also stated that the OIG erred in partially attributing the
increase in DHS ICE JTTF agents to the addition of the Federal Protective
Service (FPS) to DHS ICE because the FPS joined DHS ICE prior to November
2003.

      The DHS ICE stated that the OIG report did not recognize its significant
support to the FTTTF. The DHS ICE stated that the Law Enforcement Support
Center’s (LESC) temporary duty assignments to the FTTTF ended because the
data searches required by the FTTTF can be more efficiently and effectively
conducted by Law Enforcement Technicians from the LESC in Vermont, and
that the FTTTF was informed it could contact the LESC directly for any queries
and investigative support. The DHS ICE further stated that the FTTTF
continues to have 24-hour direct access to all DHS immigration data systems
through the LESC, whose information and turn-around time would be the
same as if the LESC’s Law Enforcement Technicians were onsite at the FTTTF.
Additionally, the DHS ICE summarized the LESC’s accomplishments in
support of the JTTFs and the FBI, and cited the system the DHS ICE provided
recently to the FTTTF that enables FTTTF members to directly access the US-
VISIT and SEVIS databases.

       The OIG’s Analysis. We revised the report to reflect the DHS ICE’s
increased membership on the JTTFs, and have deleted reference to the lack of
support from the LESC. Regarding the increases in the number of DHS ICE
positions on the JTTFs, the OIG report stated that the increase of 110 full-time
and 20 part-time DHS ICE positions to the JTTFs between November 2003 and
October 2004 could be partially attributed to the Federal Air Marshals (58) and
the Federal Protective Service (30) who were already JTTF members at the time
these two agencies were assimilated into the DHS ICE. We obtained this
information directly from DHS ICE. However, the DHS ICE stated that because


U.S. Department of Justice                                                331
Office of the Inspector General
Evaluation and Inspections Division
the Federal Protective Service joined DHS ICE in March 2003, its personnel
should be removed from this figure. The OIG has revised this section of the
report to state that the increase of 130 DHS ICE positions was partially
attributable to 58 Federal Air Marshals who were already JTTF members (then
under TSA) at the time the agency was assimilated into the DHS ICE. Because
the number of JTTFs increased from 86 to 100 JTTFs during this time frame,
the FBI could not verify whether the remainder of the DHS ICE staff increases
(72) resulted from the overall increase in the number of JTTFs or the 138
additional positions requested in the NJTTF’s needs assessment submitted to
the DHS ICE in November 2003.

      Regarding DHS ICE’s statement that the small number of open DHS ICE
JTTF cases in Omaha justifies the number of DHS ICE personnel assigned to
the Omaha JTTF, the number of open cases is not fully reflective of the amount
or type of work that DHS ICE agents perform daily on the JTTFs. Since
information provided during our review indicated that many terrorism cases or
queries have an immigration nexus, we found that DHS ICE agents receive
numerous daily requests for information directed to DHS ICE agents, which
required that they devote hours searching databases, receiving and making
numerous phone calls to obtain information, or interpreting immigration/DHS
ICE regulations and procedures for other task force members. Additionally,
DHS ICE agents may be assigned to interview subjects before a case becomes
“open,” and in some situations may never become “open.”

      Assignment of Non-JTTF Tasks to DHS ICE JTTF Members. The
DHS ICE agreed that all agencies should make reasonable efforts to ensure
that their JTTF members are not assigned non-JTTF tasks, but stated that this
recommendation should be addressed to all agencies participating on the
JTTFs.

      The OIG’s Analysis. While all agencies should make reasonable efforts to
ensure that they do not assign non-JTTF tasks to their JTTF members, only
DHS ICE JTTF members raised that issue during our site visits, which
included interviews with JTTF members from state, local, and other federal
(non-FBI) agencies as well as DHS ICE JTTF members.

RECOMMENDATION

     Recommendation 27: Resolved – Open. The Deputy Attorney General
should work jointly with DHS officials to ensure:

       •   Sufficient DHS participation on the Department’s task forces,
       •   Sufficiently trained DHS ICE members on the task forces and their
           supervisory chain of command,


U.S. Department of Justice                                               332
Office of the Inspector General
Evaluation and Inspections Division
       •   Non-task-force related assignments to DHS members are minimized,
           and
       •   Updated MOUs defining roles and information responsibilities
           between the FBI and DHS.

       Summary of the DHS ICE’s Response. The DHS ICE stated that the
report did not reflect the significant resources it already provided to the JTTFs.
The DHS ICE stated that it is second only to the FBI in terms of the numbers of
its participants on the Department’s task forces and therefore has a significant
interest in ensuring its resources are used in an efficient and effective manner
that contributes to the important mission of the JTTFs. The DHS ICE has
personnel assigned to other FBI terrorism task forces, such as the FTTTF,
ITOS, TFOS, and NJTTF as well as personnel assigned to the CIA. The DHS
ICE stated that the FBI has declined to assign any personnel to DHS ICE
counterterrorism or intelligence units at DHS ICE headquarters. The DHS ICE
also stated that it has increased its presence at CBP’s National Targeting
Center by a factor of four allowing DHS ICE to be operational 24 hours a day, 7
days a week to address terrorist-related lookouts and other issues. The DHS
ICE reported that as a result of its partnership with the National Targeting
Center, DHS ICE JTTF agents responded over 935 times to various ports of
entry to interview and take appropriate action to persons arriving at ports who
were matches or potential matches to those listed on the national terrorist
watch list.

       The DHS ICE stated that JTTFs have expanded to more than 100
locations in a short period of time and some are in remote locations where DHS
ICE may not have an established office and where the workload would not
support a full-time DHS ICE position.

      The OIG’s Analysis. The OIG has revised the DHS section of the report to
include updated information about ICE’s participation on the JTTFs. However,
at almost every field site visited, DHS ICE employees raised ICE managerial
issues that they believed affected their efficiency or effectiveness on the task
force

       The DHS ICE stated that the report cited only anecdotal comments from
task force agents regarding the need for additional DHS ICE staff. However,
FBI field supervisors and managers and officials at FBI headquarters also cited
the need for additional DHS support on the task forces. This information from
interviews also was supported by survey responses of randomly selected JTTF
members nationwide, who indicated that more task force members with
immigration and customs expertise are needed. From our analysis of the
qualitative data from our interviews and survey, we concluded that the DHS



U.S. Department of Justice                                                 333
Office of the Inspector General
Evaluation and Inspections Division
ICE should increase its membership on the JTTFs with personnel cross-trained
in immigration and customs matters.

      Additionally, as stated in the report, at the request of DHS, the NJTTF
conducted a critical needs assessment of staffing by querying the JTTF field
supervisors on how many DHS ICE agents were needed on each JTTF. The
results showed 159 full-time and 22 part-time DHS ICE agents on 86 JTTFs in
November 2003, and that JTTF supervisors requested an additional 138 full-
time DHS ICE agents – a proposed increase of approximately 45 percent. As of
October 2004, the number of JTTFs had increased to 100 and DHS ICE JTTF
task force members had increased by 110 full-time and 20 part-time members.
When we interviewed DHS ICE officials, they informed us that they had
requested an analysis of DHS ICE’s participation on the terrorism task forces
to determine where and how many personnel were assigned and where the
DHS ICE will gain the most benefit.

       Although the DHS did not state whether it concurred with the
recommendation, it is considered “Resolved – Open” since the recommendation
is directed to the Deputy Attorney General to work jointly with DHS officials to
ensure that the intent of this recommendation is carried out. The Deputy
Attorney General, in his response, stated, “. . . as DHS and we jointly
undertake to implement and execute the National Response Plan and other
related Homeland Security policies and programs, we will work with our
colleagues at DHS to ensure effective participation of DHS components on the
JTTFs.”




U.S. Department of Justice                                                334
Office of the Inspector General
Evaluation and Inspections Division
